<html>
<title> - INVESTIGATION INTO ABDUCTIONS OF AMERICAN CHILDREN TO SAUDI ARABIA</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
   INVESTIGATION INTO ABDUCTIONS OF AMERICAN CHILDREN TO SAUDI ARABIA
=======================================================================


                                HEARINGS

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

         JUNE 12; OCTOBER 2 AND 3; AND DECEMBER 4 AND 11, 2002

                               __________

                           Serial No. 107-83

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                ________

                           U.S. GOVERNMENT PRINTING OFFICE
80-882                         WASHINGTON : 2003
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIAN E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Tennessee            BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                  David A. Kass, Deputy Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    June 12, 2002................................................     1
    October 2, 2002..............................................   389
    October 3, 2002..............................................   709
    December 4, 2002.............................................  1249
    December 11, 2002............................................  1473
Statement of:
    Horan, Hume, former U.S. Ambassador to Saudi Arabia (1987-
      88); Daniel Pipes, director, Middle East Form; Doug Bandow, 
      senior fellow, Cato Institute; Dianne Andruch, Deputy 
      Assistant Secretary for Overseas Citizen Services, 
      Department of State; and Ryan Crocker, Deputy Assistant 
      Secretary for Near Eastern Affairs, Department of State....   141
    Mabus, Raymond, former U.S. Ambassador to Saudi Arabia; Ryan 
      Crocker, Deputy Assistant Secretary of State, Bureau of 
      Near Eastern Affairs; and Dianne Andruch, Deputy Assistant 
      Secretary of State, Bureau of Consular Affairs.............   775
    McClain, Margaret, mother of Heidi Al-Omary; Patricia Roush, 
      mother of Alia and Aisha Gheshayan; Michael Petruzzello, 
      Qorvis Communications; Jack Deschauer, Patton Boggs LLP; 
      James P. Gallagher, the Gallagher Group; Mort Rosenberg, 
      Congressional Research Service; and Maureen Mahoney, Latham 
      & Watkins..................................................  1495
    Petruzzello, Michael, managing partner, Qorvis 
      Communications, public relations firm for the Government of 
      Saudi Arabia; Michael Rives, father of Lilly and Sami 
      Rives; Maureen Dabbagh, mother of Nadia Dabbagh; Margaret 
      McClain, mother of Heidi Al-Omary; and Joanna Stephenson 
      Tonetti, mother of Rosemary, Sarah, and Abdulaziz Al-Arifi.   719
    Roush, Pat, mother of Alia and Aisha Gheshayan...............   816
    Roush, Patricia, mother of Alia and Aisha Gheshayan; Dria 
      Davis, accompanied by her mother, Miriam Hernandez-Davis; 
      and Ethel Stowers, mother of Monica Stowers, and 
      grandmother of Rasheed and Amjad Radwan....................    41
    Roush, Patricia, mother of Alia and Aisha Gheshayan; Margaret 
      McClain, mother of Heidi Al-Omary; Michael Petruzzello, 
      Qorvis Communications; Jack Deschauer, Patton Boggs LLP; 
      Jamie Gallagher, the Gallagher Group; and Eileen Denza, 
      visiting professor of law, University College London.......  1285
    Seramur, Samiah, accompanied by her daughter, Maha Al-
      Rehaili; and Debra Docekal, accompanied by her son, Ramie 
      Basrawi....................................................   412
    Tonetti, Joanna Stephenson, mother of Rosemary, Sarah, and 
      Abdulaziz Al-Arifi; Margaret McClain, mother of Heide Al-
      Omary; Maureen Dabbagh, mother of Nadia Dabbagh; and 
      Michael Rives, father of Lilly and Sami Rives..............   427
Letters, statements, etc., submitted for the record by:
    Bandow, Doug, senior fellow, Cato Institute, prepared 
      statement of...............................................   157
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana:
        Exhibit 11...............................................  1588
        Exhibit 12...............................................   121
        Exhibit 18...............................................  1593
        Exhibit 23...............................................   126
        Exhibit 25...............................................  1581
        Exhibit 27...............................................  1599
        Letter dated December 10, 2002...........................  1612
        Prepared statements of..................6, 397, 714, 1258, 1480
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................    30
    Crocker, Ryan, Deputy Assistant Secretary for Near Eastern 
      Affairs, Department of State, prepared statements of.....166, 779
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statements of.......22, 409, 1666
    Dabbagh, Maureen, mother of Nadia Dabbagh, prepared statement 
      of.........................................................   475
    Davis, Dria:
        Phone call transcript....................................   111
        Prepared statement of....................................   113
    Deschauer, Jack, Patton Boggs LLP; James P. Gallagher, the 
      Gallagher Group, prepared statements of................1508, 1516
    Hernandez-Davis, Miriam, mother of Dria Davis, prepared 
      statement of...............................................   104
    Lincoln, Hon. Blanche, a Senator in Congress from the State 
      of Arkansas, prepared statement of.........................  1266
    Mahoney, Maureen, Latham & Watkins, prepared statement of....  1548
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York:
        Article dated March 15, 2002.............................    36
        Article dated December 4, 2002...........................  1274
        Prepared statement of....................................  1277
    McClain, Margaret, mother of Heide Al-Omary:
    Exhibits.....................................................   822
    Prepared statements of..............................442, 1318, 1498
    Morella, Hon. Constance A., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    39
    Ose, Hon. Doug, a Representative in Congress from the State 
      of California:
        Exhibit 18...............................................   129
        Exhibit 21...............................................   132
        Prepared statement of....................................    20
    Pipes, Daniel, director, Middle East Form, prepared statement 
      of.........................................................   146
    Petruzzello, Michael, managing partner, Qorvis 
      Communications, public relations firm for the Government of 
      Saudi Arabia, prepared statement of........................   721
    Rives, Michael, father of Lilly and Sami Rives, prepared 
      statement of...............................................   466
    Rosenberg, Mort, Congressional Research Service, prepared 
      statement of...............................................  1521
    Roush, Patricia, mother of Alia and Aisha Gheshayan, prepared 
      statements of............................................48, 1295
    Schrock, Hon. Edward L., a Representative in Congress from 
      the State of Virginia, Wall Street Journal article dated 
      December 21, 2001..........................................    25
    Seramur, Samiah:
    Exhibits.....................................................  1016
    Prepared statement of........................................   414
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, exhibit 4........................   197
    Stowers, Ethel, mother of Monica Stowers, and grandmother of 
      Rasheed and Amjad Radwan, prepared statement of............    86
    Tonetti, Joanna Stephenson, mother of Rosemary, Sarah, and 
      Abdulaziz Al-Arifi, prepared statement of..................   430
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, prepared statement of...................   205
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................   404
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................    14














  SHOULD THE UNITED STATES DO MORE TO HELP U.S. CITIZENS HELD AGAINST 
                      THEIR WILL IN SAUDI ARABIA?

                              ----------                              


                        WEDNESDAY, JUNE 12, 2002

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:06 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Gilman, Morella, Shays, 
Mr. Davis of Virginia, Ose, Mrs. Jo Ann Davis of Virginia, 
Weldon, Schrock, Duncan, Sullivan, Waxman, Maloney, Norton, 
Cummings, Tierney, Schakowsky, and Clay.
    Staff present: Kevin Binger, staff director; James C. 
Wilson, chief counsel; David A. Kass, deputy chief counsel; S. 
Elizabeth Clay and Caroline Katzin, professional staff members; 
Allyson Blandford, staff assistant; Robert A. Briggs, chief 
clerk; Robin Butler, office manager; Elizabeth Crane, deputy 
communications director; Joshua E. Gillespie, deputy chief 
clerk; Nicholis Mutton, assistant to chief counsel; Leneal 
Scott, computer systems manager; Corinne Zaccagnini, systems 
administrator; David Rapallo, minority counsel; Ellen Rayner, 
minority chief clerk; and Jean Gosa and Earley Green, minority 
assistant clerks.
    Mr. Burton. If everybody will take their seats. Good 
morning. A quorum being present, the Committee on Government 
Reform will come to order. I ask unanimous consent that all 
Members and witnesses written and opening statements be 
included in the record. Without objection, so ordered. I ask 
unanimous consent to include in the record a letter to the 
committee from former Ambassador Raymond Mabus, and without 
objection, so ordered.
    I ask unanimous consent that all the written questions 
submitted to witnesses and answers provided by witnesses after 
the conclusion of this hearing be included in the record. 
Without objection so ordered. I ask unanimous consent that a 
set of exhibits relating to this hearing, which have been 
shared with the minority staff prior to the hearing be included 
in the record and without objection so ordered.
    Mr. Waxman. Mr. Chairman.
    Mr. Burton. Yes, sir.
    Mr. Waxman. May I just make a request. There are some 
exhibits that have been furnished to us and we don't think 
we're going to have any objection to making it a part of the 
record, but we would like to have a chance to review them 
because we haven't had a chance at the staff level. So if you 
can just withhold those requests until the end of this hearing, 
we'll get an answer to you.
    Mr. Burton. OK. That is fine. I ask unanimous consent that 
all articles, exhibits and extraneous or tabular material 
referred to be included in the record, and without objection, 
so ordered.
    What is happening in the Middle East right now is 
critically important. We have strategic interests. We have 
economic interests, and we have military interests. So it is 
imperative that we win the war on terrorism, and to do that, we 
have to have strong allies in that region. We need access to 
airfields and military bases there. It is also imperative that 
we preserve the flow of oil from the Middle East. We get about 
55, 56 percent of our oil from that area. Our economy depends 
on that stable supply of oil and that can't be ignored. Our 
commitment to Israel's security is another important strategic 
interest. It's a commitment that we must keep. Managing our 
relationships in the Middle East is one of the most difficult 
challenges faced by every administration. It has been a problem 
for every President and every Secretary of State since World 
War II.
    With all of these massive strategic interests hanging in 
the balance, it is no wonder that sometimes the problems of 
average everyday people get swept aside. Humphrey Bogart once 
said, and I usually don't quote movies in this hearing, but 
this is one of my favorite movies, Casa Blanca. Humphrey Bogart 
once said, ``the problems of two little people don't amount to 
a hill of beans in this world.'' Great statement.
    Sometimes that is just the way it is, and there is nothing 
you can do about it, but there are also times when we have to 
set aside all of those big global issues and do the right thing 
by the people we're elected to serve. There are times when 
someone has to say, time out. Let us stop and take a good hard 
look at what we're doing. And that is the purpose of this 
hearing. We need to take a time-out and take a hard look, a 
good hard look at our relationship with Saudi Arabia. The 
specific problem that I'm talking about is that Saudi men who 
kidnap their American children and take them away to Saudi 
Arabia must be taken to task.
    We've seen cases where three men have violated court 
orders, taken their children away against their will and kept 
them away from their mothers for years, if not decades. Despite 
the fact that arrest warrants have been issued for some 
kidnaps, the Saudi Government has refused to lift a finger to 
help us solve these cases. In fact, the Saudi Government has 
created a safe haven for these child abductors in a country 
where women and children are treated like property. Maybe the 
saddest thing of all is that our government, our State 
Department, has done very little to help bring these children 
home. And one of the cases we're going to talk about today, a 
mother went to the U.S. Embassy in Riyadh.
    After her two children, she was trying to rescue them from 
their abusive father. And the Embassy kicked them out and after 
she was kicked out, she was arrested and put into prison in 
Saudi Arabia. I don't understand that.
    One of the reasons I decided to hold this hearing is that I 
was so appalled at the lack of effort we've made to take the 
Saudis to task for letting these things happen. We have a lot 
at stake with Saudi Arabia. We need their cooperation. But at 
what price? If we're not willing to stand up and fight for 
American citizens whose children have been kidnapped, then what 
kind of priorities do we have?
    Today we're going to hear the stories of three mothers who 
had their children snatched away from them. Three things stand 
out in each of these stories: One, the brutal treatment of 
women in Saudi Arabia; two, the incredible courage of these 
women who did everything they could to rescue their children; 
and three, the total lack of effort by our State Department to 
challenge the Saudi Government.
    These stories are also powerful, that I'd like to talk 
about each one of them in detail. But I'm not going to do that, 
because I can't tell their stories nearly as well as they can. 
But I do want to mention a few key facts. Pat Roush has been 
living this nightmare for 16 years. In those 16 years, she has 
seen her two daughters one time for 2 hours. Her ex-husband 
came to the United States in 1986, kidnapped their two young 
daughters in violation of a court custody order and took them 
to Saudi Arabia. An arrest warrant was issued here in the 
United States, but the Saudi Government did absolutely nothing.
    The year before that when Pat went to Saudi Arabia to try 
to salvage their marriage, her husband beat her so badly that 
two of her ribs were broken, and the Saudi police didn't do 
anything then either.
    Over the last 16 years, U.S. Ambassadors have come and gone 
in Riyadh. Some have tried to help and some have not, but it is 
clear that the Saudis were never told by senior officials that 
this was a problem that was going to affect the relationship 
between our two countries. In 1986, the U.S. Ambassador was 
told by his boss that he had to maintain impartiality in the 
Roush case. Why? Pat Roush's husband broke the law. An arrest 
warrant was issued. Why should we maintain impartiality? To me 
that attitude goes right to the heart of this problem.
    Ambassador Mabus deserves special credit in this case. In 
1996 he started a new policy. No one from this man's family was 
allowed to get a visa to come to the United States. This was a 
big influential family. When they couldn't get visas to come to 
the United States, it caused a big problem for them.
    Unfortunately, after a year, Ambassador Mabus returned to 
the United States and his policy was discontinued. If this 
policy had been kept in place, it might very well have put the 
pressure on them to return these children to their mother. I'm 
very disappointed that didn't happen. We were told just this 
week that Pat's youngest daughter, Aisha, who is now 19, was 
recently forced into a marriage with a Saudi man. Pat's older 
daughter, Alia, was forced to marry one of her cousins a year 
ago.
    Now, let me say a few words about Monica Stowers. In 1985 
she went to Saudi Arabia with her husband and two young 
children. When she arrived, she realized for the first time 
that her husband had a second wife and another child. She 
didn't know about that. Their marriage fell apart after 6 
months. Her husband divorced her and had her deported without 
her children.
    In 1990, Monica heard that her ex-husband was abusing her 
children. She went back to Saudi Arabia. She took her children 
and went to the U.S. Embassy to ask for help. Did they put her 
on the next plane to America? No. At the end of the day, they 
told Monica that she had to leave the Embassy. She pleaded with 
them not to kick her out. She told them that she would be 
arrested for overstaying her visa, but the consul general had 
the marine guards carry them out. Sure enough, she was arrested 
and put in jail and her children were taken from her once 
again.
    Can you imagine that, an American citizen is in a crisis, a 
mother and her young children, and the Embassy staff tell their 
Marines to drag them out of the Embassy so they can be 
arrested? That actually happened. Monica is not here today. For 
most of the last 12 years, she has stayed in Saudi Arabia to 
protect her children. She can leave any time she wants, but her 
husband refuses to allow their daughter to go. Her ex-husband 
tried to force her daughter into a marriage when she was only 
12 years old, and Monica will not abandon her. While Monica 
can't be here to testify, her mother Ethel Stowers is here to 
speak on her behalf and we're very glad to have her here.
    The third story we're going to hear about today is about 
Miriam Hernandez-Davis and her daughter, Dria. They're both 
here to testify today. The reason they can both be here today 
is not because anybody in the U.S. Government came to their 
rescue. The reason that Miriam's daughter is here today is that 
Miriam was able to scrape together $180,000 to pay two men to 
smuggle Dria out of Saudi Arabia.
    Even though Miriam's husband kidnapped her daughter in 1997 
and even though the FBI issued an international warrant for his 
arrest, she got almost no help from the State Department or our 
Embassy.
    The courage of these women, Pat Roush, Monica Stowers and 
Miriam Hernandez, and their kids, is just incredible to me. 
You've all endured terrible pain as a result of what has 
happened, and it is a real honor to have all of you here today.
    These are not isolated incidents. These are three examples 
of a much bigger problem. The State Department has a list of 46 
recent cases involving as many as 92 U.S. citizens who have 
been held against their will in Saudi Arabia. The route cause 
of this problem is the Saudi Government. They have refused to 
respect U.S. law and U.S. arrest warrants. The law in Saudi 
Arabia lets Saudi men keep American women and children in Saudi 
Arabia even when they are in violation of court orders, even 
when arrest warrants have been issued and even when they have 
abused their wives and their children, and that is just wrong.
    We can't let this go on. Our relationship with Saudi Arabia 
is important, but this just can't be allowed to continue. The 
only way we're going to resolve this problem and get these kids 
home again is by elevating this issue, letting the American 
people and people throughout the world know about it. This has 
to be raised with the Saudis at the highest levels. The Saudis 
have to be made to understand that if they let this go on, 
their relationship with us is going to suffer, and I don't 
think that has happened yet.
    I am preparing a letter to the President, and I'm going to 
ask all of my colleagues on the committee to sign it. We're 
going to ask the President to raise this issue with Crown 
Prince Abdullah to try to get it resolved.
    Just a couple months ago, President Bush raised the case of 
Lori Berenson with the President of Peru. Lori Berenson was 
twice convicted of terrorist activities in that country. Surely 
the Roush family and the Stowers family deserve at least as 
much. We in Congress have to do our part as well. We've got to 
continue to hold hearings like this and write letters and do 
whatever we can to keep the pressure on.
    My colleague, Mr. Lantos, who I'm sure will be here in a 
few moments, held hearings and had Pat Roush testify way back 
in 1987, 15 years ago. He deserves a lot of credit for 
constantly pushing human rights issues, and we all need to keep 
doing it. I want to thank Pat Roush and Ethel Stowers and 
Miriam and Dria Hernandez for being here today, and I want to 
tell you how much I really admire you and your tenacity.
    I also want to thank our witnesses on the second panel, 
Diane Andruch and Ryan Crocker from the State Department; 
former U.S. Ambassador Hume Horan; Daniel Pipes from the Middle 
East Form; and Doug Bandow from the Cato Institute. We look 
forward to hearing from all of you as well.
    One final issue. More than 2 months ago, I wrote the State 
Department and requested documents on these three cases. 
Getting those documents has been very difficult and painfully 
slow. There is a stack of documents several feet high that are 
still in the Embassy in Riyadh. They haven't even been sent to 
Washington yet. We received some documents from the State 
Department here in Washington, but they still have documents 
here that haven't been provided to us. And these documents that 
we have received have redactions. They crossed things out that 
simply aren't acceptable. We need that information. I think the 
legislative affairs office at the State Department has been 
trying hard to get these documents, and I appreciate that, but 
the bureaucracy at the State Department is so bad that 2 months 
have gone by and we only have a small fraction of the documents 
in these cases.
    [The prepared statement of Hon. Dan Burton follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Burton. I'm going to issue a subpoena today to make 
sure all of these documents are produced to us, and without 
redactions. And with that, Mr. Waxman, thanks for being patient 
and I yield to you.
    Mr. Waxman. Thank you, Mr. Chairman, for calling this 
hearing. I think it is an important one, and I want to commend 
you for bringing the witnesses before us today. The United 
States and Saudi Arabia have sharply different values. We are a 
pluralistic democracy. They are a monarchy without elected 
representative, institutions or political parties. We embrace 
religious freedom. They rule through religious police. 
Economically, diplomatically and socially, the Saudi Arabian 
Government has long promoted policies that challenge American 
beliefs and undermine the basic human rights of their own 
people. And as this hearing will show, even some of our people.
    In no area are these distinctions more important than in 
the treatment of women. Although women in Saudi Arabia make up 
half the population, they can't vote. They can't even drive 
cars. They are entirely excluded from certain professions and 
they are required to be shrouded in a black abaya when they 
appear in public. Saudi women cannot apply for identity cards, 
receive medical treatment or leave the country without 
permission from their nearest male relative.
    In many areas of the country, women cannot even leave their 
homes without being escorted by a male relative. The injustice 
of such discrimination is only exacerbated by the serious cases 
of abuse that it facilitates.
    Today, the committee will learn the devastating impact 
these misguided policies have had on American women who have 
been trapped in Saudi Arabia by fathers and husbands, who have 
used these laws to refuse their release.
    We will hear today from Alexandria Davis, who was kidnapped 
by her father when she was 11 years old and forced to live in 
Saudi Arabia for 2 years. We will hear from Pat Roush, who has 
been fighting for 16 years to get her daughters back after they 
were kidnapped by their father and taken to Saudi Arabia. We 
will also hear from Ethel Stowers, who will tell us about her 
daughter, Monica's efforts, to get her children Rasheed and 
Amjad out of Saudi Arabia. Their stories are chilling, and 
their tragedy is compounded by the fact that there are dozens 
of other American families facing a similar situation. The U.S. 
Government must do more to intervene on behalf of its citizens. 
We must hold the Saudi Government accountable for these 
irresponsible policies that are shielding kidnappers, abusive 
fathers and husbands from prosecution.
    Mr. Chairman, I know we're going to hear from people who 
will say there are marital problems whenever you have marriages 
from parties from different nationalities. Well, most countries 
abide by international agreements that don't let one parent or 
the other just simply kidnap the children. Saudi Arabia is not 
willing to abide by these international agreements and to enter 
into the treaties with us and other countries. We will hear 
that this is their own internal decisionmaking in Saudi Arabia, 
and it is not our business to tell them how to run their 
affairs.
    Perhaps that is true, but the United States is fighting in 
Afghanistan at the present time to--and we fought in part to 
bring down a regime that discriminated against women. In fact, 
First Lady Laura Bush commended the fact that in Afghanistan, 
women were not going to be oppressed any longer. Well, we need 
the First Lady and the American Government to stand up for the 
human right of women all over the world, and in Saudi Arabia, 
the problems we're seeing with American citizens are compounded 
by the Saudi treatment of women as chattel, as property and not 
as human beings.
    I think we have to speak out for human rights for all 
people wherever they may be, but we certainly have to go to bat 
for our American citizens who are being treated in the most 
inhumane way when it comes to holding their families together. 
If we are pro-human rights, if we are profamily, the U.S. 
Government needs to do more and I thank you very much for 
holding this hearing.
    Mr. Burton. Thank you, Mr. Waxman.
    [The prepared statement of Hon. Henry A. Waxman follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Burton. Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman. I want to thank you 
for conducting this important hearing. In the aftermath of 
September 11th, President Bush offered a potent challenge to 
world leaders that exhibited a dose of moral clarity that is 
too often absent from diplomatic discourse between our Nation 
and its foes and allies alike. And the President said, ``you 
are either with us or against us.''
    The President's statement represented a moment of truth not 
only for the leaders of the world, but for the future course of 
our foreign policy. While continuing to pursue our national 
interest in conjunction with our close allies, our Nation can 
no longer afford to ignore the often tremendous gulf between 
our values and those of our allies in the war on terrorism. It 
was also vividly illustrated in the hearing that I presided 
over in the Subcommittee on the Middle East and South Asia and 
our International Relations Committee on June 22, entitled, 
``the Future of U.S.-Saudi Relations.'' The U.S.-Saudi 
relationship has always been a complex one, grounded in common 
interests stemming from the geopolitical realities of the 
Persian Gulf region. However, if we're to remain true to the 
words of our President, we must no longer avoid the conclusion 
that American and Saudi values are often at odds. It may be 
prudent to ask what it is about the values of the Saudi 
Government has imparted to their citizens that gives rise to 
support for the ideologies undergirding terrorism. To 
understand this phenomenon most accurately, it is essential to 
consider Saudi's denial of political, of civil and religious 
rights to its own population. The lack of transparency in its 
justice system, and its poor human rights record. Not only do 
Saudis suffer at the hands of their own government, but so do 
American citizens in Saudi Arabia as well, and our government 
has done much too little to address this problem until now.
    We're here today to examine whether our Nation should do 
more to help our citizens who have been held against their will 
in Saudi Arabia. This hearing is particularly relevant to us 
today. If we shy away from addressing this issue directly with 
the Saudi authorities, as issue that centers around something 
as fundamental as the rights of American citizens, we'll not be 
able to handle the even more difficult issues at the core of 
our war against terrorism, when American and Saudi interests 
come into conflict--as they undoubtedly will.
    Our government must do much more to ensure the rights of 
our American citizens who happen to be in Saudi Arabia. We've 
consistently failed to hold these Saudi authorities accountable 
for their own laws which result in blatant infringements upon 
the rights of American nationals. As the testimony today will 
illustrate, American citizens are being held against their will 
in Saudi Arabia, and often in violation of our laws against 
child abductions. Even if our legal standards are not 
recognized by the Saudi authorities, it is essential that our 
diplomatic engagement with Saudi Arabia reflect a genuine 
concern for the welfare of our citizens who happen to be held 
in Saudi Arabia.
    Why is it that until now our government has failed to apply 
sufficient diplomatic pressure on their Saudi counterparts to 
ensure the release of our Americans? As Members of Congress, it 
should be our primary goal to defend the rights of American 
citizens whether they be in the United States or abroad, 
demanding an effective and unapologetic response to those 
Nations that seek to deny these rights.
    Mr. Chairman, may this hearing serve as a wakeup call to 
those who seek to downplay the harm to our citizens. May it 
highlight the results of our Nation's failure, our 
unwillingness to address difficulties in our U.S.-Saudi 
relationship. If, as the President said, states are either with 
us or against us in our war on terrorism, it is essential, too, 
that we hold to account even our allies for their divergence 
from the clear moral path that has been so clearly laid before 
us. Terrorism and the propagation of hatred must be condemned 
at all levels, and basic human rights must be observed if our 
mission to rid the world of evil terrorist ideologies is to be 
true to its goals. Most importantly, we must be prepared to 
address all of the difficult issues in our relationships with 
the Saudis if we're truly able to count Saudi Arabia as an ally 
in our war against terrorism, and to this end, our Nation must 
ensure that the rights of our citizens in Saudi are guaranteed.
    I look forward to hearing from the parents who are willing 
to come before our committee today and to examine their 
testimony, and then we look forward to hearing from the 
administration officials with regard to their response. Thank 
you, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Gilman.
    Ms. Schakowsky.
    Ms. Schakowsky. Mr. Chairman, I thank you so much for 
convening this hearing, and I thank these witnesses so much for 
their courage and their persistence in coming forward today. I 
want to say to you, I know this hearing is about you. We do 
want to hear from you, but it is important that all of us who 
are speaking now are supporting you and saying very publicly 
that we support your efforts and that we cried when this 
happened to you. So I also thank you for your patience in 
listening to our statements.
    Year after year, the U.S. Government has reported severe 
human rights abuse against women in Saudi Arabia, and some of 
these abuses have even been experienced by the U.S. citizens. 
The State Department's country reports on human rights 
practices stated that in Saudi Arabia, ``women of many 
nationalities were detained for actions such as riding in a 
taxi with a man who was not their relative, appearing with 
their heads uncovered in shopping malls and eating in 
restaurants with males who were not their relatives. Many such 
prisoners were held for days, sometimes weeks, without 
officials notifying their families or in case of foreigners, 
their Embassies.'' I am a strong supporter of defending women's 
rights in Afghanistan, and I'm proud to say that these rights 
are finally being recognized. The women there are currently 
involved in the decisionmaking process to help shape the new 
Government of Afghanistan, to make sure that women of 
Afghanistan will never again be treated like second-class 
citizens. If such change can happen in a war-torn country like 
Afghanistan, it baffles me that Saudi Arabia refuses to reform 
its laws on women's rights and join the rest of the world in 
the 21st century.
    What has happened to Ms. Roush, Ms. Stowers, Ms. Davis and 
her mother is a tragedy. These women have been physically and 
emotionally battered and have had their children stolen by 
their husbands. I'm aware that under Saudi law, the husband has 
complete control over his wife and children, deciding on how 
they live, whom they see and even when they are allowed to 
leave the country. We simply cannot ignore these violations 
against the basic rights of both Saudi and American women.
    The Saudi Government has been an ally of the United States 
for a number of years, but we must give the cases of these 
women and others the attention they deserve. I understand that 
according to the Department of State, we are very limited in 
what we can do to force the Saudi Government to allow these 
women to leave with their children. However, this is not an 
excuse to ignore the situation and do everything we can. I'm 
eager to hear from the witnesses that are with us today, and I 
look forward to working toward a solution that will be in the 
best interest of the children and families involved in these 
and all similar cases. Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Ms. Schakowsky.
    Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman. I don't have a long 
statement. I want to welcome Ms. Roush to the witness table 
today. I came to this hearing today having read the testimony--
I would like to find in the course of our hearing today the 
name, the person who told the Marines to take American citizens 
out of the American Embassy and place them outside of where 
they could be arrested. I want the name of that person. Mr. 
Chairman, I will be back to you with requests for subpoenas to 
have these people come to our committee and explain their 
actions in light of the consequences that they knew would occur 
when these people were removed from the Embassy, having shown 
valid American passports to have the American authorities 
forcibly remove American citizens from American soil in this 
manner.
    I have to tell you, I stayed up late last night wondering 
why in blazes did I come to Congress? Why did I come to 
Congress? Did I come to Congress so some bureaucrat could take 
American citizens, refuse to help them, evict them from an 
American Embassy, from American soil, knowing that the 
consequence of doing that would be their arrest and the loss of 
their children?
    I have to tell you, Ms. Roush and I have spoken before. I 
have communicated with the State Department for the past few 
years about her case in particular. A woman named Mary Ryan, 
who is the Assistant Secretary of something or another having 
to do with the Near East. These are American citizens. Now, if 
we can send our young people over to the Middle East to protect 
them from Saddam Hussein or whatever, or if we can send them to 
Afghanistan to establish the rights of the people of 
Afghanistan, then we can darn well take the time to bring in 
front of this body and in front of this committee the people 
who are making the decisions that say, well, no, you're less--
you don't even have the rights of an American convicted of a 
crime in these countries. So at the risk of belaboring the 
subject, I'm going to stop, Mr. Chairman, but I'm
coming back, and we're going to find these names and I'm going 
to ask you to bring those people in front of this committee. 
Because they need to tell the American people what happened, 
why they did this. This is unbelievable. I yield back.
    [The prepared statement of Hon. Doug Ose follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Burton. I can assure you that the subpoena that we're 
going to be issuing right after this hearing will cover all of 
these documents, and we will get the names of those people, and 
I'll certainly let you know as soon as I get all that 
information.
    Mr. Cummings.
    Mr. Cummings. Thank you very much. Mr. Chairman, today we 
meet to bring attention and focus on the problem of American 
children who live with their Saudi fathers and who, because of 
Saudi law, are not free to leave Saudi Arabia. These cases 
predominantly involve fathers who abduct children and take them 
into Saudi Arabia in order to take advantage of a legal system 
that gives mothers, especially nonMuslim mothers, few rights.
    Specifically, we need to determine if the U.S. Government 
has done enough to aid U.S. citizens who have been held against 
their will in Saudi Arabia. Many of our U.S. citizens like the 
witnesses before our committee today, have tried unsuccessfully 
to get their children back from Saudi Arabia by going through 
the State Department, by employing Saudi lawyers and by working 
with the U.S. Congress. My heart goes out to them. The State 
Department has treated these cases as custody dispute issues.
    However, the real question becomes which country's law has 
the domain over such custody disputes? Will it be American laws 
or Saudi law in customs? I agree with former Ambassador Raymond 
Mabus, when he stated in a letter to this committee that the 
Roush case and the similar cases should be about protecting 
American citizens and the court orders of American courts. Many 
have said the United States has failed to uphold the American 
and international abduction or kidnapping laws. It has been 
argued that cases such as the ones before us are merely child 
custody issues. While that is true, these cases should also be 
considered as parental kidnapping or child abduction cases.
    This morning I saw a report about the subject of today's 
hearing on one of the morning talk programs. I believe that 
shining the spotlight on parental abductions of American 
children to Saudi Arabia by this committee and the media will 
bring this issue to the forefront and persuade the State 
Department to reevaluate its policies. I look forward to 
hearing from today's witnesses who will present their stories 
about trying to get their children out of Saudi Arabia. Thank 
you again, Mr. Chairman, for shining the spotlight on this 
issue and I yield back.
    Mr. Burton. Thank you, Mr. Cummings.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Burton. Mr. Schrock.
    Mr. Schrock. Thank you, Mr. Chairman. I agree with 
everything everybody said here, especially Mr. Ose. I couldn't 
have said it better. I'd probably have made a fool of myself if 
I'd said it, because this sort of thing really angers me. I am 
here mainly because of the article the chairman sent us 
yesterday that appeared in the Wall Street Journal on December 
21st about Ms. Roush and her two daughters, and I was 
absolutely outraged that this is allowed to happen and 
continues to be allowed to happen.
    [The information referred to follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Schrock. I'm anxious to hear what these four ladies 
have to say, but I'm particularly interested in hearing the 
next panel. They are the ones whose feet need to be put in the 
fire and held in the fire until they do something about it. You 
know, the Crown Prince of Saudi Arabia doesn't mind coming sit 
in the Oval Office telling our President what he wants him to 
do. I think it's maybe time for the man in the Oval Office to 
call him and say we want our kids back and we want them back 
right now. And I think the sooner we do that, the sooner these 
subpoenas are done--I just hope this committee doesn't adjourn 
today and just ignore this, because although I've only been 
here 17 months, I don't want to come back in 4 or 5 years and 
have these same witnesses appearing before us.
    We need to get something done and get it done right now. 
This is unacceptable and our State Department better get off 
the dime and get something done before this gets even worse, or 
somebody is going to have to be held accountable, and it is us 
here who have to do that. Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Schrock.
    Ms. Norton.
    Ms. Norton. May I begin by thanking you, Mr. Chairman, for 
wonderful leadership and making the American people and the 
Congress understand that this is a problem and that this is a 
problem that we can do something about. It is a problem that 
occasionally one hears some interested journalist get ahold of 
and gives us snippets and bits of, but a problem upon which 
there has been no concerted attention, and I thank you for your 
work in bringing this kind of attention to this problem.
    The fact that we have a close relationship with a country 
should not mean that country is free from just and justifiable 
criticism, and Saudi Arabia has been an ally in many respects, 
but in many respects and increasingly, Saudi Arabia doesn't act 
like an ally. To be an ally, it seems to me, you have to walk 
like an ally, talk like an ally and act like an ally, and when 
it comes to the heartache that Saudi Arabia has brought to 
these mothers and their children not only is Saudi Arabia not 
an ally, it is not a friend.
    Certainly the country should not be immune to criticism, 
and we ought to call this issue what it is. This is a human 
rights issue, and this is a horrible violation of human rights. 
If it were done by a country that we did not have friendly 
relationships with, we'd be up and down screaming about 
kidnapping and outrageous behavior toward mothers and their 
children. We cannot allow a double standard to develop just 
because we're dealing with Saudi Arabia.
    Saudi Arabia is very adamant in sticking to its own 
standards, and it seems to me we are in violation of our 
standards and of our laws when we allow this to go on. And, Mr. 
Chairman, by bringing this to public attention, I think you are 
doing something for the first time that may in fact change this 
horrific condition, and once again, I thank you, sir.
    Mr. Burton. Thank you, Ms. Norton.
    Mr. Davis.
    Mr. Davis of Virginia. Mr. Chairman, I applaud you for 
holding this hearing and shining some light on a very serious 
situation. You know, one of the main jobs of our Embassies, of 
our personnel at the State Department is to protect our 
citizens and to uphold American law, and I think we've fallen 
short of this. I hope this hearing will give us a path where we 
can correct some of these egregious issues that have been 
raised over the years, and I applaud you for holding the 
hearings.
    Mr. Burton. Thank you, Mr. Davis.
    Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman. I'm going to thank you 
also for conducting this hearing, and perhaps we can get to the 
bottom of some of these issues that we're going to hear more 
about today.
    I would like to submit an opening statement to you. Thank 
you.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Burton. Without objection, so ordered.
    Mr. Duncan.
    Mr. Duncan. Thank you very much, Mr. Chairman, and I'm not 
going to make a full statement. I'll simply say as Mr. Schrock 
did that I agree with everything that you said and that others 
have said thus far, and I thank you for calling this hearing. I 
would like to read something that was in last week's U.S. News 
and World Report, a column written by Michael Barone entitled, 
``Our Enemies, The Saudis.'' He said ``15 of the 19 September 
11th hijackers were Saudis. Perhaps as many as 80 percent of 
the prisoners held at Guantanamo are Saudis. Osama bin Laden is 
a Saudi and Al Qaeda was supported by large contributions from 
Saudis including members from the Saudi royal family. The 
Saudi's cooperation with our efforts to track down the 
financing of Al Qaeda appears to be somewhere between minimal 
and zero . . . .'' And it goes on with many, many examples of 
things that the Saudis have done or not done that they should 
have done, and he ends up by saying they are effectively waging 
war against us.
    Now, that is a very strong column by Michael Barone in last 
week's U.S. News and World Report, but there is this clamor in 
some corridors here to go to war against Iraq, with which I 
disagree, and I'm not saying we should go to war against Saudi 
Arabia. In fact, I wouldn't have written a column as strong as 
Michael Barone did, but I think it points out what many people 
have already mentioned, that this relationship with the Saudis 
is becoming very, very troublesome to this country, and the 
witnesses that are here today are the prime examples of these 
problems that have developed and are continuing. And so I think 
this is a very important hearing, and I thank you for calling 
the hearing.
    Mr. Burton. Thank you, Judge Duncan.
    Mrs. Maloney.
    Mrs. Maloney. Thank you, Chairman Burton, for calling what 
is a critically important hearing on an issue that is truly 
gender apartheid. And as we listen to the testimony of our 
distinguished guests here, we cannot really divorce the 
policies of Saudi Arabia from the policies that are in front of 
us. What they are going to be talking about are family 
disputes, but the values in Saudi Arabia are really very 
different from any other western country. The government 
restricts freedom of speech, the press, assembly, association, 
religion and movement.
    And just to give an example, a few months ago there was a 
fire in a girl's religious school in Saudi Arabia, and the 
girls fled. Many of them did not have the abaya or the head 
dress to cover themselves. The religious police forced them 
back into the burning building to get the proper head dress, 
and some of them died. I believe this demonstrates the state of 
human rights that is really despicable in Saudi Arabia, and 
they practice gender apartheid.
    There are many places where women cannot go to eat. They 
can't go to lunch counters. They can't have identity cards. 
They can't vote and they can't drive. They are excluded from 
professions, and they are required to cover themselves, be 
shrouded with the abaya when they appear in public.
    And so when you talk about custody cases, which I'm sure 
we'll hear from our panel today, you can't divorce--these are 
not simply custody cases. This is a human rights violation. 
They don't follow the laws and human rights of other countries, 
and in many ways, practice violence against women.
    Recently along with Congressman Fossella, we did a letter 
to Secretary O'Neill, really calling on them to freeze the 
Saudi Arabian money here in the United States as we did with 
Iraqi money during the war, and this was based on their 
television broadcasts where they were literally appealing to 
their population to raise money for terrorist families, those 
who were giving their lives to murder innocent people in 
Israel. And I feel that you have to hold the country 
accountable to their actions, and I feel that--I hope that not 
only that most Members of Congress will join us in this 
important letter, that we take steps to hold them responsible 
for really collecting blood money to give to terrorist 
families.
    But I appreciate the efforts of our country to be helpful 
to American citizens who have suffered under this same type of 
gender apartheid that women suffer under every day in Saudi 
Arabia, and I look forward to the testimony.
    Mr. Burton. Thank you, Mrs. Maloney.
    Mrs. Davis.
    Mrs. Jo Ann Davis of Virginia. Thank you, Mr. Chairman. For 
the sake of time, I don't have a formal statement, but I will 
say that as a woman and as a mother, I'm outraged to hear what 
happened in our own Embassy, having a Marine escort their women 
and children out knowing they would be arrested, and I just 
certainly hope we on this committee do everything we can to 
correct the errors--potential errors that were made by our U.S. 
Embassy and that this does not happen to American citizens, and 
I thank you, Mr. Chairman.
    Mr. Burton. Thank you, Mrs. Davis.
    We now have a new member of the committee, and I want to 
welcome him to the committee, Congressman John Sullivan of 
Oklahoma. He was elected in a special election in January to 
replace our old buddy, Steve Largent, I think who is running 
for Governor out there. So we want to welcome you and we're 
looking forward to working with you and I ask unanimous consent 
that Mr. Sullivan be appointed to the Subcommittee on 
Government Efficiency, Financial Management and 
Intergovernmental Relations, and the Subcommittee on Energy 
Policy, Natural Resources and Regulatory Affairs, and I also 
ask unanimous consent that Congressman Dan Miller be removed 
from the Subcommittee on Government Efficiency, Financial 
Management and Intergovernmental Affairs, and with that, 
welcome to the committee and you're recognized.
    Mr. Sullivan. Thank you, Mr. Chairman. I appreciate that, 
and I'm eager to hear your testimony, and I admire your courage 
for being here today. I have three kids, and I can just--I 
think it would be very difficult to be separated from them. As 
a new member of this committee and in the process of learning 
about these issues, I must say I was shocked to learn of not 
only the number of U.S. citizens detained against their will in 
Saudi Arabia, but the freedoms and liberties that are not 
allowed even though they are U.S. citizens.
    Not only do we have children being detained who are 
American citizens with no intervention from the U.S. Government 
on their behalf, we also have a complacent Federal Government 
allowing them to languish in these situations with years with 
no help. These children may be abused or subjected to 
restrictive religious practices or to a religion they do not 
claim. Their rights are null and void, especially for women and 
children.
    This is unconscionable that our government is not doing 
more to protect them. As a representative of the First District 
of Oklahoma, I speak for my constituents. Any of my 
constituents who would learn of such inaction by their own 
government for their safety would be appalled. My questions are 
their questions, such as why are there up to 92 U.S. citizens 
being held against their will in Saudi Arabia, and why is our 
government doing nothing? Why are we not doing a better job, at 
least checking to see that these children are being abused? 
Children cannot seek refuge in the U.S. Embassy without being 
returned to their Saudi parents.
    It is estimated that as many as half of the Al Qaeda and 
Taliban detainees at Guantanamo Bay are Saudi. A poll conducted 
by the Saudi Government estimated that 95 percent of Saudi men 
between the ages of 25 and 41 sympathize with Osama bin Laden. 
The Saudi Government refuses to fully cooperate in the 
investigation of many bombings. Religious freedom is forbidden 
by law, and women have few rights in Saudi Arabia. The U.S. 
Commission on International Religious Freedom has recommended 
that Saudi Arabia be named a country of particular concern, 
placing it in a category with North Korea, Iran, Iraq and 
Sudan. State-owned media outlets are often full of anti-
American and anti-Semitic propaganda. Calling the Saudi 
Government an ally is close to the old cliche, ``with friends 
like this, who needs enemies?''
    We have sold out rights of a few for the safety of many, 
bartering away their rights in order to placate this government 
under the guise of making allies in the war against terrorism.
    If that is the case, we have started down the very slippery 
slope that allows anybody's rights to be rescinded for the good 
of the many, and our basis of freedom is and will be dually 
eroded. Certainly we must have allies, all of which we may not 
like, but we must decide where the line begins and ends in this 
regard, and does that line include advocating for each and 
every American citizen or not? And if not, why?
    Although the State Department conveniently defines these 
situations as private custody disputes, any time the rights of 
U.S. citizens are abridged, we must act. This level of 
complacency is not acceptable. I look forward to hearing the 
testimony and finding out what both the executive and 
collective branches can do to ensure the safe return of all 
U.S. citizens from any and all countries from which they desire 
to leave in order to return home to the United States. Thank 
you, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Sullivan.
    Mrs. Maloney has something she'd like to put in the record.
    Mrs. Maloney. I request unanimous consent to put in the 
record an article about the 15 girls who died in a school when 
the religious police would not permit them to leave, one of the 
police said, ``it is sinful to approach them.'' And I would 
like to put this in the record and just briefly add that we 
will hear from our witnesses today about terrible 
discrimination and their custody suits, and we as a government 
must hold the Saudi Government accountable for these 
irresponsible acts of shielding kidnappers and abusive fathers 
and husbands from prosecution.
    And I, again, thank the chairman for having this meeting.
    Mr. Burton. Thank you, Mrs. Maloney. We will without 
objection put this in the record.
    [The information referred to follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Burton. Mrs. Morella.
    Mrs. Morella. Thank you, Mr. Chairman, for the courtesy of 
allowing me to make a very brief opening statement. Thank you 
for having this very important hearing. In 1991, a powerful 
movie entitled, ``Not Without My Daughter'' awakened many 
American's eyes to the harsh realities and inequities of life 
in Iran, especially for women. This film was based on a book by 
Betty Mahmoody, an American housewife who risked torture and 
death to escape from Iran with her young daughter, Mahtob in 
1986.
    Sadly, there are three individuals gathered here today who 
could tell harrowing tales of their experience with Saudi 
Arabian inequity and whose stories would be equally powerful if 
made into movies, rather unbelievable. The events of September 
11 and the discovery that 15 of the 19 hijackers were from 
Saudi Arabia and that many Al Qaeda operatives are Saudi-born 
have led much of the American public and many U.S. officials to 
probe deeper into our relationship with Saudi Arabia. And not 
only are many U.S. officials looking more closely at the U.S.-
Saudi relationship, but many are also looking closely at the 
conditions inside Saudi Arabia.
    Just the other day I chaired a congressional human rights 
caucus hearing on the role of women in Saudi Arabia and mention 
was certainly made of the young women who were burned to death. 
The U.S. Commission on International Religious Freedom has 
recommended that Saudi Arabia be named a country of particular 
concern, placing it in a category with North Korea, Iran, Iraq 
and Sudan. And as Chairman Burton pointed out in his testimony, 
one particularly unjust aspect of our relationship with Saudi 
Arabia is that U.S. citizens can be held against their will 
with the full blessing of the Saudi Government, and often in 
violation of U.S. law.
    And while some noble individuals within the State 
Department have tried to remedy the problem, the United States 
has, in many cases, subverted attempts to reunite families. In 
addition, the Saudi Arabian Government has done little to 
rectify any disputes between families.
    The three witnesses on the first panel that you've 
assembled, Mr. Chairman, will give more details about their 
tragic plights in trying to reunite with family members. I only 
hope that their words which have, for many years fallen on deaf 
ears, will finally be heard by the United States and Saudi 
Governments. I yield back the balance of my time, and again, 
thank you, Mr. Chairman.
    Mr. Burton. Thank you, Mrs. Morella.
    [The prepared statement of Hon. Constance A. Morella 
follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Burton. Mr. Shays.
    Mr. Shays. No statement, Mr. Chairman.
    Excuse me, Mr. Chairman, I just want to thank you for 
having this hearing, but I don't have a statement.
    Mr. Burton. Thank you, Mr. Shays. I'd just like to say to 
the witnesses, one of the reasons that we have everyone make 
opening statements is it sends a very clear message to the 
Saudi Government that this is not just the chairman's position 
or the ranking member's position, but the entire membership of 
the committee, and I believe the entire membership of the 
Congress.
    So if the Saudi Government is paying any attention to what 
is going on today, this isn't just me or Mr. Waxman; this is 
the attitude of the U.S. Congress, in my opinion, and I think 
if you talk to all 435 Members, you'd get the same answer, that 
we want American laws recognized, and we want the Saudi 
Government to work with us and comply and not to allow 
kidnappers to take these kids out of the country and never 
return them and to treat the mothers like dirt. And if they 
don't get that message today, I presume they never will, but we 
are looking forward to hearing your testimony.
    With that, we swear in our witnesses so that we have 
everything on the record and under oath. So would you please 
rise and raise your hands.
    [Witnesses sworn.]
    Mr. Burton. Our first panel is Pat Roush, Ethel Stowers, 
Miriam Hernandez-Davis and Dria Davis. We welcome you here. 
We'll start off now with Ms. Roush first. Ms. Roush, you're 
welcome to make an opening statement.

    STATEMENTS OF PATRICIA ROUSH, MOTHER OF ALIA AND AISHA 
   GHESHAYAN; DRIA DAVIS, ACCOMPANIED BY HER MOTHER, MIRIAM 
 HERNANDEZ-DAVIS; AND ETHEL STOWERS, MOTHER OF MONICA STOWERS, 
          AND GRANDMOTHER OF RASHEED AND AMJAD RADWAN

    Ms. Roush. Good morning, Chairman Burton, and members of 
the committee. I'm pleased to participate in this panel and 
present you with my testimony. Terrorism takes on many forms, 
and for 16\1/2\ years, my two American daughters, Alia and 
Aisha Gheshayan and I, have been victims of the worst 
emotional, psychological and spiritual terrorism possible. We 
have been separated from each other by two systems of evil that 
have broken the moral law that governs all human beings.
    My daughters have been taken hostage by a medieval 
totalitarian system, and the central authority of our 
government, the U.S. Department of State, has done everything 
to enable that system to destroy the lives of my beloved 
daughters and shatter my family.
    I have previously testified before the House International 
Relations Committee in 1987, Subcommittee for the Near East, 
concerning violations of human rights of American citizens by 
the Saudi Arabian Government. The honorable Tom Lantos was 
Chair, and his very powerful words addressing Assistant 
Secretary of State Marion Creekmore continue to remain with me. 
``Is this the image that you want to portray of the United 
States, that of the impotent giant that cannot get back two 
little innocent children from Saudi Arabia?''
    Secretary Creekmore's response was, I don't think the 
withholding of visas to the United States for Saudis is the 
proper way to resolve this.
    By way of background, for the last 16 years, I have 
tirelessly pioneered the issue of American children kidnapped 
and taken abroad. My relentless efforts over the years led to 
the creation of the Office of Children's Issues at the State 
Department in 1987, and to the enactment of the International 
Parental Kidnapping Act in 1993. The Hague Treaty on the Civil 
Aspects of International Child Abduction was signed in 1987 by 
the United States because of the high profile of my case in the 
Congress and the press.
    The Office of Children's Issues unfortunately has never 
been what it was intended to be, which is a place of authority 
that U.S. citizens can turn to for assistance when their 
children are abducted to a foreign country. Instead, it is 
merely another file and data collecting agency of the Federal 
Government.
    Working to free my daughters has become a mission-
impossible assignment that I have accepted as part of my daily 
life. Before my two daughters were kidnapped, my 7-year-old 
would sing with such delight, ``Tomorrow, tomorrow, I love you 
tomorrow. It is only a day away.'' This was her favorite song 
from the movie Annie about a little girl who was lost and 
found. But the happy ending from the Hollywood movie never 
materialized for my little girls, and as the Arabic folk 
expression states, 20 years will soon be tomorrow, became their 
reality.
    The girls are now women, ages 23 and 19. They were 
kidnapped and taken to the kingdom of Saudi Arabia by their 
Saudi national father in 1986. They were 3 and 7 at the time. 
This is a father they hardly knew and feared, who had a 
documented history of a severe mental illness with a paranoid 
and violent ideation. He has been their master for almost 17 
years. They fear him and have learned to submit and suffocate 
themselves to his demands.
    Saudi Arabia has violated my human rights and the human 
rights and Constitutional rights afforded to my daughters as 
American citizens. The U.S. State Department is an accessory 
and active conspirator in the denial of these rights. The U.S. 
Government receives benefits from the Saudi Arabian Government 
in various forms, which induces to violate these rights. 
Everyone is entitled to freedom from fear. The U.S. State 
Department and the Kingdom of Saudi Arabia have both 
intentionally used their great power to create fear to 
intimidate and threaten my daughters and me. My daughters are 
victims of forced religious conversion as outlined in the 
International Religious Freedom Act.
    My Christian daughters were forced to convert to Islam, and 
as you know, religious choice is not an option in the Kingdom 
of Saudi Arabia. They could be put to death if they even spoke 
the name of Jesus. This is also an act of ethnocide. My 
daughters have had their culture and society taken away and 
been denied their heritage. Do they know that their mother's 
family has been on the U.S. soil since 1711 and fought in all 
the wars to keep America free? Do they even know what freedom 
is? My daughters have been stolen and kept in captivity for 16 
years incommunicado with the entire western world. They have no 
knowledge of the rest of the world except by way of Saudi 
Arabian censored television and the males that are their 
masters. They are denied the rule of law, denial of due 
process. Saudi Arabia is a totalitarian state where my 
daughters are locked up, wrapped up and shut up.
    This is a cover picture from National Geographic magazine 
showing that well-known photograph of a young green-eyed Afghan 
girl on the cover 20 years ago, now wearing the dreaded burqa. 
The caption says, found. And this is a picture of what my 
daughters are wearing today, basic black from head to toe. They 
have no choice. The Saudi Religious Police can arrest, imprison 
or kill them for not wearing this garb. This little insert 
picture of my little girls in the white dresses with puffed 
sleeves is 17 years old. It is the last picture I have of them.
    Underneath the picture it also says, ``found.'' Yes, we 
found them, but they were never lost. We always knew just where 
they were but couldn't save them from their destiny which is no 
different from the destiny of this poor Afghan woman. They are 
also condemned to a life behind a vail without any rights, the 
life of silence, submission and servitude. They are treated as 
Saudi women, not American women living in Saudi Arabia. The 
Saudi Government doesn't even recognize their American 
citizenship. They are the property of their husbands. They can 
be put to death by these men if the men so choose to dispose of 
them. It is called honor killing, and the price of honor in 
Saudi Arabia for women is quite steep.
    The State Department called me yesterday to--yesterday was 
my 56th birthday. My girls were kidnapped when I was 39. The 
State Department called me on my 56th birthday to tell me that 
my youngest daughter Aisha was sold to a man that she hardly 
knew. This selling of my youngest daughter was in retaliation 
because their father and the Saudi Government knew about this 
hearing.
    President Bush has created a special White House liaison 
for Afghan women's rights, but there is no one in the entire 
U.S. Government working for my daughter's rights, an American 
woman locked up in Saudi Arabia. No, I am told that there is 
nothing the U.S. Government can do for them, because under 
Saudi law, their father, and now their husbands, have total 
power and control over them.
    And even Allah, himself cannot help them. Contrary to the 
statements appearing in the Saudi-owned press, Asharq Al Awsat, 
listed on the official Web site of the Saudi Embassy, 
SaudiEmbassy.net, which recently published a very biased, 
slanderous article about me concocted by the Saudi Government 
and Gheshayan. These are American women not ``Saudi 
daughters.'' The Saudi Government continues infantile employs 
to place this ordeal and my daughters in the middle of an 
international chess match.
    The playing field is far from even, and they have a great 
advantage, the physical possession of my daughters and my 
unborn grandchild, yes, I found out by reading this Saudi-owned 
newspaper that I will be a grandmother. I have no knowledge of 
the well-being or status of my daughters, none. And the little 
bit of information I have gotten over the years has been 
second-hand. National Review Magazine posed the question to 
Prince Abdullah in April when he was in Crawford with the 
President. The caption over their little pound puppy photo read 
``hey Abdullah, how are the girls?' I wish I knew how they are.
    The State Department claims that when these child victims 
of international parental abduction become 18 years of age, the 
interest of the State Department doesn't end. The concerns of 
these now adult American citizens are undertaken by the Office 
of American Citizens Services until the American parent no 
longer requests intervention.
    My daughters are 23 and 19 years of age and know one has 
seen either of them since they turned 18. When they were 
children, the State Department only saw them three times in 14 
years. If they were prisoners in a Riyadh jail, the State 
Department, the Embassy would have seen them more times then 
because they were upheld by their Saudi Arabian father.
    Is this how the State Department shows their concern for 
American citizens? In fact, the State Department staff have 
admitted--I'm sorry. In 1986, just 10 months after the girls 
were kidnapped, the Riyadh Governors' office and the American 
Embassy worked out a deal to have the girls released. This was 
due to the tremendous pressure in the U.S. Senate organized by 
former U.S. Senator, Allan Dixon of Illinois. The Governor of 
Riyadh's office was going to allow the girls to leave the 
kingdom and his representative Saleh Hejeilan was making all 
the arrangements. He only requested the presence of the then 
U.S. Ambassador to Saudi Arabia, Walter Cutler at the meeting 
in the Governors office.
    I was in constant communication with the DCM of the 
mission, Edward Walker. He told me, Pat, the Embassy telexed us 
twice this week. They will not allow the Ambassador to go into 
the meeting. I have telexes from the State Department to the 
Embassy telling them to remain, ``impartial and neutral.'' 
Hejeilan then told me your government doesn't want you. Your 
State Department will not help you. You will see your children 
if and when we decide. He then videotaped my young daughters 
like prisoners on display, all within the presence of the 
American Council general, who remained silent.
    He later told me that my 8-year-old daughter, Alia, was 
forced to say on tape that she hated her mother and the United 
States. Her eyes had a wild glazed look and she looked 
terrorized. The Saudis then began to systematically put me 
through a 16-year torture with one lie and broken promise after 
the other. They delighted in this sadistic game and used their 
control over the lives of my daughters to taunt me. Another 
time Hejeilan told me you are being punished for going to the 
politicians and the press.
    In 1995, U.S. Ambassador to Saudi Arabia, Raymond Mabus 
began a campaign to help me. He is a true hero, a man of 
integrity who stood up to the Saudis and got me into the 
kingdom to see my girls. He went to every Saudi prince, 
including Crown Prince Abdullah for the release of my 
daughters. I was only able to see the girls once for 2 hours, 
but they told me they loved me and asked me to take them out of 
there. They were 16 and 13 at the time, terribly emotionally 
abused by their father. The Saudis wouldn't allow me to see 
them again, and I spent 21 days of heart wrenching pain inside 
a hotel room in Riyadh. But Ray Mabus called me in the hotel 
room and he said, Pat you go home and remember that there are 
people in this Embassy who care about you and your girls. I 
will do everything to get your daughters back to California.
    He held up the visas to the United States of my ex-
husband's family, which is a very effective tool. He received a 
diplomatic note from Prince Saud bin Faisal, Saudi foreign 
minister allowing the girls to come home for the summer of 
1996. Mabus also got a quid pro quo from Crown Prince Abdullah, 
the release of the girls for the saving the life of one of his 
generals, a relative of Gheshayan who needed treatment for 
cancer.
    It was finished, a done deal. But it wasn't finished yet. 
Mabus told me he was going to resign as Ambassador for personal 
reasons. I was in agony. I knew what would happen. Mabus 
reassured me and said Pat, don't worry. I have made believers 
out of these guys at the Embassy. I will fully brief the 
incoming Ambassador, who is also a political appointee. Nothing 
is going to happen, Pat. We are at the finish line. I wish I 
could be here when they come home, but I have to go back to 
Mississippi.
    In August 1996, Wyche Fowler, Jr., the new political 
appointee arrived in Riyadh as U.S. Ambassador. Ray Mabus fully 
briefed him on the urgency of the situation. I sent him a long 
detailed fax concerning the background of--and what Mabus had 
accomplished and what we needed to do. No response. I called 
Fowler and asked if he had received my faxes. He denied 
receiving them. I explained that we needed his help. Ray Mabus 
was on the verge of getting my girls out of Saudi Arabia and it 
was up to him to just make the contact for us.
    It was finished, all wrapped up. We had the promise of the 
Crown Prince. My girls could come home. He said to me Ms. 
Roush, I am in the middle of an Iraqi war here and I don't have 
the time right now to deal with this. I am aware of your 
situation and you are not doing any bit one good by cross-
examining me. He dismissed me like an impertinent school girl 
who was way out of line by even speaking to him. He lifted the 
visa censorship of the Gheshayan family, the only effective 
tool I had to persuade the Gheshayan family to return my girls.
    No, Wyche Fowler had other things to do which didn't 
include the release of my girls. The Glasgow Evening Times 
quoted that this 55-year-old married, newly assigned U.S. 
Ambassador was having an affair with a 24-year-old Scottish 
woman he had met on a plane that summer. All he had to do was 
go back to the Crown Prince and finish the deal Mabus had set 
up. He told my lawyer, ``the deal is dead. Pat Roush can either 
come here and see her daughters another time or she can let the 
chips fall where they will.''
    My attorney said to Fowler that means the girls are 
forgotten then. Why not do what Ray Mabus did? And Fowler 
replied why not get Ray Mabus then. You seem to get my name in 
the papers. The ball is in your court. The Saudis trust me. 
Take it or leave it. Wyche Fowler was in Saudi Arabia for 6 
years. He lobbied hard for that job and made a lot of money. He 
is now the grand statesman about town, the Mideast expert and 
chairman of the board of the Mideast Institute. He gives 
speeches, goes to dinner parties and I am sure has many Saudi 
friends. He appears on television as an expert on Saudi Arabia.
    His wife divorced him after that Scottish-girl incident. He 
should be held responsible for what he did to my family. He is 
a criminal and condemned my daughters. He is responsible for 
the marriages of both of my daughters. If he had done the right 
thing in 1996, they would have never been married. He has cost 
us 7 more years of hell. It would have been so easy for him to 
finish the job Mabus started. What was the downside for him? 
The Bible states that the measure you give is the measure you 
shall receive and you shall be known as you are known.
    Both of Gheshayan's parents came into the United States for 
medical treatment from American doctors and nurses when they 
became ill. They used U.S. medical technology to try to save 
their lives, and in the meantime, kept my daughters away from 
me without so much as a phone call. I would call their house to 
speak with my girls and they would hang up on me. They came in 
with diplomatic passports, accompanied by their international 
criminal son who broke U.S. law, even after there were U.S. 
State and Federal warrants issued for his arrest.
    He was allowed to enter the United States on a diplomatic 
passport with his father. They made a mockery of U.S. law. If 
Members of Congress are so concerned about the human rights and 
fair treatment of Saudi al Qaeda killer prisoners held in Cuba 
and even make special trips to inspect that facility at 
Guantanamo, why aren't they outraged about what has happened to 
my daughters? Why don't they make an exchange? My innocent 
daughters for the Saudi al Qaeda killers? If President Bush can 
advocate for the release of Lori Berenson, an American woman 
jailed in Peru for suspected terrorism, why can't he pick up 
the phone and call Crown Prince Abdullah and ask that my 
innocent daughters be allowed to come home?
    My daughters are forced to live in a society where 15 young 
Saudi school girls were burned alive because they were wearing 
the wrong clothing. The religious police forced them back into 
an inferno. My daughters could have been in that fire. This is 
a recent story in the Italian press about a little girl with an 
Italian mother and an Algerian father who was taken to the 
Italian Embassy in Algiers by her mother for asylum. The child 
remained inside the Italian Embassy for 2 years while the 
Italian Government negotiated for her release with the Algerian 
authorities. She was just taken back to Italy on an Italian 
military aircraft.
    That is how much her government cared about her. I am 
asking for your help and the help of the entire U.S. Congress 
to free my daughter and Alia's baby. The State Department must 
issue a Demarche to the Saudi Arabian authorities to have my 
family returned to America immediately. This is a moral 
decision of conscience.
    As Moses pleaded with the obdurate heart of the Egyptian 
pharaoh for the release of his people, I am beseeching you, let 
my family go. Saudi foreign minister Prince Saud bin Faisal is 
coming into town today or tomorrow. It would be a great 
opportunity for Members to approach him, a telephone call from 
him can release my daughters tonight. I am now authoring a book 
entitled, ``At Any Price, How America Betrayed My Kidnapped 
Daughter for Saudi Oil,'' available in February 2003. Remember 
there are no hopeless situations. There are only men who have 
grown hopeless about them. Thank you.
    Mr. Burton. Thank you, Ms. Roush.
    [The prepared statement of Ms. Roush follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mr. Burton. Gosh, it's hard to believe those kinds of 
things happen, especially with the government we have and the 
State Department people who are here will carry the message 
back very loud and clear, and we will write a letter; I will 
author a letter to the President asking him to impose a 
limitation on passports for anybody that is involved in any 
kind of a kidnapping, like the one you involved, and I want you 
to draft that letter today. And we'll get as many Members to 
sign it and we'll see if we can't go back to what Mr. Mabus did 
and impose every kind of block that we can to keep Saudis out 
of this country if they're involved in any kind of activity 
like that.
    Mr. Ose. Mr. Chairman, if I may.
    Mr. Burton. OK, Mr. Ose, go ahead.
    Mr. Ose. Ms. Davis has a son also in Saudi Arabia, if I 
recall correctly from the testimony. There were two testimonies 
that I read last night, one involving Ms. Roush's daughters and 
another involving a son and a daughter of an American citizen. 
I would hope that the letter we are going to draft will address 
both those situations. As memory serves, both children are--in 
the second case are now in the United States. But this should 
be very focused on the Saudi----
    Mr. Burton. We'll be very focused on these individuals. But 
we want the letter to encompass others who are not here to be 
able to speak for themselves who--we have something like 92 
people that we know of right now. We haven't gotten all the 
documents from the Saudi Embassy over there, our Embassy in 
Saudi Arabia, but there are 92 people that we believe are being 
held along with the ones we are talking about today.
    We have a tape of Monica Stowers that was prepared at the 
U.S. Embassy in Riyadh a couple of weeks ago. The tape arrived 
in the United States yesterday but we received it just 25 
minutes before the hearing because the State Department wanted 
to watch it and copy it before they gave it to us. I don't know 
why they wanted to do that. We could let them have a copy after 
we saw it. But nevertheless, they wanted to see it first. I 
presume they may have wanted to censor it so Congress couldn't 
see everything. Nevertheless, we got it. Therefore, we haven't 
had a chance to review it fully. It's 25 minutes long and all 
of it is highly relevant and deeply moving. We're going to play 
the first 10 minutes of it and while the hearing is going on, 
we'll see if there are some other segments that are very 
important that we should play. So will you play the first 10 
minutes? And I want all the members of the committee and 
everybody in the audience to pay particular attention to this.
    I know it is a lengthy hearing. We are hearing a lot of 
testimony from the witnesses, but this is a very special case 
and we're going beyond our normal 5 minutes testimony because 
we think it is so special. So will you roll the tape.
    [Portion of videotape played.]
    Mr. Burton. We're going to review the last 15 minutes of 
this, but I think we all have a pretty good idea of the tragedy 
that occurred. I can't believe this. I cannot believe this. I 
just--who is the next witness? Mrs. Stowers, Mrs. Stowers, do 
you want to make your statement now and then we'll go to 
questions after we hear from Ms. Hernandez-Davis. Mrs. Stowers, 
you are recognized to make a statement if you like. Do you want 
to make a statement or do you think you can?
    Mrs. Stowers. I came here today to plead for my daughter 
and my granddaughter's life. My granddaughter's father has 
threatened to destroy her as soon as he can get Monica out of 
the country. He wants to have her--he wants to kill her because 
she won't marry anybody that he chooses for her at age 12, he 
tried to marry her. Well, he did marry her off to an older man, 
a terrorist. And she ran away. But he keeps chiding with Monica 
that as soon as she leaves Saudi Arabia to come to the United 
States for treatment--my daughter has cancer--that he will 
destroy Amjad because she disobeyed him. We haven't been able 
to get any help for her, Monica and my granddaughter. She's at 
the mercy of people that hate us and want to kill us. I'm 
sorry.
    Mr. Burton. No, that's fine.
    Mrs. Stowers. I'm just so upset about this whole thing. Our 
family has been totally destroyed by the Radwan family in Saudi 
Arabia, by the children's own father. They have been beaten and 
raped and my grandson went to the police in Riyadh and asked 
them for help. He asked them to please get his father to stop 
the rape and the beatings. His answer was, you have to learn 
how to obey your father. They stripped his shirt off, threw him 
on the ground and beat him and kept him in jail for 2 days.
    And then when he was sent home, his father beat him again 
and threatened to kill him. Rasheed has had two mental 
breakdowns and he finally escaped from Saudi Arabia and he 
lived with me in Houston. The horrible nightmares that Rasheed 
had, he couldn't function as a normal human being. In the 
middle of the night, he had these horrible nightmares. But he 
was able to get some treatment and he did finish high school, 
and one semester at the University of Houston. He had to go 
back to Saudi Arabia. He had to try to take care of his mother 
because she was so sick. She's been destroyed by this.
    This whole thing. She tries to protect her daughter and she 
would die for her daughter. We have begged the State 
Department, our Senators and our Congress for help. We got 
nothing but silence. There was nothing they could do. Why is it 
that the Saudis can ask for the U.S. Army to protect them, but 
they can't protect our children? They can't help our children. 
Can anyone tell me why they can't do something for our 
children? Please. Help our children.
    My daughter, I think she said it all on this tape. She 
needs to come to the States to get cancer treatment. I wouldn't 
have recognized her out on the street she's so sick.
    Mr. Burton. Ms Stowers.
    Mrs. Stowers. But she will not leave her daughter.
    Mr. Burton. Well, Ms. Stowers, Ms. Stowers, can you hear 
me.
    Mrs. Stowers. But I'm pleading with someone to help us 
please.
    Mr. Burton. Can you hear me. Can you hear me now? We will 
convey your feelings in correspondence and directly with the 
President. We'll try to get information to him today. I'm 
supposed to be
down at the White House at 4. I'm going to have a letter 
prepared covering these issues and I will give it to him today 
and we will not let this rest. We will continue to push, I 
promise you, as long as I'm chairman, we'll do everything we 
can to get this resolved.
    [The prepared statement of Mrs. Stowers follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



    Mr. Burton. We'll now go to Ms. Hernandez-Davis for your 
testimony.
    Ms. Hernandez-Davis. Good morning, Chairman Burton, members 
of the committee. Thank you.
    Yes. Thank you for the opportunity to participate in this 
panel, present you with my devastating experience trying to 
rescue my daughter out of captivity in Saudi Arabia. My 
daughter, formerly known as Yasmin and now known as Dria, was 
taken against her will to Saudi Arabia at the age of 11 and 
forced to live there until she was rescued 2 years later. She 
endured a great deal of physical emotional abuse and religious 
persecution by her Saudi father and his family. She is, to my 
knowledge, the only American child kidnapped to Saudi Arabia 
that has escaped. The Saudi Government as well as the American 
government, the State Department and the American Embassy, 
never helped me with my daughter's release.
    Dria was one more case, one more file, one more American 
child taken to Saudi Arabia never to be seen again. While held 
against her will in Saudi Arabia, my daughter was beaten to say 
she was Muslim. She was scared into thinking that she and her 
Christian family would burn in the flames of hell. Because she 
would not conform and pray, she had to eat on the floor. Dria 
was neglected and unattended because she would not say she was 
Muslim. My daughter's spirit was stronger than her Saudi father 
and family expected. Every night she prayed a simple prayer her 
grandmother taught her in Spanish and she hung on to her faith.
    The American Embassy in Riyadh warned me that if I reported 
the abuse, it would only get worse. It is common practice for 
Saudi fathers to beat or mistreat their children and their 
wives. While in Saudi Arabia, Dria's letters, cards, pictures 
that she had of her family, friends and of me were taken by her 
father and destroyed. During her many hidden telephone calls to 
the United States, Dria told me that she was scared she could 
not picture my face anymore. She was forgetting what I looked 
like.
    She sounded more and more depressed and told me she would 
rather die than to continue to live in Saudi Arabia. Her 
situation was deteriorating and no one was helping. I was naive 
in thinking that my country would help protect its citizens. 
Dria was an American citizen whose rights had been clearly 
violated. My protest in front of the White House and foreign 
Embassies, with parents of other missing children, letter 
writing campaigns addressing foreign officials, communications 
with the State Department, and American Embassy in Riyadh did 
nothing to elicit response that could help me with the release 
of my daughter. It took a year to plan Dria's escape from Saudi 
Arabia.
    My mother and I had to sell our home, furniture, empty our 
savings account in order to finance Dria's escape from hell. 
This extremely brave 12-year-old knew that her life was in 
danger if caught. Knew that she would be beaten to death by her 
father if the plan failed. But she did whatever she had to do 
in order to escape. All that mattered to her was getting home, 
getting her life back. How did this devastating experience 
begin?
    In 1984, I married what seemed to be a very nice, 
chivalrous young man, a graduate of the University of Miami 
that was born and raised in Saudi Arabia. Khalid Shalhoub had 
been living in the United States for 8 years and was very 
Americanized. He intended to continue to live in the United 
States once we married. I lived in Saudi Arabia for a year and 
a half. It was meant to be temporary, but my Saudi husband 
changed his mind once we were there and wanted to make the stay 
permanent. He went from being very Americanized and liberal 
while living in the United States to joining in on the hate 
rhetoric for Israel and the Jews prevailing the Middle East.
    He even went so far as to argue that the Holocaust never 
existed; it was conjured up by the Jews to gain sympathy. While 
in Saudi, I was shocked to see how women were treated. Women in 
Saudi Arabia are treated as second class citizens and as a 
possession of their father or husband. They have no rights. And 
they have little or inferior education. Their marriages are 
arranged and they may be forced to marry as young as age 12. 
They are forced to wear black abayas and cover head to toe. 
Their religious police have the right to use whips or stones to 
beat women in public who they think are not properly dressed or 
attracting attention.
    Women are not allowed in certain places of business or in 
certain restaurants in Saudi Arabia. Women can't play sports, 
go for a walk, read a magazine about what's going on in the 
world because of the extreme censorship of materials, 
magazines, news, etc. Living in Saudi Arabia poisoned my 
marriage with Khalid. I managed to return to the United States 
when I was pregnant with Dria knowing that if I mentioned 
divorce in Saudi Arabia, I would not be allowed to leave.
    I was stunned to find out the men had to give their wives, 
daughters, sisters written permission to leave the country or 
to travel, no matter how old they are. Khalid and I were 
divorced in Miami when Dria was 2 years old. Khalid felt 
humiliated by the divorce because it was I, the woman, who 
initiated the divorce, not he. In Saudi Arabia, it is customary 
that men divorce their wives, or just take on another wife. As 
a result, he vowed that he would make me pay for what I had 
done to him. He would take our daughter to Saudi Arabia and 
never allow me to see her again.
    Although I had custody of Dria and was raising her with 
little or no help from Khalid, the family court in Miami 
awarded him unrestricted travel when Dria was 6. The family 
court judge was well aware of Khalid's threats and was not 
concerned with the fact that I had no recourse if Khalid chose 
to take Dria to Saudi and keep her there.
    Khalid began to take Dria on trips to London when she was 8 
years old. London was his place of residence at the time. He 
enjoyed the freedom and lack of restrictions that he could not 
have in Saudi Arabia. Every time he took her on a trip, I 
worried and prayed that he would bring her back.
    The day I dreaded finally arrived when Khalid called me 
from Saudi Arabia in August 1997 and told me I had a few 
minutes to talk to my daughter. He did not know how long he 
would keep Dria or if I would ever see her again. I briefly 
spoke to my daughter who had no clue what was going on. And I 
got to say that I loved her.
    I pleaded with him to meet me in Europe so that we could 
discuss his decision. We were both parents and needed to do 
what was best for Dria. He laughed in an evil way and hung up. 
It took the FBI about a month to write a report. I even had to 
show them a copy of the Federal law that Khalid had broken. It 
took the U.S. attorneys office 1 year to prosecute Khalid and 
charge him with the international kidnapping. I was a 
relentless nag that did not give up. It seemed that the issue 
of kidnapping a child by a parent was completely acceptable, 
and an issue that most officials were not interested in dealing 
with.
    The prosecutor that handled my case told me they did not 
want to take on these types of cases to the Grand Jury because 
they don't make an arrest, and these type of cases hurt their 
department statistically.
    The State Department's Office of Children's Issues' role in 
the kidnapping of my daughter was to keep a file on the case, 
send me a packet on international abductions and recommend to 
the American Embassy in Riyadh to conduct a welfare and 
whereabouts visit. Letters to officials should have been 
written on her behalf but were not. I also asked the State 
Department to give me a list of other parents' names and 
contact numbers whose children had also been kidnapped to Saudi 
Arabia. And if that was not possible, I asked them to give out 
my name and phone number to those parents. For some reason, the 
State Department did not want to see parents uniting in a 
common cause.
    The first and only welfare and whereabouts visit that the 
American Embassy conducted on my daughter took place in a hotel 
lobby in Riyadh and was controlled by Khalid. He initially 
agreed to the visit by the American Embassy consul because he 
wanted to be in good standing with them in case he wanted to 
travel to the United States. He did not know yet that he could 
be arrested. Dria was threatened by her father to act and say 
certain things or a beating would follow did she not comply. 
The American Embassy should have negotiated with Khalid during 
this meeting or even pressured him. Khalid's travel 
restrictions hurt him and he could have--this could have been a 
negotiating point. He loved to travel throughout Europe for 
pleasure and for business. The Saudi Arabian Government does 
not issue tourist visas and does not admit mothers seeking to 
visit their abducted children unless the Saudi father provides 
a letter of no objection.
    By some miracle and constant pressure from Congressman 
Diaz-Balart's office, the Saudi Embassy issued me a visa in 
February 1989 without the consent of my former husband. My 
passport, however, indicated that he was sponsoring me, even 
though he was unaware of this consent. I had to travel with my 
uncle as my male chaperone. Once in Saudi Arabia, I was naive 
to think the American Embassy would help Dria and me leave the 
country. After all, the American Embassy had a copy of my 
daughter's passport on file, documentation showing that I had 
custody and that my former husband had broken State and Federal 
laws when he kidnapped her.
    Everyone at the Embassy and State Department was aware that 
Dria's case was different. She was almost 12, had been raised 
in the United States and was set in her religion, was very 
happy in school and terribly wanted to go home. Her rights were 
clearly violated. She wanted her life back. I asked Sally Beth 
Brumbrey, the consul and first secretary at the time, to help 
me bring my daughter home. I asked the following questions: If 
Dria could get to the Embassy on her own, would I be able to 
take her home? If Dria and I were able to meet anywhere in the 
country or close to the Bahrain border, would the American 
Embassy help us get through? If Dria and I were able to go to 
the U.S. military base in Saudi Arabia, would the military help 
us get out?
    I posed many different scenarios that would lead to getting 
my daughter out of Saudi. I was simply told the American 
Embassy and its officials were guests in Saudi Arabia and no 
one could risk doing anything of that nature. Sally Beth 
Brumbrey, I learned, was leaving Riyadh shortly for a new 
position in Australia and could not afford to risk her job. 
Other consul associated offered no help. During my 1-month stay 
in Saudi Arabia, Khalid agreed to let me see my daughter under 
strict supervision five times. I was threatened not to hug her, 
whisper or show any emotion that would suggest I wanted her 
home with me.
    Khalid went on to threaten me that in Saudi Arabia he was 
the law. He would choose whether or not I would see my daughter 
again. I understood that she could never leave the country even 
as adult woman. Luckily, my daughter and I were able to speak 
in Spanish, accomplished much in those short five meetings. But 
I could not describe in words how hard it was to leave my 
daughter in Saudi Arabia and hear her beg me to take her. She 
cried and told me, ``mom, don't leave me here, I want to come 
home. I miss Abuela. I want to be with you, mom. I can't stay 
here 1 more day. Please don't leave me.''
    All I could say and had time to say was to be patient and 
strong. The same way that I sneaked in to see you and let you 
know that I have not abandoned you or given up, I'll find a way 
to get you out I am not going to leave you here, I promise. I 
wanted to protect her from everything she was going through, 
the pain she was enduring, but I couldn't and my government was 
not helping us. Dria has been home safely for 3 years. She was 
diagnosed with posttraumatic stress when she came home and 
still has trouble sleeping. We fear that Khalid, who is 
currently being represented by several attorneys in the United 
States, will get his charges dropped and come after us. The 
number of cases of children and women kidnapped and kept 
hostage in Saudi Arabia is now too alarming to ignore. American 
citizens, especially our young citizens of the future, need to 
be protected at all costs. Thank you.
    Mr. Burton. These are all heart rending stories.
    [The prepared statement of Ms. Hernandez-Davis follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Burton. Would you like to make a statement now that 
you're back?
    Ms. Dria Davis. Yes.
    Mr. Burton. Well, we'll recognize you and you can tell us 
what you went through in trying to get out of Saudi Arabia. 
Would you pull the mic close to you. Would you also tell us how 
you were able to get her out or would you rather not? I mean, 
is that--if that is going to endanger somebody else maybe we 
shouldn't know. Maybe it shouldn't be made public.
    Ms. Hernandez-Davis. No. Some of it has been published and 
you know, the generality of it. Whenever she was able to call 
me, we had many, many plans for about a year. And if I could 
get to talk to her I could tell her OK leave. You have to leave 
at 2 a.m., try to get your dad's keys sneak out of the house. 
There'll be people waiting for you. There were many plans.
    Mr. Burton. You did that in Spanish.
    Ms. Hernandez-Davis. Yes, because they were taping our 
conversation.
    Mr. Burton. He didn't speak Spanish?
    Ms. Hernandez-Davis. No. And one of those occasions, one of 
those plans finally hit. I would get called sometimes, you 
know, she couldn't get out. No she couldn't get out and it was 
just heartbreaking. But on one occasion, I did get to speak to 
her and the plan was well on the way. Her father dropped her at 
her school and she had an abaya so that she could cover. What 
she was supposed to do was go into the school, act as if she 
was fumbling in her bookcase. Put on the abaya, pretend she was 
walking out past two security guards as if she left something 
in her dad's car. And she did just that. The security guard 
called her back but she just kept walking and she went toward a 
car that had a sign on it.
    You know, they had a little red ribbon around the antenna. 
That was the car she was supposed to get into. And then they 
had to keep her from being caught for about 4 hours. In that 4-
hour period if she was caught--she could have potentially been 
caught but she was very smart in calling the American--no, she 
called her father and told her father that she was at the 
American Embassy and she was not coming back. So while he 
called the American Embassy and figured out that she wasn't 
there, that covered the 4 hours that you know we needed to get 
her safely out, and she went to Bahrain, passed the border 
there, dressed as a woman, a Saudi woman, someone's wife, and 
they didn't question it. She was very tall at the time and they 
couldn't uncover her to make sure. And basically that is how 
she got out.
    Mr. Burton. And it cost you $180,000?
    Ms. Hernandez-Davis. Yes.
    Mr. Burton. OK. You want to testify. Go ahead. Would you 
pull the mic a little closer? Thank you.
    Ms. Dria Davis. Good morning, Chairman Burton and members 
of the committee, my name is Alexandria Davis. I was formerly 
known as Yasmin Alexandria Shalhoub. My name no longer reflects 
my Saudi father's last name as a result of the nightmare I 
experienced when I was held against my will in Saudi Arabia 
from June 1997 to April 7, 1999. I changed my name to try to 
forget--to help me forget what I had to endure in Saudi Arabia, 
but it will be with me until I die. At the time I was 
kidnapped, I was an 11-year-old living in Miami with my mother 
and grandmother.
    I was attending Epiphany Catholic School in Miami and did 
what most girls do. I enjoyed swimming with my friends, jumping 
on the trampoline, rollerblading, taking care of my pets and I 
played soccer with a local YMCA team. I attended church on 
Sundays, as that was also part of my religious and schooling 
commitment. My father, Khalid Shalhoub and mother, Miriam 
Hernandez had divorced when I was 2 years old. It was my 
father's preference to reside in London and he visited me 
several times a year or I visited him in London during summer 
vacations. My father broke State and Federal laws in June 1997 
when he lied to my mother about where he was taking me for the 
summer and unilaterally decided to take me to Saudi Arabia. He 
told me that I was only there to visit my family members.
    However, toward the end of August, I started asking him 
about going home in order to begin my new school year. I 
started to realize that my father was lying to me and became 
scared. Scared that I would not see my family again and scared 
that this man I knew as my father began beating me every time I 
begged to go home and begged to speak to my mother. I started 
having nightmares that lasted the entire time I was there. In 
Saudi Arabia, I was not allowed to go outside not even to play. 
I was locked in the house alone while my Saudi family went out. 
I was constantly told by my father and his family that as a 
Christian, I was going to hell and burn in the flames of hell. 
I would wake up during the night with visions of my mother and 
family members burning and screaming for help.
    I was not allowed to eat at the family table because I was 
Christian. Instead, my father and stepmother had me eat on the 
floor. I did not understand why I was treated so badly. All I 
know is that my father and his family hated Christians and 
hated my American mother for wanting a divorce. Even though 
phones were removed from the house, and special things were 
done so that I could not use the phone, I managed to dial 
internationally and reach my mother.
    My phone calls were tapped by my father and stepmother and 
I was beaten every time they found out I made a secret phone 
call to the United States. All throughout this time, my mother 
was in constant contact with the State Department and the 
American Embassy. She even sent letters to as many officials 
she could reach. And even to the President and First Lady. 
Along with letters, she sent tapes of my conversations with my 
mother where I was describing the physical and emotional abuse 
I was undergoing.
    There were times that I was scared to wake up in the 
morning because I knew I would get beaten. I would like to 
share some excerpts of the conversations I had with my mom that 
were taped and sent to the American Embassy in Riyadh and to 
numerous officials. No one paid any attention to my sufferings. 
Please play the tape.
    [Tape played.]
    [The information referred to follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Burton. Does that conclude your testimony, or do you 
have more?
    Ms. Dria Davis. Oh, I have more.
    Mr. Burton. Go ahead.
    Ms. Dria Davis. My father would call me names such as 
fatso, donkey, stupid bitch and tell me he wished I would die 
and burn in the flames of hell. I remember asking my mom if I 
could jump out of my father's car and run to a policeman for 
help or try to escape and take a taxi to the American Embassy. 
My mother warned me not to do that. She told me that not even 
the American Embassy would help. I could not understand why my 
country would let me down and not help me. I did not want to be 
there. I had no right to be there.
    Yet, no one was willing to do anything about it. I was 
lucky that my grandmother was able to sell her house and give 
up everything she owned to raise $200,000 for my escape. I was 
putting myself in danger knowing that if my father caught me 
escaping, he would beat me to death. I still risked it. I would 
have rather died than to have lived as a woman in Saudi Arabia.
    I am 16 years old now, and just completed my sophomore year 
in high school. Sometimes I think that if I were not able to 
escape from Saudi Arabia, I would be in a forced marriage to a 
second cousin and with several children. Even though I have 
been back in the United States for 3 years now, I think about 
what happened to me all the time. I was one of the lucky ones, 
maybe the only American child that was able to escape from 
Saudi Arabia. All I want to do now is to find a way to help 
other American children and women that have been kidnapped to 
Saudi Arabia to get back home. Thank you.
    [The prepared statement of Ms. Davis follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Burton. Well, all of your testimony has been heart 
rending. I'm sure everybody feels that way. I wish every Member 
of Congress were here to hear it instead of just those who are 
here right now. Let me ask you just a few questions.
    Ms. Roush, you spent what, $300,000 on unsuccessful 
attempts to get your girls out? Is that what you estimate?
    Ms. Roush. The cost of mercenaries and all the other costs 
of flights and all the other--probably more than that.
    Mr. Burton. More than that. You've actually paid 
mercenaries to try to get them out?
    Ms. Roush. I hired three teams of mercenaries.
    Mr. Burton. And they were unsuccessful.
    Ms. Roush. Two men died trying to rescue my daughters just 
before the Gulf war.
    Mr. Burton. Tell me about that real quick. Two men who were 
trying rescue your daughters were killed.
    Ms. Roush. Yes. I hired a detective from Boston. After all 
3 years of the State Department failed, I hired a man from 
Boston who had good results in covert operations. And he was 
there for 2 years trying to figure out a way to get my 
daughters. One of his friends that worked for British 
intelligence was there and he was married to a woman from 
Pakistan and she worked at the Saudi school system. She was a 
teacher and she found my girls.
    Alia was 10 at the time and she was trying to find out if 
the girls would leave with Mr. Ciriello, so she found Alia in 
the school and she said would you leave and go home with your 
mommy. Do you want to go home and be with your mommy? And Alia 
said yes, I want to go home and be with my mommy, but Allah 
will kill my whole family if I leave. So she wouldn't leave 
with Ed at the time and then he found another group of people 
that were going to take them out after the Gulf war started. 
And they were on their way to get the girls on January 18, 1991 
and two of the men were killed. The Saudi police did not know 
what they were doing, but they were killed in a crossfire 
between the Saudi police and another vehicle. And then I hired 
two more teams and they just basically took my money and did 
nothing.
    Mr. Burton. Currently, does the State Department have a 
plan for getting your daughters out of Saudi Arabia?
    Ms. Roush. The State Department never had a plan to get my 
daughters out of Saudi Arabia. Their plan was to ``talk to the 
girls.'' They haven't even been able to talk to the girls. And 
then they told me, well, maybe we'll talk to the girls to see 
if they want to leave. Well, the girls can't tell them if they 
want to leave or not the girls are not free. They can be 
beaten. The girls have no freedom there to say their mind to 
speak the truth.
    What I am asking is that the girls, the women be allowed to 
come to the United States. Their husbands can come if they 
like. I would like the marriage of my youngest daughter to be 
annulled. If my daughter Alia is pregnant or has a baby and if 
her husband loves her, he can live in the United States. They 
should be able to come here and decide where they want to live. 
They can go back to Saudi Arabia if they don't like it here. 
But in Saudi Arabia, they are not free to come here.
    Mr. Burton. And do you know when the last time the State 
Department saw your daughters?
    Ms. Roush. The State Department, they saw Aisha. Gheshayan 
would never let them say Alia because Alia was the oldest and 
she wanted to come home. And Aisha wanted to come home, but she 
spoke no English. They saw Aisha I think in 1996.
    Mr. Burton. I know this is your opinion, but if your 
daughters met with the State Department and they told them that 
they wanted to live with you in the United States, do you have 
any idea what would happen based upon your experience?
    Ms. Roush. They would meet with the American Embassy in 
Riyadh, and if they said--I mean, even if they went to the 
Embassy and they said, I want to come home, they would refer 
them to Saudi law. They would not issue them U.S. passports. 
I've asked Robert Jordan----
    Mr. Burton. Even though they are citizens?
    Ms. Roush. Absolutely. They are under Saudi law. I've been 
told that by the Embassy. I said, why--Robert Jordan, who is 
the present U.S. Ambassador, I wrote to him all the time, 
please, please, please do this. I've written to all of them for 
16 years, but recently Robert Jordan, and I said, why not just 
let me come into the country when Alia was first married last 
year and let me meet her husband and talk to them and work out 
a plan. Maybe you can go with me to some of the powerful 
princes and we can persuade them to let the girls leave. At 
least let me talk to the girls. No response. If the girls 
mentioned to the Embassy that they wanted to leave, they would 
be turned out, as Monica was, back to their Saudi masters.
    Mr. Burton. Now, Ms. Stowers, is there any plan that you 
know of by State Department to do something to help your 
granddaughters?
    Ms. Stowers. Amjad would be delighted to come home.
    Mr. Burton. But you know of nothing the State Department is 
doing to help?
    Ms. Stowers. I can't hear him.
    Ms. Roush. Is the State Department doing anything to help 
Amjad?
    Ms. Stowers. Not anything at all.
    Mr. Burton. Well, let me just ask one more question then of 
Ms. Davis. The State Department told you then that they would 
not help your daughter get out of the country, as I understand 
it, when you talked to them?
    Ms. Hernandez-Davis. That's correct, and they had a copy of 
her passport on file at----
    Mr. Burton. And they knew that she had been kidnapped?
    Ms. Hernandez-Davis. Yes. They had all the documentation 
showing, and I was there myself. I'm an American. Here is my 
passport. You know that my daughter is an American citizen.
    Mr. Burton. Do they have the court orders and all of that, 
too?
    Ms. Hernandez-Davis. They had the court orders.
    Mr. Burton. And so they knew that she had been kidnapped?
    Ms. Hernandez-Davis. Exactly.
    Mr. Burton. And she was being held against her will, and 
they didn't do anything?
    Ms. Hernandez-Davis. Yes. And they knew of the situation.
    Mr. Burton. Now, what did they tell you? Did they tell you 
that----
    Ms. Hernandez-Davis. We're visitors here. We can't help 
you.
    Mr. Burton. They said they are visitors there?
    Ms. Hernandez-Davis. Yes. The American Embassy in Riyadh, 
they are just visitors, and I couldn't understand why I 
couldn't take my daughter. We were both American citizens.
    Ms. Roush. They've told me we cannot tell the Saudi 
Government what to do.
    Mr. Burton. Mr. Ose, do you have any questions?
    Mr. Ose. Yes, I do, Mr. Chairman. Ms. Roush, you have 
mentioned in your testimony that you got a phone call from the 
State Department yesterday advising you not to testify?
    Ms. Roush. No. Advising me that my daughter Aisha was 
married in an arranged marriage recently.
    Mr. Ose. Who at the State Department called you?
    Ms. Roush. Her name is Kim Richter from American Citizen 
Services.
    Mr. Ose. Kim Richter, R-I-C-H-T-E-R?
    Ms. Roush. T-E-R, probably.
    Mr. Ose. Has she got a phone number?
    Ms. Roush. She's at the Office of American Citizen 
Services. I don't know that number offhand.
    Mr. Ose. American Citizen Services.
    Ms. Roush. Ms. Andruch is here today and so is Mr. Crocker 
from the Near Eastern Bureau. They are from the department. 
They're right here sitting behind me.
    Mr. Ose. We might have them--I'm not sure who is on the 
next panel.
    Now, you mentioned in your testimony also Walter Cutler was 
aware of this situation?
    Ms. Roush. Walter Cutler was the first U.S. Ambassador to 
Saudi Arabia. He was given orders by the Department of State 
not to get involved.
    Mr. Ose. That was the cable he received back?
    Ms. Roush. Yes. There's several of them.
    Mr. Ose. Do you know who sent him that cable?
    Ms. Roush. I have the cables in the office. They are signed 
by--oh, what is that--legal--the legal affairs, legislative 
affairs.
    Mr. Ose. Was there a name on it?
    Ms. Roush. No. I wish I knew. I've been trying to find that 
person's name for years. I'd like to track that person down.
    Mr. Ose. Have you provided the committee with a copy of 
that cable?
    Ms. Roush. Yes, sir.
    Mr. Ose. And you mentioned a guy named Edward Walker?
    Ms. Roush. Ed Walker was the deputy chief of the mission at 
the time they were taken.
    Mr. Ose. In Riyadh?
    Ms. Roush. He worked his way up to Ambassador to Egypt and 
Ambassador to United Arab Emirates. He was recently the 
Assistant Secretary of State for the Near Eastern Bureau. He 
retired last year. He was a good guy. He tried to get the girls 
out. He was under Cutler's administration there.
    Mr. Ose. So he's retired now?
    Ms. Roush. Yes. He's now the president of the Mideast 
Institute here in Washington.
    Mr. Ose. OK. Now, Ray Mabus was an ambassador?
    Ms. Roush. Yes. He's a former Governor of Mississippi. He 
was Ambassador to Saudi Arabia from 1994 to 1996.
    Mr. Ose. Now, his practice had been to constrain the visas 
offered to the Gheshayan family?
    Ms. Roush. To the whole Gheshayan family which was very 
effective because it's a large wealthy family that comes to the 
United States all the time and----
    Mr. Ose. Do they have business interests in the United 
States?
    Ms. Roush. They have business interests. They have----
    Mr. Ose. Such as?
    Ms. Roush. They own a lot of things here I'm sure. I'm not 
sure all of the things that they own.
    Mr. Ose. Is there any way to find a record of what they own 
or don't own? Because it would seem to me that if you have--
your term was an active co-conspirator, and I think you--I 
think that is an accurate term. It would seem to me that under 
the law, if you have a violation of American statute and then 
you have people who actively worked to frustrate that, it would 
seem to me that some sort of financial sanction is possible.
    Ms. Roush. I agree. My ex-husband himself does not own 
property or any holdings in American companies, but his family 
probably does. And as a matter of fact, he has a relative who 
works for the Saudi Arabian Embassy here in Washington.
    Mr. Ose. American citizen or----
    Ms. Roush. No. He's a Saudi citizen.
    Mr. Ose. Now, you also mentioned Wyche Fowler, Jr.----
    Ms. Roush. Yes.
    Mr. Ose [continuing]. As the former Ambassador to Saudi 
Arabia.
    Ms. Roush. Yes.
    Mr. Ose. And that he had not been very helpful.
    Ms. Roush. Mr. Fowler is a criminal. He's responsible for 
the loss of my daughters in 1996 when Ray Mabus had the deal 
down with the Crown Prince.
    Mr. Ose. Now, one of the things that I find interesting in 
the information that I read was that a lot of the members of 
the State Department who retire end up being, if you will, 
employed as a consultant or otherwise----
    Ms. Roush. That's correct.
    Mr. Ose [continuing]. By some think tank or otherwise, and 
if you follow the money----
    Ms. Roush. That's right.
    Mr. Ose [continuing]. Through the funding for those think 
tanks, occasionally it comes directly from the Saudi 
Government. Is that----
    Ms. Roush. That's correct. The Mideast Institute funds 
that. The Saudis fund it. They give large amounts. So does--
Wyche Fowler now is the chairman of the board for the Mideast 
Institute. Walter Cutler is President of the Meridian Institute 
here in Washington. They all come around and play man about 
town and appear on these TV shows as experts on the Middle East 
and Saudi Arabia, and they receive large contracts. There is a 
beautiful article in this week's National Review, June 17th's 
issue by Rod Dreher about the previous U.S. Ambassadors to 
Saudi Arabia and how they are friends of Saudi Arabia forever.
    Mr. Ose. Mr. Chairman, are we going to have a second round 
of questions?
    Mr. Burton. Yes, if you would like.
    Mr. Shays, did you have--excuse me. Did you have any more 
questions?
    Mr. Ose. No. I'll be back on my second round.
    Mr. Burton. Mr. Shays, did you have some questions?
    Mr. Shays. As you all have told what are almost 
unbelievable stories, I leaned over to Doug Ose and said, I 
pity the Congressman that hasn't been responsive, and then I 
found myself wanting to go and call up my office to make sure 
we don't have any cases like this. We've had cases in Romania 
and other places where we've gotten the police in Romania to 
cooperate and circle the home and find the children and help 
send them home, but it is very difficult in the circumstance 
that you're in to be able to have the government respond.
    I want to ask Ms. Stowers is this the first time you saw 
that tape of your daughter? Can you hear me, Ms. Stowers? Is 
this the first time that you saw that tape?
    Ms. Roush. I think she has a problem with hearing. The tape 
just arrived.
    Mr. Shays. OK. So besides all of the emotional trauma that 
Ms. Stowers is going through, I believe that is the first time 
that she saw the pictures of her daughter.
    Ms. Davis, I'm not clear as to how long you were in Saudi 
Arabia.
    Ms. Dria Davis. Almost 2 years.
    Mr. Shays. I am also not clear as to how well you knew your 
father before you went to Saudi Arabia.
    Ms. Dria Davis. How what?
    Mr. Shays. How well you knew him. How many years was he 
with you as a parent?
    Ms. Dria Davis. I only visited him during the summer 
vacations.
    Mr. Shays. And you would, on previous occasions, be able to 
come home? I'm sorry. It is my fault. I need you to tell me how 
much contact you had with your dad before your mom and dad were 
separated. How old were you?
    Ms. Dria Davis. Two.
    Mr. Shays. Two and from 2 on, then your relationship with 
your father was episodic. It was periodic. It was not constant.
    Ms. Dria Davis. It was just every summer and every summer 
when I would go visit his family in Saudi Arabia or London or 
we would travel, I would always be able to call my mom. There 
were never any problems until maybe his family pressured him 
when I turned 11 and when I went there, he just didn't let me 
back.
    Mr. Shays. So you always felt that you could leave.
    Ms. Dria Davis. Right. And then 1 day he just took all my 
rights away, and he just told me that I could never see my mom 
again, that I had to go to school there, and everything just 
changed. And I didn't understand. I was little.
    Mr. Shays. Well, you're a remarkable young lady, in my 
judgment, to be able to make a decision that you were going to 
take a particular stand, and one of the stands you took was 
that you were not going to profess to be part of the Muslim 
faith. Is that one of the stands you took?
    Ms. Dria Davis. Yeah.
    Mr. Shays. Can you tell me other stands that you took while 
you were in Saudi Arabia, held captive by your dad?
    Ms. Dria Davis. Well, I didn't want to learn Arabic, and 
when he would give me a tutor every Saturday, I wouldn't see 
her. I wouldn't want to talk to her. I would just sit there. 
The tape that you guys heard was one of the days that I wasn't 
listening to the tutor and he got upset and he beat me, and if 
I didn't do as I was told, he would beat me. I wouldn't wear 
the vails, and he would beat me. I wouldn't pray. I wouldn't 
follow his religion, and I would call my mom and he would find 
out about it until I figured out how to dial with her calling 
card, because it would show up on his phone bill that I called.
    So I would still do it and he would still beat me, but I 
had to do it, because I wanted to leave and I didn't care. 
Because nobody helped me. I had to help myself. Everybody let 
me down.
    Mr. Shays. Did you have any friends in Saudi Arabia that 
you could share confidences with?
    Ms. Dria Davis. I only had one, and she went to my school. 
I had met her. Her mother was Egyptian. Her father was 
American, and she--like, I would talk to her and she would help 
me sometimes try and plot things, and her mom would talk to my 
mom and then deliver messages to me since my father wouldn't 
let me talk--or see my mom when she was there. Then when she 
transferred to a different school the following year, my father 
didn't let me talk to her. When she would call me, he would 
hang up on her and he would never tell me and when I would want 
to go hang out with her, he wouldn't let me. He wouldn't let 
her come over and sleep at the house or me go over there and 
visit her. And then I never heard from her.
    Mr. Shays. Thank you, Mr. Chairman. My time is up now, but 
my second round I'd like to ask Ms. Roush some questions.
    Mr. Burton. Sure. Let me ask Miriam Davis, exhibit 12 is a 
cable. Do we have that exhibit? Can we put that up, exhibit 12? 
Exhibit 12 is a cable from Riyadh to Washington describing a 
visit an Embassy official had with you and your father while 
you were being held in Saudi Arabia. The State Department 
staffer says that you wanted to stay. Riyadh and that your 
father was clearly fond of you. Do you think that they didn't 
understand, and what did you have to say in front of your 
father to them? Did you tell them that you wanted to stay? 
Saudi Arabia?
    [Exhibit 12 follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Dria Davis. No. Those words never came out of my mouth.
    Mr. Burton. What did you say? Tell us a little about that 
conversation.
    Ms. Dria Davis. They asked me questions that had nothing to 
do with anything, like if I ate breakfast in the morning or if, 
you know, what I did on my summer vacations. They asked me 
stupid questions that had nothing to do with anything. So they 
didn't really do anything, and whenever I would try and contact 
them, the most they would offer me is to talk to my father, but 
they didn't understand that if they talked to my father, my 
father would kill me.
    Mr. Burton. You couldn't tell them that while you were----
    Ms. Dria Davis. I couldn't say anything. All of the visits 
that happened were with him.
    Mr. Burton. Didn't they understand the culture over there 
and the possibilities of harm to----
    Ms. Dria Davis. I guess not. I mean----
    Mr. Burton. That is amazing to me the people who work at 
the Embassy do not understand the culture.
    Ms. Dria Davis. Yeah. Well, my father was in the room with 
me. Like, he was watching every word I said. I couldn't say 
anything.
    Mr. Burton. Did you go to the State Department for help, 
Miriam, to--well, you did ask the State Department to get your 
daughter out and they just said they couldn't, that they were 
guests in the country.
    Ms. Hernandez-Davis. They just said that they would ask the 
American Embassy in Riyadh to conduct a welfare and whereabouts 
visit.
    Mr. Burton. Yeah. Now, exhibit 23, which I won't--you can 
put that up there, but I'm not sure anybody can read it; the 
print is so small but it says exhibit 23 is an e-mail from a 
State Department official in Riyadh, and he says that he's 
irritated that Dria did not tell him about the abuse she was 
suffering while she was in Saudi Arabia. Do you have any 
comments about that other than she was afraid to say something?
    [Exhibit 23 follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Hernandez-Davis. And I don't know what they are 
referring to or what occasion. Maybe--are they referring to 
that one and only welfare and whereabouts visit that we did?
    Mr. Burton. I don't know. I don't know. It just says that 
he expressed some irritation that your daughter didn't tell him 
about the abuse that she was under. Was that because you were 
afraid? When you were talking to the State Department official, 
did you tell them about the abuse at all, that your father was 
beating you or any of the things that happened?
    Ms. Hernandez-Davis. Were you allowed to talk to the State 
Department official, that meeting at the hotel?
    Ms. Dria Davis. No. My father was watching me.
    Mr. Burton. So you were afraid to say something?
    Ms. Dria Davis. Yeah.
    Mr. Burton. I think that is something we really ought to 
make sure is clear on the record and that----
    Ms. Dria Davis. If the State Department wanted to ask a 
question to somebody, I mean, they can't do it in front of a 
father. Obviously I'm complaining about my father, and then 
they're going to sit there, you know, and----
    Mr. Burton. And he's going to take you home, and then 
you're going to be in big trouble.
    Ms. Dria Davis. Exactly and that was even if I didn't say 
anything.
    Mr. Burton. He would beat you anyhow?
    Ms. Dria Davis. Yeah, just for no reason.
    Mr. Burton. Well, I think that we ought to make sure and 
talk to the State Department officials on the next panel and 
ask them if the people who are working in the Embassies around 
the world, especially Saudi Arabia, if they are conversant with 
the culture of those countries. And if they are, then they 
ought to know that the people in question aren't going to be 
able to say to a clerk or a bureaucrat there that they are 
being beaten by somebody that has kidnapped them and taken them 
out of the country, out of the United States or away from their 
parents.
    Ms. Hernandez-Davis. But they can only conduct those visits 
if the father consents.
    Mr. Burton. And he has to be there?
    Ms. Hernandez-Davis. He has to be there and he controlled 
the whole meeting.
    Mr. Burton. Well, then we ought to find out how the State 
Department people are educated as far as working in these 
countries.
    Ms. Roush. Because they have to get the father's 
permission. That is the whole point. They ask the father, the 
kidnapper, if they can talk to the children. In my case, the 
father never let them do it, and they never pursued it.
    Ms. Hernandez-Davis. I think a strong point would be that 
the visa--the pressuring of the Saudis----
    Mr. Burton. With the visas?
    Ms. Hernandez-Davis. With the visas and putting travel 
restrictions, that----
    Ms. Roush. And selected visa restrictions of Saudi Arabians 
coming into this country.
    Mr. Burton. Well, we'll pursue that.
    Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman. Ms. Hernandez-Davis, I am 
looking at exhibit 18. I am looking at exhibit 18, and I'm 
fascinated by it. It's a letter from the kingdom of Saudi 
Arabia to the Ambassador at the Embassy of the United States of 
America. To summarize, my goodness, Saudis--it's an after-the-
fact letter pointing out--or alleging that Yasmin had been 
kidnapped at her school door and was transported with the 
knowledge of the U.S. Embassy in Riyadh to the United States of 
America by means of U.S. military aircraft, where she was 
handed to the U.S. Air Force, who then handed her to her 
mother. The Saudis are objecting to this. Such action boldly 
violates the diplomatic norms and traditions. We see the only 
way to return things into their right path is by working 
diligently to ensure a prompt return of the Saudi citizen, that 
be Yasmin, to her family and country, the kingdom of Saudi 
Arabia.
    Are you aware of this letter?
    [Exhibit 18 follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Hernandez-Davis. We saw it last night, and we were 
laughing for about 10 minutes. As a result of this letter, that 
the kingdom of Saudi Arabia is asking our government to return 
her.
    Mr. Ose. Dated October 9, 1999.
    Ms. Hernandez-Davis. Yeah. And I think that our Embassy--
our government should have said something a little bit 
stronger, not apologize.
    Mr. Ose. Did we respond? Do you know if we had a response 
to this? What exhibit is----
    Mr. Burton. 18.
    Mr. Ose. We're looking at exhibit 18, Mr. Chairman, which 
is apparently the request or demand, however you wish to 
interpret it, of the kingdom of Saudi Arabia for the return of 
this young woman to Saudi Arabia.
    Mr. Burton. Do you have the response from the State 
Department?
    Mr. Ose. And on exhibit 21----
    Mr. Burton. Let me see 21.
    [Exhibit 21 follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Ose [continuing]. Is our response.
    Ms. Hernandez-Davis. There's a response from our----
    Mr. Ose. ``The Embassy has the honor to, in the ministry, 
that Mr. Shalhoob's allegation of Embassy complicity in the 
kidnapping of Yasmin Shalhoob is totally false. The Embassy 
wishes to state that it does not approve of illegal, indeed 
criminal behavior, under any circumstances.'' My goodness, here 
is an interesting--it was wrong for Mr. Khalid Shalhoob to 
kidnap Yasmin from the United States in 1994 in direct 
violation of American court order awaiting custody--awarding 
custody of Yasmin to her mother. So there's clearly----
    Ms. Hernandez-Davis. But they are saying it's also wrong 
for Yasmin to have been kidnapped and brought to the United 
States. I don't understand that. And it's not wrong that she--
--
    Mr. Ose. Apparently, Mr. Chairman, I'm not as good a 
wordsmith apparently as some of our esteemed colleagues at the 
State Department, but clearly in their letter, they recognize 
that Yasmin was taken, kidnapped from the United States, and 
then they say it's----
    Mr. Burton. Then they say it's wrong for her to be 
kidnapped back, yeah.
    Mr. Ose. I don't understand. I mean, I'm going to be very 
interested in the next panel. I want to highlight one thing, 
Mr. Chairman. We are, in fact, not toothless in this manner. 
The Transportation Security Act that we passed last fall 
requires foreign airline carriers to submit manifests of 
passengers on the foreign carriers that are coming to the 
United States, and if it does not, the Transportation Security 
Act allows Customs to decline landing rights to those airlines. 
Of the entire pool, about 95 percent are complying with that 
requirement. Saudi airlines is not. Customs has a role here. 
There's a certain process to go through, but I would hope 
that----
    Mr. Burton. Let's draft a letter to Customs saying if they 
don't comply with the law, that they should be denied landing 
rights.
    Mr. Ose. Turn the planes back.
    Mr. Burton. Why don't we draft a letter to that effect, get 
that signed, get it sent out. Get a response from----
    Mr. Ose. Section 111 of TSA, I have it right here, Mr. 
Chairman. I yield back the balance of my time.
    I do have more questions. I hope we have another round.
    Mr. Burton. Why don't you continue. There's three of us 
here and we'll let you go for another 5 minutes.
    Mr. Ose. My friend from Connecticut is telling me be 
patient here.
    Ms. Stowers, in your testimony, you talk about having asked 
the U.S. Government for help. I'm curious if you know who 
specifically was asked for assistance. What elected official or 
State Department official was asked for help?
    Ms. Roush. She can't hear you.
    Mr. Ose. OK. Is the clerk here? Take that down to her and 
ask her to read it and respond. While we're waiting on that, 
Mr. Chairman, if I could, Ms. Davis, who at the State 
Department did you specifically ask for help?
    Ms. Hernandez-Davis. The person in charge of the children's 
issue, the Middle East section was Steve Sena.
    Mr. Ose. Steve.
    Ms. Hernandez-Davis. Sena.
    Mr. Ose. How do you spell that.
    Ms. Hernandez-Davis. S-E-N-A.
    Mr. Ose. Sena. Now, you also indicated that you talked to 
people at the FBI----
    Ms. Hernandez-Davis. Yes.
    Mr. Ose [continuing]. About this issue?
    Do you recall----
    Ms. Hernandez-Davis. They wouldn't prosecute. They wouldn't 
even write a report, because it was a parental kidnapping.
    Mr. Ose. Who did you speak with at the FBI?
    Ms. Hernandez-Davis. I don't remember right now. I can't 
recall the name. I'll----
    Mr. Ose. Do you have it?
    Ms. Hernandez-Davis. I'll get it to you.
    Mr. Ose. If you would.
    Who at the U.S. attorney's office did you speak with?
    Ms. Hernandez-Davis. They've changed. I'll have to get back 
to you.
    Mr. Ose. If you could get that out of your records, too.
    And, who is it that told you that they couldn't get 
involved because getting involved and failing hurts the 
department statistically?
    Ms. Hernandez-Davis. The U.S. attorney's office. They did 
not want to prosecute Khalid for international parental 
kidnapping.
    Mr. Ose. Because it hurt them statistically?
    Ms. Hernandez-Davis. Yes.
    Mr. Ose. What did they mean?
    Ms. Hernandez-Davis. Because they could not catch the 
felon. They couldn't prosecute him. They couldn't bring him in. 
He was in Saudi Arabia.
    Mr. Ose. They couldn't put a notch on their belt that they 
had gotten this guy?
    Ms. Hernandez-Davis. Right.
    Mr. Ose. So they washed their hands of it?
    Ms. Hernandez-Davis. Exactly.
    Mr. Ose. Now, you also asked a series of questions, can you 
help me get my daughter home? Can you--what about this? What if 
this scenario prevailed? What if that scenario prevailed?
    Ms. Hernandez-Davis. They had--right. I got, well, you have 
diplomatic immunity, don't you? Can we ride in your car to the 
airport? Can you, you know, drive us to Bahrain? It's only 3 
hours away.
    Mr. Ose. Who did you ask those questions? To whom----
    Ms. Hernandez-Davis. Sally Beth Brumbrey was the counsel in 
charge.
    Mr. Ose. Mary Beth Brumbrey?
    Ms. Hernandez-Davis. Sally Beth.
    Mr. Ose. OK. Do you know where Sally Beth Brumbrey is 
currently stationed?
    Ms. Hernandez-Davis. She was leaving Saudi Arabia to 
Australia, a post there.
    Mr. Ose. Thank you, Mr. Chairman.
    Mr. Burton. Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman. Mr. Chairman, I have to 
acknowledge, I wrestle with the fact that a country, Saudi 
Arabia, can't admit that 15 of the 19 terrorists on September 
11th were citizens of their country, and I also wrestle with 
the fact that somehow human rights don't seem to matter if 
abuse is based on religious faith.
    So I carry with me two pretty strong biases, and I wrestle 
with the fact that somehow we seem as a government, the 
administration perhaps, our State Department definitely, and 
Congress by the mere fact that all of us are just kind of 
getting into this issue because of your initiative, are 
wrestling with what for you--is it Ms. Roush?
    Ms. Roush. Roush.
    Mr. Shays. Ms. Roush that you have been dealing with this 
for 16 years.
    Ms. Roush. Yes, sir.
    Mr. Shays. And I just want to say to on behalf of--on 
whatever extent I can extend my apology to you as an official 
of government, I apologize to you.
    Ms. Roush. Thank you so much.
    Mr. Shays. And I thank you, Mr. Chairman, for giving us the 
opportunity to have to confront this issue. I would like to 
know specifically--and let me tell you what is of interest to 
me, because I think you take away your message. There is a bit 
of bitterness that I understand, but I just want to say it, 
because I'm not interested in this part of it. I don't care if 
a--frankly, in terms of this issue, whether a former Embassy--
Ambassador had an affair. What I do care about, though, is that 
your government has been totally nonresponsive to you, and I 
want to help undo that. I am concerned, though, after 16 years, 
your daughters will not know you. I don't even know if they 
speak English. Do you know if they speak English?
    Ms. Roush. This is what the State Department tells me. Last 
September I was able to speak to Aisha. This is only 10 months 
ago.
    Mr. Shays. And she is how old?
    Ms. Roush. 19. And she speaks very little English.
    Mr. Shays. And she is the married child?
    Ms. Roush. Well, they're both married. She was just married 
recently. And her father gave his cell phone number----
    Mr. Shays. She's not with the child. Your older child has a 
child?
    Ms. Roush. I don't know. I read that she was pregnant.
    Mr. Shays. I'm sorry. OK.
    Ms. Roush. I have no information about my daughters.
    Mr. Shays. I'm sorry. I interrupted you.
    Ms. Roush. I spoke to my daughter Aisha. Their father gave 
the Embassy his cell phone number, and I spoke to her once last 
September. And she said, hello, Mom, hello, Mom, in English. I 
love you, Mom. Ta ala hena Riyadh, come to Riyadh, Mom. I love 
you. I love you. The father took the phone away from her, and 
he said, that is it. She's not allowed to talk to you anymore, 
and then he proceeded to marry her off. She's just a kid.
    Mr. Shays. The challenge you now have is that this may be--
your daughter may--if she is pregnant, hopefully gives a 
successful birth to a child, then she has an additional 
attachment to----
    Ms. Roush. That's right. She's put in the middle like I was 
put in the middle. They're going to be forced--they've 
impregnated my daughters, and now they're going to force my 
daughters--they've done this with other women in the Middle 
East, American women. They did it in Yemen with two sisters 
from Britain, where they impregnate these women, and then they 
say, OK, you can go back to England or back to the States, but 
your children have to stay here because they're Saudi citizens. 
No. I'm not going to accept that. My daughters did not choose 
to be impregnated. My daughters have to come home. Love 
transcends everything.
    Mr. Shays. Let me ask you this. They were again how old 
when they were--since you really had much interaction with your 
children, how old were they?
    Ms. Roush. I saw my children for 2 hours in 16\1/2\ years.
    Mr. Shays. I just want to know when they were--I know you 
said this once, and I apologize. I can mix up----
    Ms. Roush. I saw them in 1995.
    Mr. Shays. I don't care right now when you saw. I wanted to 
know when you were their mother with them 100 percent of the 
time.
    Ms. Roush. 16\1/2\ years ago.
    Mr. Shays. I understand. And how old was that, 16\1/2\ 
years? Do the math for me, please. How old were they?
    Ms. Roush. They were 7 and 3-1/2. You know what Aisha told 
me in Riyadh in 1995? This is the one who was 3-1/2. You know 
what she told me? She spoke no English. I had a translator. She 
was 13. She said, I don't remember you, but I love you. How can 
you put any amount of time? Do you know what it's like to be a 
mother?
    Mr. Shays. I guess what I'm trying to ask is----
    Ms. Roush. You can't ruin that love.
    Mr. Shays. I guess what I'm trying to ask, and you 
obviously wrestle with this, after 16 years, 16\1/2\ years, 
when they are placed--let's just say you get what you want, 
they're put in a neutral place.
    Ms. Roush. Yes.
    Mr. Shays. After 16\1/2\ years, do you have the confidence 
that they would say, I want to come back to the United States; 
I want to be with you?
    Ms. Roush. They said it after 10 years, and they will say 
it after 16\1/2\ years, and they will say it after 60 years. 
I'm their mom. Aisha said--she was 3\1/2\ when she was taken--I 
don't remember you, but I love you, and she threw her arms 
around me. And then after--last September, I love you, I love 
you, come here, Mom. I'm the mom.
    Mr. Shays. Do you have any sense that the 7-year-old helped 
her younger sister of 3\1/2\ understand how she was taken away? 
The 7-year-old would remember that.
    Ms. Roush. I asked Alia that when I saw her, and I said, do 
you remember what happened? And she said, he told us you left 
us here, and I said, but you know that is not true, Alia. And 
she shook her head and she said yes. She remembered how she was 
taken.
    Mr. Shays. OK. So let me get to the issue of what--and this 
may seem silly that I'm asking, but I want it to be part of the 
record, continuing with what the chairman has asked you. I want 
to know specifically what our government right now is doing to 
help you. I want to know----
    Ms. Roush. They're doing everything they can to deflect and 
they would hope that I would go away back to Sacramento and 
leave them alone.
    Mr. Shays. But you're not going to do that.
    Ms. Roush. No.
    Mr. Shays. OK. We know that. That we hope won't happen, and 
that's good that it won't happen. So what specifically is the 
government doing? Tell me, even if it's as puny as you can 
think of, tell me the best thing right now that the government 
of the United States, your government, is doing to help bring 
your daughters back home.
    Ms. Roush. Nothing. Nothing.
    Mr. Shays. What is the best that you can say that Congress 
is doing right now?
    Ms. Roush. They're having this hearing.
    Mr. Shays. Well, there's a lot more we can do with it, Mr. 
Chairman.
    Mr. Burton. It seems to me that one of the things that 
could be done would be to have these ladies and their children 
come back to the United States. They're American citizens. They 
have the right to choose. They should have the right to choose 
whether they want to come back, and--with their children. And 
then when they're in the United States, if they choose to go 
back to Saudi Arabia, then they can make that decision as free 
American citizens. And it seems to me the State Department 
ought to be working toward that end, just to bring them back 
here and let them decide. If they, at this point after 16 
years, want to stay as their mother says, then they should be 
able to stay, and if they want to go back, they will have 
that--they ought to have that right to choose, but for the 
State Department to do nothing for 16 years because they're 
on--they're guests on Saudi soil--I mean, the American Embassy 
any place in the world is American soil.
    Ms. Roush. Not in Saudi Arabia.
    Mr. Burton. Well, it's American soil whether they want to 
admit it or not. It's American soil, and if our Embassy people 
say we're guests here and--the Saudis are not allowed to come 
into an Embassy, nor is any other government allowed to come 
into the Embassy of our country without permission, because 
it's American soil.
    Mr. Shays. Nor can we go in theirs.
    Mr. Burton. Nor can we go in theirs here in the United 
States, and so for U.S. Embassy over there to say that they're 
guests and that they can't do anything is just not accurate. 
They may be--the Saudi Government could kick us out. They could 
tell us--our officials to leave, but they know full well there 
would be retaliation if that ever happened because their 
Embassy is here in the United States.
    Ms. Roush. They did it to Hume Horan, who is sitting right 
behind me.
    Mr. Burton. They did it to what?
    Ms. Roush. Ambassador Hume Horan, who's sitting right 
behind me.
    Mr. Burton. That's right. They can tell them to leave.
    Ms. Roush. They asked him to leave, yeah.
    Mr. Burton. They can tell them to leave, but if you have a 
President and a government that is going to stand by you and if 
you have a State Department that is going to stand by you, I 
think that we could face them down on this issue. We're the 
biggest and the strongest country in the word, and they have an 
awful lot of investments here and they have a lot more to lose 
by not dealing with us than us dealing with them. In any event, 
do you have any more questions?
    Well, I want to get to the State Department as soon as 
possible. Do you have more questions, Chris, Mr. Shays?
    Mr. Shays. I may.
    Mr. Burton. OK. Go ahead.
    Mr. Ose. Thank you, Mr. Chairman. Ms. Stowers, I--Ms. 
Roush, would you tap her, the question I gave her there, could 
she answer that, please?
    Ms. Stowers. OK. Phil Gramm from Texas, Bill Archer and Tom 
DeLay made a speech in Houston, and we went to that one and 
begged him for help, but he wasn't interested. He said that 
wasn't his job to interfere with custody battles. It was not 
part of his job. That's basically what we got from each Senator 
or Congressman that we talked to. They have each one said that 
was not part of their job, is to interfere in domestic 
problems.
    Mr. Ose. Ms. Roush, in your testimony I believe you 
indicate that the State Department considers your--on page 34 
of your testimony, the State Department still refers to your 
daughters as Saudi citizens?
    Ms. Roush. Yes, sir, yes. And they've told me repeatedly 
that let's look at it from a Saudi's point of view, and they 
refer to the Saudis as their clients.
    Mr. Ose. OK. Those are the two questions I had, Mr. 
Chairman. Thank you.
    Mr. Burton. Thank you.
    Mr. Shays.
    Mr. Shays. Mr. Chairman, it is somewhat open-ended, but I'd 
just be interested. Is there any question that we should have 
asked you that you want to put on the record?
    Ms. Roush. Who are you addressing----
    Mr. Shays. Any of you here. Is there any question that you 
wish we had asked that we didn't ask that you would like to put 
on the record?
    OK. Thank you, Mr. Chairman. I guess I would just like to 
say thank you, but I would like to say to any of the panelists, 
besides this committee taking on this task, if you don't feel 
that your individual Congressman or woman is responding to this 
issue and you would like to ask us to take on this case, my 
office would be happy to do that.
    Ms. Roush. Thank you.
    Mr. Shays. And I would like to thank Ms. Davis for being 
here, and I'd like to say that I am very impressed by your 
strength of character.
    Ms. Dria Davis. Thank you.
    Mr. Shays. And obviously by the two mothers that are here 
and their extraordinary strength of character, and by the 
grandmother. Thank you, Mr. Chairman.
    Mr. Burton. Well, I want to thank you very much. You're 
welcome to stay and listen to the State Department. We're going 
to be asking them questions here in just a minute. Don't give 
up. We're going to hang tough and see if we can't do something 
to help you out.
    We'll now ask the State Department officials to come. We 
have testimony from the second witness panel, Hume Horan, 
Daniel Pipes, Doug Bandow, Ryan Crocker and Dianne Andruch. Did 
I pronounce that right, Dianne Andruch? Is that right?
    Would you please approach the table? We need to swear you 
in. Are you all there? Who are we missing?
    Mr. Pipes. Ambassador Horan went outside.
    Mr. Burton. Would you raise your right hands.
    [Witnesses sworn.]
    Mr. Burton. We'll start with--just go right down the line. 
Ambassador Horan, do you have a comment you would like to make 
or statement?

   STATEMENTS OF HUME HORAN, FORMER U.S. AMBASSADOR TO SAUDI 
  ARABIA (1987-88); DANIEL PIPES, DIRECTOR, MIDDLE EAST FORM; 
  DOUG BANDOW, SENIOR FELLOW, CATO INSTITUTE; DIANNE ANDRUCH, 
   DEPUTY ASSISTANT SECRETARY FOR OVERSEAS CITIZEN SERVICES, 
    DEPARTMENT OF STATE; AND RYAN CROCKER, DEPUTY ASSISTANT 
    SECRETARY FOR NEAR EASTERN AFFAIRS, DEPARTMENT OF STATE

    Mr. Horan. Mr. Chairman, I do not have a prepared 
statement, but I'll make some brief comments with your 
permission and that of the members of the committee. My name is 
Hume Horan. Born in D.C., resident in D.C. I joined the Foreign 
Service in 1960. Retired in 1998. I've had 10 assignments 
overseas, all of them in Africa and the Arab world. I was a 
Deputy Assistant Secretary for Consular Affairs back in 
Washington. Also taught African and Middle Eastern history at 
Howard University and at Georgetown. I served two times as our 
Ambassador twice in Saudi Arabia. I was our deputy chief of 
mission for 5 years from 1972 to 1977, and then I served as our 
Ambassador in Riyadh from August 1987 till March 1988.
    The committee asks a number of questions. Have we done 
enough? Do our consuls do enough to protect American citizens 
in Saudi Arabia? As a former Deputy Assistant Secretary in the 
State Department in consular work, the first responsibility of 
an Embassy overseas is the protection and welfare of American 
citizens. Everything else comes second.
    I have seen our consuls show courage, imagination and 
extraordinary devotion in order to helping out their American 
citizens in distress. In Saudi Arabia, I've seen our consuls do 
extremely good work for Americans who were jailed for a number 
of supposed crimes, sometimes contract disputes. Sometimes 
really much more serious crimes, being accused of manslaughter 
or worse, and the Embassy managed to get these people around 
the cape.
    Family abduction cases are harder. The Shari'ah law under 
which Saudi Arabia runs its personal status affairs gives 
virtually total dictatorial power to a husband, and this is 
made even harder in the case of VIP families. The Saudis simply 
shrug their shoulders and say oh, well, our law, that is God's 
law, is on our side and we've got the people. So buzz off. This 
was certainly my experience when after meeting with Senator 
Dixon here in Washington before I went out to Saudi Arabia as 
our Ambassador, I made my first business call on the Governor 
of Riyadh, Prince Salman, a very powerful man, a full brother 
of the king. When I asked for the appointment, Prince Salman 
said, you know, what do you want to see me about? I said there 
are a number of issues, including the issue of Ms. Roush. He 
said--or his assistant said, well, we'll see Ambassador Horan, 
but if he's going to raise the Roush case, he will not see him, 
just will not see him.
    I had a number of issues to talk with the prince, so I went 
to see him, and at the end of the meeting I said, now, your 
Royal Highness, you know, there is one issue that you did not 
want me to talk about, but it's very much on both of our minds, 
and you're going to be hearing more on this question because it 
is a very important one to the Embassy.
    The question of should these matters be raised to a State-
to-State level, it is extremely important that they are, 
because my strong feeling is that this issue is stuck at a 
level much higher than that of an ambassador in Saudi Arabia.
    There's very little that an ambassador can do. If they're 
just going to brush you off saying, please, you know, buzz off. 
I think Ambassador Mabus had a tremendous good idea, 
withholding visas. And I know this is against visa regulations 
and all of that, but all around the world, consuls are using 
their visa power in imaginative and creative ways in order to 
make life better for American citizens. I can cite examples 
where Americans who are unjustly held were sprung because an 
imaginative and courageous consul used his diplomacy in order 
to get that to happen.
    What kind of pressures can we exert on the Saudi 
Government? The point of Saudi Arabian airlines not providing 
manifests for its flight, that is astonishing. I thought this 
has been--from what I read, I thought it had been done for all 
airlines. The issue of visas is a very good issue also.
    Finally, it really astonishes me that the father of Ms. 
Roush's children could come to the United States. The fact that 
he has a diplomatic visa or a diplomatic passport doesn't 
entitle him to anything whatsoever, absolutely zero under 
American law, just the kind of politeness that we should accord 
to all foreign visitors in our country.
    Should this issue be a factor in evaluating our current 
relations with Saudi Arabia? Of course it should be. We give 
respect to foreign nationals visiting our country. We have a 
right to expect that they should treat our citizens with equal 
respect. Our relations with Saudi Arabia should be based on 
considerably more than they sell oil and they recycle petro 
dollars and we provide arms and a shoulder to cry on in a very, 
very dangerous part of the world. It is a matter of mutual 
respect, and I think in the case of these tragic stories that 
we have been hearing this morning, the issue of respect for 
American citizens has been very deficient.
    I would be very glad to answer questions insofar as I'm 
able, Mr. Chairman. Thank you very much.
    Mr. Burton. Well, I will have some questions since you were 
a former Ambassador and State Department official, so we will 
have some questions for you.
    Dr. Pipes.
    Mr. Pipes. Thank you, Mr. Chairman. This is the Government 
Reform Committee, and I think we should look at the U.S. 
Government performance. I have prepared a fairly lengthy 
testimony, and I will attempt to summarize it. I will argue 
that the key question is why the State Department and other 
agencies of the U.S. Government have done so little to support 
the right of U.S. nationals abducted to Saudi Arabia. I shall 
try to account for this hesitance by noting that it fits into a 
much larger pattern of caution and even obsequiousness that 
has, for decades, characterized Washington's relations with 
Riyadh. Over and over again, the U.S. Government has made 
unwanted and unnecessary concessions to the kingdom of Saudi 
Arabia.
    One can see this obviously in the case of children that 
we've been discussing and hearing this morning, but there are 
many other cases. Let me quickly mention three very important 
cases. There is the case of the status of American women in 
Saudi Arabia. It has been the practice now for a decade to have 
female military personnel of the United States who are offbase 
to wear abayas, the head-to-foot black covering, to have to sit 
in the back of cars and to have to be escorted by male military 
personnel. This is against everything we stand for. I'm happy 
to report that just a month ago on May 14th, this House voted 
unanimously to end--to prohibit the Pentagon from formally or 
informally urging servicewomen to wear abayas, but here we have 
a problem. For 10 years, American servicewomen were subjected 
to a regiment that is unique to Saudi Arabia.
    A second example having to do with women is that just 2 
months ago, Crown Prince Abdullah was traveling to Crawford, 
TX. He insisted, or his entourage insisted that no female air 
traffic controllers be in control of the plane. Not only did 
the U.S. Government concede this point, but hid it afterwards.
    A second question has to do with Christians. The practice--
--
    Mr. Burton. Excuse me. They hid it afterwards, you say?
    Mr. Pipes. Yes. When queried about this manner, both the 
FAA and the State Department joined with the Saudi foreign 
minister in flat out denying that the Saudis ever asked for 
exclusively male controllers.
    Mr. Burton. Do you have documented evidence?
    Mr. Pipes. Yes, I do.
    Mr. Burton. We'd like to have that.
    Mr. Pipes. The quick evidence would be Dallas Morning News, 
April 27, 2002.
    The second issue would be the practice of Christianity in 
Saudi Arabia. We've had many examples where American officials 
have acquiesced to the Saudi demand that there be no formal 
public practice of Christianity. The most spectacular case was 
just over 10 years ago when first President Bush was told by 
the Saudis he could not say grace before the Thanksgiving meal 
at the--the Thanksgiving meal he was to have with the American 
troops building up for the war with Iraq on Saudi soil, and so 
the President went to international waters and had Thanksgiving 
meal there.
    More dramatically, we see that the U.S. Embassy in Saudi 
Arabia has generally acquiesced to the Saudi demands that there 
be no public display of any Christian practice.
    Third point would be Jews. Jews are systematically excluded 
or have been on occasion systematically excluded by the U.S. 
Government from working in Saudi Arabia. I have a long quote 
from a former Service officer about how this is done. A ``J'' 
is put in front of certain people's names not to go to Saudi 
Arabia. There is the case of a contractor for the Defense 
Department that explicitly said that no Jews or Jewish-named 
personnel would be sent as part of a team to Saudi Arabia. The 
U.S. Government--the Defense Department was breaking U.S. 
Government laws in not sending Jews to Saudi Arabia. There are 
many other such cases. I won't give you the details now.
    My conclusion is that one sees here a pattern that is 
unique in American foreign policy, where the United States--the 
representatives of the U.S. Government are not willing to stand 
up for American interests, and while there can be explanations 
on the ground level having to do with oil and the like, I think 
the explanation lies elsewhere. One finds over and over again 
that Americans in position of authority are imposing--are 
acquiescing or even preemptively acquiescing to what they 
imagine the Saudis would like.
    An answer to why this is happening can be found in a 
statement by the current Saudi Ambassador to the United States, 
Prince Bandar bin Sultan. He said the following, and this was 
quoted in the Washington Post of February 11, 2002. He boasts 
of his success cultivating powerful Americans who deal with 
Saudi Arabia. If the reputation then builds that the Saudis 
take care of friends when they leave office, you'd be surprised 
how much better friends you have who are just coming into 
office.'' The heart of the problem is a very human one. 
Americans in the position of authority bend the rules and break 
with standard practice out of personal greed. One finds over 
and over again that old Saudi hands are doing very well once 
they leave office. Over and over again Ambassadors--and I give 
names in my testimony--are now in positions of authority. Two--
three of the individuals mentioned here are in my testimony, 
Walter Cutler, Edward Walker, Wyche Fowler. And former 
Ambassador Horan has noted this pattern. Others have noted it.
    I would argue to you, sir, that the roth in the executive 
branch renders it quite incapable of dealing with the kingdom 
of Saudi Arabia in the farsighted and disinterested manner that 
U.S. foreign policy requires. That leaves the responsibility 
with you, with Congress, to fix things. The massive preemptive 
cringe of American officials requires your urgent attention.
    Without going into detail here, I suggest that steps be 
taken to ensure that the Saudi resolving door syndrome 
documented by me in this presentation, this testimony, be made 
illegal. Only this way can U.S. citizens regain confidence in 
those of their officials who deal with one of the world's most 
important States. Thank you.
    [The prepared statement of Mr. Pipes follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Burton. OK. Mr. Bandow.
    Mr. Bandow. Thank you, Mr. Chairman, and other members of 
the committee. I commend this committee for holding this 
hearing. Since others are addressing the specifics of children 
and other Americans being held against their will, I'd like to 
briefly put this issue in a larger context of U.S.-Saudi 
Arabian relations. It's very important for us to recognize that 
Saudi Arabia is a corrupt totalitarian regime, at sharp 
variance with America's most cherished values, including 
religious liberty. It has long leaned to the west, and for 
security reasons, the United States has long been very 
concerned about the stability of the regime and protecting it 
from potential invaders, most recently back in 1990 and 1991 
with the war with Iraq.
    Although the relationship between Riyadh and Washington is 
close, it's rarely been easy. For American administrations that 
loudly promote democracy, the alliance with Saudi Arabia is a 
deep embarrassment. One aspect, the concern of today's hearing, 
is the forcible detention of American women and children, 
essentially treated as property by the Saudi Government.
    This attitude, alas, should come as no surprise given the 
general Saudi record on human rights. Saudi Arabia's an 
absolute monarchy and almost medieval theocracy, with power 
concentrated in the hands of senior royalty and wealth spread 
amongst all Saud princes. Political opposition and even 
criticism is forbidden. In practice, there are few procedural 
safeguards for anyone arrested or charged by the government or 
dealt with by the religious police. Women are covered, 
cloistered and confined, much like they were in Taliban-ruled 
Afghanistan. It's perhaps no surprise that such a regime has an 
unenviable reputation for corruption. More ugly, though, is the 
religious totalitarianism enforced by Riyadh. Indeed, in this 
way as well, Saudi Arabia follows much the same policies as did 
the Taliban which the United States worked so hard to 
overthrow.
    Unfortunately, U.S. policies have helped identify 
Washington with the Saudi kleptocracy, but the Saudi ruling 
elite itself is paying for its repression. The long-term 
decline in energy prices has caused economic pain in Saudi 
Arabia, which has itself helped generate deep undertones of 
unrest, especially among the people who have no political 
outlet for their dissatisfaction. Unfortunately, this 
dissatisfaction has merged with criticism of the United States 
for a number of reasons, and because of that Saudi leaders have 
proven very weary of aiding the United States despite direct 
attacks on Americans. Cooperation, for example, after the 1996 
bomb attack on Khobar Towers barracks was quite limited, very 
real concerns in the aftermath of September 11 in terms of aid 
and cracking down on Muslim charities that support terrorism as 
well as issues such as manifests from the Saudi airlines.
    Riyadh's reluctance to risk popular displeasure by 
identifying with Washington merely continues and unfortunately 
is likely to encourage the growth of extremist sentiments. An 
unwillingness to support the United States on critical issues 
like this gives de facto sanction to the growth of such 
sentiments, including publications in the Saudi media, for 
example, the relatively recent article discussing Jews and the 
issue of Jewish blood--the blood that was necessary for Jewish 
holy ceremonies. These sorts of things have appeared in Saudi 
publications that are absolutely devastating in terms of 
promoting the climate of hate that we see in the Middle East.
    The problem runs even deeper of course, because the Saudi 
regime supports the extreme form of Wahhabism abroad as well as 
in Saudi Arabia itself. And this threat reaches well beyond the 
Middle East to countries like Indonesia, Malaysia and even the 
Philippines, where relatively secular tolerant societies, you 
know, face growing fanatical threats. One can, for example, 
look in the Moluccan Islands in Indonesia to see the dangers of 
fanatical jihad activities. The jihad militias, for example, 
are very involved in bloodshed there over the last 3 or 4 
years.
    Saudi Arabia's belated efforts to curb the clergy and 
scrutinize its educational system are welcome, but 
insufficient. And I think the U.S. Government puts up with this 
in many ways because of oil. Clearly oil is very critical.
    So no one would care very much about what happened in Saudi 
Arabia, except for the fact that Saudi Arabia has oil. It's 
important, I would argue, however, that the U.S. Government, 
particularly the Congress, should recognize that the Saudis' 
trump hand is surprisingly weak, that the reserve figures that 
are cited in terms of Saudi Arabia overstate its relative 
influence, and that over time, Saudi Arabia's influence is 
going to fall. There are a lot of other producers out there, 
enormous potential new production to come on from Caspian Basin 
off of Africa and elsewhere.
    Moreover, the Saudi regime itself is very limited in terms 
of its impact on prices. Even if that regime was overthrown, 
only a new regime's desire to keep all oil off the market would 
have a dramatic impact on prices, and price changes like that 
would help bring new sources of supply on, would cause other 
oil producers to produce much more, and over the long term we 
need to recognize that Saudi Arabia might be able to threaten 
our pocketbooks, but Saudi Arabia itself is not able to 
threaten America's survival.
    Now, to mention Saudi Arabia's shortcomings and to suggest 
that it may not be as vital as it's continually noted makes 
policymakers both in Riyadh and in Washington nervous. There 
have been published reports denied by the Saudis that the Saudi 
policymakers are considering ending America's military 
presence, but the country that really needs to reassess the 
current relationship is the United States.
    At the very least, Washington has to be willing to talk 
very tough about issues of terrorism and human rights with this 
regime, especially when the lives of Americans are at stake. 
Doing so might sour the U.S.-Saudi political relationship, and 
applying pressure through things such as visas might cause 
expressions of dissatisfaction from Riyadh.
    But the U.S. Government has its primary responsibility to 
its own citizens, and it's falling down on that responsibility 
if it doesn't take action to apply pressure on issues like 
those being addressed by the committee today. Thank you very 
much.
    Mr. Burton. Thank you, Mr. Bandow.
    [The prepared statement of Mr. Bandow follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Burton. Ms. Andruch.
    Ms. Andruch. Mr. Chairman, I don't have a prepared 
statement at this time, but I'll be prepared to answer 
questions later.
    Mr. Burton. Now, your position with the State Department is 
what?
    Ms. Andruch. I'm in the Bureau of Consular Affairs, Deputy 
Assistant Secretary.
    Mr. Burton. You're Deputy Assistant Secretary for Consular 
Affairs?
    Ms. Andruch. Yes.
    Mr. Burton. Now, do you have some jurisdiction over the 
Middle East and Saudi Arabia and our Embassies over there?
    Ms. Andruch. Not specifically. My office deals with 
overseas citizens, wherever they are. So it's Americans abroad.
    Mr. Burton. OK. All right.
    Mr. Crocker.
    Mr. Crocker. Thank you, Mr. Chairman. I'm Ryan Crocker, 
Deputy Assistant Secretary for Near Eastern Affairs.
    You have my written statement, so I'll just make a couple 
of additional comments. The testimony we heard from the first 
panel this morning was, as you put it, wrenching. And everyone 
in this room could not help but be shaken by it. I know I was. 
Child abduction cases are among the most difficult and tragic 
citizen services cases we face anywhere in the world, and we 
face them throughout the world.
    There are over 1,000 active cases now. That is why we have, 
in the Children Issues Office, a special unit for abductions in 
the Bureau of Consular Affairs, staffed now by 17 officers. 
Most of these cases are in western Europe, but Saudi Arabia, as 
we have indicated to the committee, the documents we've sent 
up, also has a substantial number of cases.
    In Saudi Arabia, as is our policy globally, we deal with 
these cases within the framework of the laws of the country 
where our citizens are located. That's not unique to Saudi 
Arabia. That is our global practice. We work within the legal 
system of that State. This becomes, therefore, particularly 
difficult in the case of Saudi Arabia, because as, again, we 
have heard so eloquently expressed already, our legal system 
and the Saudi legal system simply do not mesh.
    Ambassador Horan, our witnesses from the first panel have 
all made clear some of the basic issues here, that a child 
needs the permission of a father to travel, that a woman needs 
the permission of a father or husband or brother to travel. 
This is not applied to Americans married to studies only. That 
is Saudi law. That is how it applies to all Saudi citizens.
    So we have been up against that challenge throughout, and 
it is--as the very sad record shows, it has not been something 
we have been able to move very far on. The Shari'ah law gives 
the father or the husband this right, and it does not give the 
Saudi state the right to override it. There is no legal lever 
that the Saudi Government can pull in these cases, whether it 
is an American or a straight Saudi citizen.
    This does not mean that we have been inactive, Mr. 
Chairman. We have, in trying to gain access, in trying to--for 
ourselves in trying to arrange meetings between mothers and 
their children and in talking to Saudi Government officials. We 
most recently had contact at a high level just within the last 
2 weeks, when Assistant Secretary Burns was in the kingdom and 
raised these issues as a concern of the United States for its 
citizens. We're going to be pursuing that dialog, because we 
have heard and seen very graphically the dimension, the 
intensity of this problem and what it does to people's lives.
    We will need to do that.
    Mr. Chairman, in my view, within the context of our 
relationship as you sketched it out in your opening remarks, 
this is an important relationship to the United States. 
President Bush characterized it this way in April. Our 
partnership is important to both our nations, and it is 
important to the cause of peace and stability in the Middle 
East and in the world.
    We have problems in this relationship. This is a graphic 
one, and we need to find ways to address it to bring some 
relief to people who have suffered for a very long time, 16\1/
2\ years in the case of Mrs. Roush. All of us who heard that, 
no one can be insensitive to what that has done to her life, 
the lives of her children or the lives of our other witnesses.
    Thank you, Mr. Chairman. I'm ready for your questions.
    [The prepared statement of Mr. Crocker follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Burton. Let me just start by saying, Mr. Crocker, that, 
regardless of the rhetoric, it looks like we're an impotent 
giant. Impotent. I mean, when an American citizen is thrown out 
of an American Embassy, forced out by Marines, with her kids 
because we're concerned about relations with a foreign 
government, that makes us look weaker than you can imagine. 
Impotent. And I don't understand--you know, you're in charge of 
the area, as I understand it, that deals with this kind of a 
problem, is that right?
    Mr. Crocker. Yes, sir.
    Mr. Burton [continuing]. Why we have not recommended to our 
Embassies around the world, not just in Saudi Arabia and 
Riyadh, that we say, if you kidnap a child or if you restrict 
the rights of an American citizen, you're not going to get a 
visa and nobody in your family is.
    Now in the Helms-Burton law, which I helped write--dealing 
with Cuba, if American property is confiscated by the Cuban 
Government, Castro, and they sell it and somebody in a foreign 
government or foreign entity is involved in that transaction, 
our government can keep them from getting a visa. Now how much 
more important is it where human life is concerned?
    We're talking about property in the Helms-Burton law, and 
you're talking about kids who have been kept for 16 years? 
Women who have had them and their kids thrown out of our 
Embassy over there because we have to be concerned about their 
law? That is ridiculous. And that we're there as guests?
    The Embassies are called American soil. Why in the world 
would we have Marines take American citizens outside and then 
have them arrested? And we're going to have a hearing and drag 
that woman in--not drag her in. I don't want to put that--we 
are going to subpoena her and have her come in to explain why 
she allowed that to happen.
    Now let me ask you this. Would you consider recommending 
that visas be withheld where children are kidnapped or American 
women are being held against their will in a foreign country?
    Mr. Crocker. Mr. Chairman, there is already a provision in 
the Immigration and Nationality Act that deals with this issue, 
and I think I will ask my colleague----
    Mr. Burton. Well no, you didn't answer my question. Would 
you recommend that visas for the individual that's restricting 
these people, American citizens and whose involved in 
kidnapping, would you recommend as the head of that agency that 
they and their extended family be denied visas to come to the 
United States?
    Mr. Crocker. Sir, if I could just cite the provision.
    Mr. Burton. No. No, I'm asking you if you would make that 
recommendation.
    Mr. Crocker. The answer is yes, Mr. Chairman; and we have 
that in place.
    Mr. Burton. Then why has it not been applied to these 
people who testified earlier?
    Mr. Crocker. Well, in the case of----
    Mr. Burton. I mean, you--just a minute now. We had a fellow 
who was under indictment, was it? He was under indictment; and 
he came here under a diplomatic passport, according to the 
testimony, with his family, who was getting cancer treatment or 
health treatment. And there was an outstanding warrant for his 
arrest, and we didn't do anything. Now we had to know he was in 
the country because he had to have a visa, even with a 
diplomatic passport, to come in. Why in the world wasn't he 
arrested?
    Mr. Crocker. Mr. Chairman, we are going through our records 
now on the Gheshayan family and visa issuances. The husband has 
been in our visa lookout system as ineligible.
    Mr. Burton. For how long?
    Mr. Crocker. Since 1990. Is that correct? Since 1990.
    Mr. Burton. Well, when did he come into the country on a 
diplomatic----
    Ms. Andruch. May I add something from the Bureau of 
Consular Affairs? We--our automated--our computerized system 
for keeping track of visas issued came into place with 
Congress's help in 1990 after the blind sheik. Since then, we 
have no record that indicates that he got a visa under his name 
to come for medical treatments. We are continuing to look, 
however.
    Mr. Burton. No, he didn't come for medical treatment. He 
came with somebody.
    Ms. Andruch. With someone. But we don't have a record of 
his having been issued a visa. So this information was new to 
us.
    Mr. Burton. Well, let's say he got into the country then 
under a false visa. Do we have any way to check that?
    Ms. Andruch. We do, sir; and that's what we're looking 
through now. We need names.
    Mr. Burton. Well, I would like for you to check with the 
family involved and find out when he came into the country and 
cross-check, because we're also concerned about terrorists.
    Ms. Andruch. Of course.
    Mr. Burton. If he was able to get into this country on a 
phony visa with a diplomatic passport, then, golly----
    Ms. Andruch. No, we, too, are very much concerned; and we 
will check. We'll check and get the names. Any information that 
we have will help us look up those records in our system, and 
then we'll get back to you.
    Mr. Burton. OK. Well, I hope that there is a recommendation 
that goes out, and we're--I'm writing a letter to the President 
today, and it is going to be signed by a number of our members 
of our committee--all of them, if we can get to them--saying 
that we think that the passport should be or the visas should 
be restricted to anybody that is involved is keeping an 
American citizen in the country where they don't want to be and 
if they have been involved in kidnapping or keeping American 
children----
    Now those children are children of American citizens, so 
they have American citizenship as well. And to keep the mother 
and the child from even coming to the United States is a 
violation of their Constitutional rights. So how can we make 
the Constitutional rights of an American citizen subservient to 
the Saudi Government and the Saudi rules? How can we do that? I 
don't understand that. Those are Constitutional rights.
    You know, I guarantee, you know, you probably have heard 
the reputation of this committee under my chairmanship. This is 
not going to stop. I want this changed; and if I have to have 
10 hearings doing this in the remainder of my time as chairman 
we're going to do it. I mean, this has to be changed. Not only 
in Saudi Arabia but everywhere.
    Let me ask you one more question, Mr. Pipes. My time has 
expired. And that is that I would like to have a list of all 
the violations that you were talking about in detail. Because 
those things need to be addressed. Especially in view of the 
fact that we had an exorbitant number of the terrorists that 
attacked us on September 11th coming from Saudi Arabia we need 
to have all that information that we can. Because it was not 
known to me as chairman of this committee, and I doubt if it 
was known to two of the other members of the committee.
    Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman.
    Mr. Crocker, we have 92 instances, I think, of Americans in 
Saudi--that is the information the committee has--that are 
either being held in some form of restricted access or 
otherwise. Do you know of this information, Ms. Andruch?
    Ms. Andruch. Yes, sir. If you don't mind, I'll try to take 
that question. The numbers that you have, that is correct. The 
numbers will change periodically.
    Those numbers include children that we are aware of who 
have been abducted or those children who have gone to live in 
Saudi Arabia; and then the parent, the mother in all of these 
cases, has returned to the United States and had to leave her 
children there because she was not able to leave with them.
    Mr. Ose. Would you describe this particular situation as a 
crisis?
    Ms. Andruch. Yes, sir, I would.
    Mr. Ose. Yet, following onto the chairman's comment and 
looking at the testimony that Mr. Crocker submitted, there 
doesn't seem to be a lot we're doing about it. I mean, your 
testimony indicates that--Mr. Crocker, on page 11--on specific 
direct actions we have, one, worked with the Saudi parent to 
permit voluntary access to their children. Well, of these 92 
cases--let me go to 30,000 feet. How many cases other than 
these 92 has the State Department or the Embassy been involved 
in in terms of conducting a welfare and whereabouts visit?
    Ms. Andruch. I don't have numbers specific to Saudi Arabia 
on welfare and whereabouts visits.
    If I could say--first, let me say that I do realize that 
almost anything I say and any answer I provide is not--is going 
to be insufficient, and it will be totally unable to address 
the tragedy that is facing these women here and others like 
them.
    Mr. Ose. OK, well, let me just interject then. It's Mr. 
Crocker's testimony, so maybe I should direct the question to 
him. The testimony is, we've had some limited success in 
arranging visits by American citizen parents with their 
children in Saudi Arabia, but such visits to date have been 
admittedly few. That is at the bottom of page 11 and the top of 
page 12.
    When you say such visits to date have admittedly been few, 
what do you mean?
    Ms. Andruch. I'll take that.
    Mr. Ose. It's Mr. Crocker's testimony.
    Ms. Andruch. It is, sir, but we basically combined this. 
But it is something that consular officers generally do.
    Mr. Ose. All right. Quantify the phrase ``admittedly been 
few.''
    Ms. Andruch. Again, and I am--because the visits are made 
with the permission of either the father or husband in adult 
cases when we try to do these visits, the male sponsor of these 
women or children, we aren't always successful; and that is--
it's, unfortunately, why we have been so infrequently able to 
see Alia and Aisha.
    Mr. Burton. Would the gentleman yield real quickly?
    You know, you say that you tried but you have been 
unsuccessful. But what kind of pressure has been exerted on the 
Saudi Government or these families of these people that have 
been involved in these kidnappings? What kind of pressure has 
been brought to bear to make things successful?
    I mean, you take a ball bat and you hit somebody in the 
head, they get the message. To just say diplomatically----
    I read this letter a while ago. Pardon me for interrupting. 
But I read this letter a while ago, and it sounded like a lot 
of mishmash. You know, the honorable so and so and all this 
diplomatic language; and it didn't really say anything. It said 
one thing about this child being kidnapped from the United 
States, but it says, we are also investigating the kidnapping 
from your country back. How in the hell can there be a 
kidnapping from the United States, and then when the person 
goes and gets their child and brings it back that's a 
kidnapping? I mean, that's gobbledygook put in those diplomatic 
letters.
    We need to have some teeth. You know, you're not coming 
into the United States to do business until you let those kids 
go and let those women go. You know, they get the message doing 
that.
    Thank you for yielding.
    Mr. Ose. My pleasure.
    Mr. Crocker, at what level has this issue risen? To what 
level has this issue risen?
    Mr. Crocker. Well it's risen to the--let me say, the 
topmost levels of the Saudi Government.
    Mr. Ose. How about on our side? Give me--just educate me a 
little. We've got Secretary of State Powell, and then we've 
got--we've got a bunch of people under him, and then we've got 
a bunch of people under them. Where are we on this? You know.
    Mr. Crocker. Well, on the Saudi side----
    Mr. Ose. No, on the American side.
    Mr. Crocker [continuing]. We're at the top. On the American 
side, this most recent discussion was with Assistant Secretary 
William Burns.
    Mr. Ose. William Burns. Now you say he's an Assistant 
Secretary. What do you mean? Does that mean like he is third 
level down, second level down? I always get confused. I mean, 
there's a lot more titles over there than there are my ability 
to comprehend so----
    Mr. Crocker. We have the Secretary, a Deputy Secretary, 
several Under Secretaries and then the Assistant Secretaries.
    Mr. Ose. So you're talking fourth level down?
    Mr. Crocker. Yes, sir.
    Mr. Ose. You've got Secretary Powell, then you've got a 
Deputy Secretary, then you've got, you say, Assistant Deputy 
Under Secretaries and then you have Assistant Deputy Under 
Secretaries. You're losing me here, let me just tell you.
    Mr. Crocker. Secretary, Deputy Secretary, then several 
Under Secretaries and then Assistant Secretaries.
    Mr. Ose. OK.
    Mr. Crocker. And----
    Mr. Ose. Now, do you have any--and that is William Burns?
    Mr. Crocker. Yes, sir.
    Mr. Ose. Do you have any idea when William Burns last 
talked about this matter with Secretary Powell?
    Mr. Crocker. I would have to take that--I assume it would 
be--it would have been after his trip to Saudi Arabia, when he 
raised it with the Saudis. But to be precise I'd have to go 
back and ask the question.
    Mr. Ose. Well, my next question--I would like to know the 
answer to that question, if I could, Mr. Chairman. I'd also 
like to know how frequently this issue is on the agenda when 
the senior management over at the State Department gets 
together to talk about issues of concern to the interests of 
United States. It would seem to me that the children of the 
United States are an interest to the United States. Ms. Andruch 
just agreed or concurred in using the word ``crisis'' as it 
affects this particular situation. I'm just trying to figure 
out, you know, does crisis get to the second to the top level 
or the top level? I mean, I'm trying to figure out who it is I 
need to talk to to make something happen.
    Mr. Crocker. It is the No. 1 priority in the mission 
program plan, which is a document for each Embassy on the 
conduct of relations with the state which they are accredited, 
as Ambassador Horan noted. In terms of other interventions, 
again, we would have to go back and get you a precise answer.
    Mr. Ose. I would appreciate that information.
    Mr. Crocker. Yes. So it's two questions.
    Mr. Ose. Yes.
    Now I want to go back to--I think it was Ms. Davis in the 
previous panel. We had a situation arise where the children of 
an American citizen, American citizens themselves, Marines, 
were ordered to basically physically remove them from an 
Embassy of the United States. Now if I'm correct in the 
testimony, there was a name attached to the person who perhaps 
gave that order, Carla Dunn. Is that correct? Carla Reid. Am I 
correct in understanding that Carla Reid was based in or posted 
at the American Embassy at the time those children and that 
parent were asked to leave the Embassy? Asked, whatever you 
want to say. Am I correct in my understanding of that?
    Mr. Crocker. That is correct.
    Mr. Ose. Is Ms. Reid the person who directed the Marines to 
physically remove the American citizens from the American 
Embassy?
    Mr. Crocker. I could not say whether she made that 
determination herself or whether it came as a result of higher 
direction.
    Mr. Ose. If I understand correctly, there was, in fact, a 
cable from the Embassy to the United States at the time of this 
situation; and a cable went back to the Embassy with the 
instructions to carry out the displacement. Are you aware of 
that?
    Ms. Andruch. I'm not aware of that, sir. I do know that 
there was a telegram reporting the incident a day after. I 
don't know that there was an exchange asking, you know, what to 
do and then a cable going back.
    Mr. Ose. To whom would the telegram have gone from the 
Embassy to the United States, the initial telegram?
    Ms. Andruch. It came to the State Department, and it would 
have been addressed--it was addressed to the Bureau of Consular 
Affairs.
    Mr. Ose. What does that mean? Give me a name. Would that be 
you?
    Ms. Andruch. That is me.
    Mr. Ose. Are you the person who responded to the telegram?
    Ms. Andruch. No, sir, I wasn't. Because that was I think in 
1990, so I wasn't here then.
    Mr. Ose. Who was the person that responded to the telegram?
    Ms. Andruch. I don't know. I'll have to take that question.
    If I could just say one thing, I don't know that the cable 
needed a response. My recollection was that it was a cable--a 
reporting cable. It wasn't one asking for direction. But I will 
look.
    Mr. Ose. We will find the cable, and we will find the 
answer.
    Ms. Andruch. Yes, sir. I will provide the cable to you.
    Mr. Ose. All right.
    Mr. Chairman, I have exhausted my questions for the moment.
    Mr. Shays [presiding]. Ambassador Horan, I apologize. You 
were speaking when I was meeting with the first panelists. I 
would like you to summarize your basic point, and then I want 
to ask a question after you summarize that.
    Mr. Horan. Under Shari'ah law it's very difficult for the 
Embassy to act on behalf of the kidnapped children. We can do a 
lot for Americans that are in trouble with Saudi commercial law 
and even actually sometimes in criminal law. But with the 
kidnapped children, the parents, the Saudi father hides behind 
Shari'ah law saying that is not Saudi law, this is God's law, 
you know. And then if the VIP families are concerned it becomes 
even harder. The Saudis say, we, you know, the law is on our 
side, and it's our law, and we've got the children, so it's too 
bad.
    After speaking with Senator Dixon before I went out to 
Saudi Arabia, had a first introductory call on Prince Salman, 
the introductory call is just, you know, how are you, great to 
be here. Then I made--sometime later requested another meeting 
with Prince Salman, who is the Governor of Riyadh, a very 
powerful man and the full brother of the king. And his office 
said, well, if--Ambassador Horan, he'll be glad to talk to him. 
But if he wants to talk about the Roush case, you know, the 
prince is not going to see him.
    So I said, well--I went ahead and saw the prince. Toward 
the end of my meeting I said, you know, your royal highness, 
there's one topic you did not want me to talk about, but you 
know it's very much on your mind and it's very much on our mind 
and you're going to hear more about that. Quite frankly, I 
found if you're dealing with a foreign government the way that 
you get them to know that you really mean something is you bore 
them with it. You ask them that question every time you see 
them, again and again and again. Finally, they get the point 
that, oh, here comes, you know, the American Ambassador or 
whomever; and they're going to raise that boring point again. 
That's one of the ways you get the message across.
    Another way is to, frankly, apply some pressure. Consuls 
can apply lots of pressure in different posts. In Saudi Arabia, 
it was a little harder. I think Ambassador Mabus' ploy about no 
visas was just a stroke of brilliance, and it's being done all 
over the world by imaginative and public-spirited consuls. Too 
bad that wasn't pursued.
    The Saudis--not providing manifests for their passengers, 
that's something that--no landing rights, ways of responding to 
pressure.
    I guess Ms. Roush was saying how--about the status of 
women. I once wrote an article saying how extraordinary it was 
that Secretary Powell gives us a stirring plea for our women in 
Afghanistan; and in the article I wrote that, goodness, you 
could have put Saudi Arabia in every single place where it says 
Afghanistan and it would read just as well.
    The point that was made about Martha McSally, totally, 100 
percent, on the button. Because I gave a TV interview once 
saying, having Martha McSally, a tri-athlete commissioned 
officer, having to wear an abaya is like asking an African 
American to sit in the back of the bus or asking an American of 
Jewish origin to wear a big yellow star on his uniform.
    And we do bend over too far backward. During Desert Shield/
Desert Storm, my son, who commanded a Marine reconnaissance 
platoon, told me how shocked he was that his chaplain had to 
remove the collar brass. He had a little cross on it. You know, 
he thought that was really unusual, and it really is.
    Mr. Shays. I don't think of myself as having prejudice, but 
I find myself, as I said earlier, wrestling with a country that 
doesn't choose to acknowledge that 15 of the 19 terrorists of 
September 11th were from their country, Saudi Arabia. And I 
wrestle with the fact that, in general, we seem to allow human 
rights abuses. We tolerate them and don't speak out about them 
if they seem somehow connected to a faith. I know Members of 
Congress who are outraged at things that may happen in China 
and other places who simply ignore the abuses that take place 
in Saudi Arabia.
    I am interested to know, as Ambassador, did you and your 
employees have free rein of the country? Could you travel 
anywhere you wanted like a diplomat in the United States could 
travel--from Saudi Arabia?
    Mr. Horan. Yes, sir. I traveled extensively in Saudi 
Arabia, but I was there as our No. 2 person from 1972 to 1977. 
The DCM, the Deputy Chief, tends to stay at home and sort of 
mind the store. As an ambassador, though, I really traveled a 
lot around the country; and it was one of the--you know, one of 
the duties.
    Mr. Shays. Did you travel everywhere in the country or only 
some places?
    Mr. Horan. Well, I went down to the Asir, which is one of 
these disaffected areas. It was the last section of Saudi 
Arabia to become part of the kingdom, and quite a few of the 
terrorists came from there. I went to Yemen on a trip.
    Mr. Shays. I'm not asking where you went. I'm asking if you 
were free to travel anywhere you wanted without limitation.
    Mr. Horan. Oh, I couldn't go to Mecca or Medina. Absolutely 
no. No, you just couldn't go there.
    Mr. Shays. Is the Embassy within a compound of other 
Embassies or is it in--where commerce is and so on?
    Mr. Horan. They had set up a new diplomatic corridor that 
had been moved into just about the time that I arrived there, 
and it is--it looks like--I guess like a luxurious American 
suburb, but it's got a big wall around it, and it only had one 
access, a small narrow road controlled, of course, by Saudi 
security, and you really live in a highly isolated ghetto. 
Saudi Arabia is a country where foreigners, even those who 
speak Arabic, it's very easy to exclude them from a sense of 
association with society. Once you're living in that big 
compound, it is very easy just to sort of forget Saudi Arabia 
is there.
    Mr. Shays. Now, explain to me--first off, I realize that 
I'm on a higher platform physically, and I realize that we're 
asking you questions, State in particular. But I don't look at 
my Federal Government--I heard these stories with shock, but I 
felt like I am part of the problem. So I want this understood 
when I ask questions of the State Department that in one sense 
I am--it's not like I'm passing judgment, but I'm just trying 
to understand how we sort all these kinds of challenges out.
    I want to understand what restraints--this may seem 
obvious, but I want it for the record. What restraints do you 
feel diplomats have in a country like Saudi Arabia; and I'm 
going to ask you, Ambassador.
    Mr. Horan. I traveled around a lot. I speak Arabic. At the 
time, I spoke Arabic really quite well. I mean, I'd worked as 
an interpreter with President Johnson and with Vice President 
Rockefeller at times. And so I really traveled around. I saw as 
many people as I could. I'd walk through the marketplaces 
talking to people.
    Mr. Shays. And that was when?
    Mr. Horan. That was 1987 and 1988.
    Mr. Shays. That's a while ago.
    Mr. Horan. Yes. Before then, I had--in my 5 years in the 
1970's I had a lot of contacts, I think, I mean really a lot. 
Because I had studied at Arab universities. I was pretty good 
in Arabic literature.
    Mr. Shays. If you didn't like something that was done in 
that country, could you just speak out about it publicly? Could 
you call a press conference and say, you know, we have concerns 
about this?
    Mr. Horan. An Ambassador doesn't get his job done by doing 
a press conference in a country but by talking to the people 
who count.
    Mr. Shays. I think that's a fair point.
    Mr. Horan. At one sort of modular sort of gathering of 
Ambassadors with the King I asked King Fasil, wouldn't it be a 
great idea for Saudi Arabia to send some of their bright young 
theology students to study in the United States like at Harvard 
Divinity School or at Princeton Theological Seminary? And I got 
kind of a roasting from the chief of protocol afterwards 
saying, you know, you were asking his majesty to conflate truth 
and falsehood. But, you know, I was trying to engage people in 
a kind of sincere and intellectual exchange; and, you know, 
sometimes it works.
    But you can speak up to people and if they think that 
you're serious and well-intentioned, professional----
    Mr. Shays. Your bottom line point is that any dialog that--
any influence you have as a diplomat is going to be person to 
person, just trying to educate people. Maybe at an affair in 
the evening or cocktails you might have an opportunity to talk 
to someone, you might have a private meeting with someone, and 
you would share certain things you think would be helpful. Is 
that accurate?
    Mr. Horan. Sir, pretty accurate. You know--and in countries 
like Saudi Arabia it's very person to person.
    Mr. Shays. I'd like to ask our next two witnesses, would 
you list to me what you think the vulnerabilities are with the 
United States being able to be more candid and more outspoken 
with the Saudi Government and, frankly, the Saudi people?
    Mr. Pipes. Mr. Chairman, I don't think there are 
vulnerabilities. I think our problem is our preemptive cringe, 
our obsequiousness, our unwillingness to stand up for our 
rights.
    I mean, consider the anecdote I told before. We had 400,000 
troops in Saudi Arabia in late 1990. The President of the 
United States was going to have a Thanksgiving meal with them. 
He was told by the Saudis he could not say grace. He accepted 
that. I see no reason why he should have. I see no reason in 
all the other cases why we should be----
    Mr. Shays. OK. Now you're telling me why you think that we 
could have and should have been more outspoken. I mean, that is 
kind of my style. Maybe I wouldn't make a good diplomat. But--
and I don't mean have a press conference. I mean, just--my 
style would be to be a little more candid. But I'm asking you 
to think a little deeper than you're thinking. What then are 
the perceived challenges to being more outspoken?
    By the way, Mr. Ose, do you mind if I keep continuing?
    What do you think would be the most perceived reasons why 
we might not be outspoken?
    Mr. Pipes. Well, Mr. Chairman, as I argued before, I 
believe the heart of the problem on the American side is a 
sense that if you please the Saudis they will reward you. It is 
a syndrome that is not unknown in domestic affairs called 
revolving door. The people who oversee the insurance companies 
that go work for the insurance companies, we have laws in 
effect----
    Mr. Shays. So--but just to clarify this comment, please. 
The Saudis, they will reward you personally, not necessarily 
government.
    Mr. Pipes. If you please the Saudi Government, they will 
reward you afterwards.
    Mr. Shays. I want to know who--afterwards. You, the person?
    Mr. Pipes. You, the person.
    Mr. Shays. OK.
    Mr. Pipes. Personal rewards.
    Mr. Shays. OK. So really the question becomes, who do you--
who are you working for?
    Mr. Pipes. And who do you consult for? Who do you get non-
profit funding for? It can take many different guises, but in 
the ultimate analysis it's all money.
    Mr. Shays. OK. In your judgment----
    Mr. Pipes. And the striking thing is to contrast the Saudi 
case with the other oil-rich countries of the region, say 
Kuwait, Qatar, UAE. They do not engage in this kind of policy, 
and we have a much more even keel and a much more normal 
relationship with them.
    Mr. Shays. Are there studies that might show different 
government officials who worked in various Embassies and what 
they have done afterwards that would say, you know, there's a 
clear, unavoidable inference that if you're in Saudi Arabia and 
you play their game the way they want to play it that you have 
rewards afterwards? Are there studies that are done or is this 
based on----
    Mr. Pipes. Not to the best of my knowledge, Mr. Chairman, 
but I think it would be a great idea for the Congressional 
Research Service to look into it if you would suggest it to 
them.
    Mr. Shays. I'm not reluctant to suggest that.
    Mr. Bandow. Mr. Chairman.
    Mr. Shays. Let me just do this, and then we'll come to you. 
Yes.
    Mr. Bandow. If I could just add very briefly----
    Mr. Shays. It doesn't have to be brief.
    Mr. Bandow. OK. I think it's easy to merge both a 
perception of national interest and personal advantage. There 
certainly are concerns that are raised in terms of cooperation 
with the Saudi regime, particularly on energy oil matters, 
obviously, and on security and concerns about the stability of 
the regime which I suspect help cause the U.S. Government at 
times to walk far more gingerly and indeed to be utterly 
pusillanimous when it shouldn't.
    I think we should have as an overall understanding the 
Saudis need us certainly as much as we need them. Indeed, I 
would argue they need us more. And our policy should recognize 
that. We should not act as if we are the supplicant and they 
have benefits to give to us but rather any kind of a 
cooperative relationship does run both ways. And they do need 
us to purchase their oil. They need many things from the United 
States.
    Mr. Shays. I mean, there is logic for our wanting to have a 
good relationship with this government, but I'm struck by the 
fact that, you know, one issue is obviously oil and the 
disruption of oil. Another is its strategic location. And I'm 
just wondering all the ways that become restraints on the next 
group that I'll ask. And I realize you have limits to how you 
can respond, but there are restraints as to how you may choose 
to respond. So oil basis, what other big items are there?
    Mr. Bandow. I think a broad sense of stability of the 
regime, a fear of a change in the regime that would be 
unfavorable to the United States.
    Mr. Shays. In other words, almost, in a sense, that a 
radical Muslim regime may not even care if market--in other 
words, they may not view the financial markets or even the 
selling of oil as being something that would be horrific if 
there was oil disruption or we, you know, claimed their assets 
and so on. That may just fit into their scheme as they choose 
to disrupt the world economy and go back a ways.
    Mr. Bandow. I think that's in the back of some people's 
minds. I think it's very unlikely. But I think that is--colors 
the judgment of some officials.
    Mr. Shays. Do any of the first of the witnesses care--
before I get Mr. Ose to respond to anything I have added, do 
you want to jump in, Ambassador?
    Mr. Horan. Just one. I mentioned to Dr. Pipes, when it came 
Christmas when I was Ambassador in Saudi Arabia, I said, let's 
have a big Christmas party for our American community here. And 
they said, oh, you know, this is going to be Shari'ah. And I 
said, no, it isn't. The Shari'ah stuff is out there. This is 
the American Embassy. We can have a real Christmas celebration. 
We had prayers and a 20-foot Christmas tree and punch and 
carols, and it was really great. The American Embassy really 
liked it.
    And I thought this an idea--we respect our customs, you 
know, and they'll respect us if they say that we respect our 
customs. You have got to behave insofar as--you know, we are 
not going into Mecca, but this is the way we do things; and I 
think we ought to stand up for ourselves.
    Mr. Shays. Mr. Pipes, I'm just going to ask you one 
question. If you were President of the United States--when the 
President came to visit our troops, was that pre the Gulf war 
or after the Gulf war?
    Mr. Pipes. November 1990, 2 months before.
    Mr. Shays. OK. Can you give a little slack here to suggest 
that, if you're President of the United States, you're not 
going to give anybody any excuse in the government to basically 
prevent you from doing what you think you need to do as 
Commander in Chief? Is there a little bit of play?
    Mr. Pipes. Well, Mr. Chairman, these are judgment calls. 
But I gave as an example of something which is much more 
widespread. For example, a month later, in December 1990, the 
troops in Saudi Arabia--hundreds of thousands, half a million--
were not permitted to have any public display of Christmas 
celebration.
    Mr. Shays. You mean, public display within their own ranks?
    Mr. Pipes. Within their own ranks.
    Mr. Shays. It wasn't like they were going to go to some 
city in Saudi Arabia----
    Mr. Pipes. Absolutely. They had what were called C word 
morale services--in other words, Christmas morale services. 
That was the term. These were in unmarked tents, unmarked mess 
halls and within that people could do things.
    Mr. Shays. I might, if I were a soldier, be a little 
resentful of thinking I might be giving up my life for, 
obviously, our own national interest, the stability and concern 
that we didn't want Saddam Hussein to control 20 percent of the 
world's oil, potentially threatening another 40 percent.
    Mr. Pipes. Absolutely not.
    Mr. Shays. But, having said that, that would have taken--I 
would have sucked it in if I were one of the servicemen 
thinking I might end up dying in this land.
    Mr. Pipes. If I could read you one more paragraph, this is 
the testimony of a former Foreign Service Officer in Jidda. He 
was given kind of informal duty of being in charge of what we 
call the Catholic catacomb. And he explained afterwards when 
Catholic Americans--this is official Americans, this is 
Americans on the Embassy staff, sought permission to worship on 
the Embassy grounds I was to receive their telephone inquiries 
and deflect them by pretending not to know about the so-called 
Tuesday lectures.
    By the way, the Sunday services took place in Jidda on 
Tuesday because the only priest--subterranean priest who could 
get there got there on Tuesday. So they're called Tuesday 
lectures. Only if a person kept calling back and insisted that 
such a group existed was I to meet with them and get a sense of 
his trustworthiness. This is on American territory, and this is 
part of the same phenomenon of throwing Mrs. Stowers out of the 
Embassy.
    Mr. Shays. I'll just throw out a rhetorical question; and, 
Mr. Ose, you've got the floor as long as you want. I would just 
say that if we said to the Saudis that none of their citizens 
could practice their faith in public or in private or even in 
the Embassy, I would think they would be beyond outraged. And 
it is--I would love to at some time have a conversation with a 
Saudi diplomat in this country to have him explain to me the 
difference.
    Mr. Ose, thank you for your patience.
    Mr. Ose. Thank you, Mr. Chairman.
    Ambassador Horan, we've heard some conversation--testimony 
today--excuse me--that we are guests of the Saudi, guests of 
the government, guests of--you know, guests. From your 
experience, now you were an ambassador--I mean, we're talking 
the top guy--right in Saudi Arabia. No. 1, the big cheese, you 
know, all that sort of thing, right?
    Mr. Horan. I didn't feel like it. Go ahead, yes.
    Mr. Ose. You had moved to that position from a different 
position in another country?
    Mr. Horan. I had been our Ambassador in Sudan before I went 
to Saudi Arabia, sir.
    Mr. Ose. OK. So, your two postings as Ambassador were in 
the Sudan and Saudi Arabia?
    Mr. Horan. Also in Cameroon.
    Mr. Ose. And Cameroon.
    Mr. Horan. Yes.
    Mr. Ose. Now, in any of those three countries, was the 
treatment of the property on which the Embassy sat different, 
one from the other?
    Mr. Horan. The Embassy is American soil.
    Mr. Ose. Whether it's in Cameroon or Sudan or Saudi Arabia.
    Mr. Horan. Yes, it's American soil, just like the Congress 
is on American soil.
    Mr. Ose. Is that the policy of the State Department that 
the Embassy in Cameroon is American soil?
    Mr. Horan. I believe so.
    Mr. Ose. Is it the policy of the State Department that the 
Embassy in the Sudan is American soil?
    Mr. Horan. If it's different I'd stand to be corrected by 
my colleagues, but I spent 39 years in the business, and the 
Embassy was--you know, this is the USA.
    Mr. Ose. So, it's the policy of the State Department that 
the Embassy in Saudi Arabia sits on American soil, also?
    Mr. Horan. Yes, sir.
    Mr. Ose. So we're not guests?
    Mr. Horan. Yes.
    Mr. Ose. In any true sense or Webster's dictionary sense?
    Mr. Horan. Well, you use the word ``guests'' it is American 
soil, but it's American soil and it is an enclave of America in 
Saudi Arabia; and, you know, our job is not to make friends 
necessarily, but our job is to get business done. And if you 
can do it politely and even ingratiatingly, OK. But, you know, 
it's American soil; and in that sense we are guests because we 
look to them for a lot of services and a lot of cooperation.
    Mr. Ose. OK. Mr. Crocker, Ms. Andruch, if you'd offer any 
comment, I'd be curious. Is it the policy of the State 
Department of the United States that the Embassy grounds in 
Saudi Arabia are American soil, or is it the policy that they 
are not American soil?
    Mr. Crocker. Embassy grounds throughout the world are 
American soil. It's not just the policy of the State 
Department. That's international law.
    Mr. Ose. OK. Is it the policy of the United--let me--I'm 
trying to figure out what was it that--what set of 
circumstances was it that created a situation where U.S. 
Marines were asked to remove U.S. citizens from U.S. soil? Is 
that the--is it the policy of the State Department that U.S. 
citizens may not take refuge in the Embassy in Saudi Arabia?
    Mr. Crocker. Let me speak to the general before we go to 
the specific. A U.S. Embassy anywhere, having the welfare of 
its citizens as the top priority, will do whatever it can to 
protect them. And if an American citizen under duress arrives 
at an American Embassy, the Ambassador--and I've been an 
ambassador three times--is going to make a determination as to 
whether having this person there is important for that person's 
well-being.
    Mr. Ose. So, someone made a determination that Ms. Stowers 
and her children were not under duress? Is that what you're 
telling me?
    Mr. Crocker. For the specifics of this case, my colleague 
may be able to comment, or we'll need to get back to you.
    Mr. Ose. Ms. Andruch.
    Ms. Andruch. I think it is a little bit both, sir. I'll 
make a comment, and then we will--this information, I hope, 
will become more clear when we get that telegram that I 
promised to deliver to you.
    In hindsight, which is, of course, always 20/20, I wish we 
had done things differently. I understand, though, that the 
policy would be, as Ambassador Crocker said--I mean, a decision 
would have been made at the time based on circumstances then. I 
can't second-guess those. I, too--I wish I could go back in 
time and do things differently. All we can do at this point is 
look at what happened.
    I can, though, say that I think, looking at the long term--
and, again, I don't know--I'm not privy to the conversations 
that took place. But I'm quite sure that then, as now, consular 
officers and Embassy officers are looking for a solution to the 
problem. And I think they may have thought--and I'm just 
guessing--that having a family stay overnight was not going to 
solve the problem, even if they could have found accommodations 
for the family. Because the bottom line remained that, without 
the permission of the ex-husband, they would not be able to 
leave the country.
    So, you know, is staying a week--a day or a week going to 
help? Are other Americans going to come and want to stay for a 
day or a week? And even if we could accommodate them, how are 
we helping? And I think that may have been what they were 
thinking in making the decision that they made at that time.
    Mr. Ose. I would like to know who made the determination 
that Ms. Stowers and her children should not be allowed to stay 
in the Embassy. I want to know which American official made the 
decision that these American citizens should not be allowed to 
stay on American soil. I don't think there's any--I mean, this 
was a woman and two young children who basically confronted 
three U.S. Marines--I mean, I would not do that unless I was 
under significant duress. And I don't--I have to say I'm at 
somewhat of a loss.
    Maybe I'm missing something, but I would like to know. I 
would like to know which of our professional people ascertained 
that removing these American citizens from American soil was in 
their interest. So I'm looking forward to seeing these cables. 
I would like to know who had the authority and the jurisdiction 
at the time of the incident on the date which it occurred to 
make this decision and who made it.
    And I want to followup on a couple of things. Is Carla Reid 
still with the State Department?
    Ms. Andruch. It's my understanding that she has retired. I 
don't know that for certain.
    Mr. Ose. How about Frederick Moleski?
    Ms. Andruch. He is still in the Foreign Service, but I 
would have to find out where he is posted.
    Mr. Ose. I would like to find out whether they are 
currently employed at the Department of State.
    Now I do want to pay a compliment to the State Department. 
The State Department has posted on its Web site an advisory to 
Americans considering marriage to Saudis. What I don't 
understand is why that advisory has been taken off the Web 
site.
    Ms. Andruch. I was not aware that it was taken off the Web 
site. There's one on Islamic law that is on our Web site. It's 
at travel.state.gov.
    Mr. Ose. Travel.state.gov. So this one that refers 
specifically to Saudi Arabia has or has it not been removed?
    Ms. Andruch. I don't know if it's on there right now.
    Mr. Ose. Dr. Pipes.
    Mr. Pipes. If my recollection is correct, it was taken down 
at the behest of an Islamic group in the United States.
    Mr. Ose. It was taken down at the behest of an Islamic 
group in United States. Which Islamic group?
    Mr. Pipes. I believe it was the Council on American-Islamic 
Relations.
    Mr. Ose. With whom did they communicate their interest?
    Mr. Pipes. They protested this document to the State 
Department, which proceeded to take it down.
    Mr. Ose. Well, did they protest on the basis of inaccurate 
information?
    Mr. Pipes. They said it was discriminatory. This is all 
from memory. It's a couple of years ago. I believe they said it 
was discriminatory.
    Mr. Ose. Is there information in this material that's 
inaccurate?
    Mr. Pipes. I don't think that was the point. I think it was 
that posting this about marriage to Saudis as opposed to, say, 
marriage to Canadians was discriminatory.
    Mr. Ose. Have we had any protest about the postings on the 
Shari'ah?
    Mr. Pipes. I'm not sure.
    Ms. Andruch. We have--in another part of our Web site we 
have fliers on international parental child abduction by 
country, and there is something there about Saudi Arabia. I 
have----
    Mr. Ose. I presume it talks at that point a lot about the 
Hague Convention. The problem is that Saudi is not a----
    Ms. Andruch. No, sir. It's specific to Saudi Arabia, and I 
have copies of those if you want.
    Mr. Ose. OK. Again, I want to go back to this. This was the 
information posted on the Web site. It does refer--I'll just 
read it. Saudi Arabia, the subtitle is Marriage to Saudis. And, 
it's rather lengthy. It's seven pages, single-spaced 
information. I am trying to figure out if we're trying to 
caution Americans to be very careful for all the obvious 
reasons here. I would just think that we'd leave it up--did the 
Council of Islamic Relations, is that an American group or is 
that a group of foreign citizens who are trying to advance 
American-Islamic relations?
    Mr. Pipes. Both, sir. It was founded in--its founding 
meeting was in Philadelphia in 1993. It was tapped by the FBI. 
It's become apparent that the founding of this group was done 
by operatives of Hamas, the militant Islamic Palestinian group. 
But the Council of American-Islamic Relations portrays itself 
as an American group interested in American interests. However, 
it does have a very close connection to foreign terrorist 
entities, I might add, since the Hamas is declared a terrorist 
entity by the U.S. Government.
    Mr. Ose. So, Americans considering marriage to a Saudi 
would go where to get some indication of the likely 
circumstances that they'd be living under?
    Ms. Andruch. I do have copies, as I said. One is the 
International Parental Child Abduction Islamic Family Law. That 
is on our Web site. As is another one entitled, Saudi Arabia 
International Parental Child Abduction, that gives that 
information.
    Mr. Ose. But, you have taken down the information on the 
State Department Web site relating directly to marriage to 
Saudi?
    Ms. Andruch. I'll have to take that--I was--that must have 
been before my time. But I think that same information was 
incorporated in this.
    Mr. Ose. On March 3, 2000, I submitted some questions to 
Chairman Rogers, Subcommittee on Commerce, Justice, State, in 
the process of doing appropriations hearings. I just want to 
ask you--question No. 7 hadn't changed. Why should the Congress 
of the United States provide any funding for a State Department 
desk that isn't to intervene on behalf of American children 
taken by a noncustodial parent to a foreign country? I don't 
think that question has changed.
    I have to tell you, I don't know what your funding is now 
Mr. Crocker, Ms. Andruch, but you're not making--I mean, I'm 
appalled. I'm a Member of Congress asked to vote on the 
interests of the United States which I consider to be 
paramount, and I have to tell you right now I'm about to go 
visit with Mr. Rogers again. Something's got to change here.
    Mr. Chairman, I yield back to you.
    Mr. Shays. I thank the gentleman.
    I would like to ask, first, from either of our State 
Department witnesses, how is our conduct with Saudi Arabia 
different than our conduct in any other country? What makes it 
different?
    Mr. Crocker. Sir, are you referring to the whole conduct of 
relations?
    Mr. Shays. A little louder, please. Yes. No, I just want to 
know how do we treat and what are the restraints on us dealing 
with Saudis that might be different in another country.
    Mr. Crocker. Effectively, and in broad terms, it would be 
about the same. We have a broad range of interests with the 
Saudis that may have us more involved in more different areas 
than with, say, other smaller countries. But----
    Mr. Shays. Is it a fact, for instance, that Jewish--
American Jews might not have the opportunity to serve as 
diplomats in Saudi Arabia?
    Mr. Crocker. No, that is not true, sir. I know of my 
personal knowledge a Jewish officer who recently returned from 
a tour of duty in Saudi Arabia.
    Mr. Shays. Is it your testimony--I know we didn't swear 
people, but--we did? Is it your testimony, under oath, that we 
have no restraint on the number or people that would serve in 
Saudi Arabia, that there is no restraint--that if they're Jews 
they can serve there and we don't consider that a factor at all 
in the assignment to Saudi Arabia?
    Mr. Crocker. Well, what I know of my own personal knowledge 
is that a fairly senior officer has recently returned from a 
posting there.
    Mr. Shays. OK. But that's not really all that I asked you. 
That part is--you've told me. I want to know if you have heard 
of or are aware of any decision on the part of the U.S. 
Government not to send an American citizen who happens to be a 
Jew to Saudi Arabia.
    Mr. Crocker. No, sir. I am not aware of any position or 
decision on the part of the State Department or the U.S. 
Government not to send people of the Jewish faith to Saudi 
Arabia.
    Mr. Shays. Ambassador Horan, are you aware of that?
    Mr. Horan. That is my sense also, Mr. Chairman. I know of a 
number of Foreign Service Officers who are Jewish who have 
served in Saudi Arabia.
    Mr. Shays. OK. So we're just going to put it to bed. That's 
not an issue. Is that the case, Mr. Crocker?
    Mr. Crocker. To the best of my knowledge, sir.
    Mr. Shays. OK. Ms. Andruch.I'm sorry. I can't hear you.
    Ms. Andruch. I'm sorry. I agree. I don't think there is a 
policy against that.
    Mr. Shays. I want to pursue, just briefly, a question that 
Doug Ose asked I think quite well; and that is I think what 
made me cringe the most, besides my own failure to get into 
this issue sooner, is to understand how if an American citizen 
comes to American territory, our Embassy, that they could be 
kicked out if they believe that their life is threatened. And 
threatened can be, in fact, being held hostage. I just have to 
understand that a little better. And is this something that 
would happen at any Embassy around the world? Or is this more 
unique to Saudi Arabia?
    Mr. Crocker. I think the question can arise anywhere in the 
world. At two of the Embassies----
    Mr. Shays. So when you heard this, you weren't surprised. 
Because this is common practice, Marines forcing Americans to 
leave an Embassy, whether they claim that they, you know, may 
be punished and they may be hurt.
    Mr. Crocker. I misunderstood your question, sir. I thought 
you were asking, do situations arise around the world in which 
Americans seek the protection of the Embassy?
    Mr. Shays. And are thrown out. They were thrown out, 
correct?
    Mr. Crocker. Sir, I think that, given the significance of 
this event, the distance in time and some of the complexities, 
we are going to have to give you a written response on this 
case.
    Mr. Shays. You're not willing to say on public record that 
they were thrown out of the Embassy at this time.
    Mr. Crocker. At this time, no, sir.
    Mr. Shays. OK. And----
    Mr. Ose. Would the gentleman yield for a minute. Would the 
Embassy or the Marine detachment there ordinarily write up a 
report on any such incident?
    Mr. Crocker. In my experience, the Marines would, whatever 
the rest of the Embassy--the Marines would do an incident 
report.
    Mr. Ose. Who would have possession of that?
    Mr. Crocker. Probably would wind up with our Bureau of 
Diplomatic Security in Washington.
    Mr. Ose. I thank the gentleman.
    Mr. Shays. Mr. Crocker, I'd like you to read exhibit 4, 
response to the request of the case of Stowers, Radwan, the 
Shalhoub Davis case. It's exhibit 4. Would you look at exhibit 
4? And I would ask Dr. Pipes or Mr. Bandow just to respond. Are 
you aware and how would you characterize what happened in the 
Embassy? It's on the second page.
    Finally, at 7 p.m., after consultations between CG and the 
Embassy front officer, Marine security guards were asked to 
remove Ms. Stowers and her children from the premise.
    Now, remove means, in my judgment, to be forced to leave, 
correct? We don't have to speak about a dispute about that. So 
you're covered. Somebody else has already acknowledged that. So 
are you comfortable acknowledging now, Mr. Crocker, they were 
kicked out? It's the State Department document.
    [Exhibit 4 follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Andruch. Mr. Shays.
    Mr. Shays. Is this attached from the letter from you all? 
Did you send this to us, Ms. Andruch?
    Ms. Andruch. I think this was included in the documents 
that the State Department submitted. We haven't personally seen 
all of these documents, but I think----
    Mr. Shays. Wasn't it a letter from you that submitted this?
    Ms. Andruch. No, sir. No, sir. But I take your point; and I 
think, yes, if Marines escorted an American out of the Embassy, 
they were asked to leave.
    Mr. Shays. So is this a common practice? Does this happen 
often or, given that we're acknowledging they were forced--they 
were removed from the premise, how should I, as a Member of 
Congress, view this?
    Ms. Andruch. I would have to say it happens extremely 
rarely with American citizens. I, too, was shocked by the 
report.
    Mr. Shays. Do we have any other knowledge of any other 
American citizen seeking refuge in an Embassy and our Embassies 
in Saudi Arabia being forced to be removed?
    Ms. Andruch. I don't know of any, no, sir.
    Mr. Shays. OK. Let me just ask this line of questions to 
the Deputy Assistant Secretary.
    This is to you, Secretary Crocker. I'm going to be asking 
you some questions about the State Department position, and I'm 
going to just follow script and make sure we have it pretty 
much according to how we've asked it. I'm going to ask you 
first, in the 16 years since the kidnapping, has the Roush case 
ever been raised with the Saudis by the Secretary of State, 
President or Vice President?
    Mr. Crocker. I'll have to take the question, sir.
    Mr. Shays. OK. Did you realize that you were here to be 
able to testify on this issue, or were you just here--did you 
know Ms. Roush would be here?
    Mr. Crocker. Yes, I did, sir.
    Mr. Shays. Did you happen to review papers to familiarize 
yourself with this case?
    Mr. Crocker. I did review papers, but a question like this 
which covers a 16-year period, I just would not be able to 
answer.
    Mr. Shays. OK. So you're not going to be able to answer 
whether or not the Secretary of State, President or Vice 
President--admittedly, there have been many.
    How about recently? Has Secretary Powell or the President 
or Vice President raised this as a concern?
    Ms. Andruch. I don't believe that it's been raised at that 
level, no, sir.
    Mr. Shays. The State Department's persuasion in working 
with the Saudis--within the Saudi law for the past 16 years, 
you would acknowledge it hasn't worked, correct?
    Mr. Crocker. Very clearly, sir, it has not worked.
    Mr. Shays. Will the U.S. Government raise the Roush case, 
and others like it, as a state-to-state issue between the 
United States and Saudi Arabia?
    Mr. Crocker. Yes, sir, we will. We have and we will 
continue to do so.
    Mr. Shays. If the Saudi Government does not respond 
favorably, will we place pressure on the Saudi Government to 
force a resolution?
    Mr. Crocker. We will do everything we can that would 
advance the issue, the issue being access to and return of 
children.
    Mr. Shays. Can you list out some of the ways that the U.S. 
Government could place pressure on the Saudi Government to 
force a resolution of this case?
    Mr. Crocker. I think the most effective way is to be clear, 
at senior levels of the Saudi Government, the depth of concern 
that is felt by the United States over this issue. Clearly, 
they are going to be aware of that from today's hearing.
    Mr. Shays. Is it possible that we could use selected visas 
for official Saudi travel in the United States, deny or delay 
them? Is that a possibility?
    Let me say it again. Could selected visas for official 
Saudi travel to the United States be denied or delayed? Is that 
an option?
    Mr. Crocker. For visa denial, there has to be a specific 
ground, under law.
    Mr. Shays. In these cases, we are dealing with Saudi law 
which give Saudi men the power to hold children in the country 
against their will, correct?
    Ms. Andruch. Yes, sir, effectively yes.
    Mr. Shays. As a result of these laws, dozens of Americans 
are being held against their will in Saudi Arabia. Shouldn't 
the U.S. Government hold the Saudi Government responsible for 
its laws?
    Mr. Crocker. The Saudi Government, like any government, is 
responsible for it laws. They have, as I noted earlier, a very 
different legal system.
    Mr. Shays. What was our position with South Africa and 
apartheid?
    Mr. Crocker. We were strong opponents of apartheid.
    Mr. Shays. And what steps did we take to deal with that 
issue?
    Mr. Crocker. I'm not----
    Mr. Shays. Didn't we restrict how the government officials 
could travel because of those laws?
    Ms. Andruch. We did, sir, in that case, but it was hinged 
to, I believe, terrorism. So, I mean, it was hinged--there was 
a specific--there was a specific part of the law that allowed 
us to deny visas in those cases.
    If we had something similar for officials of the Saudi 
Government that could, in fact----
    Mr. Shays. Do you think that the witness that we heard on 
tape has been terrorized?
    Ms. Andruch. Yes, sir.
    Mr. Shays. Yeah, so do I.
    I realize you all are in a position where you're trying to 
make the government policy work the best you can. I realize 
that you all have superiors, and you're here to testify and 
give us honest answers. I think you've tried very hard to give 
us honest answers, but I think that we all know we're kind of 
playing out something where we all can't quite look at 
ourselves in the mirror and feel very proud.
    And I'll just say we read a recent article about a young 
woman in Pakistan who was placed under arrest because she was 
pregnant by her brother-in-law, who raped her, and when she 
complained, she was held in prison, her child taken from her 
because of infidelity. And I find myself just unable to accept 
that; and we're going to have some real wrestling to do with 
some of these kinds of issues.
    I see my colleague, Mr. Ose, is back. I need to leave. I 
don't know if he would like to take the Chair. And I would like 
to know, before I leave, is there any comment that any of you 
wish we had asked that we didn't ask, anything that you want to 
put on the record that you feel we need to put on the record?
    Yes, Dr. Pipes.
    Mr. Pipes. I've had a chance to look up Mr. Ose's question 
about the Web page. I've found the particulars. I had, 
actually, the wrong organization.
    Mr. Shays. What I'm going to do is I'm going to let Mr. Ose 
sit down, and I'm going to stay while you give your answer.
    Mr. Ose [presiding]. Dr. Pipes, continue please.
    Mr. Pipes. It was the American Muslim Council which issued 
a press release on March 10, 2000, titled ``AMC Expresses 
Satisfaction Over Change in U.S. Advisory on Marriage with 
Muslims.''
    ``The American Muslim Council has expressed satisfaction 
over the positive changes brought about in the U.S. Department 
of State's Islamic family law brochure,'' and it goes on to 
give the particulars. It says that the State Department has 
removed the hurtful statements from its Web page that were 
derogatory and biased against Muslims.
    Mr. Ose. Ambassador Crocker or Ms. Andruch, forgive me. Ms. 
Andruch, are you Ambassadorial rank?
    Ms. Andruch. No, sir, I'm not.
    Mr. Ose. So I'm proper to say Ms. Andruch?
    Ms. Andruch. Yes.
    Mr. Ose. And Ambassador Crocker. Are we, the United States, 
issuing visas to--excuse me. Are we issuing visas to Saudi 
citizens who are not diplomats today?
    Mr. Crocker. Yes, sir.
    Mr. Ose. How many?
    Ms. Andruch. I'd have to get those numbers for you.
    Mr. Ose. Is it hundreds or tens or thousands or----
    Ms. Andruch. Just visas in general to Saudi nationals, 
hundreds.
    Mr. Ose. Are we issuing--when a Saudi diplomat comes to the 
United States, we issue that person a diplomatic visa. Is that 
correct?
    Ms. Andruch. That's correct.
    Mr. Ose. How do we differentiate between those who are 
issued diplomatic visas and those who just get a regular visa?
    Ms. Andruch. We don't differentiate as far as the process. 
There is a process to check names and a system, a data base, in 
the United States, and a visa issued to that person for their 
intent--for the intent of their travel if there is no 
derogatory information in the system about them.
    Mr. Ose. How many diplomatic visas have been issued to 
persons from Saudi Arabia?
    Ms. Andruch. I'd have to take that question, but I would 
say that it's more than the tens.
    Mr. Ose. Is it inordinately high? I mean, is it as many as 
a country like Germany or France or China? I mean, they have a 
large--much larger----
    Ms. Andruch. Yeah. I don't know, sir. I think, though, that 
because we do tend to issue diplomatic passports fairly 
regularly, I think that there are probably--it would be--the 
country--they would certainly compare with a country like 
Germany.
    Mr. Ose. Does the State Department track--when a diplomatic 
visa is issued, does the State Department track whether or not 
the person actually engages in diplomatic work?
    Ms. Andruch. If a diplomatic visa is issued for someone to 
work in the Embassy or consulate, yes. Very often a diplomatic 
visa may be for--to attend a meeting or something like that, 
and I'm not--I'm not sure that they actually check the 
attendance of the meeting. But very often there is State 
Department involvement in that particular meeting, so they 
would be aware of it.
    Mr. Ose. Who makes the decisions on whether or not to issue 
diplomatic visas for that purpose?
    Ms. Andruch. That would be made at the Embassy by the 
officers there, again with coming back and checking the records 
in Washington, seeking advice, if necessary, depending again on 
the stated purpose of the travel.
    Mr. Ose. So the Gheshayan family could go to the Embassy 
and seek a diplomatic visa, and it would be a judgment call at 
the Embassy?
    Ms. Andruch. In that particular case, because we know of 
them, if they came with a diplomatic passport and made 
applications for a visa, they would not be given a visa, 
because we now have a statute that would allow us to deny the 
visa based on the abduction of the child, or their--in the case 
of the more extended family, assistance in the abduction or 
retention of the child.
    Mr. Ose. You're going to get back to us in terms of the 
number of diplomatic visas issued pursuant to diplomatic 
passports?
    Ms. Andruch. Yes, sir.
    Mr. Ose. For Saudi citizens in the United States?
    Ms. Andruch. Yes, sir.
    Mr. Ose. OK. We only have a few more questions.
    I am a little bit curious. Ambassador Horan, how did you 
handle the issuance of diplomatic visas when you were the 
Ambassador?
    Mr. Horan. I've tried to remember. For a long time, the 
Saudis all got diplomatic visas. This goes back to the 1950's 
and 1960's, because they seemed to be, most of them, already 
connected to sort of royal-type families. And then the feeling 
was, they were so unsophisticated, coming to the States, they 
wanted to have the--what they thought was the additional 
protection of a diplomatic visa.
    In point of fact, the diplomatic visa shouldn't do anything 
for you at all. It might get you a little bit more courtesy, 
but it doesn't entitle you to any kind of diplomatic 
privileges.
    It was sometime--I'm trying to remember. It was toward the 
end of my tour or soon thereafter that the decision was made 
that this practice of giving diplomatic visas--and to them, it 
is kind of a prestige thing; oh, I've got a diplomatic visa. 
Saudi Arabia was now kind of a grown-up country, thousands of 
students in the States; let's treat them like regular visa 
applicants.
    But I don't know when happened.
    Mr. Ose. The students get a regular visa, then?
    Mr. Horan. Students should be getting a regular student 
visa, yes. This is my understanding.
    Mr. Ose. Is that still the case with Saudi students 
visiting the United States, they get a regular visa?
    Ms. Andruch. Yes, sir.
    Mr. Ose. All right. Is the State Department willing to 
answer some written questions that we would then include in the 
hearing record?
    Mr. Crocker. Yes, sir.
    Mr. Ose. We will be submitting those.
    I'm going to ask unanimous consent that the set of exhibits 
prepared for this hearing be included in the record, and 
without objection, that's ordered.
    The record will remain open pending the issuance of the 
questions to the witnesses and the answers having been 
received.
    We do appreciate the witnesses taking time to come down 
here. This is a very difficult question that we're struggling 
with.
    Dr. Pipes, you know, if I give you an opportunity to speak, 
I've got to give them all, so Ambassador Horan, here's your 
chance to offer one last comment.
    Mr. Horan. Not entirely germane, sir, but the State 
Department people do step up in order to help their fellow 
Americans. Our Deputy Chief of Mission in Guinea, Conakry, 
where I was last as a private citizen, there were two Americans 
that were really being pressured by the Guinean police. They 
were really facing some great hardships and even dangers. He 
and his wife took them into their house and kept them there for 
about 6 weeks, fed them until the Consul, working with the 
Guinean foreign ministry, managed to get them out, safe and 
sound.
    So you do----
    Mr. Ose. Is that contrary to Guinean law?
    Mr. Horan. Sorry, sir?
    Mr. Ose. Was that contrary to the Guinean law? I can't 
imagine that being----
    Mr. Horan. The Guineans weren't very happy that the person 
was--these people who were being unjustly accused by Guinean 
law were sitting within the DCM's, the Deputy Chief of Mission 
residence.
    But, you know, they understood it, and they knew that at 
least they were trying to squeeze these Americans improperly; 
and that the DCM and his wife kept them for going on 2 months. 
And I thought that was, you know, doing the right thing.
    Mr. Ose. Dr. Pipes.
    Mr. Pipes. Sir, at first, two points. First, a small one 
about the visas.
    So far as I know, at this time there still is a Web page on 
the Riyadh Embassy, information about U.S. visa express. This 
permits Saudis and non-Saudi residents--residents, Saudi 
citizens--residents of Saudi Arabia who are not Saudi citizens, 
in other words, third party--third country. I'm not too good at 
this language. In other words, they can all apply for an 
expedited visa.
    It's my understanding in the aftermath of September 11th 
this was shut down. I believe it is still up, and I would hope 
that you would look at it. This means that Saudis and others 
coming from Saudi Arabia can go through the system expedited 
without even showing up, having travel agents do the work.
    Ms. Andruch. No. That has been shut down.
    Mr. Pipes. It's still there.
    Ms. Andruch. OK. We will look into that, but that is shut 
down, because now there's a waiting period, as well, for male 
applicants.
    Mr. Pipes. Do make sure that it's clear.
    Mr. Ose. Your second point?
    Mr. Pipes. And the second point would be a more general 
one.
    I think we have a culture here, a culture of obsequiousness 
that's very distinct to Saudi Arabia and, I think, requires 
your urgent attention to think through mechanisms to prevent 
the Saudi Government, in effect, from preemptively bribing our 
officials by keeping a lure out there for them, just as was 
done, say, with the insurance companies.
    Mr. Ose. Thank you.
    Mr. Bandow.
    Mr. Bandow. Mr. Chairman, I think the Americans murdered 
last September and the Americans currently held in Saudi Arabia 
against their will provide us at least 3,000 reasons for the 
U.S. Government to take a much tougher policy toward Riyadh. 
It's time to stop treating Saudi Arabia like an indispensable 
ally and more like a regular country, in this case, a 
totalitarian state which routinely has subsidized terrorist 
theologies and violated basic human rights.
    It's the U.S. Government's responsibility to its own 
citizens to take a much tougher stance toward this government.
    Thank you.
    Mr. Ose. Ms. Andruch.
    Ms. Andruch. I'd just like to again say that I think, you 
know--unfortunately, you know, employees of the State 
Department, who are public servants in the best cases and, 
unfortunately, often seen as difficult bureaucrats in the worst 
cases, we don't have a heartectomy when we come to our jobs, 
and we really do care about the work we do and the protection 
and welfare of American citizens being the No. 1 priority.
    So to the extent that we can all work together to allow us 
to do a better job, working within our laws and the laws of the 
host country, we look forward to working with you. Thank you.
    Mr. Ose. Ambassador Crocker.
    Mr. Crocker. Nothing further, sir.
    Mr. Ose. I thank our witnesses for appearing today. We're 
adjourned.
    [Whereupon, at 2:21 p.m., the committee was adjourned.]
    [The prepared statement of Hon. Edolphus Towns, the 
complete set of exhibits, and additional information submitted 
for the hearing record follow:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]









     AMERICANS KIDNAPPED TO SAUDI ARABIA: IS THE SAUDI GOVERNMENT 
                              RESPONSIBLE?

                              ----------                              


                       WEDNESDAY, OCTOBER 2, 2002

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:55 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Gilman, Shays, Ose, 
Weldon, Duncan, Norton, Cummings, Kucinich, Watson, and 
Sanders.
    Also present: Representatives Kerns and Berry.
    Staff present: Kevin Binger, staff director; James C. 
Wilson, chief counsel; David A. Kass, deputy chief counsel; S. 
Elizabeth Clay and Caroline Katzin, professional staff members; 
Jason Foster and Randall Kaplan, counsels; Blain Rethmeier, 
communications director; Allyson Blandford, assistant to chief 
counsel; Robert A. Briggs, chief clerk; Robin Butler, office 
manager; Joshua E. Gillespie, deputy chief clerk; Nicholis 
Mutton, deputy communications director; Corinne Zaccagnini, 
systems administrator; Sarah Despres, minority counsel; Ellen 
Rayner, minority chief clerk; and Jean Gosa and Earley Green, 
minority assistant clerks.
    Mr. Burton. Good morning. A quorum being present, the 
Committee on Government Reform will come to order. There will 
be more Members showing up here in just a few minutes I hope. 
Here comes one of our fine Members right now.
    Before we start this morning, I want to say a few words 
about a good friend of ours and our colleague, Patsy Mink. She 
was not only a valuable member of this committee, she was a 
very nice lady and she was well informed. She studied the 
issues and when she talked, people listened. She had a terrible 
problem. I think she developed chicken pox, which is unusual 
for older folks like us, and it turned into I guess pneumonia 
and other complications, and she passed away over the weekend. 
She was very well liked by Members on both sides of the aisle, 
and I think everybody on the committee held her in very high 
regard, and on behalf of the committee, I want to extend 
condolences to Ms. Mink and her family. This is a very 
difficult time for all of them, and we will be thinking of them 
and praying for them and Patsy as well.
    Let me get some more formal things out of the way.
    I ask unanimous consent that all Members' and witnesses' 
opening statements be included in the record.
    Without objection, so ordered.
    I ask unanimous consent that all written questions 
submitted to witnesses and answers provided by witnesses after 
the conclusion of this hearing be included in the record.
    Without objection, so ordered.
    I ask unanimous consent that a set of exhibits relating to 
this hearing which have been shared with the minority staff 
prior to the hearing be included in the record.
    Without objection, so ordered.
    I ask unanimous consent that all articles, exhibits, and 
extraneous or tabular material referred to be included in the 
record.
    Without objection, so ordered.
    I also ask unanimous consent that questioning for Panel III 
of this hearing proceed under clause 2(j)2 of House rule XI and 
committee rule 14 in which the chairman and ranking minority 
member allocate time to committee counsel as they deem 
appropriate for extended questioning, not to exceed 60 minutes, 
to be divided equally between the majority and minority.
    Without objection, so ordered.
    I ask unanimous consent that Congressman Kerns and 
Congressman Berry, who are not members of this committee, be 
permitted to participate in this hearing. I believe Congressman 
Kerns will be back, but he has another hearing, so he may or 
may not be here. He has some constituents who I think he holds 
in high regard and who he helped when we were in Riyadh who are 
here.
    Today we are meeting once again to talk about Saudi Arabia 
and child abduction cases. The last time we held a hearing on 
this issue it was June. A lot has happened since then. I wish I 
could report that a lot of good things have happened, but 
unfortunately I can't.
    When I first got involved in this issue and the committee 
did, all we wanted to do was to try to help American mothers be 
reunited with their kidnapped children. I was really hoping 
that the Saudis would work with us to try to fix these 
problems. Unfortunately, that did not happen, and the more time 
we spent looking at this issue, the worst things occurred.
    On the positive side, President Bush and Secretary of State 
Colin Powell have started to step up to the plate. One of my 
biggest concerns has been that over the years the State 
Department hasn't done enough to help these families. 
Hopefully, that is going to change.
    President Bush met with Prince Bandar and asked him to help 
resolve these cases. Unfortunately, Prince Bandar didn't pay 
much attention. I met with Secretary Powell, and he promised to 
raise the profile of this issue with the Saudis. He called me 
when one Saudi young lady was freed from Saudi Arabia--she was 
in Kuala Lumpur, and I think we are going to hear from them 
today--they were able to get her out. That was covered by 60 
Minutes last weekend and we will be talking about that in a few 
minutes. We are very pleased that our State Department and 
Colin Powell did the right thing in that particular case.
    When we traveled to Saudi Arabia, Ambassador Jordan pledged 
to us that no American who needs help will ever again be turned 
away from the U.S. Embassy. That hasn't been the case in the 
past. We have had Americans go to the U.S. Embassy and been 
turned out on the street, the mother to be arrested and the 
children to be put through hell once again.
    These are all good signs. I hope that by working together 
we can continue to keep the pressure on. We owe it to these 
families to keep this issue on the front burner and to not let 
it drift off into obscurity.
    On the negative side, the Saudis have really dug in their 
feet. Today I understand they are meeting with some of our 
Senators to try to convince them they are doing the right thing 
and want to help, when in fact it is just the opposite.
    The Saudis are not budging an inch. I led a delegation of 
Congressmen to Saudi Arabia in August, and I was hoping the 
Saudis would deal with us in good faith and help us to solve 
some of these cases. Instead, we got disinformation and PR 
stunts.
    I will never forget sitting in a Starbucks restaurant in 
Riyadh with Amjad Radwan. She is an American citizen. She has 
been trying to get out of Saudi Arabia her whole life. She was 
one of the two children led to the front gate by our embassy 
officials and the marines, back when she was 12 years old, and 
her father ended up having her married off to somebody when she 
was 12. She rebelled against that and left, ran away, and now 
she has been married off again now that she is 19.
    President Bush specifically talked to Prince Bandar about 
Amjad's case and my understanding was that Prince Bandar told 
the President he would help get it resolved. But in the weeks 
before we arrived, as I said, she was married off to a 42-year-
old man, who has already married--she was taken from her home 
in the middle of the night, made to undergo painful surgery to 
reduce her weight. And it is true they gave her an exit visa 
and passport, but it is also true they put unbelievable 
pressure on her to stay.
    When I talked to her, there were tears in her eyes. She was 
wearing her abayah. That means she was completely covered from 
head to toe, except for her eyes. All I could see was her eyes. 
She was crying, her hands were trembling, and she said over and 
over again, ``I want to go to America, I want to be free,'' but 
then she would look at her new husband and say, ``but not 
now.''
    And what about Pat Roush's two daughters, which we just 
referred to a moment ago? We told the Saudis that our 
delegation was going to make an official request when we got to 
Saudi Arabia, let the girls come to America to meet with their 
mother. The Saudi Government couldn't even wait for the 
official request to be made. Instead, on the day we arrived, 
they sent those two young women to London. They were surrounded 
by Saudi men and high-priced handlers, and it is impossible to 
tell if they were speaking their own minds. They were very 
possibly under a great deal of pressure.
    The reason I say that is because we had a young woman 
testify in June named Dria Davis. She was kidnapped by her 
father and kept in Saudi Arabia. At one point, she was 
interviewed by one of our embassy officials. She told them that 
she was happy in Saudi Arabia and she did not want to leave.
    Later, her mother helped her escape and she had a different 
story to tell, a very different story. She told us that she had 
to say those things when she was interviewed because she had 
been told by her father--and she was afraid that her father 
would beat her or even kill her. She desperately wanted to 
leave, but she had been told in no uncertain terms what she had 
to say, and she said it, and couldn't speak freely.
    By the same token, we can't tell if Pat Roush's daughters 
were speaking freely. Pat Roush never got a chance to talk to 
her daughters and ask them if they wanted to come to America. I 
think it is a real shame.
    Maybe the Saudis think we are stupid. Maybe they think we 
don't recognize coercion when we see it. But this much is clear 
to me: The Saudis wanted to say and do all the right things in 
public, but behind the scenes, they did everything they could 
to undermine us.
    They even tried to manufacture a story that--if you want to 
believe this--that I tried to bribe Amjad Radwan with $1 
million if she would come to the United States. First of all, I 
don't know where I would get that $1 million. But it is really 
ridiculous. That is just inexcusable. I was a guest in their 
country and I reached out to them along with our CODEL to try 
to work with them. And I get falsely accused of offering a $1 
million bribe. That doesn't speak well of the Saudi rulers.
    They also said that they went to the Saudi Foreign Ministry 
and said if they would offer them more money, she would stay. I 
will tell you, you don't say that to the Saudi rulers. You end 
up in the slammer, or getting whipped violently. So the whole 
story is ridiculous.
    I want to play a short tape that I think demonstrates how 
hard it is to get straight answers about Amjad Radwan. This is 
from 60 Minutes last Sunday, and the Saudi's main spokesman, 
Adel Al-Jubeir, is being interviewed. I want you to watch what 
happens. He is asked a question about this.
    [Tape played.]
    Mr. Burton. I just want you to pay attention to that. He 
said, we did something about it as soon as we found out about 
it. Immediately.
    Well, I don't know what they think about time passing, but 
1988 is not 2002. It is 14 years later, 14 years. She is 19. It 
is incredulous that they would lie like that.
    In addition to that, I have been watching television the 
last couple of weeks and they have had their mouthpieces on 
television all over this country, many of them American 
officials, American ambassadors that worked for us in Saudi 
Arabia that are now on the payroll of the Saudis. I want to 
read you something that Prince Bandar said, ``the colorful 
Saudi Ambassador to the United States, makes no bones about how 
it works; that is, hiring Americans to speak for them and 
paying them very well.''
    The Washington Post quoted Bandar as observing, ``If the 
reputation builds that the Saudis take care of friends that 
they leave office, you would be surprised how much better 
friends you have who are just coming into office.''
    What he is saying very clearly is that we know how to let 
these people who work for our embassies and who become our 
Ambassadors, we let them know when they come over there, if 
they are our buddies, when they leave they can get good fees, 
$100,000, $200,000, $1 million a year, to be our spokesmen.
    It is a pretty good deal. You go over there and work in the 
Saudi Embassy, and if you are a good boy or woman and you speak 
the line of the Saudi Government on all these issues, when you 
leave they will hire you and pay you a pretty good fee. If you 
don't believe it, just look at what has been on the television 
networks over the past few weeks. It is unfortunate.
    What you saw just a minute ago on the 60 Minutes piece 
might have been surprising to 60 Minutes, but that is the kind 
of thing that has been coming from the Saudis the whole time we 
were looking into this.
    Yesterday there was an article in the New York Times. Now, 
I wasn't a big close friend of the Clinton administration, as 
many people might know. We had a lot of investigations going 
on; Ms. Watson knows that and a lot of my Democrat friends like 
Mr. Waxman knows. But I want to quote two of President 
Clinton's top antiterrorism aides who just wrote a book, and I 
agree with what they said.
    They said that Prince Bandar, the Saudi Ambassador to the 
United States, repeatedly lied to the Director of the FBI about 
the Khobar Tower bombing that killed 19 American servicemen 
when they were attacked by terrorists. That was their 
Ambassador to the United States. He lied about that to the FBI, 
according to Clinton administration terrorist officials.
    What is to create any doubt about him and the Saudis lying 
about these poor women who have had their kids kidnapped and 
held by them in Saudi Arabia for 10, 15, 20 years, and to say 
they didn't know anything about it?
    Now with these kidnapping cases, we have been given 
misinformation again. Saudi Arabia is supposed to our ally, and 
they are running commercials in Washington and running them in 
my district, saying they are one of our best friends and we can 
always count on them. And if you believe that, I have got a 
couple of bottles of salt you can eat.
    Now, let's turn to today's hearing.
    It is to their benefit that we have a base there, because 
they are in peril, just like a lot of other people over there. 
The Saudi family is in peril with some of the radicals in the 
Middle East, and they need us a lot more than we need them. We 
used to get about 50 to 60 percent of our oil from Saudi 
Arabia. Now we get 15 percent. They used to have a huge balance 
of payments surplus. Now they have a balance of payments 
deficit. So for us to kowtow to the Saudis, our State 
Department or anything else, is a terrible mistake, and I think 
Colin Powell understands that and he is doing the right thing. 
He helped us get one person out, and I know he will help us 
with others. And our Ambassador over there said very clearly 
that no American citizen is going to be denied sanctuary in an 
embassy or consulate in Saudi Arabia, and that is a giant step 
in the right direction, and I believe that is going to be our 
policy elsewhere.
    But we must keep the Saudis under close scrutiny. We must 
not allow them to get away with this sort of thing. We must not 
allow them to violate U.S. law. If there is a court order 
giving custody to the mother, and they kidnap the child to 
leave this country and take them over there, never to be seen 
by their parent again, then we need to keep the heat on them.
    There's some legislative measures we are going to be 
talking about. I am going to have Democrat as well as 
Republican supporters on that, I believe Ms. Watson and I have 
talked about this and others, and that legislation, which I 
have also talked to Secretary Powell about, I think, will be 
very helpful in keeping the pressure on and stopping these 
sorts of things from happening in the future.
    We are not requesting to stop on this. This isn't the last 
hearing or last thing that is going to be heard about it. I 
hope if our Saudi friends are paying attention, I want them to 
know, pardon my English, this ain't going to stop. You are 
either going to start observing U.S. law and treating Americans 
as they should be treated, or you are going to suffer the 
consequences in the public arena.
    On September 12, Prince Bandar wrote a letter to the editor 
of the Wall Street Journal. In the very first paragraph, this 
is what he says: ``some have charged that Saudi Arabia is 
holding Americans against their will. This is absolutely not 
true.''
    Today we are going to hear from several families. At the 
end of the day, everyone can make up their own minds about that 
statement he made.
    Today we are going to hear from six families. I would love 
to spend a lot of time talking about each one of these cases, 
but they will tell their stories much better than I can. I do 
want to mention just a few points.
    On our first panel, we are going to hear from Sam Seramur. 
Sam has her daughter Maha here today. They were separated for 8 
years. Sam was reunited with her daughter not because she 
received any help from the Saudi Government. They were reunited 
because she staged what I can only describe as a heroic rescue 
while her ex-husband had the children on vacation in Malaysia, 
in Kuala Lumpur.
    I want to play a short tape once again from 60 Minutes so 
everyone can see what it is like. I wish everyone in America 
could see this, so everyone can see what it is like for a 
mother and daughter to be reunited after the daughter being 
held in captivity in Saudi Arabia for 8 years. Would you play 
the tape, please.
    [Tape played.]
    Mr. Burton. You know, when we were in Saudi Arabia, I 
talked to a number of women who were absolutely terrified--and 
my colleagues on the CODEL, the women were absolutely terrified 
they would be found to even talk to you as Congressmen. They 
told us horror stories that I can't repeat in some cases 
because I am afraid that their husbands might find out and do 
them bodily harm.
    In this case that you just saw there, and that 
reunification, is something that should take place in I believe 
hundreds of families where the children are being held captive 
against their will in Saudi Arabia. Can you imagine the emotion 
that mothers are feeling? We are going to talk to some of them 
today whose children are over there and they haven't talked to 
them for years or even seen a picture or know what their health 
is. And they have legal custody here in the United States, and 
the kids were kidnapped? It is just unbelievable.
    Let's get back to this case. Unfortunately, Sam still has 
two children she hasn't been able to get out. I want to ask a 
number of questions of her daughter Maha today, and want to 
find out what it is like for young women like Maha and Amjad 
when they are held in Saudi Arabia for years. I want it to be 
pointed out that there is coercion. In many, or all cases 
probably, they are not able to speak their minds. Is there 
physical abuse? All these issues are going to be discussed.
    Finally I want to say a few words about Joanna Stephenson 
Tonetti from our home State of Indiana. I don't think Brian 
Kerns is here, but this is a case where she was awarded custody 
of her children in Indiana. A judge allowed their father to 
have unsupervised visits with the children. She was very 
concerned that he might take the kids to Saudi Arabia, so the 
father was ordered to stay in the United States and not to take 
the children out of the United States.
    The judge in the case even contacted the Saudi Embassy to 
make sure that they knew that the Saudi father did not have 
custody of the children and that he was not allowed to leave 
the country or get passports for them.
    So the father said OK, and everything was fine. He took the 
children immediately when he got them to the Saudi Embassy, got 
them passports, kidnapped them, took them to Saudi Arabia, and 
the mother hasn't seen them since. She hasn't even heard from 
them or about them for 2 years, until Brian Kerns, one of the 
colleagues on the CODEL with us, went to see the children and 
was able to take get them on the phone with their mother and 
take a few pictures. She was very happy to see the kids for the 
first time in 2 years.
    The Saudi Government was complicitous in the kidnapping. I 
want you to hear that. You heard that the Saudis denied all 
this. They were involved in the kidnapping. They granted 
passports to these two kids after a U.S. judge called them or 
contacted them and told them the children were not to leave the 
country. So when they say that they are going to be helpful and 
they are not doing anything to impede bringing families back 
together or bringing kidnapped children home, it is just a 
bunch of bull, because here is a case very clearly where they 
were involved in the kidnapping.
    Joanna, as I said, wasn't allowed to talk to her children 
for 2 years. Congressman Kerns was allowed to arrange for that 
when we were over there. Her daughter Rose is now 12, and I 
want to show you a little school project she did back in 
Indiana when she was 10, 2 years ago, before she was kidnapped. 
It is hard to read, so I will tell you what it says on each 
page.
    It is entitled, ``Proud to be an American'' by Rose Al-
Arifi.

    you get to play in the snow.
    You get to dance and do gymnastics.
    You get to take ballet classes.
    You get to have a cat.
    The women can drive in America.

    Now, Rose knew what life was like in Saudi Arabia and she 
didn't want to go. For 2 years she and her brother and sister 
have been held against their will in Saudi Arabia. They have 
not even been allowed to talk to their mother. There is an 
arrest warrant out for her father for kidnapping.
    Ms. Tonetti, we appreciate your being here today. She was 
contacted by our State Department and there was maybe some 
miscommunication there, so I don't want to say the State 
Department said the wrong thing, but the impression was that 
she might have a better chance of seeing the children if she 
didn't do anything publicly about this. So I want to tell her 
how brave she is to be here today. I am hoping that wasn't the 
message that was communicated by the State Department, and I 
don't believe it was. I think it was just a miscommunication.
    But the one thing is this: We as Americans must not be 
intimidated by the Saudi Government, and people who have had 
their kids kidnapped or being held against their will in Saudi 
Arabia must not be intimidated by the Saudi Government. We need 
to keep putting pressure on them until they bring about some 
changes that will bring these families back together and bring 
these children back to America, who are American citizens. I am 
sorry we haven't been able to do much more to help you at this 
point, but we are going to keep trying.
    This is my final point, and I want to apologize to my 
colleagues for talking so long today, so please forgive me for 
this. I see one of my colleagues on the CODEL is here and I 
know he wants to make a point too. The Saudis are engaged in a 
full-court press right now. They are spending millions on 
television ads telling us what great allies they are. We could 
save them a lot of money. If they want to get good publicity, 
all they have to do is do the right thing, help us resolve 
these cases, bring these kids home who were kidnapped by their 
fathers. There are arrest warrants issued for some of those 
guys. If they return the children to the United States, they 
will get good publicity, the kind they want, and they won't 
have to pay a penny for it.
    They are also spending millions of dollars on high-priced 
lobbyists. I mentioned that before. Some of those are former 
Ambassadors, our Ambassadors to Riyadh. They have gone to work 
for the Saudis and they make a lot of money.
    I have read to you what Prince Bandar said. I think that is 
just terrible.
    I want to thank all of our witnesses today. We will get to 
them in just a minute. First I want to yield to my colleagues. 
Since I have a colleague here who was on the CODEL with us who 
saw firsthand the problems, let me yield to my colleague from 
Vermont.
    [The prepared statement of Hon. Dan Burton follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Sanders. Thank you, Mr. Chairman, and thank you very 
much, guests, for being with us today.
    As the chairman indicated, I was on the trip with him to 
Saudi Arabia and I shared the concerns that he has raised and I 
applaud him for his leadership on this effort.
    It seems to me, Mr. Chairman, that there are two 
fundamental issues as Americans that we should be raising in 
this process. That is that, first, currently as you know, U.S. 
citizens are required to relinquish their passports upon 
arrival in Saudi Arabia. Second, they must apply for exit visas 
from the Saudi Arabia Government when they want to return home 
to the United States.
    Both of these practices contribute to the difficulties that 
American women who are married to and have children with Saudi 
men are experiencing today, and they have wider implications.
    We are here today to discuss the Saudi Government's role in 
keeping U.S. citizens separated from their children, and I 
would like to broaden that discussion to determine what the 
United States can and should do to prevent this problem from 
occurring in the future. Officials in Saudi Arabia tell us that 
they want to be our allies, that they are our allies, and, if 
so, their policies which affect American citizens should 
reflect what allies do. Today, to that end, I make the 
following suggestions:
    Our government should officially request that the Saudi 
Arabians end the policies that restrict freedom of movement for 
our citizens. Specifically, U.S. citizens should not be 
required to surrender their passports when they travel to Saudi 
Arabia and they should not need exit visas or the approval of 
the Saudi Government to return home to the United States.
    These are two particular policies that play a role in the 
children custody and abduction cases that we are discussing 
today.
    I want to thank you, Mr. Chairman, and thank our guests and 
our friends. We appreciate what you have gone through and your 
courage in the process.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you very much, Mr. Sanders. Mr. Sanders, 
I think, very clearly points out this is a bipartisan effort. I 
think we will have very strong support on both sides of the 
aisle as well as our independents, and Ms. Watson, who is a 
Democrat. I think we will be able to get some positive things 
done.
    Also on the trip was Mr. Ben Gilman, former chairman of the 
International Relations Committee. Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman. I know we want to get 
on to our witnesses today, but I want to commend you, Mr. 
Chairman, for your tireless heroic efforts on this issue. Had 
you not raised this initially, I think it would have just lain 
dormant.
    Mr. Chairman, I know you speak from the heart on this 
matter, because we heard you speak about your own experiences. 
You also made known your commitment by--we recognized your 
commitment by watching you in action in Saudi Arabia when we 
met with the Foreign Minister and with other officials.
    I want to let everyone know in this room that the Americans 
in trouble abroad will always have a strong advocate in our 
chairman, Mr. Burton. We had a great awakening to the problem 
when we went to Saudi Arabia and spoke firsthand with some of 
the families there. The Saudi Government's Foreign Minister has 
made a start in his statements to our committee in appointing a 
commission to look into this.
    Well, that is a first step. The American Embassy in Riyadh 
has certainly been energized by Ambassador Robert Jordan. We 
know that under Ambassador Jordan's watch, and we hope under 
the watch of all future Ambassadors, no American children will 
ever be turned away from our embassy in Saudi Arabia in their 
hour of need, as did occur in the past.
    The key, it seems to me, is to find a way to work with the 
Saudi Government to minimize the number, hopefully down to 
total zero, of these incidents of retained or abducted children 
or situations where women cannot leave the country because they 
fear they will never again see their children.
    We look forward to hearing our witnesses today, and we 
thank you, Mr. Chairman, again, for conducting this hearing and 
for looking into this abominable situation.
    I yield back the balance of my time.
    Mr. Burton. Thank you, Chairman Gilman.
    Ms. Watson.
    Ms. Watson. Thank you, Mr. Chairman.
    This issue that the Chair has discussed and outlined so 
well is an issue that some people even here in our country and 
in the Saudi Government would like to dismiss as being 
peripheral: the holding of American citizens in Saudi Arabia 
against their will. Indeed, as we prepare for war in the Gulf, 
the plight of these few Americans might seem to pale in 
contrast to the dangers of war. But this issue cannot be 
brushed aside so easily.
    Saudi Arabia and the United States have been allies for 
half a century. We have remained allies, despite the fact that 
our countries have very different cultures and political 
traditions. In Saudi, women are denied rights that they are 
both born with and rights that they are guaranteed by the 
universal declaration of human rights.
    During the hearing I am sure we will hear that many of the 
American women trapped in Saudi Arabia are there by choice, but 
the reality is that in Saudi Arabia, for women, choice simply 
does not exist and neither does it exist for their children.
    Our Nations, the United States and Saudi Arabia, are bound 
by shared strategic imperatives. I do not question the value of 
that relationship. But what concerns me and the rest of us are 
the moral imperatives that are pressing on this relationship.
    We are not here to lecture to Saudi Arabia, but we are here 
to send a clear and unmistakable message to the Saudi 
Government: No matter who is in charge in Washington, DC, the 
American people cannot long tolerate a relationship that 
militates against the principles on which our Nation is 
founded.
    If the Saudi Government does not solve its problems with 
providing basic human rights to many in its population, our 
strategic relationship will be severely strained.
    So, Mr. Chairman, I look forward to hearing the testimony. 
I can't stay long. Like the rest of us, I am conflicted. But I 
certainly will be hear here to hear from these courageous 
people.
    [The prepared statement of Hon. Diane E. Watson follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Burton. Judge Duncan, I think you came next.
    Mr. Duncan. Thank you, Mr. Chairman. Thank you for calling 
this hearing today and for your continued interest in this 
issue. I think it says a lot, Mr. Chairman, about your 
commitment to our country and our fellow citizens that you led 
a delegation of Members to Saudi Arabia to take a firsthand 
look at some of these cases that we heard about at our hearing 
in June. I happen also to have seen the 60 Minutes show, and I 
listened very closely to the statements you made on Sunday 
night on that show.
    It is unbelievable to me that the Saudi Government keeps 
denying the fact that there are Americans who are trapped there 
in Saudi Arabia against their will. This committee heard from 
witnesses in the June hearing who have suffered tremendous 
heartache, abuse, and pain because the Saudi Government will 
not cooperate by letting their family members come home to the 
United States.
    I think what we are hearing is that these stories of those 
witnesses is just the tip of the iceberg. As you just mentioned 
a few moments ago, there could possibly be hundreds more cases 
just like the ones that we have heard about.
    If the Saudis really want to be our friends, their actions 
should match their words. Right now, Mr. Chairman, they do not, 
as you and some of my colleagues recently experienced 
firsthand.
    In a Washington Times column entitled, ``Arabian 
Nightmare,'' Joel Mowbray said the Saudi Government ought to 
free the 15 Americans held hostage, 1 for each of the 15 
terrorists they sent us. Of course, as you mentioned, there are 
far more than 15 being held there.
    I think this statement reflects what many Americans are 
feeling, and that is that our relationship with Saudi Arabia is 
becoming very, very troublesome to say the least. The witnesses 
that are here today are prime examples of these problems that 
continue to plague us.
    I hope that these hearings will continue to bring light to 
these tragic situations and that they will result in effective 
actions by our State Department and the Saudi Government to let 
our people come home.
    I want to thank you again, Mr. Chairman, for holding this 
hearing and thank the witnesses for being here today.
    Mr. Burton. Thank you, Judge Duncan, very much.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Chairman, we meet again today to bring attention and 
focus to the problem of kidnapped American children living in 
Saudi Arabia. The committee has reviewed several cases 
involving U.S. citizens held against their will in Saudi 
Arabia. These children, because of Saudi law, are not free to 
leave Saudi Arabia, despite having American citizenship and a 
custody order from an American court giving the American parent 
custody.
    The question of who retains custody of the children when a 
couple divorces is a serious issue. In the United States, 
custody cases are usually decided on the basis of the best 
interests of the child. However, Saudi law dictates that the 
father has legal responsibility and custody of his children.
    Most custody cases in Saudi Arabia are handled by the 
Islamic courts. According to the State Department, when these 
courts decide custody cases, their primary concern is that the 
child is raised as a Muslim. Saudi courts generally do not 
award custody of children to women, especially nonSaudi women. 
Because Saudi Arabia is not a signatory to the Hague 
Convention, there are no legal standards governing the return 
of kidnapped children. Custody orders of foreign courts are 
generally not acknowledged nor enforceable in Saudi Arabia.
    It has been argued that cases such as the ones before us 
are merely child custody issues. While that is true, these 
cases should also be considered as parental kidnapping or child 
abduction cases. I believe that shining the spotlight on 
parental abductions of American children to Saudi Arabia by 
this committee will bring this issue to the forefront and 
persuade the State Department to reevaluate its policies.
    Many of our U.S. citizens, like the witnesses before our 
committee today, have tried unsuccessfully to have their 
children returned from Saudi Arabia. I look forward to hearing 
from the witnesses who will present their stories about their 
hardships in trying to secure the return of their children out 
of Saudi Arabia. I am also interested in hearing from the State 
Department officials.
    Again, I thank you, Mr. Chairman, for holding the hearings, 
and I yield back.
    Mr. Burton. Thank you, Mr. Cummings.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mr. Burton. I think Mr. Shays was next.
    Mr. Shays. Mr. Chairman, thank you, No. 1, for holding this 
hearing. Thank you for going to Saudi Arabia to speak out for 
children that have basically been kidnapped. Thank you for your 
courage. I thank this committee for its courage to take on this 
issue. There have been a lot who have tried to discourage our 
confronting Saudi Arabia on a number of issues, and this is 
clearly one of them.
    I thank our witnesses for their courage. And just to say 
that no one can know who will be in charge next year of this 
committee in terms of Republicans or Democrats, but I think our 
witnesses should feel fairly comfortable that this is a 
bipartisan effort and one which you started, Mr. Chairman, but 
one that will be carried out no matter which party is in power. 
This is just too important an issue.
    I myself want to express my outrage that any American 
citizen, any American citizen, can walk into a U.S. Embassy and 
be thrown out and not allowed to stay in the protective custody 
of our embassy when their lives are threatened and when they 
have been held captive. I hope and pray we never see that 
happen again.
    Mr. Burton. Thank you, Mr. Shays.
    Dr. Weldon.
    Mr. Weldon. Thank you, Mr. Chairman. I will be brief, just 
to commend you for the work you are doing in this area.
    I find it extremely troubling that Saudi Arabia is 
repeatedly described as being our ally, but yet their 
government pursues an agenda that I find extremely 
objectionable.
    I know that some of these divorce cases are extremely 
complicated, but what I find extremely disturbing is in some of 
these cases, I think particularly one that I have read here, 
Michael Rives, the children are U.S. citizens, both under U.S. 
law and Saudi law, but yet the Saudi Government is refusing to 
cooperate with returning these children to their father.
    I am also very disappointed that our own State Department 
is not taking more aggressive action. I again commend you for 
the work you have done in this arena.
    Mr. Burton. Thank you, Dr. Weldon.
    Mr. Ose do you have a comment?
    Mr. Ose. No, thank you.
    Mr. Burton. Thank you very much. I appreciate your being 
here. There will probably be other Members coming and going. We 
are at the end of our session and there is a lot going on 
around here today, so I want to apologize for more Members not 
being here. I do appreciate the ones who are here.
    We will now hear from our witnesses. Our first panel 
consists of Samiah Seramur, Maha Al-Rehaili--you have to 
forgive me--Debra Docekal, and Ramie Basrawi. I am sorry about 
that. As we go through the committee hearing, I will get that 
down better.
    Would you please stand so you can be sworn in.
    [Witnesses sworn.]
    Mr. Burton. Let me start with Ms. Seramur. Can you pull the 
mic close to you and be sure you turn on? We ask our witnesses 
to try to keep their statements to 5 minutes, but we will allow 
you a little more time if you need it.

STATEMENTS OF SAMIAH SERAMUR, ACCOMPANIED BY HER DAUGHTER, MAHA 
 AL-REHAILI; AND DEBRA DOCEKAL, ACCOMPANIED BY HER SON, RAMIE 
                            BASRAWI

    Ms. Seramur. Mine is short.
    Mr. Chairman, Members of Congress, last month I was graced 
by God to become one of the privileged few to ever see her 
American child again, after being held against her will in 
Saudi Arabia for over 8 years. No words can express how it 
feels to be able to touch my daughter again, watch her sleep, 
kiss her goodnight, or see her walking down the street with her 
head held high.
    We thank the Committee on Government Reform for all its 
concerted efforts to assist American citizens overseas and 
especially for its efforts to make it possible to bring my 
American daughter, Maha, home. We also want to thank Colonel 
Norville DeAtkine, Ambassador Hume Horan, Admiral James Lyons, 
Secretary of State Powell, and President Bush for the 
initiatives taken toward resolving the issues pertaining to 
American citizens in Saudi Arabia.
    Last but not least, my daughter Maha and I extend our 
greatest gratitude to all the Saudi Arabian citizens who risked 
their lives to assist us throughout all of these years in 
bringing her home.
    We have been asked here today to testify. The core of my 
testimony is the protection of American citizens overseas, 
irrespective of political influence, age, or gender. I realize 
that today's hearing specifically addresses Saudi Arabia, and I 
am here to tell you the truth about my case, my daughter's 
heroic escape for freedom and our two heroes left behind.
    For over 8 years I have been refused all but limited tape-
recorded telephone contact with my three children. The U.S. 
Department of State attempted to conduct welfare visits, to no 
avail. Every time I officially requested a welfare visit, and 
the U.S. Department of State made attempts to visit my 
children, I was warned by my Saudi ex-husband and certain Saudi 
officials against getting the U.S. Government involved. When my 
children informed me that my son was beaten, I contacted the 
Department of State immediately. They informed me that since my 
son was alive, it was in his interests that I do not ask them 
to contact the local authorities to get involved, since the 
consequences may be even more severe for my son.
    This past summer, some Saudi nationals contacted me, 
fearing for the safety of my children. I was able to establish 
secret contact with Maha June 17, using Microsoft Messenger. 
For over 1\1/2\ months my daughter and I planned her escape to 
freedom. On July 3rd, I requested the children's American 
passports to be expedited to me. I received them in America 
after August 18th. I notified the U.S. Department of State that 
Maha and her family were going on vacation to Malaysia and my 
children were begging me to meet them there, where they could 
return to America.
    The U.S. Department of State warned me against going to 
Malaysia, stating that I may be accused of kidnapping and sent 
to prison. I was informed that I would be subject to Shariah 
law and that other countries such as Morocco or Bahrain would 
have been all right, but not Malaysia. They contacted me by 
telephone daily, warning me to reconsider my plans. I refused. 
They told me tens of times that I should get an attorney and be 
prepared for a very long drawn-out Shariah court hearing. I was 
told numerous times I should have a lot of money and be 
prepared to pay for lodgings that they would suggest to me 
should we be prevented from leaving Malaysia.
    Both the Department of State and the Malaysian Embassy 
official told me to inform my children about the fact that they 
could be returned to their abusive father and that our plans 
could have very serious consequences. I refused.
    The Department of State told me on more than one occasion 
within a couple of weeks before my departure for Malaysia that 
they wanted to go meet with the children in Saudi Arabia. I 
told them that under no circumstances should they contact the 
children or attempt to contact them in Saudi Arabia on numerous 
occasions. The Department of State then asked to contact the 
Malaysian Government on numerous occasions and informed me if 
they could not contact the Malaysian Government before my 
daughter attempted her escape, that the escape would not be 
possible. I informed them on numerous occasions that they 
should under no circumstances contact either the Malaysian or 
the Saudi Governments.
    I was asked for photos of the children for their passports 
three separate times, from two embassies and the Department of 
State. Correspondence was inaccurately forwarded to the parties 
concerned in Malaysia, to the point when I arrived they had 
none of the photos or e-mails detailing the abuse suffered by 
my children. My e-mails were often returned, bounced off the 
Department of State servers.
    I was asked to come to the embassy in Malaysia on three 
occasions before my children arrived, only to be threatened 
again to reconsider my plans.
    To sum it up, my daughter's heroic escape was one of the 
worst nightmares any mother could ever imagine, but we pulled 
through. Now it is time to look back and reflect. We beseech 
you to use the information from these hearings in a positive 
way to come up with a solution, a new system with uniform 
procedures, guidelines, progress reports, checks and balances, 
a supervisory interagency working group and accountability to 
protect not only American citizens in Saudi Arabia, but all 
over the world.
    Page one of all U.S. passports reads ``The Secretary of 
State of the United States of America hereby requests all whom 
it may concern to permit the citizen/national of the United 
States named herein to pass without delay or hinderance and in 
case of need to give all lawful aid and protection.''
    Perhaps it is time those words had meaning. I welcome your 
questions. We are here to speak the truth.
    [The prepared statement of Ms. Seramur follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Burton. Well, thank you very much. It is nice to see 
that your beautiful daughter is here in the United States, safe 
with you. I can see you are both very happy about that. I think 
the one thing that you didn't mention and I normally don't do 
this, but I think to the people, 60 Minutes deserves a real pat 
on the back, too, for doing what they did. They pretty much 
guaranteed there wasn't going to be any backing out on this 
deal.
    The admonishment that you just made to our State 
Department, we have State Department officials here today. I 
hope you all maybe get a copy, I will give you a copy of this 
tape so you can show it to the other officials, including 
Secretary of State Powell over there. There are some 
recommendations that were just made that ought to be looked at 
very seriously by the State Department to make sure this sort 
of thing doesn't happen in the future.
    With that, Maha, would you like to say a few words? We 
would love to hear you comment, if you like. Would you rather 
wait until questions?
    Ms. Al-Rehaili. I will wait until questions.
    Mr. Burton. OK. We have some questions as well for you.
    Mr. Burton. Ms. Docekal, excuse me for not knowing that 
better.
    Ms. Docekal. That is OK. I am just kind of writing about 
what happened. I came back to the USA in January 1988 with the 
intention of staying in America with my two children. I had 
their father's Saudi passport with me, so I thought he could 
not come to the United States, but he went to his government 
and told them my children and I were in a bad car accident and 
were almost to die, so they gave him a temporary passport, and 
he told me if he did not bring back our children to Saudi 
Arabia that he would go to prison for many years.
    He said to me he would go back for 10 days and make 
arrangements to come back here and live in Des Moines, Iowa, 
where he could find a job and see the children. After a lot of 
thought, I let the children go back for the 10 days. The day he 
got back to Saudi Arabia, he called me and told me I would 
never see the kids again. After many phone calls to try to 
convince him to return the kids, on the last call he told me he 
was going to make my life a living hell. And he did.
    For 14\1/2\ years I only got information from my children's 
grandfather, who always treated me good on the phone in the 4 
years that I spent in Saudi Arabia. But I only got little 
information, how they are doing in school, what grade they were 
in. Basically little information was given, some due to the 
language barrier. I talked to my children about 5 years ago, 
and about a month and a half ago.
    In 14\1/2\ years I got one letter from my son, 5 years ago, 
during the phone call when I gave him my address. He sent me 
some pictures and then they took my address from him, and their 
father called me and told me never to write letters to my 
children or call them, because if I did, he told me he would 
put a stop to it and make threats to me to stop all 
communication with my children and his father. If I did as he 
said, he would write and tell me about my children and send me 
pictures. I got one letter about my children and some pictures 
taken at the time. The rest of the letters he sent were mean. 
And then he stopped all communications, so I knew nothing.
    I got a phone call from my best friend in Saudi Arabia 
telling me--this was in August--that my ex-father-in-law died 
that day. So I called over to the grandfather's house to say 
sorry, and my daughter answered the phone. I was so happy, she 
talked little English and I talk little Arabic, so I told her I 
loved her and missed her and wanted to see her. She got my son 
and I talked to him for a long time. He knows English and he 
gave me his e-mail address and his mobile phone number.
    He started calling me and I started calling him, and then 
we started talking on the computer hours at a time, and I 
encouraged him to talk to his father and ask him to let him 
come to see me. He said he was scared to ask him now since his 
grandfather just died. I told him it was the best time to ask 
him, because he is under a lot of pressure and not thinking 
right. And it worked, and my son came to me on August 22, 2002.
    He left me as a small boy, 4\1/2\ years old, and came back 
to me as a 19-year-old man. But my 15-year-old daughter Susan 
is still stuck in Saudi Arabia, 14\1/2\ years and counting.
    Mr. Burton. These stories are all heart-rending. Would your 
son like to make a comment?
    Mr. Basrawi. No.
    Mr. Burton. Then we will go to questions.
    Ms. Seramur, you had almost no contact with your children 
between 1994 and 2002; is that correct?
    Ms. Seramur. Yes, that is correct.
    Mr. Burton. For 8 years. Can you tell us how your children 
were treated in Saudi Arabia?
    Ms. Seramur. Well, I think Maha might be able to answer 
that a little bit better than myself.
    Mr. Burton. Sure.
    Ms. Seramur. From what I understood, in 1997 there were 
some teachers in Saudi Arabia and they actually tried to inform 
me that my children were in trouble and they needed help, they 
didn't have the clothes that they needed, and that my ex-
husband's new wife was treating my daughter very bad and didn't 
come to--I mean, she was living without a mother in effect, and 
my daughters were crying every day in school and the teachers 
were very concerned about them.
    So they were trying to get a letter out from my daughter, 
which they did. They got a letter out, but the children are not 
treated well over there because--I mean, my son in particular, 
he is beaten, he is tied up, he is locked up in his room. He is 
actually in the street most of the time because the family does 
not live like a normal family.
    So, perhaps I can stop at that and let Maha answer.
    Mr. Burton. Maha, why don't you tell us how you were 
treated and how your brother was treated? Maybe that would give 
us a better idea.
    Ms. Al-Rehaili. We didn't live like a normal family.
    Mr. Burton. Can you pull the mic closer, please?
    Ms. Al-Rehaili. We didn't live like a normal family. We 
didn't eat together. We communicated just a little bit to get 
around the house. There was no emotions between us, no love, no 
affection. I didn't see my father a lot. He was always in his 
room watching TV. We didn't go out a lot together like a 
family. My brother was treated badly. He didn't have--his 
grades weren't that good in school, so my dad used to beat him 
a lot. My stepmother used to report to him everything we did, 
just to make him beat my brother or scream at us. We weren't 
allowed outside the house without permission. We would have a 
little bit of allowance. My dad wouldn't give us a lot of 
money. If he did, he would ask us why and what we wanted to do 
with the money.
    I didn't have a lot of contact with my mother at that time, 
just some phone calls that were recorded. Even with my 
girlfriends, all the phone calls are recorded and taped. My dad 
listens to them. I don't know why. Especially for my brother, 
it is really hard since he is a boy. And my stepmother has 6 
kids there, my stepsisters and my stepbrother. It is just not a 
normal life.
    Mr. Burton. Were you abused yourself?
    Ms. Rehaili. Physically, no; but emotionally, yes.
    Mr. Burton. And your brother was beaten quite a bit?
    Ms. Rehaili. Yes, he was tied up and beaten and locked up.
    Mr. Burton. Tied up and beaten?
    Ms. Rehaili. Yes, and my dad would threaten him always.
    Mr. Burton. He wants to come to America as well?
    Ms. Rehaili. Yes, he wants to.
    Mr. Burton. You just have the one brother? You just have 
the one brother?
    Ms. Al-Rehaili. Yes.
    Mr. Burton. And you have another child?
    Ms. Al-Rehaili. A sister.
    Mr. Burton. What about your sister, how is she treated.
    Ms. Al-Rehaili. She's trying to adjust to the system over 
there. It's really hard. Over the past 8 years we just tried to 
get used to the system. We got used to it, just to go on and 
move on with our life, but we couldn't. We can't live over 
there.
    Mr. Burton. Does she want to come to America?
    Ms. Al-Rehaili. She wants to come but she is afraid that 
she won't be accepted here.
    Mr. Burton. I am sure she will, and you will be as well.
    How about you Mr. Basrawi? How were you treated?
    Mr. Basrawi. It was a bad life. No communication with 
anyone. You have to stay at home. You have to do what they 
want--the father ways.
    Mr. Burton. Were you physically abused?
    Mr. Basrawi. Huh?
    Mr. Burton. Were you beaten at all?
    Mr. Basrawi. Yeah. Locked in the room. They think this is 
the way raising of the children. Make them good in the future 
by beating and hitting and like that.
    Mr. Burton. Your sister, how is she treated?
    Mr. Basrawi. She treat bad, but no one loves me there. They 
hated me. I don't know why. But my sister--my grandmother love 
her; but me, no one loved me or anything. They always away from 
me. They don't understand with me. I don't know why.
    And when he married--my father married my stepmother, she's 
so bad. She always makes problems with me every day about silly 
things.
    Mr. Burton. Your sister, did she want to come to America as 
well but she can't get out?
    Mr. Basrawi. She can't.
    Mr. Burton. Ms. Watson?
    Ms. Watson. It was mentioned about the heroic escape from 
Saudi Arabia. Can you describe, Mrs. Seramur, how you were 
aided at the U.S. Embassy? Were you aided? And were there any 
obstacles in the way for you? I'm a former Ambassador. I was in 
Micronesia and we had a couple of cases, similar; not 
kidnapping cases but people who wanted to reach America and 
were eligible, and we had to really help them every step of the 
way. So can you clarify for me what kind of help you got and 
what kind of help you didn't get?
    Ms. Seramur. I have all the documentation here between 
myself and the Department of State and it is pretty heavy 
file--maybe 2 weeks that I was on a regular basis, we were 
sending e-mails back and forth. But when I first mentioned it 
to them that I was going to get my children, I was told to 
reconsider my plans because it wasn't Bahrain or Morocco, that 
Malaysia was a different kind of country. And they said, ``we 
would be asking them to basically make an exception to two 
Malaysian laws. Our government can't ask for any more favors.''
    So actually I was discouraged from going over there to get 
my daughter from the time I mentioned it to the end. And even 
when I went to the embassy in Malaysia, I was told that--they 
said that it's irrelevant whether your daughter--whether your 
children are American citizens. I was told--I was screamed at 
and told that I didn't understand the seriousness of what I was 
going to do. And I was--they asked several times to contact the 
Malaysian Government and I said no, because I was afraid. They 
said the Malaysian Government and Saudi Government are good 
friends and therefore we have to contact them before so they 
don't tell the Saudi Government. I said well, if that's the 
case, then they're more likely to tell the Saudi Government. I 
mean, before they're good friends.
    Ms. Watson. Let me just interrupt you a minute. I am 
appalled at the treatment and the screaming and yelling at you, 
because it is the responsibility and the authority to assist 
any American citizen that comes to your embassy, and I don't 
care where it is. And so if you have that documented, I would 
like it to be given to the Chair because we need to question 
the State Department. As an ambassador, you're there to oversee 
what happens to Americans in the host country. And if they 
weren't helpful to you, I think they have violated their 
authority and we should followup on that.
    Ms. Seramur. Excuse me ma'am. The Ambassador herself was 
fantastic. She helped me through--I mean from the time I met 
with her on the third occasion I went to the embassy, she was 
very, very nice, very understanding. It was not the Ambassador 
who had harassed me. It was the consular at that time. But then 
the Ambassador apologized for it, stating that he was new there 
and he had only been working for 1 year and this was all new to 
him. And she said she was very sorry for what happened, and he 
felt sorry about it after.
    Ms. Watson. I hope he's no longer there.
    Ms. Seramur. But it was really, really--they wanted to 
contact my children also in Saudi Arabia before it happened and 
they wanted to go to the house in Saudi Arabia to take pictures 
of my children, and it was just horrendous. I had told them on 
repeated times that they couldn't approach my children in any 
way because it was a life-threatening situation for them. So 
they kept asking me are you still going to go through with 
this? Are you still going through with this, to the point that 
the telephone harassment became so severe that emotionally I 
was trying to keep my daughter on--the Internet at night--
strong and still going, because she wasn't eating, she wasn't 
drinking. And at the same time I had the State Department all 
day harassing me about what I was going to do.
    So it got to the point where I had to tell them, please, no 
more telephone. If you want to say something, by e-mail only.
    Ms. Watson. The consuls that are located in the embassies 
are--they have the authority to give out visas etc. And 
sometimes they act independently. And I am pleased to know that 
the Ambassador herself followed protocol. And I would still 
like to get something in writing to the Chair, so there are 
implications and indications for our consuls that are located 
in the embassies, too. The final authority rests with the 
Ambassador.
    Mr. Burton. Thank you, Ms. Watson. What we would like to do 
is get the documentation that you have to us to make copies of 
it. We will. And then we will send a letter of inquiry to the 
State Department asking them about each one of these issues. To 
try to make sure that if there is a policy--I mean, if somebody 
who is a career diplomat over there said what you wanted was 
irrelevant, and you're an American citizen, if you got their 
name I sure would like to have it, and we will find out how 
relevant they are and bring that to the attention of the State 
Department, because that shouldn't happen, as Ms. Watson said. 
She knows. She was a former Ambassador herself.
    Ms. Seramur. They kept insisting on interrogating my 
daughter or my children after I had already provided them with 
all of the evidence, which were written e-mail statements from 
my daughters, etc., but they still wanted to interrogate them.
    Mr. Burton. After they got out?
    Ms. Seramur. During our escape. When we were at the embassy 
they insisted on interrogating them, and I said not unless you 
have a medical profession. And she refused to be interrogated 
until she was on a plane home.
    Mr. Burton. Let Maha speak for herself today.
    Mr. Shays. The only question I have is tell me the most 
helpful thing our embassy did to help either family.
    Ms. Seramur. They gave us a new passport.
    Mr. Shays. And what was the most difficult--what was the 
most helpful thing the embassy did for you?
    Ms. Docekal. The only helpful thing they did for me was, 
well, I called David Kass because Ramie's father was only going 
to let him out of the country on that date, and if he didn't 
get out he wasn't going to let him have another chance. And his 
passport, we didn't know where it was and he needed it that 
day.
    And I called you, David--no, you called me, because I 
couldn't find your number--and told him the situation if he 
doesn't get the passport in his hand, and they said it was 
going to take 2 weeks and his flight was leaving before.
    Mr. Burton. This is David Kass. The good-looking guy with 
the beard.
    Ms. Docekal. He had called me the next day and Ramie got 
his passport 45 minutes before I left to New York to go pick 
him up, and he got it that day a few hours before he left Saudi 
Arabia to come to America. And I thank David Kass for it. But 
the State Department has done nothing. I feel like I have been 
alone. No help whatsoever.
    Mr. Shays. Your testimony is they have really done nothing 
to help you.
    Ms. Docekal. I found out my kids were coming to the States 
about 5 years ago. And they told me if you ever find out from a 
friend your kids are coming into America, let us know. We will 
trace their passport. This is when it first happened.
    Five years ago, I heard from a friend that they were coming 
to Disney World or Disneyland. I called them and said I think 
it's 90 percent true they are coming to the States. And the man 
in charge at that time of the kids overseas in Saudi Arabia, he 
told me that he would be breaking jihad's privacy act if he 
traced their passports; that he couldn't do it. And my kids did 
come to Los Angeles for a month-and-a-half. And in all reality, 
I think my government should have done something. I have rights 
over my kids, too. Could I not have broken his privacy act? But 
they were minors.
    Mr. Shays. What was the most hurtful thing your government 
did? What was the most disappointing thing that your government 
didn't do or did?
    Ms. Docekal. I just feel like my government didn't help me 
in any way. They took these kids that are kidnapped--I call 
them kidnapped over there--and sweep them under the table and 
don't want to do anything for us.
    Mr. Shays. Was there any one contact, one memorable moment 
that hurt you the most?
    Ms. Docekal. That one, when the guy told me he could not 
trace the passport because it was jihad's privacy act. That 
really hurt me because I'm their mother and they are minors.
    Mr. Shays. What was the most hurtful experience you had 
with your own government?
    Ms. Seramur. I was locked up and imprisoned in a room, and 
I broke through this cement wall in Saudi Arabia, in our villa. 
And I slowly hammered through the cement wall and got the 
telephone lines for the neighbors' villa which is connected to 
ours, and I put together my own telephone so that I could call 
over a period of several days, months, so I could call the 
American Embassy.
    And I called the American Embassy and I told them I needed 
help. And they said, well, we're not a hotel. What do you 
expect us to do? But they said we can give you a list of 
attorneys if you can get down to the embassy.
    Mr. Shays. Thank you. Thank you, Mr. Chairman.
    Mr. Burton. This is pretty damning on the State Department. 
I think one of the things that Ms. Watson just suggested is we 
ought to have some kind of a committee at the State Department 
that reviews these cases and that career diplomats over there 
who may have been--what do they call it when somebody has been 
in a country so long they become--they go native--where State 
Department officials go native and think that the government in 
question is more important than U.S. citizens. Maybe we ought 
to have a review panel to make sure that we set them straight 
and put the American citizens' interests first.
    Ms. Seramur, the Saudi government says that it acts quickly 
to solve these cases once they learn about it. Is that true?
    Ms. Seramur. No, it's not.
    Mr. Burton. You and Maha planned for Maha to escape for a--
while she was on vacation with her father in Malaysia. Why did 
you wait until she was in Malaysia?
    Ms. Seramur. Because we knew if she went to the American 
Embassy that there might not be any way they could assist us. 
U.S. Department of State told me that if--they said if it was 
any other country but Saudi Arabia it would be OK. So that's 
why when she----
    Ms. Al-Rehaili. Well, in Saudi Arabia whatever your mother 
is--her nationality--you're Saudi because your father is Saudi. 
Over there I wasn't American; I was Saudi. Everybody would tell 
me that. And I knew if I went to the American Embassy they 
wouldn't help me. Everybody told me that.
    Mr. Burton. Well, if you're born of an American parent, 
whether you are in some other country or the United States, 
you're an American citizen. And our embassy should know that 
and should make sure that you're protected. And I think maybe 
we ought to admonish the State Department to make sure in the 
future that they help American citizens get back to the United 
States, as the passport says, if there's any way possible to do 
it.
    Now I know that they run the risk of becoming persona non 
grata and that some of our embassy officials may be sent out of 
the country if they participate in helping. I think that's 
probably true in Saudi Arabia and Malaysia as well. But that's 
a risk our State Department should take. They should say, look, 
American citizens come first and I am here to help American 
citizens. And they help a person out of a country who is held 
against their will and they are excommunicated from that 
country and sent back to the United States, we ought to give 
them a medal. We ought to give them a raise, because they're 
protecting American citizens. And we ought to hold that 
country--we ought to hold that country responsible for the pain 
that they've been inflicting on American citizens.
    And I hope the people here from the State Department are 
listening to that. Their responsibility first is to American 
citizens. And if it means they help an American citizen get out 
and they have to be punished for it by being kicked out of that 
country, then so be it. We'll find another job for them. Come 
see me. We'll see what we can do to help you.
    The State Department had Maha take pictures of herself, 
brother, and sister so they could make passports for them. 
Could you explain the risks that she took and whether those 
pictures even ended up being used?
    Ms. Seramur. Well, first I was asked by the embassy in 
Malta where I was for the photographs of all my children so 
they could be sent to Washington to have pictures for their 
passports made out of those photos. And it resulted in 
Washington or whoever the Maltese Embassy was communicating 
with, that the son of my son Faisal was a little bit to the 
side. So they said we really need a better photo, Faisal's 
photo is no good. So I said, OK, I will ask Maha to take 
another photo with his face facing more forward for you and 
closer to the camera.
    So Maha risked her life taking better photographs of her 
brother, sneaking in, finding a digital camera, taking these 
photographs. And then when I sent the photos back to Malta, 
then I was contacted by the Department of State and they said 
we need photographs of all the children. And I said well, I 
sent them to the Maltese Embassy and they said they were 
forwarding them per your request. And they said we never 
received them, can you please send them yourself?
    I sent them the same day, all the photographs again of my 
children. And then when I got to Malaysia, the first thing that 
the consul in Malaysia stated was that, well, where's all the 
information? I have nothing. I have no photographs of your 
children and I have no e-mails. And he asked me to go somehow 
find whatever I could find, because I didn't bring anything 
with me, it was too dangerous for me to be carting all those 
things around with me under the circumstances. I didn't want 
anybody to know what I was doing there. But I guess apparently 
the State Department told me that they had had the wrong e-mail 
address.
    Mr. Burton. You know, I can't believe that the State 
Department that works for the U.S. Government--I don't believe 
that's being inept; I think they just deliberately didn't send 
those pictures over there. You know, they set up every 
impediment they could possibly set up to keep you from getting 
your daughter back to the United States.
    I think that's tragic. The State Department, there's going 
to be some heads rolling over there. Where are the State 
Department people here? Are you guys listening to this? Jesus 
Criminy.
    Let me see, what do you have here? Do you have some 
questions that you would like to ask? Maha, the whole time you 
were gone, did you want to come back to the United States?
    Ms. Al-Rehaili. Yes. All the time.
    Mr. Burton. While you were living in Saudi Arabia, were you 
free to tell your father that you wanted to come back to 
America?
    Ms. Al-Rehaili. No. My sister once told him she wanted to 
come to America, and he locked up the doors, took away the 
phones, wouldn't let her out of the house.
    Mr. Burton. Put her in prison.
    Ms. Al-Rehaili. Yes.
    Mr. Burton. Your mother said when you took pictures of your 
brother, you were endangering your life. Do you think your 
father would have hurt you if he had known you were taking the 
pictures and sent them to your mother?
    Ms. Al-Rehaili. Yes, he would have.
    Mr. Burton. What do you think he would have done?
    Ms. Al-Rehaili. What he always does. He takes away anything 
we like, the stereos, the phone. We can't see our friends. Just 
go to school and come back. Don't go anywhere. We were locked 
up in the house.
    Mr. Burton. Do you think that other young people, 
especially women being held in Saudi Arabia, are free to speak 
their minds?
    Ms. Al-Rehaili. No, they're not.
    Mr. Burton. Especially if they want to come back to the 
United States, they're not able to say that?
    Ms. Al-Rehaili. They're threatened.
    Mr. Burton. With physical harm.
    Ms. Al-Rehaili. Physical harm, emotional.
    Mr. Burton. Ramie, how about you? If your sister said or 
you had said you wanted to come back to America, what kind of 
response would you have had from your father?
    Mr. Basrawi. My sister want to come here, she can't.
    Mr. Burton. If she said to your dad, I want to go to----
    Mr. Basrawi. I said that to him. He started to like cry and 
if you don't care, he start to scream many times.
    Mr. Burton. Did he physically abuse you, hit you ever?
    Mr. Basrawi. No. Just sometimes, not all the time.
    Mr. Burton. He did hit you sometimes?
    Mr. Basrawi. Yes.
    Mr. Burton. Does your mother have something she would like 
to say?
    That's all you have to say?
    Mr. Basrawi. Yeah.
    Ms. Docekal. I do have something I want to say. I am able 
to talk to my daughter now through the help of Ramie, because 
he knows where she is at what time and she can answer the 
phone. So I talked to her 2 days ago.
    Mr. Burton. Does the father know about that?
    Ms. Docekal. No, and she don't want the father to know 
because she's scared. She wants to come back. So we have a 
certain time we call her where--she sits by the phone and 
waits. But you know, there's the language barrier between me 
and her. I can tell her I love her and miss her and want to see 
her all day, but I can't tell her my inner emotions of how I 
feel about her. And 2 days ago she gave me a kiss on the phone 
for the first time in 14\1/2\ years. She is scared to death. 
She don't go to her father and ask him anything. She has no 
rights. And like him, he stayed in his room the whole time. And 
now without him, she has nobody, and that's even harder on me. 
I want him here, but she also now lost the only thing she was 
secure with, her brother.
    Mr. Burton. Maha, right before you went to the U.S. Embassy 
in Malaysia, you recorded a statement saying if you were forced 
to go back to Saudi Arabia you would kill yourself. Can you 
explain why you felt so strongly about leaving?
    Ms. Al-Rehaili. I was dreaming about it for the past 8 
years. And I planned for this with my mom on the computer for a 
couple of months before. And I was really--I put all I had in 
it, and I risked my life in getting onto the computer every 
night and communicating with her, sending her pictures. And she 
called me at my friend's house sometimes. And when you think 
about it for 8 years and you just have the chance to do it, you 
just do it.
    Mr. Burton. You were just depressed about not getting out.
    Ms. Al-Rehaili. Yes.
    Mr. Burton. You know, I think I've already covered this, 
but I'll ask one more time. A lot of people have never been to 
Saudi Arabia and they don't understand how difficult it is for 
children or women to get out of Saudi Arabia. Can you explain 
just a little bit about why it's so difficult and why we ought 
to understand it better?
    Ms. Al-Rehaili. How we can't get out of Saudi Arabia? We 
have to get permission from our guardian, father or husband. 
And my father wouldn't grant me that permission in any way.
    Mr. Burton. And if you ask, many times you're punished for 
that?
    Ms. Al-Rehaili. Yes.
    Mr. Burton. Mr. Berry, do you have any questions?
    Mr. Berry. No, thank you, Mr. Chairman.
    Mr. Burton. I have to ask some other questions for the 
record, and if my colleagues want to ask questions all you have 
to do is let me know.
    You lived in Saudi Arabia for several years. Can you--and 
you know how women are treated there. You know about the abaya 
and all that sort of thing. Can you tell us what your daughter 
Suzanne's life is like?
    Ms. Docekal. Ramie would probably know more what her life 
is like there, but my life was a living hell. You know, you 
come as an American. And when I met my husband, he fell in love 
with me as an American and treated me like an American. But 
when I went to Saudi Arabia everything changed. I was treated 
like an Arab woman and he started acting like an Arab man. And 
basically you are in prison in your home. You have no life. And 
like the lady you're talking about--and I won't mention her 
name--I know who you talked to in Saudi Arabia, and actually 
she's married to my ex-husband's cousin.
    Mr. Burton. Wait. Wait. Wait. I don't want you to go into 
any details. I don't want you to go to into any details. And if 
that's known, I think she's told me--and I know about her 
physical condition--she might be in great physical jeopardy. 
Don't mention about any connection you have with her or 
anything, OK?
    Ms. Docekal. But it's no life for a girl there.
    Mr. Burton. Is that a live feed going out of here?
    Ms. Docekal. I would say in Saudi Arabia there is no life 
for the woman at all, or for the daughter. And the boys have a 
life. They're free. But for us, it's just like going and living 
in hell.
    Mr. Burton. Do you think your daughter or your other 
children can get out of Saudi Arabia now without the help of 
our government?
    Ms. Docekal. No.
    Ms. Seramur. Yes.
    Mr. Burton. You think they can get out without the help of 
our government?
    Ms. Seramur. They will risk their lives doing it, but I 
mean, if the governments don't help us, we don't have a choice.
    Mr. Burton. In other words, you're talking about finding a 
connection like you did with your daughter and literally 
smuggling them out.
    Ms. Seramur. Well, I mean the Saudi citizens, they feel for 
the American citizens who are being abused over there without 
any support system. So it's the Saudi citizens, you know; some 
Saudi citizens were contacting me and trying to assist us.
    Mr. Burton. There are people in the country that want to 
help you.
    Ms. Seramur. There are Saudi citizens who are trying to 
help these Americans out of the country.
    Mr. Burton. That's not unlike that movie, Not Without My 
Daughter. Did you see that movie? You remember there were 
people in Iran that helped get that child out of that country?
    Ms. Seramur. Right.
    Mr. Burton. But our government has not been very helpful 
and you can't--you felt like you couldn't count on them?
    Ms. Seramur. No.
    Mr. Burton. Is that what you felt, too?
    Ms. Docekal. No. I felt that way, too.
    Mr. Burton. I have some other questions--do you think that 
your daughter will ever be able to come back unless you find 
some other way to do it? Do you think your daughter will ever 
be able to come back with the help of our government being 
forceful and putting some pressure on the Saudis?
    Ms. Docekal. I don't think her dad will ever let her come 
back. He told me when she grew up someday like Ramie, he would 
tell her where I am. But the girls are too scared. And even 
Ramie when he came back, he said the same as her, I'll kill 
myself if I have to go back.
    Mr. Burton. I looked at women and children over there that 
had tears in their eyes and were trembling. I know what you're 
talking about.
    Ms. Docekal. So, no; I feel without either of us doing 
something on our own, I don't feel like if our American 
government doesn't do something, we won't get her out. 
Especially now that Ramie is here, that is going to make her 
dad more mad and retaliate.
    Mr. Burton. I hope--well, I hope that doesn't happen and I 
hope that our embassy people over there will do everything they 
can to help. You know, the one thing that our Ambassador 
promised me personally was that he would never turn away an 
American citizen from an embassy or consulate as long as he was 
the Ambassador. And if there is a threat to American citizens 
over there, they should know that commitment has been made by 
our Ambassador; that American citizens will be safe, have a 
safe haven in our embassy and consulate. And if there's 
anything different than that goes on, then there will be hell 
to pay about that. Once they get to that the embassy they're 
supposed to be protected.
    Are there any other questions that we need to ask of this 
panel? We will have some other questions that we will submit to 
you that maybe you can answer in writing.
    I want to tell you we really appreciate you being here 
today. We appreciate both the young people who are here today, 
and we are very glad you're in America and you're free, and 
hopefully we'll be able to do something to help other people 
like you in the future.
    Our next panel is Joanna Tonetti and Margaret McClain, 
Michael Rives, and Maureen Dabbagh. Would you please come 
forward and approach the witness table?
    And I understand Representative Berry would like to 
introduce Mrs. McClain. So as soon as we swear them in, I'll 
let you do that. If you have any notes that you would like to 
give us, we'll copy them for you so we have a record and we can 
forward that to the State Department. If you have information 
you want to give us, we will followup with it.
    Ms. Tonetti, Ms. McClain, Mr. Rives, and Ms. Dabbagh, would 
you please come forward? Sorry you had to wait so long but we 
want to make sure we cover this very thoroughly so we have all 
the answers. Would you please stand and raise your right hand?
    [Witnesses sworn.]
    Mr. Burton. Ms. Tonetti, we'll start with you. Do you have 
a statement you would like to make? You need to pull the mic 
close and turn it on.

 STATEMENTS OF JOANNA STEPHENSON TONETTI, MOTHER OF ROSEMARY, 
  SARAH, AND ABDULAZIZ AL-ARIFI; MARGARET McCLAIN, MOTHER OF 
 HEIDE AL-OMARY; MAUREEN DABBAGH, MOTHER OF NADIA DABBAGH; AND 
         MICHAEL RIVES, FATHER OF LILLY AND SAMI RIVES

    Ms. Tonetti. I would first like to thank Chairman Burton 
and Congressman Brian Kerns, who isn't here right now. I must 
say that I am extremely proud that these two distinguished 
members of the committee are from the great State of Indiana 
where I'm from. For 2 years I heard nothing from my three 
American children. That was until Congressman Kerns was able to 
facilitate the first and only contact I have had with my three 
children, at 6 in the morning.
    My name is Joanna Stephenson Tonetti and I'm from Terre 
Haute. I am the mother of three children who were abducted by 
their noncustodial father to Saudi Arabia 2 years ago. My 
marriage to my ex-husband lasted 7 years, producing three 
beautiful children: Rosemary Helen who is now 12; Sarah Frances 
who is now 10; and Abdulazia who is now 7.
    My ex-husband, Abdullah Al-Arifi, had been in America for 
approximately 18 years on various student visas at the time he 
stole my children. One year before he took the children, he 
left the country, at which time the INS barred him from 
returning into the country due to several serious violations of 
his visa. He was nonetheless allowed back into the country and 
once again given another visa to stay, and that summer he 
abducted my children.
    Throughout the divorce, which lasted almost 2 years, I 
continuously voiced my concerns that my ex-husband would take 
my children. As a precautionary measure, the presiding judge 
ordered my ex-husband to turn over all passports for the 
children and ordered him not to have any new passports issued.
    In a further measure to attempt to secure the safety of my 
American children, the judge gave notice to the Saudi Embassy 
they were not to issue new passports to my ex-husband. Copies 
of the final divorce decree were mailed to the Saudi Embassy 
and all other Saudi offices in the United States. It is all too 
apparent that the Saudis disregarded the decree and court order 
and issued new passports to my ex-husband, making them knowing 
and willing accomplices in the abduction of three American 
citizens. Not only do the Saudis hide, harbor, and shelter 
criminals, they also aid and abet them.
    For 18 years my ex-husband lived in the United States. He 
enjoyed our freedoms and our way of life. He openly expressed 
his love of this country and all that it stands for. He 
professed how much better our way of life was compared to Saudi 
Arabia's. He attended several universities during his 18-year 
stay, but was unable to attain a degree. Now he hides behind 
the laws of a country that he barely lived in during his adult 
life and openly disdained during his life in America.
    Rosemary, Sarah and Z are beautiful American children. My 
oldest daughter was a terrific student and loved by everyone in 
her class. Excuse me if I cry. She loves to play tennis and 
softball and to swim. She was a Girl Scout and she's my best 
friend. I still receive phone calls from her friends wanting to 
know when she's coming home. Rose met Miss America during her 
third-grade year and it became her dream to someday become Miss 
America herself. Now that dream is locked behind veils and 
abayas.
    Sarah played softball and was my bookworm. She was bright 
and funny and incredibly intelligent. She was also a Girl Scout 
and was very much loved by her classmates and teachers. She's 
the master of all things computer related, and managed to make 
me feel about 20 years older than I really was.
    My baby is my son Z, and he is my little boy who loved to 
play football but could never figure out which direction to 
run. Parents would cringe when he took the field. He loved to 
fish and to swim and to play and anything involved hitting 
another player. Every night he would cuddle up in my arms and 
asked how many times I loved him. I knew this was a delay 
tactic to avoid going to bed, but I bought into it every time.
    Now my arms are empty and no little boy counts my kisses or 
my love. No more Girl Scout meetings. No more tennis matches or 
softball games. Only memories of three lives lost behind a 
Saudi sword. The absence of my three children has left an 
incredible void in my heart and in my life. I miss the 
laughter, the kisses, and the feel of their arms around my 
neck.
    One month before my children were taken from the only home 
they ever knew, I had reached the end of my rope. My ex-husband 
had drug me into court on almost a weekly basis. I had been to 
the edge emotionally and financially. On the way home from 
picking up the children from school, I broke down into tears. I 
couldn't take it anymore. I asked my children what they wanted, 
and my oldest daughter spoke up first. In a quiet voice she 
said the words I still hear today: ``Oh, Mommy, please don't 
give up. Don't ever give up.'' Sarah then added, ``Mom we want 
to stay with you.'' And my son just smiled at me with a smile 
that said more than words.
    Ladies and gentlemen, it's hard not to give up. I have 
turned for help from every source I can think of. There is not 
one politician that I have not written and begged for help and 
in return received silence. Up until a few months ago, nobody 
cared about my three American children, and I suppose when this 
is all over and dust settles things will go back to the way 
they were. You will all go home to your families and your 
lives, new causes will come along and thoughts of American 
children trapped in Saudi Arabia will fade.
    So who will move a mountain for three children? Who will 
salvage their childhood when there's still time left? Who will 
bring them back to the only home they ever knew or wanted? 
Thank you.
    [The prepared statement of Ms. Tonetti follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Burton. Representative Berry would like to introduce 
Ms. McClain. Mr. Berry.
    Mr. Berry. Thank you, Mr. Chairman, and I want to thank you 
for allowing me to address the committee in order to introduce 
a constituent of mine, Mrs. Margaret McClain. I also want to 
thank the committee and you for your leadership on this issue. 
The committee's efforts have gone a long way toward shedding 
light on this enormous problem.
    The testimony we are hearing here today leaves no doubt as 
to how much of a problem it is and that something needs to be 
done about it. It saddens me a great deal that these hearings 
are again necessary, but I hope that what is said today is 
heard by both the Saudi Government and our own State 
Department.
    This past July, Ms. McClain saw her daughter Heidi for the 
first time in 5 years. During those 5 years she fought tooth 
and nail with both the United States and Saudi Government to do 
whatever it took just to visit her daughter. Ms. McClain does 
not know when she will see Heidi again; which begs the 
question, at what point do we make the goal of her case not 
just visitation but the permanent return of Heidi to her 
mother?
    Along with Ms. McClain, I too urge the State Department to 
shift its efforts from just locating abducted children to 
actually bringing them back home. As a father, I cannot begin 
to understand the grief that Margaret McClain has gone through. 
However, I do understand the determination she has and the 
lengths she will go to to be with her daughter.
    As part of the evidence submitted to the committee today, 
there is an account of Margaret McClain's brief visit with 
Heidi last July. After the visit, she was asked if everything 
she went through was worth seeing Heidi for just a short period 
of time. Unhesitatingly, she said yes.
    Margaret McClain has demonstrated she will do whatever is 
necessary to be with her child and has shown admirable resolve 
in her fight to get her daughter back. We owe her our best 
efforts to bring Heidi back to the United States of America. 
And with that, I introduce to you Margaret McClain.
    Ms. McClain. Thank you Mr. Berry.
    Chairman Burton and members of the committee, I thank this 
committee for giving me the opportunity to speak for my 
daughter, Macheal Heidi Al-Omary, who has been a hostage in the 
Wahhabi Kingdom of Saudi Arabia for over 5 years. She was 
kidnapped in 1997 at the age of 5, and is now 10 years of age.
    Last week our whole Nation cheered as a group of American 
and foreign children were rescued from the missionary school in 
the Ivory Coast. According to Fox News, on September 25, 2002, 
this rescue was a State Department operation. Yet apparently 
the Wahhabi terrorists who hold American children hostage in 
Saudi Arabia are the untouchables.
    This situation must change. The kidnapping of American 
children to Saudi Arabia, contrary to what the State Department 
and Ari Fleischer at the White House have claimed, is not a 
private custody matter. It is Saudi Wahhabi terrorism, pure and 
simple, a jihad against defenseless American children.
    These terrorist acts against our children are being 
committed with the full knowledge and even complicity of the 
Saudi Embassy in Washington, the Saudi consulates, the Saudi 
Royal Family, Saudi Arabian Airlines and Saudi government 
officials.
    In December 1989, Abdulbaset Ahmed Mohammed Al-Omary and I 
were married in a civil ceremony. He was a citizen of Saudi 
Arabia but immediately began pressing me to sponsor him for a 
green card, which he easily obtained.
    Our daughter had been born in Jonesboro, Arkansas in 1992. 
I became subject to mental and physical abuse, suffering 
several broken bones and a miscarriage due to Al-Omary's 
beatings. Meanwhile, he began to abuse Heidi as well. On one 
occasion I was getting ready to take my daughter to a day-care 
center when Al-Omary blocked me in and began karate kicking the 
car window next to Heidi. I feared he'd shatter the glass and 
blind his own child. He was totally out of control. And I 
determined that the only way to save my child's life and mine 
would be to get out of this marriage from hell.
    In 1993, I finally found the courage to have this Wahhabi 
fanatic thrown out of my house. When it became clear that the 
marriage was doomed, I knew that Heidi would be kidnapped. I 
tried to protect my child by requesting supervised visitation, 
which was denied. Unfortunately, I had not been devious enough 
to tape-record conversations in which Al-Omary had flatly 
stated that he would not allow his child to grow up in the 
United States and that if I ever divorced him, I would never 
see her again.
    In 1994, I wrote to the Embassy of Saudi Arabia and its 
consulates to notify them that I was Heidi's legal custodial 
parent, enclosing certified copies of Al-Omary's and my divorce 
decree in which Al-Omary agreed to all terms and accordingly 
affixed his signature.
    I am including as an exhibit a photocopy of the notarized 
Arabic translation of these documents, authenticated by the 
State Department, bearing the signature of Madeleine Albright.
    In my 1994 letter to the Saudi Government, I stated 
explicitly that Heidi did not have my permission to travel to 
Saudi Arabia, that she was not be issued travel documents of 
any kind in her name or in any alias, and that she not be 
included in the travel documents of any Saudi citizen. I have 
submitted both a copy of the 1994 letter with my notarized 
signature as well as registered mail receipts.
    Then in 1995, becoming more desperate as the result of 
increasingly bizarre behavior and more threats by Al-Omary, I 
sent handwritten letters to the Saudi officials, this time to 
Ambassador Bandar bin Sultan at the Saudi Embassy and the CEO 
of Saudi Arabian Airlines. These letters along with registered 
mail receipts comprise exhibit No. 4.
    I informed Saudi Airlines that a court decision precluded 
my ex-husband from taking my child out of the State of Arkansas 
without my permission and named one of their flight attendants, 
my ex-brother-in-law, Samir Jawdat, and Al-Omary's American 
wife, Jayne Brussell Smith, as potential co-conspirators.
    Al-Omary's Saudi wife, Wafa Al-Dugail, had already been 
summarily sent home after Al-Omary's bigamy was exposed. 
Pursuant to a 1995 court order Al-Omary asked the Saudi 
Government to provide documentation that they would recognize 
and enforce this court's jurisdiction with regard to legal 
custody. According to Al-Omary the Saudi Embassy refused 
because they did not recognize U.S. law.
    To this day, the Government of Saudi Arabia has never 
answered any of my communications regarding their culpability 
in Heidi's kidnapping. Steeped in Wahhabi Islamocentrism, the 
Saudi Royals and the majority of their subjects truly believe 
that a female should not be able to travel, drive, go to 
school, marry, or make any major decisions without the 
permission of her closest male relative.
    The Saudis have no intention of returning my child because 
I am a mere female, a mother, a Christian and an American. The 
Saudis practice sex discrimination, religious persecution, and 
discrimination based on national origin. While the Saudis and 
their lobbying groups in the United States, most notably the 
Council on American Islamic Relations, constantly cry 
discrimination, they themselves are the most flagrant violators 
of human rights on Earth. That is the same Islamic lobbying 
group that forced the State Department to take down its 
marriage-to-Saudis warning from the Web page and replace it 
with a kinder, gentler version, which I have included, thus 
placing thousands of American women in peril.
    Meanwhile, the Saudis hypocritically sign all kinds of 
human rights treaties so they can retain their standing in the 
United Nations. They have, for example, signed the U.N. 
Convention on the Rights of the Child, which calls for the 
right of children not to be kidnapped; however, the Saudis 
always weasel out of their obligations under any treaties they 
have signed by adding a disclaimer that they will only honor 
those terms that conform to their version of Islam. Since the 
Saudis view children, especially girls, as property to be 
bought and sold, the United Nations treaties signed by the 
Saudis aren't worth the paper they're written on. The Saudis 
will never return any of these children voluntarily. They must 
be forced to do so by any means necessary, including covert 
rescues.
    The Saudi Government, having been duly warned, not only 
issued travel documents to my child, but their government 
airline whisked her out of the United States. Employees of the 
Saudi Government, like Saudi Airlines flight attendant Samir 
Jawdat, were accomplices in the illegal removal of my child. A 
high-ranking official of the Saudi National Guard, Dr. Salman 
Al-Hedaithy, and his wife, Farida Al-Ghofaili Al-Hedaithy, gave 
aid and comfort to the terrorist kidnapper at their home in 
Fairfax, Virginia according to the last words I heard from my 
daughter.
    Between 1994 and 97, Al-Omary and his American wife 
constantly harassed me and made threats to kidnap Heidi. On one 
occasion Jayne told me, ``I will get custody of your child and 
I will be your worst nightmare.'' Al-Omary married Jayne so he 
could legally stay in the United States to finish his master's 
degree in computer science and so he would have someone to 
support him. Meanwhile, I had to go back to court on several 
occasions to try to collect over $12,000 in child support, 
medical expenses, legal expenses, and repayment of a debt. 
Whatever income he had from his assistant directorship at the 
Islamic Center of Jonesboro was in cash payments from the Saudi 
Government on which he never paid income taxes.
    In addition to neglecting his own daughter for 5 years, Al-
Omary left her for extended periods of time, and, according to 
Heidi, sexually molested her and allowed his friends at the 
Islamic Center of Jonesboro to molest her as well. I reported 
these events to Heidi's doctor and the authorities, but due to 
a lack of physical evidence, Al-Omary was merely questioned and 
released. It seems no one believed what a 3-year-old had to 
say. What that small child told me was so disgusting that no 3-
year-old could have made it up.
    On August 12, 1997, the evening Heidi was due back home 
from a visitation, Al-Omary left a chilling message on my 
answering machine. He stated that he and Heidi were in Saudi 
Arabia and that I would never see her again. He threatened dire 
consequences if I contacted the police or involved his wife 
Jayne or any of his accomplices at the mosque. I was sick to my 
stomach.
    About an hour after I listened to the recording, Al-Omary 
phoned in person. This time he intimated he had people watching 
my every action to report back to him, and I believed him. He 
also stated that he could have me killed if he wished, and I 
believed that too. I begged to speak with my daughter and he 
relented, with the warning that I not upset her. Heidi came on 
the phone acting quite normal. She did not even know she had 
been kidnapped. I spoke to her for only about 10 seconds. My 
last question to her was, ``Where are you sweetie?'' before Al-
Omary snatched the phone out of her hand, she was able to tell 
me that she was at her 5-year-old cousin Dima's house in 
Fairfax, Virginia. Her father, Suleiman Al-Hedaithy, a high-
ranking official of the Saudi National Guard, was just 
finishing his Ph.D. Degree in computer science.
    After hanging up, I reported the kidnapping to the 
Jonesboro police who checked out Jayne Brussell Smith's for the 
presence of my daughter. This woman knew for 2 days that a 
crime had been committed and didn't report it, yet no charges 
have ever been filed against her.
    The following weeks Jayne kept in contact with her husband 
via e-mail, and, according to my private detective, even ran up 
thousands of dollars in charges on Al-Omary's credit card. The 
detective revealed that Al-Omary made several calls to the 
Islamic Center right after the kidnapping. We also learned that 
Al-Omary and Al-Hedaithy's wife probably posed as a couple, 
luring my daughter with promises of a trip to Disney World, and 
left from Orlando, Florida on one of the last flights of the 
season of Saudi Airlines.
    Eleven calls from the Fairfax address to the Orlando 
Marriott Hotel switchboard were made the day after Heidi 
disappeared from Fairfax. Fairfax County Police did a search of 
the Al-Hedaithy home for the presence of my child. Sadly, too 
much time had passed.
    And I include as exhibit A all the State, Federal and 
Interpol warrants issued again Al-Omary.
    I began receiving e-mails from the kidnapper a few months 
after the crime. I have attached these illiterate documents as 
exhibit 9.
    I turned the first one over to my FBI agent who merely 
said, ``I will have to send this to our computer people in 
Washington.'' I never heard the outcome. Al-Omary's first e-
mail warned me not to try to trace it because he was using an 
untraceable account at hotmail.com. My private detective 
approached the Jonesboro police, who sought the assistance of 
the Sunnyvale, CA police. That is the headquarters of 
hotmail.com. And they were very cooperative in determining that 
the messages had come from a computer belonging to the ARAMCO 
Oil Co.
    Concurrently, a friend of my son's with a computer science 
degree took about 5 minutes to establish the identity of the 
exact computer at ARAMCO's Dhahran headquarters that had sent 
the e-mail. So the untraceable message was easily traced, but 
not by the people who should have investigated: the FBI.
    The Saudi Government certainly wasted its money on the 
education of Mr. Al-Omary. One would think that a so-called 
computer expert could indeed make their e-mails untraceable. He 
demanded Heidi's immunization records, ostensibly so he could 
enter her in school in Libya. I was not about to help a 
fugitive take my daughter to Libya. I told the State Department 
that Al-Omary was working in Dhahran at the ARAMCO Oil Co., yet 
still they could not locate him.
    I was shocked on July 2002 to notice that ARAMCO was 
practically across the highway from the U.S. consulate there. 
Inquiries by the U.S. consulate to the Saudi Government yielded 
only lies from the Saudis. They couldn't locate Al-Omary 
either. What a crock. I don't for 1 second believe that the 
Saudi Government could not locate one of its own employees. In 
fact, history has proven that it is not wise to believe 
anything the Saudis say.
    While I was making the rounds to get assistance in locating 
Heidi, my other daughter had the brilliant idea of calling 
directory assistance in Dhahran. Within minutes, she had Al-
Omary's office number in her hands. Surely the U.S. consulate 
right across the road from ARAMCO knew that work numbers could 
be obtained in this way. I had wasted 2 years appealing to the 
State Department to locate my daughter. I can only conclude 
that they purposely did not want to find her.
    I told them in 1997 of the ARAMCO e-mails. Yet even as late 
as May 1998, a State Department internal memo sent by Jeffrey 
Tunis to Heidi's case worker, Steve Sena, states emphatically 
that, ``Al-Omary is not a Dhahran case. The last thing we heard 
about it was an e-mail on 12/14/97 from you, mentioning it.'' 
They knew in 1997 by their own admission where Al-Omary was. In 
a letter from former Ambassador Wyche Fowler to my Senator Tim 
Hutchinson, dated May 7, 1999, Fowler claims he has still not 
located Al-Omary, a full 2 years after I advised these people 
that the kidnapper was working at ARAMCO.
    Fowler also brags about how he had, ``raised child custody 
issues with the highest levels of the Saudi Government, 
including King Fahad and Crown Prince Abdullah.'' I guess 
that's why Pat Roush and her girls were railroaded and Monica 
Stowers was thrown out on the street.
    Other parts of the file discuss the wording of replies to 
Senator Tim Hutchinson and Governor Huckabee of Arkansas, or 
talk brazenly about how the case worker avoided answering the 
officials' questions.
    Exhibit 12 indicates that even in 1999, the State 
Department was still looking for Al-Omary in Riyadh, but they 
never checked with ARAMCO in Dhahran. In the same exhibit, Sena 
casts aspersions on my honesty, describing my information about 
Al-Omary's ARAMCO office phone number as ``an assertion, an 
allegation.'' Of course, when they finally called the number, 
my 2-year-long assertions that Al-Omary was employed at ARAMCO 
proved to be correct and was confirmed by a concerned citizen 
whose anonymous e-mail to me is included as exhibit 13.
    Exhibit 14 discusses how to get Senator Hutchinson off 
their backs as regards his demands that according to H.R. 4328, 
the kidnappers' accomplices' visas be withheld permanently.
    Just prior to today's hearing, 2 years after the Senator's 
admonition that the State Department obey U.S. law, I was 
informed that State is now willing to enforce H.R. 4328. A very 
disturbing aspect of my State Department file is that State 
apparently has a mole working among missing children's 
organizations to spy on victimized parents and report our 
activities.
    Exhibit 15, signed by Albright, says, ``FYI, the State 
Department has heard from another source that Ms. McClain may 
be in the process of organizing a rescue attempt.''
    In the past, other parents have told me that State always 
alerted the Saudis to such plans. If the State and Justice 
Departments did their jobs, parents would not have to resort to 
extreme measures.
    Exhibit 16 contains e-mails between Heidi's former case 
worker--who had wasted 2 years of my daughter's life--the mole 
and Anne McGaughey in reference to a letter to the editor I had 
written to Insight Magazine. My letter was in answer to Mary 
Ryan's whiny defense of her Department's less-than-stellar 
performance. Believe me, the day she was fired there was a 
cheer heard by God himself from all the parents Mary Ryan had 
sabotaged.
    I am sorry to say this, and I wish to offend no other 
Americans who have incurred losses at the hands of the Saudi 
terrorists. The situation has improved after September 11th for 
parents like me. I have been able to travel into the pit of 
hell for a brief visit with Heidi, during which the kidnapper 
and his thugs abused me before I was even able to lay eyes on 
my child for the first time in 5 years.
    I submit as exhibit 17 the whitewashed State Department 
report of my visit to Saudi Arabia. The report makes it sound 
as if my initial meeting with Al-Omary was brief and amicable 
in spite of the fact that the consular employee was in a 
conversation across the hotel lobby during the hour my ex-
husband and his brothers verbally abused me. During the 
inquisition, the Al-Omary Jawdat clan made outlandish demands. 
He was more delusional than ever and obviously desperate to 
receive visas to countries with Interpol notices on file, 
including Sweden, where two of his brothers had citizenship.
    The consular report hints that Heidi was shy, when in fact 
she is anorexic and desperately in need of psychological 
counseling. The report neglects to mention that my ex-husband 
violated every agreement he had made with the Consulate and the 
Emir of the Eastern Province, while I adhered to all the 
demands placed on me by Al-Omary and the Saudi Embassy. I was 
forced to fax the embassy a document stating that I would not 
harass him or any of his family while in the kingdom nor that I 
would break any Saudi laws. Al-Omary's plan was to get my son 
and me on a plane to Riyadh away from consular witnesses.
    I commend Anne O'Barr of the Dhahran Consulate for 
providing us with a body guard/driver, interpreter who checked 
for bombs every time we entered the armored vehicle. However 
the same official who wrote the report is a Muslim who doesn't 
care about my child's religious persecution as a baptized 
Christian. I was outraged when this State Department employee 
told me that I shouldn't worry about my daughter because she 
was with a good family. In my lexicon a good family does not 
kidnap, terrorize, starve and deny a little girl contact with 
her mother.
    What Heidi is suffering today is nothing compared to what 
Al-Omary will do to her as she grows up. He once told me that 
when he'd get older, he'd look for a 9-year-old wife because 
his prophet had married a child of that age. In Al-Omary's 
twisted mind, it would be perfectly reasonable for him to sell 
my precious Heidi off to a man three times her age. By the 
family's own admission, Heidi went through a lot when they 
first stole her, as if it was my fault. Like the Saudi regime 
that won't take responsibility for its role in terrorism, the 
completely sociopathic Al-Omary is in denial about what he has 
done to Heidi.
    When first in Saudi Arabia, she was apparently so disturbed 
that she played video games for 6 hours a day.
    The consular report then gushes about what a nice, lenient 
father Al-Omary is. I wanted to throw up when I read this 
glowing recommendation of Al-Omary's fathering skills. I do not 
believe it is the State Department's business to defend foreign 
criminals; it is an insult to the mothers who have suffered 
almost as much as the children.
    State Department reports must be read with some skepticism. 
Another illustration is State Department exhibit 2, presented 
before this committee only in June of this year. On the bottom 
of page 2, the date of Heidi's kidnapping is incorrectly listed 
as 1998, and the entry refers to my missing ``children.'' The 
devil is in the details.
    When I first saw my daughter again after all those years, I 
was shocked at how she looked and acted. Her behavior was 
bizarre and disturbing, to say the least. Heidi is now 10 years 
old, but has the social skills of a 2-year-old. She is 
extremely intelligent, but is one of the saddest little girls I 
have seen in my life. She doesn't smile, but of course, the al 
Qaeda-Wahhabi in Afghanistan beat people for smiling, singing, 
dancing, or anything else that is fun.
    It took Heidi half an hour to come out from under a veil 
she was wearing. Meanwhile, when we spoke to her and asked her 
questions, she gyrated in a strange, spastic way and would only 
answer us in cat noises from under the veil. All I could see 
were bones sticking out in all directions.
    Finally, when I did look into her eyes, I saw someone whose 
soul had been sucked right out of her body. I hold the Saudi 
Government and their Wahhabi fanaticism directly responsible. 
My child has known happiness and laughter and singing here in 
her own country. Do the Saudis imagine they can drive out all 
these happy memories? All they have created is a girl destined 
to become a woman with lifelong emotional problems, longing 
forever for what was taken away from her.
    I am tired of our government leaders telling the world that 
the Saudis are our allies against terrorism, or that Saudi 
Arabia is a moderate Arab state. I am here to set the record 
straight. Our leaders have not lived in a Wahhabi nightmare and 
seen its malevolence up close, as I have. The aim of Saudi 
Wahhabism is the same as it was during the middle ages, world 
domination.
    I admit that the Office of Children's Issues has provided 
Heidi with better caseworkers over time. But there is no amount 
of back-peddling that can give my daughter back the 5 years she 
was without her mother. It is a shame that changes only occur 
when some legislator exerts pressure or when the Saudis blow up 
thousands of Americans.
    This committee is interested in knowing what the State 
Department has done in trying to obtain the return of my child. 
The answer is simple: Nothing. They have never given me any 
hope at all that Heidi could be recovered, nor have they 
suggested other departments of the government that could help. 
They have, in fact, worked on my psyche to lower my 
expectations of a successful recovery. They were instrumental 
in arranging the visit with Heidi, again under a lot of 
pressure from my legislators. It helped that Senators Blanche 
Lincoln and Tim Hutchinson of Arkansas contacted the Emir of 
the Eastern Province and the CEO of ARAMCO, respectively. 
However, these Saudi governmental entities did nothing to 
protect my son and me while we were there, nor did they force 
Al-Omary to adhere to the terms we had agreed to.
    Returning to whitewashes, in 1998, the GAO was conducting 
an audit of the Office of Children's Issues. Mr. Rolf Nilsson, 
a senior evaluator, attended the annual PARENT Conference in 
Washington to obtain input from victim parents. As a 
consequence, I compiled an informal survey and sent the results 
to Mr. Nilsson, but it was too late. When his boss, Boris 
Kachura, found out that Nilsson's report was going to be 
negative, Nilsson was reassigned. The result was another 
whitewash, enabling Madeleine Albright and her staff to look 
better and more productive than they actually were.
    At the same PARENT Conference, State and Justice Department 
lawyer Mary Grotenrath was invited to explain Interpol 
procedures to the group. To our utter amazement and disgust, we 
all found out that a simple FBI UFAP warrant, or an 
international kidnapping warrant, offered no assurance that the 
fugitive could be arrested in a foreign country. Mary informed 
us that we all needed to go out and apply for provisional 
arrest requests whereby a Federal prosecutor had to agree to 
extradite should the fugitive be caught. None of our kids were 
listed with Interpol. That meant these criminals were able to 
move freely around the world, provided they stayed out of the 
United States.
    This was valuable information, but the Justice Department 
did not like one of their employees doing something concrete to 
help a seeking parent. As a result, Mary was ordered not to 
attend our conference the following year. The State and Justice 
Departments should be the ones to give us that information as 
soon as a child is reported missing, give us the paperwork and 
place the kidnappers in the Interpol system immediately, just 
as is now required for the NCIC system.
    To this day, the Secretary of State must go hat in hand to 
OPEC and the Saudis to beg for oil output, or he must finesse 
the Saudis to, please, let him use their bases. At the same 
time, he is responsible for the Office of Children's Issues 
that is supposed to demand the return of American hostages.
    Which do you think the Secretary of State wants more, the 
bases and oil, or the children? So if the Secretary of State's 
position on Saudi Arabia is not a conflict of interest, then I 
don't know what it is.
    The kidnappings of Americans is terrorism, and this issue 
must be dealt with accordingly, perhaps under a department like 
Homeland Security. The security of American children is at 
risk. The counterterrorism legislation includes the conspiracy 
to kidnap Americans overseas as terrorist acts. Our children 
have indeed been taken overseas and the kidnapping conspiracies 
were hatched overseas. So what is the hold up in charging the 
criminals with terrorism, especially when the perpetrators are 
Wahhabi radicals?
    I would like to categorize a series of crimes that Al-Omary 
and the Saudi Government were party to in his capacity as the 
assistant and/or acting director of the Islamic Center of 
Jonesboro.
    Mr. Burton. Ms. McClain, could we have the rest of that for 
the record? I think you have made a very, very strong point; 
and I am sorry to interrupt you, but I want to make sure we get 
to the questions. So if you are near the end, if you want to 
summarize, we would be glad to have you do that.
    Ms. McClain. Let me just summarize my final information 
about the people that the Saudis hire to harass American 
mothers who have lost their children over there.
    Ms. Gabbayh, Ms. Roush and myself went in protest to the 
Saudi embassy a couple of years ago. It was a peaceful protest. 
We went across the street to Hill & Knowlton, which is one of 
the big PR firms that the Saudis use in order to intimidate 
people like us. Those people had hacked into our e-mail. Those 
people had made veiled threats against us. We went into their 
offices. We found files about ourselves, and I am wondering 
what kind of a big threat we are to Hill & Knowlton because we 
are boycotting some of their companies they represent or 
because we are attacking the Saudis in some way.
    We find this reprehensible, that other Americans would team 
up with the Saudis and become complicit in their kidnapping 
schemes.
    Mr. Burton. OK. Thank you very much, Ms. McClain.
    [The prepared statement of Ms. McClain follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Burton. Mr. Rives.
    Mr. Rives. Mr. Chairman and members, thank you for the 
opportunity to testify before you today regarding my children's 
illegal abduction and retention in Saudi Arabia. Along with me 
are my three other children, Ginger Ann McKay, Benjamin Michael 
Rives and Aaron Scott Rives, who have come here today to show 
support for me, as well as their love and concern for their 
brother and sister, Lilly Michelle Rives and Sami Michael 
Rives, who are being held in Saudi Arabia illegally by my ex-
wife with the help of the Saudi Arabian Government.
    Normally, I am a very private person and seldom ever share 
anything of a personal nature outside my immediate family. In 
fact, there have been only two times in my life important 
enough to share my personal feelings in a public forum: my 
father's eulogy and the discussion before you today, because I 
need your help to get Sami and Lilly out of Saudi Arabia and 
returned home to Texas, as ordered by the District Court in 
Dallas.
    To begin, let me introduce my precious babies, Lilly and 
Sami.
    Lilly is my treasure. She is my first daughter from scratch 
and she is only 4 years old. She has the sweetness of an angel, 
a giggle that can tickle your spine, and a look that can melt 
the coldest of hearts. Our relationship was such that we could 
communicate just by looking at each other. In just 6 days 
though, I am going to miss yet another one of her birthdays 
when she turns 5.
    And Sami, he is my buddy. He is only 3 years old and has 
the perkiness of a puppy, always following me around and 
wanting to sit by me at all times. Right now, he likes Batman 
and farm animals and finds joy in the most unusual things. He 
loves the commercial for Mattress Giant and the game show, The 
Weakest Link. In fact, the only English he was speaking before 
he left a year ago was the end of that show's tag line. We'd 
go, ``Sami, you are the weakest link,'' and he would go ``Good-
bye.'' It was so cute.
    I cannot imagine any more wonderful children than Sami and 
Lilly, because they are just like their brothers and sister. As 
you can imagine, this has been a very tough time for us, 
continually wondering whether we will ever be able to see them 
again and now wondering whether we will be able to extract them 
from a country to which they don't belong.
    Lilly and Sami are citizens of the United States of America 
and of the United States only. As you may know, under Saudi 
law, children take the nationality of their father, regardless 
of where they are born. Also under Saudi law, dual or multiple 
citizenships are not allowed. A person can be only Saudi or be 
only something else. Of course, the Saudi Government can bestow 
the nationality on those to whom they wish if that individual 
will also give up their previous nationality. This is what 
happened in my ex-wife's case and, God forbid, might be 
happening to Lilly and Sami right now.
    My ex-wife is Syrian national by birth. She was a Syrian 
national at the time we married in 1996 and a Syrian national 
at the time of each of my children's birth.
    However, 2 years ago, her father requested and got the 
Saudi Government to give the Saudi nationality to my ex-wife 
and to her sister because of his personal relationship with 
certain members of the royal family. As a result, she is no 
longer considered a Syrian and, since our divorce, has been 
using the Saudi nationality solely as a tool to keep my 
children in Saudi Arabia.
    Now she and her father appear to be in the process of 
getting the Saudi nationality for my children in order to keep 
them in Saudi Arabia and to take away their birthrights as 
Americans. If she succeeds, it will be particularly damaging to 
my daughter's rights and freedoms. She will automatically be 
limited to the type of education she can receive, the type of 
profession she can aspire to, and even to the person she may 
marry. A Saudi woman can marry only a Saudi man. Moreover, both 
Lilly and Sami will lose liberties we as Americans enjoy, most 
important of which is the freedom of religion.
    To get them the Saudi nationality though, my ex-wife must 
request and obtain the direct involvement of the Saudi 
Government and the Saudi Government's complicity in violating 
not only my rights as Lilly and Sami's father under Saudi law, 
but also in violating the orders issued by the District Court 
having jurisdiction over my children.
    Apparently, this is not a problem for the Saudi Government. 
In fact, that government has already taken direct action to 
camouflage my children's identities as Americans. This past 
June, that government, the Saudi Government, readily provided 
my ex-wife with Saudi passports for Lilly and Sami and took 
away their American passports. The Saudi Government did this 
with the full knowledge that Lilly, Sami and I are American 
nationals only, since this is clearly stated on my children's 
Saudi birth certificates, as well as their American birth 
certificates issued by the U.S. Embassy in Riyadh.
    The Saudi Government also restricts my ability to see my 
children. For example, I cannot get a visa to Saudi Arabia 
unless my ex-wife agrees to my going over there. And, of 
course, her agreement depends more on how she feels about me 
than my rights to see my children or my children's rights to 
see me.
    When my--in fact, that is the reason I filed for a divorce 
in the first place. When my ex-wife and children left for Saudi 
Arabia in July 2001, I believed their trip to be their usual 
vacation to visit her parents. Unlike before, though, I 
insisted I have a visa to Saudi for the length of their 2-month 
planned vacation in advance of their going. During the trip, I 
spoke with her frequently over the telephone and never had an 
indication of anything out of the ordinary.
    Then the day after September 11, 2001, my ex-wife called to 
say that she planned to stay a little longer. At first, I 
didn't think anything about it, but I did remind her that my 
visa, coincidentally, had just expired and needed to be 
renewed. After several days of one delay after another, I told 
her flat out I had to have the visa. That is when she told me, 
no, and told me that she had her father stop his efforts to get 
one for me. She said she was having second thoughts about her 
life in the United States away from her family and that she 
didn't want me to come over there until I could guarantee that 
I would not take the children.
    I told her I had a right to go over there and see my 
children, and that if she didn't get a visa for me, I would 
cutoff her credit cards and use the money to take legal action 
against her. Although her parents are very wealthy and were 
providing, and are continuing to provide, for all their needs, 
she didn't like the idea of her extra money being cutoff. So on 
September 22, 2001, I got a voice mail that stated, in part, 
``You have gone too far. I am taking the children where you 
will never, ever find us, so don't bother looking.''
    According to the Saudi Arabian embassy in Washington, DC, 
at that time, there was nothing I could do to compel her to 
return the children nor any way I could get a visa to Saudi 
Arabia, even though we were still married. I requested 
assistance from my ex-wife's brothers and sister, but they 
refused to help.
    At this point, I knew I had to have something legal in hand 
if I was ever to see my children again, and filed for divorce, 
on October 15 of last year.
    On December 18, 2001, I got my first divorce by default 
from my ex-wife and was awarded custody of Lilly and Sami. Then 
I got in touch with the State Department. The State Department 
official with whom I dealt, Ms. Beth Payne, Office of 
Children's Issues, has been very helpful and outlined what the 
Department, FBI and INS could do to help encourage my ex-wife 
to return my children to the United States.
    However, before any action could be implemented, my ex-wife 
filed a counter petition for divorce in April of this year in 
the Dallas District Court, and thereby, according to my lawyer, 
conceded to the jurisdiction of the Dallas court. I willingly 
agreed to reopen the case to let her have her day in court. But 
it soon became apparent that all she was doing was having her 
father try to break me financially.
    They attempted one ploy after another to delay or prolong 
the process. Fortunately, the court saw through their actions 
and set the final trial date for July 29, 2002. At that time I 
got my second divorce and was once again awarded total custody 
of Lilly and Sami.
    So after 9 months and over $33,000 in legal fees, I got two 
divorces and twice received sole custody of my children. But 
what I didn't get were Lilly and Sami, or a way to get them out 
of Saudi Arabia.
    Since that time, the State Department has made the decision 
to deny visas to the United States to my ex-wife's parents and 
siblings. In my situation, this may be an effective tool to 
encourage her to return my children, because her family, as I 
said, is wealthy and is held in high regard in Saudi society, 
the government and the business community and will likely need 
to come to the United States in the future.
    Additionally, the FBI recently issued a warrant for my ex-
wife's arrest and plans to forward it to Interpol, through 
which it will be enforced in countries that are signatories to 
the Hague Convention. Upon entry into such countries, my ex-
wife would be arrested and the children returned to me. 
Unfortunately, countries in the Middle East will not honor this 
warrant. Finally, INS has suspended my ex-wife's Green Card.
    All of this, though, even if it works, will take time, but 
as we have seen from the testimony to date, time is so 
precious. It has been over 1 year since I have seen Lilly and 
Sami, and there is no way I can have a relationship with them 
while they are in Saudi Arabia.
    Until recently, I have been able to speak with them over 
the telephone, but they are taught to speak Arabic only, which 
I do not speak. So all we have been able to do is just listen 
to each other's voices. And now because of the actions I have 
taken, they have even stopped that.
    Additionally, when I do go to Saudi Arabia, I will be 
extremely vulnerable because of the influence my ex-wife's 
father and brothers have and the ill will she and they now have 
toward me because of my actions to rescue my children. In fact, 
I just found out that my ex-wife has brought, or plans to 
bring, criminal charges against me in the Saudi court for 
crimes against Islam, accusing me of baptizing my children and 
taking them to church.
    Also she tells me that her father has hired 24-hour armed 
security guards to keep me away from the children without her 
permission. As a result, once in the country, they could easily 
have me jailed or even killed and be completely justified in 
their actions.
    Aside from the risks, though, involved in trying to see my 
children, I am more concerned about my children's future rights 
as citizens of the United States. As I have emphasized 
throughout this statement, the Saudi Government is stealing 
their rights from them as the U.S. State Department stands by 
helplessly and watches. Yet the Saudi Government has no legal 
basis to do anything in regard to my children's nationality or 
in preventing them from coming home.
    Lilly and Sami are not Saudi nationals and never legally 
could be without my involvement. Therefore, I beseech you, Mr. 
Chairman, the committee and President Bush, to demand that 
Crown Prince Abdullah order the return of my children to the 
United States immediately. After all, the Saudis' argument in 
the past in regard to these custody issues was that it was a 
private matter about the children they considered to be Saudi 
nationals and that we should respect their laws. Well, in my 
case, they have no such argument because under their own law, 
my children are American nationals only, and I, as their 
father, and as stated in three court orders issued by the 
District Court in Dallas, have the sole right to decide where 
and with whom they should live.
    Chairman Burton and members, let me conclude by saying that 
I was quite taken by the outrage that you all expressed during 
your hearing last June when you all heard about how the Saudis 
were trampling on the rights of American parents and their 
children who were illegally held in Saudi Arabia. I was equally 
impressed with the direct action you took to go to Saudi Arabia 
in August to work out a solution regarding our children. 
However, as you found out, the Saudis simply will not listen to 
what they are not made to hear.
    Therefore, I believe that it is time for the United States 
to make the Saudis sit up and listen and let them know that we 
are serious about getting our American children home, instead 
of letting the Saudis continue to kick sand in our faces.
    Thank you. This concludes my statement.
    [The prepared statement of Mr. Rives follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Burton. Let me just correct you on one point, and that 
is, our State Department can do something about it. The problem 
is they haven't because they haven't really wanted to. We just 
have to keep pressure on them.
    I do believe that Secretary Powell is moving in the right 
direction, and I think the President is, and we will just have 
to keep making sure they head in that direction.
    The problem is we have this darned war staring us in the 
face. Hopefully, that will not be a very big impediment.
    Ms. Dabbagh.
    Ms. Dabbagh. Congressman Burton and members for Government 
Reform, I come before you today as yet another parent whose 
child has been abducted to Saudi Arabia. My child is not Saudi. 
My ex-husband is not a Saudi either.
    I have a U.S. custody order. I have an Islamic custody 
order from Syria, quite a feat for an American Christian woman. 
Our FBI has issued a Federal warrant for the arrest of Mohamad 
Hisham. Syria, likewise, has issued warrant for his arrest for 
kidnapping my daughter. Our Congress and our U.S. Senate passed 
the first and only Sense of Congress and Sense of the Senate 
resolution asking that Saudi Arabia and Syria return Nadia to 
the United States. Yet, all efforts have failed to produce even 
the most meager results.
    Nadia is now 12 years old. I kissed her good-bye just 
before her third birthday on November 3, 1992, for a court-
ordered, unsupervised visitation, knowing that I would never 
see her again. You see, my ex had promised to kidnap her, but 
the courts didn't find my testimony credible.
    The night before Nadia was to go visit her father, I sat by 
her bed watching her sleep. As the clock quickly ticked off the 
minutes that I had left with her, I knew when morning came, she 
would be gone forever. It was the longest night of my life, and 
the torturous hours were witness to my fear.
    As I watched Nadia sleep, I told myself to memorize every 
detail of her chubby little cheeks. I caressed the dimples on 
the back of her hand and brushed a wisp of hair from her eyes. 
She slept the sound sleep of the innocent. I choked back tears 
so that my grief would not awaken her. I sat remembering our 
conversation the day before.
    It was the start of the holiday season. My curious toddler 
asked what a Christmas tree was in the department store. The 
lights and brightly colored ornaments held her gaze. I 
explained to her that we would have a Christmas tree like that 
and that her grandmother and aunts and uncles and cousins would 
all be together, and we would eat all our favorite foods. She 
turned her little face toward me and, smiling, said, ``I want 
to eat hamburgers under the Christmas tree.''
    Ladies and gentlemen, Christmas never came to our house 
that year and Nadia never ate hamburgers under the Christmas 
tree. Where Nadia was taken, they don't have stockings hanging 
on the fireplace and no Christmas trees to eat hamburgers 
under. There are no Easter parades and no tooth fairies. Her 
magical world of childhood was left behind when she was 
kidnapped. She even left her favorite blanket behind, the one 
she cuddled with at night. I dared not wash it after she was 
taken for fear I would lose the faint scent of her that still 
lingered on the beloved Kool-Aid stained ``blankie.''
    While it would take more than a year for Interpol to 
determine that Nadia had been taken to Saudi Arabia, the 
information provided no relief. Efforts to bring Nadia home 
were met with disappointment after disappointment.
    I continue to worry about Nadia. I have not seen her since 
she left the United States nearly a decade ago. I have not had 
a phone call with her or a photo or a letter. There has been 
absolutely no communication of any kind, either directly or 
indirectly.
    I worry about Nadia because no one has seen her. My ex-
husband had threatened to kill her. I worry about Nadia because 
my ex-husband had revealed to me that his family had arranged 
her marriage to a cousin in Syria when she was only 9 weeks 
old. My ex-husband's mother married at the age of 13 and his 
sister married at the age of 14. Nadia is now 12, and my fears 
increase with each passing year.
    Things are different for Nadia and me since that fateful 
day in 1992. She was ripped from everything that had served to 
identify who she was. This tiny child of just 2 years old was 
taken from her mother, her relatives and her community. She was 
not allowed to take her pet bird, Chiquita, that she loved. She 
would be forced to leave behind her toys, her friends and her 
language. Even trips to Taco Bell for her favorite food would 
be denied her now, and she would never again feed the ducks in 
the small pond behind our house. For me, I would continue to be 
a parent, but my role would be redefined in a most drastic way.
    For 10 years I have been a left-behind parent. I am a 
parent that does not tuck a child in bed at night. My arms are 
empty and my heart aches. I do not get annual school photos of 
Nadia. Instead, I get computer-age enhanced photos 
periodically, showing what she might look like today. I do not 
throw Nadia birthday parties, celebrating each year as she 
grows. Instead, I receive condolence cards from various missing 
children's organizations on her birthday.
    I do not walk into Wal-Mart stores to do back-to-school 
shopping. When I go to Wal-Mart, I silently gaze up at the wall 
of missing children's posters and note that Nadia's is still 
hanging there. Through the years, I have not saved money for 
her college education. Instead, every available dollar was used 
to pay for lawyers, investigators, long distance telephone 
calls and overseas travel expenses. I have spent $200,000 
trying to bring her home.
    I come before Congress today pleading that Nadia be 
returned. Nadia was sexually abused by her father and underwent 
investigation by Social Services at the time he fled the 
country with the tiny toddler. He was under investigation by 
the Secret Service for laundering money for arms.
    I request that the Saudis would immediately provide 
American authorities with specific details and the history of 
recent travel to Saudi Arabia, including when she entered the 
country, if she has left, where she stayed and all other 
information. While they may very well consider a man with my 
ex-husband's background an asset and may wish to continue 
providing him sanctuary, my child is young and not capable of 
providing the Saudis with any particular contribution that 
would support their efforts to destroy international threads of 
cooperation.
    Saudi Arabia became a signatory to the United Nations 
Convention on the Rights of the Child January 26, 1996. Their 
obligation under this treaty in regards to Nadia are as 
follows:
    Article 2: State parties shall respect and ensure the 
rights set forth in the present convention to each child within 
their jurisdiction without discrimination of any kind, 
irrespective of that child's or his or her parents' or legal 
guardian's race, color, sex, language, religion, political or 
other opinion, national, ethnic or social origin, property, 
birth or other status.
    State parties shall take all appropriate measures to ensure 
that the child is protected against all forms of discrimination 
or punishment on the basis of the status, activities, expressed 
opinions or belief of the child's parent, legal guardian or 
family members.
    State parties undertake to respect the right of a child to 
preserve his or her identity, including nationality, name and 
family relations as recognized by law without unlawful 
interference.
    State parties shall ensure that a child not be separated 
from his or her parents against their will.
    State parties shall respect the right of the child who is 
separated from one or both parents to maintain personal 
relations and direct contact with both parents on a regular 
basis.
    Saudi Arabia has not facilitated any action, program or 
laws that would effectively address their obligation under the 
child's rights treaties. Their blatant disregard for 
international law, Islamic law and basic human compassion is 
well documented, and a reputation earned long before they began 
the practice of killing females before burying them instead of 
burying them alive. Their barbaric culture has long been under 
fire by human rights groups worldwide.
    My ex-husband found a haven where he can continue 
practicing his debauchery without fear of reprisal. He can 
continue to sexually abuse toddlers without fear of 
persecution. He can continue to support and be part of 
extremist religious factions that support jihad. He can 
continue to disregard any law, whether it be civil, religious 
or moral, in this desert kingdom that spends more time, energy 
and effort on covering up the truth of their decadence than 
they do at attempting to provide remedies.
    For the Saudis, the ideology that they are a privileged 
people and exempt from all accountability continues to cause 
havoc, chaos and harm. They have disenfranchised themselves as 
part of the international community of human rights, while at 
the same time demanding that they be recognized as world 
partners in improving the lives of humankind. They are bullies. 
They have not been able to fool the world into believing 
otherwise by sending their expensive public relations experts 
to spin half-truths, lies and cover-ups.
    My child is not a Saudi.
    Ladies and gentlemen of this Congress, I conclude my 
address by stating, Nadia means hope. It is hope that fuels my 
efforts to free Nadia. Perhaps 1 day, if it is God's will, 
Nadia and I will eat hamburgers under the Christmas tree.
    [The prepared statement of Ms. Dabbagh follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Burton. You know, I don't like bullies very much, and I 
don't like the Saudi leaders very much after what I found out 
about them. I had a chance to talk personally to their foreign 
minister, and I think the attitude that they had was very 
similar to what you ladies and gentleman have stated here 
today.
    Our State Department can do a lot to put pressure on them. 
The administration can do a lot to put pressure on them. Even 
though we are in the throes of a war and may have to use our 
base in Saudi Arabia to prosecute that war against Iraq, that 
doesn't change the fact that we can put pressure on the Saudi 
Government, and we should.
    Some of the things that I have thought about while you were 
talking here today is, there are 600 to 900 Saudi students 
that, when I was over there, did not get their visas to come 
back to the United States to study. I think maybe we ought to 
hold those visas up indefinitely, until we get some of these 
kids back. Obviously, to the people at the State Department, we 
ought to consider that. We ought to consider holding up any 
visas for Saudis who are students, who are going to study here 
in the United States, until we get some positive reaction from 
the Saudi Government.
    We have legislative proposals that we are going to make, 
and I am sure I will have strong Democrat and Republican 
support to get those passed. But that takes time. We are at the 
end of our session and most of that probably won't get done 
until next year.
    In the meantime, you folks at the State Department who are 
here--and you know who you are--I want you to take this message 
back to the leaders at the State Department, including Colin 
Powell:
    We will take the tape we are having made here today of the 
hearing, and we will condense it down so that the most salient 
points being made by our witnesses are on that tape; and I am 
going to urge the people who have control over at the State 
Department, who are in leadership positions at the State 
Department, watch this tape so they understand personally the 
gravity of this situation.
    I mean, unless somebody sits here and hears this stuff, 
they can't possibly know how bad it is. Unless you go over 
there and talk to these people, you just don't understand how 
bad it is.
    Let me just ask a few questions here of Ms. Tonetti first.
    When you got your divorce, you were afraid your ex-husband 
was going to kidnap your kids and take them away, right?
    Ms. Tonetti. Correct.
    Mr. Burton. I think you said that too. I think it has been 
stated by all of you here.
    Did you talk to your children about the possibility that 
they might be kidnapped?
    Ms. Tonetti. Yes, I did. I prepared them for it as best I 
could.
    Mr. Burton. And none of them wanted to go?
    Ms. Tonetti. None of them wanted to go.
    Mr. Burton. The judge granted--these judges, I tell you, 
that really bugs me. I mean, your husband was suspected of 
being an arms dealer and he was Syrian.
    Ms. Dabbagh. He was under investigation.
    Mr. Burton. He was under investigation. Did the judge know 
that?
    Ms. Dabbagh. I don't know.
    Mr. Burton. Was it brought up in court?
    Well, you know, it amazes me that these judges think 
unsupervised visitation with the kids doesn't present a real 
threat.
    But he did, your judge did make it clear, they were not to 
be taken out of the country?
    Ms. Tonetti. Correct.
    Mr. Burton. He write or call the embassy?
    Ms. Tonetti. He wrote, I believe, and you should have a 
copy of the divorce decree.
    Mr. Burton. He wrote to the embassy, and there was a copy 
of the divorce decree sent to the Saudi embassy----
    Ms. Tonetti. Yes.
    Mr. Burton [continuing]. Saying, don't take these kids out 
of the country.
    Ms. Tonetti. Exactly, not to issue passports.
    It was mailed, registered and certified, so there are 
signed copies.
    Mr. Burton. So it was certified?
    Ms. Tonetti. Yes, you should have copies of all of the 
certifications.
    Mr. Burton. So the Saudis knew about this?
    Ms. Tonetti. Oh, yes.
    Mr. Burton. And they were complicit. They were parties to 
the kidnapping of your children?
    Ms. Tonetti. Yes, they were.
    Mr. Burton. They knew it?
    Ms. Tonetti. Yes, they did.
    Mr. Burton. So they broke the law?
    Ms. Tonetti. They don't recognize our law.
    Mr. Burton. No, they broke our law.
    Ms. Tonetti. Yes.
    Mr. Burton. Yes.
    Maybe we will make them more aware of our law.
    You haven't had any contact with your kids, or very little, 
since they were kidnapped?
    Ms. Tonetti. No, thanks to Congressman Kerns, I had one 
phone call.
    Mr. Burton. I was supposed to go to that meeting, but I was 
talking to some other women over there. I am sorry I didn't go, 
because I would have liked to have seen your kids.
    Ms. Tonetti. One phone call in 2 years for about 20 
minutes.
    Mr. Burton. He got you some pictures too, didn't he?
    Ms. Tonetti. They were wonderful pictures. They looked very 
happy to talk to me.
    Mr. Burton. Do you know if the State Department ever 
demanded the return of your children from Saudi Arabia?
    Ms. Tonetti. I don't know much of anything that the State 
Department has done.
    Mr. Burton. They haven't given you much on that?
    Ms. Tonetti. No.
    Mr. Burton. Good. Do you know if the State Department ever 
demanded the return of your children from Saudi Arabia?
    Ms. Tonetti. I don't know much of anything that the State 
Department has done.
    Mr. Burton. They haven't given you much on that?
    Ms. Tonetti. No.
    Mr. Burton. How about you?
    Ms. McClain. No, they have not demanded the return and have 
not led me to the expectation they ever will. They want me to 
just be satisfied with some visitation now and then.
    Mr. Burton. Mr. Rives, have you talked to the State 
Department?
    Mr. Rives. Yes, frequently.
    Mr. Burton. What kind of response did you?
    Mr. Rives. Last week I believe they sent a communique, a 
diplomatic message, requesting the return of the kids or 
wanting to know why they are being held over there.
    Mr. Burton. They have done something positive in your case?
    Mr. Rives. Yes.
    Mr. Burton. Ms. Dabbagh?
    Ms. Dabbagh. Agencies falling under the U.S. Department of 
Justice have been very aggressive in asking for the return, as 
well as our U.S. Congress, while the U.S. Department of State, 
specifically the Office of Children's Issues and the U.S. 
consulars in the American embassy in Riyadh and in Damascus, 
Syria, have--and I have the documentation--worked very 
aggressively to prevent recovery by various actions, including 
withholding information from former President Jimmy Carter; and 
my file describes how they circumvented all these efforts.
    Mr. Burton. So the State Department has been an impediment 
in your case?
    Ms. Dabbagh. Only the Office of Children's Issues and the 
Counsel General at the U.S. Embassy in Damascus and the U.S. 
Embassy in Riyadh. Diplomatic security is real heavily involved 
in my case. They are fantastic.
    Mr. Burton. But the State Department itself?
    Ms. Dabbagh. The case has been cloaked from them for well 
over a year, and if they have any knowledge of what is going on 
in my case today, it is only because they have been talking 
with you guys.
    It is cloaked. It is very protected.
    We can give you the file, the directives they gave to 
circumvent the action.
    Mr. Burton. In all your cases, with the possible exception 
of your case, you really haven't had any help from the State 
Department.
    Judge Duncan, do you have any questions?
    Mr. Duncan. Thank you, Mr. Chairman. I really don't have 
any questions, but I will tell you that I really admire the 
fact that you, Mr. Chairman, are continuing to call attention 
to this, because I think that you may be these people's only 
hope.
    I think that almost everybody who hears about these 
situations totally sympathizes with the people who have 
suffered these tragedies, and I think the only thing--nothing 
is ever going to be done about this unless we continue to call 
some attention to these situations.
    Unfortunately, I am a little pessimistic because we are now 
about to enter into a war which I personally think is 
unnecessary, but we are going to go into it, and I am sure the 
State Department is going to feel we need Saudi Arabia as an 
ally. And then also we need their oil, I guess. So they will 
put all that first.
    But I want to say that I will support Chairman Burton in 
every way that I possibly can, and I think that about 99 
percent of my constituents would be in favor of anything that 
we can do. If the State Department does not act and take strong 
action in regard to these situations, I think they will be very 
much ignoring or going against the will of the American people 
on this.
    So, with that, I yield back the balance of my time.
    Mr. Burton. Let me just say to my colleague, Judge Duncan--
I call him Judge Duncan because he was a former judge and a 
good one--we only get about 15 percent of our oil from the 
Saudis now. It used to be about 50 percent. As a result, we can 
tell them to eat their oil.
    We can get it from someplace else. We can get it from 
Venezuela, we can get it from Mexico. We can make that up.
    The Saudis, when we had the problems back in the 1970's and 
the OPEC countries, including Saudi Arabia, raised the oil 
prices so high that we had big long gas lines, they had a 
tremendous surplus. They had a balance of payments surplus. Now 
they have a balance of payments deficit. They are hurting. They 
need us a lot more than we need them.
    What we need to do is, we need to put pressure on them to 
adhere to and recognize U.S. law, and we don't have to go hat 
in hand to them anymore. We just don't have to do it.
    I hope that some of this gets on television, because I am 
going to be telling all my colleagues that, because most of my 
colleagues still believe that we are very dependent on Saudi 
oil. We are not. We don't need them. And if they don't start 
working with the United States, especially in cases as serious 
as the ones we are talking about today, they ought to pound 
sand and eat their own oil.
    Mr. Duncan. Mr. Chairman, can I say that I agree with you 
on that statement also. I heard you mention that in your 
earlier opening statement.
    I will tell you, though, that a few moments ago when you 
were talking about you didn't understand how these judges could 
make these rulings, I can tell you that I never handled any 
divorce or domestic relations cases. I tried the felony 
criminal cases.
    Mr. Burton. I wasn't talking about you, Judge.
    Ms. Tonetti, it is my understanding the Saudi Government 
said they would be willing to drop your crimes against Islam if 
you dropped the kidnapping charges against your husband. Do you 
consider that a serious offer?
    Ms. Tonetti. No, I do not.
    Mr. Burton. What crimes against Islam did you commit?
    Ms. Tonetti. I am not quite sure. I think the fact--the 
fact that I have a child and I have a new husband, and I don't 
believe they ever recognized I divorced from my ex-husband. So 
perhaps----
    Mr. Burton. But the Saudis can have four wives?
    Ms. Tonetti. Yes.
    Mr. Burton. They can have up to four wives, and they have 
complete control over all of their wives and children.
    Ms. Tonetti. It is good to be a man in Saudi Arabia.
    Mr. Burton. Yes.
    I don't know that I want to prolong the questioning. Are 
there any other questions we ought to get on the record?
    Did you have any questions, Mr. Berry?
    Mr. Berry. Mr. Chairman, I associate myself with the 
remarks that you have already made, and I want to thank you 
for, once again, attempting to bring the necessity that our own 
government has got to do something about this.
    If there was ever anything worth fighting for, this is it. 
And I think we have, as a Congress, we have got to force this 
issue to the point where we get something done about it.
    I appreciate the efforts you have already made and that I 
know you will continue to make, and I offer my support in 
anything you attempt to do.
    Mr. Burton. Mr. Berry, what I will do is get you copies of 
the legislation we are going to be proposing and we are going 
to try to talk to the Women's Caucus and try to get them on 
board as well. There will be a growing amount of support. I 
appreciate your help.
    Let me ask a couple more questions before we finish here, 
and then we will let you go.
    Do you know if the President has ever raised any of your 
cases with the Saudis? Or the State Department, only in your 
case the State Department.
    Mr. Rives. Has raised the question?
    Mr. Burton. And do you think the President should?
    Mr. Rives. Yes.
    Ms. Tonetti. Yes.
    Mr. Rives. I think it is the only way.
    Ms. McClain. Yes.
    Mr. Burton. We will see if we can't get a message to him.
    We are going to condense this tape down. I can't take all 
of the six or eight statements we heard today and have somebody 
who is in the midst of a war watch all of them, but what we 
will do is condense it down so that the guts of your statement 
is very clearly expressed, and we will get that on tape to 
everybody we possibly can in leadership in our country and see 
if they can't understand how important this is.
    I give you my word, I don't know if any of you saw the ``60 
Minutes'' piece, but the Saudi Ambassador said I went over 
there for publicity reasons. You know, what I said to them was 
my father went to prison for abusing me and my mom and my 
brothers and sisters, and I don't like people like that very 
much. The Saudis fall right into the category of my dad who 
should have gone to prison and did go to prison.
    As long as I am in the Congress in a position where I can 
do something about this, you can count on me pounding on them. 
I won't quit, I promise.
    With that, I know that you don't have a lot of hope, and 
the only reason I am telling you that is because, don't give 
up. You know, Winston Churchill said never, never, never, never 
give in. You just hang in there and keep pleading your case. 
And you talk to your other Congressmen, who may not be here 
today, talk to your Senators, talk to the media, talk to 
everybody you can; and we will keep the heat on the Saudis 
until we start getting some results.
    Thanks an awful lot. We stand adjourned.
    [Whereupon, at 1:36 p.m., the committee was adjourned.]
    [Additional information submitted for the hearing record 
and the exhibits referred to follow:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]




     AMERICANS KIDNAPPED TO SAUDI ARABIA: IS THE SAUDI GOVERNMENT 
                              RESPONSIBLE?

                              ----------                              


                       THURSDAY, OCTOBER 3, 2002

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:30 a.m., in 
room 2247, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Morella, Shays, Horn, Ose, 
Duncan, Waxman, Maloney, Norton, Cummings, Kucinich, Clay, and 
Kerns.
    Staff present: Kevin Binger, staff director; Daniel R. 
Moll, deputy staff director; James C. Wilson, chief counsel; 
David A. Kass, deputy chief counsel; Pablo Carrillo and Jason 
Foster, counsels; Scott Feeney, Caroline Katzin, and Gil 
Macklin, professional staff members; Blain Rethmeier, 
communications director; Allyson Blandford, assistant to chief 
counsel; Robert A. Briggs, chief clerk; Robin Butler, office 
manager; Joshua E. Gillespie, deputy chief clerk; Michael 
Layman, legislative assistant; Nicholis Mutton, deputy 
communications director; Leneal Scott, computer systems 
manager; Corinne Zaccagnini, systems administrator; T.J. 
Lightle, systems administrative assistant; Sarah Despres, 
minority counsel; Ellen Rayner, minority chief clerk; and Jean 
Gosa and Earley Green, minority assistant clerk.
    Mr. Burton. First of all, I want to ask you to excuse me 
for not wearing my coat, but I am dying from the heat from 
running back and forth to the House Chamber. And I have asked 
them to turn the air down a little bit, so if anybody gets too 
cold raise your hand. I am dying.
    A quorum being present, the Committee on Government Reform 
will come to order, and I assume that others Members will be 
here. One of the things that we are going to have to do if I 
don't have another Member or two here, we are going to have 
votes on the war resolution on the Committee on Foreign Affairs 
and I will probably have to excuse myself to run and cast a few 
votes on that. So we will just be prepared for it.
    This is day 2 of our hearing on Saudi Arabian child 
abduction cases. Yesterday's hearing was one of the toughest, 
most emotional hearings that I have ever had to sit through. It 
was almost unbearable to sit here and listen to four parents 
whose children were snatched away from them. It was heart 
wrenching to hear how much these parents love their kids and 
how they have been kept from seeing them for years.
    When I think about the fact that in many cases these Saudi 
men violated U.S. court orders when they took these children 
from their mothers, I get angry. And when I think about the 
fact that the Saudi Government was complicit in some of these 
kidnappings, I get even angrier.
    The story of Joanna Stephenson Tonetti is a good example. 
She and her Saudi husband were divorced in 1997. She got sole 
custody of their three children. Two years ago her husband 
asked for an unsupervised visit. The judge agreed, but only if 
the husband promised not to leave the country with the kids. He 
promised. The judge sent a copy of the custody orders to the 
Saudi embassy to make sure that they wouldn't issue passports 
or visas to the children if the husband did not keep his 
promise. Well, as soon as he got the kids he took them straight 
to the embassy, and the embassy gave him passports and visas 
and off they went to Saudi Arabia. Until 2 months ago, Joanna 
hadn't been able to speak to her children in 2 years. The Saudi 
Government was complicit in that kidnapping. An arrest warrant 
has been issued for that man and the Saudi Government is 
protecting him. And yesterday, she was asked by Senator Bayh if 
she wanted to come over and she did come over there yesterday. 
She asked me to go with her, and the Saudi Government 
representative that was there said that he would not meet with 
her if I was in the meeting. That is not a good sign.
    On September 12, Prince Bandar wrote a letter to the editor 
of the Wall Street Journal. The very first paragraph, here's 
what he said. ``some have charged that Saudi Arabia is holding 
Americans against their will. This is absolutely not true.''
    After yesterday's hearing we know that his statement is 
false. He lied. And after being in Saudi Arabia with five of my 
colleagues, both Republicans and Democrats as well as 
Independents, we all know that's not true, because we talked to 
women who are being held against their will and their children 
as well.
    We asked Debra Docekal, her son, Ramie, Ramie was one of 
the fortunate few. He got out. For 14 years he was separated 
from his mother in a country where he didn't want to live. Two 
months ago he was finally allowed to leave. But the sad part is 
he had to leave his 15-year-old sister behind. Yesterday he 
told us in no uncertain terms that she wants to return to the 
United States.
    We heard from Sam Seramur's daughter, Maha. She saw the 
amazing--we saw the amazing videotape of her escape in 
Malaysia. Maha testified about the terrible situation that 
American kids endure in Saudi Arabia and once again I want to 
play a short segment of that, of her testimony.
    [Videotape played.]
    Mr. Burton. When we were in Saudi Arabia in August we saw 
with our own eyes that Americans there were living in fear. We 
met with women who were desperate to get out, but they were 
terrified of being beaten or killed by their husbands if they 
said anything or if their husbands found out that they met with 
us. So when Prince Bandar said there are no Americans being 
held against their will in Saudi Arabia, we know that he lied. 
We heard firsthand testimony yesterday from six families, and 
that is just a fraction of the cases.
    As I said yesterday, when I first got involved in the 
issue, all I wanted to do was help a few mothers be reunited 
with their kidnapped kids. I hoped that the Saudi Government 
would work with us. That hasn't happened. In public they say 
and do all the right things, but behind the scenes they've done 
everything they could to undermine our efforts. When I was 
meeting with the Foreign Minister, Prince Saud, in Saudi 
Arabia, I asked if my staff could sit down with his staff and 
talk about the details of the cases. He said no, and I couldn't 
believe it. He said it should be done on a diplomatic basis. He 
didn't want our lawyers talking to theirs. I don't know what he 
was hiding.
    They concocted a story that I tried to bribe Amjad Radwan 
with $1 million if she'd come back to the United States, which 
is just nonsense. But they said she was free to go at any time 
she wanted. But when I met with her, I could see there were 
tears in her eyes. I couldn't see the rest of her because she 
was wearing one of those abayas and her hands were trembling 
and she was afraid. I think she was terrified.
    We've been hearing for weeks that the Saudis have a list of 
Saudi children who have been kidnapped to the United States. 
That would be a pretty effective PR device if it was true. 
Yesterday we finally got a copy of the list, and it's just 
nonsense. There were four names on the list. One was not any 
kind of a kidnapping suspect. The first name on the list was 
Dria Davis who's testified that she got out because she wanted 
to get out and she had--they had to figure out a way to smuggle 
her out. She was held against her will in Saudi Arabia for 
years before she escaped. She's an American citizen. She 
testified in June. She said she'd rather die than go back to 
Saudi Arabia, and I'd like for you to listen to her tape. This 
is one of the people they said we kidnapped.
    [Videotape played.]
    Mr. Burton. Now, the Saudis say that woman was kidnapped 
and brought to America. Her grandmother had to sell her house 
to get $200,000 so that they could help rescue her from that 
place. But the Saudis are telling the world that's a 
kidnapping. We are not the only ones. Two of President 
Clinton's top anti-terrorism aides--once again we are getting 
disinformation from the Saudi Government and we are not the 
only ones. Two of President Clinton's top anti-terrorism aides 
just wrote a book. They said that Prince Bandar, who's lied to 
the media and to this committee through the media, they said 
that Prince Bandar, the Saudi Ambassador to the United States, 
repeatedly lied to the Director of FBI about the Khobar Tower 
bombing. This isn't the Republican administration. This is the 
previous administration. And their Ambassador to the United 
States lied to the FBI in this country about that bombing. 
Nineteen American servicemen died in the terrorist attack and 
the Saudi Ambassador misled us. Now, with these kidnapping 
cases we have been given misinformation again and that's not 
acceptable.
    We invited the Saudi embassy spokesman Adel al-Jubeir to 
come and testify today. Yesterday we heard from five mothers 
and one father. Today we wanted to give the Saudis a chance to 
give us their side of the story. In fact, when al-Jubeir spoke 
to 60 Minutes, he complained that we had not invited him to our 
first hearing. But he refused to testify. So we subpoenaed 
their top lobbyist, Michael Petruzzello. He's been called the 
leader of the Saudi efforts to deal with our committee. Mr. 
Petruzzello is the head of Qorvis Communications. His firm is 
paid more than $200,000 a month to represent the Saudis.
    One point--let's see. How much is that? $200,000 a month. 
That's $1.4 million a year. We have a lot of questions for Mr. 
Petruzzello. I'd like to know if he agrees with Prince Bandar's 
statements that no Americans are being held against their will 
in Saudi Arabia. And I'd like to know what their position is on 
each of the cases that we've heard about today. And I would 
like to know why the Saudi Government is harboring men who have 
abducted their children when arrest warrants have been issued 
here in the United States. They violated U.S. court orders. I'd 
like to know why Pat Roush's daughters were sent to London to 
meet with strangers instead of to California to meet with their 
mother. I'd like to know if he believes in his heart that a 
Saudi woman can really say what she thinks if her father or 
husband disagrees.
    I think these are fair questions, and I think these 
families that are here today deserve answers. We're also going 
to hear from two State Department officials. For a long time 
the State Department didn't want to deal with that issue. 
However, I think that's starting to change.
    Twelve years ago when Monica Stowers gathered up her 
children and took them to the U.S. Embassy, they were ordered 
out and removed by Marine guards. She was arrested. Her 12-
year-old daughter--her daughter was 12 at the time, right? A 
little before that. Was she the one that was married off? She 
was married off at age 12 as a reprisal, I guess, against the 
kids going to the embassy and the mother was arrested.
    This year when Sam Seramur got her daughter in Malaysia and 
took her to the U.S. Embassy, they helped her in Kuala Lumpur. 
They took them in and got them home to the United States and I 
want to--and she said that our Ambassador in Kuala Lumpur was 
extremely helpful and our Ambassador deserves credit for that, 
and I also want to thank Colin Powell, our Secretary of State 
for helping get that lady back to the United States. When we 
were in Riyadh, Ambassador Jordan pledged that never again 
would a citizen of the United States who needed help be turned 
away, and I applaud that. When I met with Secretary of State 
Powell in September, he told me they're going to work very hard 
to keep this issue on the front burner. I think that's very 
positive.
    So I'd like to hear from our witnesses today what's going 
to be done by the State Department as we move forward to help 
get these cases resolved. And finally I've invited one of our 
former U.S. Ambassadors to Saudi Arabia, Ray Mabus. It seems 
like Ambassador Mabus was one of the few State Department 
officials who really pushed the Saudis to return kidnapped 
children. When Pat Roush's ex-husband refused to return their 
daughters, Ambassador Mabus stopped approving visas for his 
extended family. That caused a lot of problems for that family 
and it almost worked. Unfortunately, when Ambassador Mabus 
left, his successor, Wyche Fowler, discontinued that policy. 
Now his successor has been on TV supporting the Saudis. I can 
only wonder if he has been funded by the Saudi Government.
    It's been reported in the press that some of our former 
Ambassadors to Riyadh have gone to work for the Saudis and make 
a lot of money. Listen to this quote that was attributed to 
Prince Bandar in the Washington Post. ``If the reputation 
builds that the Saudis take care of friends when they leave 
office you would be surprised how much better friends you have 
who are just coming into office.'' And I think that's the real 
problem. Ambassadors are supposed to be working for the 
American people, not foreign interests. I think this area needs 
a lot more scrutiny.
    I want to thank Ambassador Mabus for being here today. I 
think he deserves our thanks for his efforts while he was in 
Riyadh, and I will be interested in hearing what he thinks we 
can do from here on out to resolve these cases.
    And with that I yield to my colleague, Mr. Waxman.
    [The prepared statement of Hon. Dan Burton follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Waxman. Thank you, Mr. Chairman. These are valuable 
hearings that you are holding that remind us that there are 
fundamental differences between democratic governments like 
ours and Saudi Arabia. The United States is a pluralistic 
democracy where religious freedoms are not only tolerated, they 
are encouraged. American laws do not differentiate between 
genders, religions, races or ethnicities. People in the United 
States enjoy freedom of speech and the right to travel. These 
are not just American values. They are basic human rights 
espoused by many countries around the world.
    Saudi Arabia, on the other hand, is a theocracy. There is 
no public participation in government. Religious freedom is 
prohibited, and there is no freedom of speech or assembly. Men 
and women are treated very differently by Saudi law. Women do 
not have the same educational opportunities as men. They cannot 
be admitted to a hospital without the permission of their 
nearest male relative. Women cannot drive and they cannot 
associate freely with men in public. Women cannot travel 
without permission from their fathers or their husbands.
    These hearings have focused in particular on an aspect of 
Saudi Arabia that directly affects American parents: How 
Americans who divorce their Saudi spouses can essentially be 
denied the right to be a part of their children's lives. The 
committee has heard compelling testimony from women who have 
not had contact with their children in years because the Saudi 
fathers would not grant them permission to come to Saudi 
Arabia. We have also heard testimony from women who were forced 
to take extreme measures, such as orchestrating a rescue or 
living under discriminatory conditions in Saudi Arabia, to have 
any contact with their children. And we have even heard from a 
man, Michael Rives, who was denied contact with his children 
after his ex-wife kidnapped their children to Saudi Arabia.
    One key question that I hope we will be able to explore 
today is to what extent is the Saudi Government complicit in 
keeping these families apart. There appears to be significant 
evidence of Saudi Government involvement. For example, the 
committee heard yesterday from two witnesses who, fearing that 
their husbands would violate American court orders giving them 
custody of their children, made the Saudi Government aware that 
their children were not to be taken out of the country. 
Nonetheless, in both of these cases the Saudi Government 
allowed these men and their children to travel to Saudi Arabia 
in violation of American law.
    I recognize that Michael Petruzzello, who has been 
subpoenaed here today, is not an official in the Saudi 
Government, but he has been hired as a public relations 
specialist by the Saudis to present their case to the American 
public. I hope he will be able to answer some of these 
questions.
    We have also heard complaints about the role our own 
government has played in these cases. I am glad that we will 
have witnesses from the State Department here today so that we 
will be able to inquire whether the U.S. Government has done 
everything that it could.
    In closing, let me thank the chairman for holding this 
hearing and tell the witnesses that I look forward to their 
testimony. Even though other business will require me to be out 
of the hearing room, I will have a chance to review their 
testimony and the record, which we will be able to share with 
all of our colleagues.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Waxman. The gentleman from 
California.
    Mr. Ose. Thank you, Mr. Chairman. I appreciate the 
opportunity to visit and attend this hearing today. This is a 
followup to a June 12 hearing. My particular interest, and for 
which I am grateful for you calling this, is we asked a number 
of questions at the June 12 hearing of State Department and we 
have had some written answers. In the time that you are going 
to allot to me we're going to go through those responses one by 
one and clarify them. I'm looking forward to that exchange. I 
am particularly interested in the list of child custody and 
U.S. citizen departure cases that is appended to the responses 
from the State Department. I'm just giving the State 
Department's person just a heads up. We're going through this 
one by one.
    So I thank you for doing this.
    Mr. Burton. OK, Mr. Ose.
    Mr. Horn.
    Mr. Horn. Mr. Chairman, I'm delighted that you took a sort 
of very important step with this, because this happens all over 
the world. But it happens and it shouldn't happen, and the 
Saudis should know what the outside world thinks, and I'm sure 
that women in Saudi Arabia are not too pleased with that 
policy, and so are we.
    So thank you.
    Mr. Burton. Thank you, Mr. Horn. Would the witnesses please 
rise so we can have you sworn?
    [Witnesses sworn.]
    Mr. Burton. I have been told that the witnesses we had 
before us yesterday don't have an opening statement, so Mr. 
Petruzzello, we will let you go ahead and start.

  STATEMENTS OF MICHAEL PETRUZZELLO, MANAGING PARTNER, QORVIS 
  COMMUNICATIONS, PUBLIC RELATIONS FIRM FOR THE GOVERNMENT OF 
 SAUDI ARABIA; MICHAEL RIVES, FATHER OF LILLY AND SAMI RIVES; 
  MAUREEN DABBAGH, MOTHER OF NADIA DABBAGH; MARGARET McCLAIN, 
MOTHER OF HEIDI AL-OMARY; AND JOANNA STEPHENSON TONETTI, MOTHER 
           OF ROSEMARY, SARAH, AND ABDULAZIZ AL-ARIFI

    Mr. Petruzzello. Thank you, Mr. Chairman, members of the 
committee. My name is Michael Petruzzello. I am the Managing 
Partner of Qorvis Communications, an outside communications 
firm for the Saudi Embassy in Washington. I'm here today in 
response to the committee subpoena.
    Let me take a moment to explain the role of Qorvis 
Communications. We were hired late last year to assist the 
Saudi Embassy on media and communications matters in the United 
States. The vast majority of our communications work is related 
to bilateral U.S.-Saudi relations and the war on terrorism. We 
do not set policy or implement policy. We are a facilitator for 
media and public relations.
    On the issue before the committee today we have helped the 
embassy prepare materials and respond to information requests 
such as requests for interviews of embassy officials.
    As I indicated, I am here in response to the committee's 
subpoena. I am not here as a representative of the embassy or 
to speak on its behalf in connection with the matter before the 
committee. Within that framework I will answer any questions 
the committee may have.
    [The prepared statement of Mr. Petruzzello follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Burton. Thank you. Mr. Cummings, did you have an 
opening statement?
    Let me start off by saying that the reason we asked you to 
be here and issued a subpoena was because on television on 60 
Minutes one of the representatives of the Saudi Government 
speaking for, I presume, the embassy and Prince Bandar stated 
that they weren't invited to testify before this committee. We 
corrected that by inviting them and they chose not to come 
because I don't think they really wanted to be asked questions 
about these things. So we felt like you as their representative 
would probably be the only one that we could get here. Did 
you--Mr. Petruzzello.
    Mr. Petruzzello. Petruzzello.
    Mr. Burton. Petruzzello. Mr. Petruzzello, did you or your 
firm help draft Prince Bandar's letter to the Wall Street 
Journal, the letter that said, ``Some have charged that Saudia 
Arabia is holding Americans against their will, and this is 
absolutely not true''?
    Mr. Petruzzello. Mr. Chairman, I believe we provided some 
early drafts and talking points for that letter.
    Mr. Burton. So you did help draft that?
    Mr. Petruzzello. Yes, sir.
    Mr. Burton. Do you really believe that statement?
    Mr. Petruzzello. Mr. Chairman, it is the position and 
statement of the Government of Saudi Arabia.
    Mr. Burton. But you helped draft it?
    Mr. Petruzzello. Yes, sir.
    Mr. Burton. And if you drafted it, it says, ``Some have 
charged that Saudi Arabia is holding Americans against their 
will. This is absolutely not true.'' Since you helped draft it, 
don't you think that you ought to know whether or not that's 
true? Do you think they are not holding Americans against their 
will over there?
    Mr. Petruzzello. Mr. Chairman, that is the position that 
Saudi Arabia has publicly stated. I really don't have anything 
more to add to that.
    Mr. Burton. Do you believe that they're not holding people 
against their will over there?
    Mr. Petruzzello. Mr. Chairman, these are very complex legal 
matters and matters of international law, which I really don't 
have a full grasp of, so I really can't comment any further on 
that.
    Mr. Burton. You saw the testimony of some of these young 
ladies over here who have escaped from Saudi Arabia. Do you 
think they lied?
    Mr. Petruzzello. I don't have any reason to believe they 
lied. No, sir.
    Mr. Burton. And you get $200,000 a month from the Saudi 
Government.
    Mr. Petruzzello. That's correct.
    Mr. Burton. Did you watch any of yesterday's hearing?
    Mr. Petruzzello. No, sir, I did not.
    Mr. Burton. Did you get a briefing about our hearing?
    Mr. Petruzzello. No, sir, I did not.
    Mr. Burton. How can you really speak honestly about this 
issue if you didn't pay any attention to what we talked about 
yesterday?
    Mr. Petruzzello. Mr. Chairman.
    Mr. Burton. You knew you were going to testify today, 
didn't you?
    Mr. Petruzzello. Mr. Chairman, I am not a spokesperson for 
the Saudi Government. But I'm here to respond to any questions 
of me you have.
    Mr. Burton. You're not a spokesman for the government and 
yet you helped draft this letter that said some have charged 
that Saudi Arabia is holding Americans against their will and 
it's not true. It's absolutely not true. You helped draft that 
letter.
    Mr. Petruzzello. I helped draft it, yes.
    Mr. Burton. Do you think these people here who have their 
kids in Saudi Arabia that have been kidnapped by their fathers 
and in violation of court orders, do you think that they should 
have their children returned to them?
    Mr. Petruzzello. Mr. Chairman, you know, I believe the King 
of Saudi Arabia has stated publicly a desire to work 
constructively with the U.S. Government to help resolve these 
cases and I do not--I do not have information on any of the 
individual cases nor do I understand the legal ins and outs of 
them. But I do, you know, I can only state what the government 
has said publicly.
    Mr. Burton. Well, you have children, don't you?
    Mr. Petruzzello. I have a son.
    Mr. Burton. How old is your boy?
    Mr. Petruzzello. He's 6 years old.
    Mr. Burton. Do you think an American child, that American 
citizens who have been kidnapped from the United States and 
taken to Saudi Arabia enjoy the same rights that your kids do?
    Mr. Petruzzello. I'm sorry, I didn't understand the 
question.
    Mr. Burton. Do you think the kids who have been kidnapped 
from the United States, children of these people who have been 
kidnapped from the United States and taken to Saudi Arabia, do 
you think those children enjoy the same human rights that your 
boy does?
    Mr. Petruzzello. You know, it's my understanding that the 
laws and customs of Saudi Arabia are different than our own.
    Mr. Burton. I'm not sure I understand what you mean by 
that. Their customs are different than our own. Tying a boy up 
and beating him, does that sound like something that's just a 
different custom?
    Mr. Petruzzello. Mr. Chairman, I would say tying up a boy 
and beating him would be wrong in any country.
    Mr. Burton. Well, you ought to check out that place over 
there. I was in a--for your information, I was in a meeting 
with a woman who didn't have her head completely covered with 
her abaya and the religious police came in and threatened to 
arrest those of us in that meeting just because her head wasn't 
covered. If a woman has her ankles uncovered, they beat her 
ankles with a whip, and if they don't obey the law, they put 
the Koran under the arm and they can beat you up to 40 times 
with a whip and in some cases they can whip you up to 8,000 
times. Of course they don't do that all at once. They spread it 
out over a few weeks. You can choose to do that.
    Does that sound like human rights?
    Let me just say this to the mothers that are here. Do you 
think the children who have been taken from you have the same 
rights that Mr. Petruzzello's son has? How about you, Ms. 
Tonetti?
    Ms. Tonetti. No, they don't. No, my children have no 
rights.
    Mr. Burton. How about you, Ms. McClain?
    Ms. McClain. My daughter does not have any human rights or 
any constitutional rights in the Kingdom of Saudi Arabia.
    Mr. Burton. And she's a citizen of the United States?
    Ms. McClain. Yes, sir, she is.
    Mr. Burton. How about you, Mr. Rives?
    Mr. Rives. No, sir, not my daughter, and if he looks at a 
picture of my son----
    Mr. Burton. Can you turn the mic on? We can't hear you, 
sir.
    Mr. Rives. Certainly my daughter does not have any rights 
to freedom as we as Americans have. And if he, Mr. Petruzzello, 
could look over there at my blonde headed boy over there and if 
you don't think he is going to be discriminated against with 
the current resentment against Americans in Saudi Arabia, I'm 
sure you wouldn't want your American son over there.
    Mr. Burton. How about you, Ms. Dabbagh?
    Ms. Dabbagh. My daughter has no rights or protections in 
Saudi Arabia.
    Mr. Burton. Prince Saud told us when we were in Saudi 
Arabia that this country does not recognize U.S. law in 
situations that apply to families and children. Do you think 
that Saudi should recognize U.S. law when a court makes a 
decision? Do you think they should recognize our laws?
    Mr. Petruzzello. Mr. Chairman, again, I'm no expert in 
international law or the recognition of law of one country to 
another. So I wouldn't know how to comment on that.
    Mr. Burton. Is it true that no U.S. citizen is being held 
against their will in Saudi Arabia? What do you think about 
that?
    Mr. Petruzzello. You know, I--Mr. Chairman, I'll just 
restate that is the position of the Saudi Government, and I 
have nothing more to add to that.
    Mr. Burton. Before our hearings and our trip to Saudi 
Arabia, we were told in no uncertain terms that Amjad Radwan, 
an adult American woman, could not be allowed to leave Saudi 
Arabia without the permission of her father. But when we got to 
Saudi Arabia, Prince Saud said that any adult American woman 
can leave if she wants. Doesn't that prove that the Saudi royal 
family can change their policy if they want to?
    Mr. Petruzzello. Could you restate the question, please?
    Mr. Burton. When we were there, we were told that in very 
clear terms that no--no woman could leave Saudi Arabia, no 
child, no female, could leave without the permission of her 
father. But when we got there, as far as Amjad Radwan was 
concerned, Prince Saud, the Foreign Minister, said that any 
adult American woman could leave if she wants to. Now, doesn't 
that prove that the Saudi royal family can change that policy 
if they want to?
    Mr. Petruzzello. I'm not familiar with the statement of 
Prince Saud. You know, what I would say is that the--Saudi 
Arabia is working diligently and trying to find resolutions to 
this issue.
    Mr. Burton. Well, doesn't this flip-flop show that the 
argument that you kept advancing about how the royal families 
hands are tied by the laws of Islam is just a red herring?
    Mr. Petruzzello. Mr. Chairman, what the government has said 
is that they are--take this issue very seriously and are 
working to try and resolve individual cases and that there are 
complexities between United States and Saudi law, that they 
feel that new mechanisms are needed to help resolve these cases 
more quickly. And as I understand, they have proposed to the 
State Department a formation of an international protocol to 
address that.
    Mr. Burton. Well, my time has expired. I am going to have 
to yield to my colleagues, but let me just say this. American 
citizens that have been kidnapped in violation of American law, 
with the help of the Saudi Government, shows very clearly that 
they do not recognize American law. Prince Saud told me they 
don't recognize U.S. law. They recognize only Saudi law, and 
that has to be changed. And we're going to continue to push on 
this, even though you and others are paid exorbitant amounts of 
money by the Saudi Government to represent them and to try to 
make them look good.
    In my district and here in Washington, and I don't know if 
it's throughout the country, this past week or 2 weeks since we 
held our first hearing I have seen tremendous numbers of 
commercials talking about what great allies and friends the 
Saudis are. And I'm sure your firm had a lot to do with placing 
those ads. Putting them in my district isn't going to influence 
me. So you can save your money. Don't spend any more of the 
Saudis' money in Indiana because I'm going to continue to have 
these hearings as long as I'm in the Congress until they change 
their policies.
    And with that, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. I just 
want to just ask a few questions. Your role--do you provide 
advice to the Government of Saudi Arabia?
    Mr. Petruzzello. My role and the role of my firm is to act 
as a facilitator for the embassy, to provide information to the 
media and to the public.
    Mr. Cummings. And you said that you--but you personally, 
are you involved, you, yourself, not just your firm? I'm 
talking about you.
    Mr. Petruzzello. Yes, sir, I am personally involved.
    Mr. Cummings. And you said--I was just reading and you were 
involved in the writing of the letter, is that right? The 
letter that Mr. Burton, Chairman Burton referred to.
    Mr. Petruzzello. Yes.
    Mr. Cummings. There's a part of the letter that I was just 
curious about and it's very interesting and, since you were 
part of it, I guess you might be able to explain it. It says, 
``Many things have been attributed to the visit,'' meaning 
Chairman Burton's visit, ``of the congressional delegation led 
by Representative Burton that do not reflect what was actually 
discussed during the visit. We are frankly surprised that the 
delegation itself has not clarified thus far what was 
attributed to it.''
    Can you explain that paragraph? What that means and what 
you're talking about?
    Mr. Petruzzello. Congressman, I'm not familiar with what 
Prince Bandar meant specifically in that paragraph. I, you 
know, I guess, you know, what the Saudis have said in other 
forums is that they feel that they haven't had their views 
fully expressed and want to enter a more constructive dialog 
with this committee and with the U.S. Government to try and 
seek solutions to this issue.
    Mr. Cummings. And when this letter was put together, was 
this a team effort? And who did you communicate with? I mean, 
who helped you--who did you help write this letter?
    Mr. Petruzzello. Congressman, we provide some talking 
points to the embassy, but, you know, the letter itself is a 
product of the embassy and the embassy staff and Prince Bandar.
    Mr. Cummings. All right. Now, it talks here about--it says 
``My government is also seeking solutions to these cases, and 
we have requested the assistance of the U.S. Government in this 
matter,'' talking about the 10 cases that you all claim are 
still outstanding. Are we--are you getting the kind of 
cooperation that you need with regard to the United States?
    Mr. Petruzzello. Congressman, I'm not involved in the 
individual cases or the efforts to find solutions to the cases. 
I think that question would probably be best directed to the 
embassy and the State Department.
    Mr. Cummings. OK. Is there someone who has more information 
than you had, because you're not being very helpful this 
morning, to be very frank with you, is there someone in your 
firm that knows more than you or somebody who we could subpoena 
and get in here?
    Mr. Petruzzello. Congressman, not in my firm. You know, 
again to restate, our role is media relations, communications. 
We're not attorneys and we're not involved in the legal 
proceedings that people within the embassy and within the 
foreign ministry have that specific information and I----
    Mr. Cummings. Did you have a conversation with anyone 
before coming here from the embassy, I mean, anyone at the 
embassy before coming here today?
    Mr. Petruzzello. Congressman, I informed the embassy that I 
was subpoenaed to testify, but I have had no further 
conversation with them about this.
    Mr. Cummings. And who did you tell that to?
    Mr. Petruzzello. I informed Adel al-Jubeir, who is the 
Foreign Policy Advisor to the Crown Prince.
    Mr. Cummings. And that was the end of the conversation; 
I've been subpoenaed and I'm going in, and that was it? He said 
OK?
    Mr. Petruzzello. That's it, yes.
    Mr. Cummings. Nobody asked you what you were going to be 
talking about?
    Mr. Petruzzello. I was given no instruction by the embassy.
    Mr. Cummings. Now, can you just tell us what you all do for 
this $200,000 a month?
    Mr. Petruzzello. We help the embassy develop information 
materials or respond to media requests. Congressman, the vast 
majority of our work has to do with questions about U.S.-Saudi 
relations, questions regarding the war on terrorism and 
questions regarding, you know, our national interests in Iraq. 
You know, most--that's where--there's been a lot of questions 
since last year when we were hired and that's really where our 
work is largely focused on.
    Mr. Cummings. So you would say, I guess, based upon what 
you have said so far, you would have--your firm would have no 
real influence on trying to bring these cases to some type of 
conclusion; in other words, you don't--you just sort of--you're 
just sort of a mouthpiece?
    Mr. Petruzzello. Congressman, I'm not a spokesperson for 
the Saudi Government. But to answer your question, no, we're 
not involved in the resolution of cases.
    Mr. Cummings. All right. Thank you very much, Mr. Chairman.
    Mr. Ose [presiding]. Thank you, Mr. Cummings.
    Mr. Petruzzello, I want to go through a couple of things. 
Were you aware that Chairman Burton and a number of Members 
were headed to Saudi Arabia in August? Were you aware of that 
trip?
    Mr. Petruzzello. Yes, I was aware of that.
    Mr. Ose. The question was whether or not Mr. Petruzzello 
was aware of the trip that Chairman Burton and others took to 
Saudi. Did you discuss Chairman Burton's delegation trip to 
Saudi Arabia with any members of the Saudi embassy?
    Mr. Petruzzello. Congressman, yes, I did.
    Mr. Ose. Who?
    Mr. Petruzzello. We had discussions about the trip with 
Nail al-Jubeir, who is the Director, Deputy Director of the 
Information Office.
    Mr. Ose. Only him?
    Mr. Petruzzello. At the embassy, yes.
    Mr. Ose. Anybody else besides Mr. Jubeir at the embassy?
    Mr. Petruzzello. No, not at the embassy.
    Mr. Ose. Anybody else outside the embassy?
    Mr. Petruzzello. Outside the embassy would be Adel al-
Jubeir, who is the Foreign Policy Advisor to the Crown Prince.
    Mr. Ose. Now is the Foreign Policy Advisor of the Crown 
Prince based at the embassy?
    Mr. Petruzzello. No, he's part of the royal court in 
Riyadh.
    Mr. Ose. OK, so you called him on the phone or something?
    Mr. Petruzzello. Yes, and he is occasionally here in 
Washington.
    Mr. Ose. Now, you're the Managing General Partner of 
Qorvis?
    Mr. Petruzzello. Managing Partner of Qorvis Communications.
    Mr. Ose. All right. And the Saudis pay you $200,000 a month 
to assist them in their communications here in the United 
States?
    Mr. Petruzzello. Yes, sir, that's correct.
    Mr. Ose. OK. You answer in the affirmative that you were 
aware of Chairman Burton's trip to Saudi Arabia with his 
delegation. Were you aware before Chairman Burton left the 
United States that the al Gheshayan daughters were going to 
London for an interview with--who is the guy? The guy that did 
the interview in London. O'Reilly?
    Mr. Petruzzello. Mr. Congressman, I'm not sure the exact 
dates of when Mr. Burton left the United States. But I was made 
aware that the al Gheshayan girls were going to London a day or 
two before they arrived in London.
    Mr. Ose. Who advised you of that?
    Mr. Petruzzello. Adel al-Jubeir.
    Mr. Ose. So apparently at some point within the embassy a 
decision was made to have the al Gheshayan girls go to London 
for the purpose of the interview?
    Mr. Petruzzello. Uhm----
    Mr. Ose. And you were so advised?
    Mr. Petruzzello. Congressman, it was my understanding that 
the trip to London was inspired by Adel al-Jubeir's appearance 
on the Fox O'Reilly Show some weeks before where he made a 
commitment to work to have the girls meet with the U.S. 
Government officials and the media outside of Saudi Arabia.
    Mr. Ose. That's a remarkable coincidence. Now, you knew 
that the congressional delegation was going to Saudi Arabia. 
Did you know the purpose of their visit?
    Mr. Petruzzello. Yes, sir, I did.
    Mr. Ose. And what was, in your understanding, what was the 
purpose of that visit?
    Mr. Petruzzello. As I understand it, it was to meet with 
the Saudi Government officials to discuss the issue before the 
committee today as well as other issues of mutual interest to 
the United States and Saudi Arabia.
    Mr. Ose. Were you aware that the delegation's specific 
interest was to arrange visits between the kidnapping victims 
and their left behind parents?
    Mr. Petruzzello. No, Congressman. It was actually, I think, 
the understanding of the Government of Saudi Arabia that 
meetings with the individual families was not part of the 
delegation's agenda.
    Mr. Ose. Is there anybody here that you recognize in the 
audience that's otherwise here on behalf of the Saudi Arabian 
Government?
    Mr. Petruzzello. People who represent----
    Mr. Ose. Just take a look around here.
    Mr. Petruzzello [continuing]. Who represent, like outside 
counsel?
    Mr. Ose. Yes.
    Mr. Petruzzello. Yes, these two, three gentlemen right 
behind in the one, two, three, fourth row behind me.
    Mr. Ose. OK. Now, the visit to London with the al Gheshayan 
girls, who made the decision to have those women transported 
from Saudi Arabia to London, remarkably coincident to the 
arrival of Chairman Burton's delegation in Saudi Arabia?
    Mr. Petruzzello. Congressman, I don't know who specifically 
made that decision.
    Mr. Ose. All right. I'm going to recognize the gentleman 
from California, Mr. Horn, for 5 minutes.
    Mr. Horn. I came in a little late, but I don't know if 
we've covered this on the facts of the various cases. And do 
you think the Saudi Government has helped some of the Saudi 
parents kidnap their U.S. citizen children?
    Mr. Petruzzello. I'm sorry, sir. I couldn't--I could not 
hear the question.
    Mr. Horn. Well, based on your review of the facts of the 
various cases, do you think the Saudi Government has helped 
some of the Saudi parents kidnap their U.S. citizen children?
    Mr. Petruzzello. Congressman, before I answer that 
question, I just want to go back to the Congressman's previous 
question just to clarify, if I misunderstood, that if he asked 
if there were representatives from the Saudi Government, the 
embassy here. There isn't anyone from the embassy staff that is 
here today.
    But to address your question, sir, I have not reviewed in 
detail any of the specifics of any of the individual cases. 
And--but what I say is what the Saudi Government has said 
publicly, is that they are looking for a more constructive 
dialog with the U.S. Government. They believe that more 
mechanisms are needed to bridge the gap between United States 
and Saudi law and have--and are working to propose and work 
with the State Department to develop those mechanisms.
    Mr. Horn. You have been asked a couple of times as to what 
the embassy thought of all this. And I guess I would ask, did 
anything--did you have any relationships with the American 
embassy on this--these cases?
    Mr. Petruzzello. No, Congressman, I've never spoken to the 
American embassy about these cases.
    Mr. Horn. You haven't. Well, I would like to hear from the 
mothers and the children. And did you work with the American 
embassy, and what kind of help did they give, if any? So can we 
just start from the bottom here of those who did any working 
with the embassy? Is that Ms. Dabbagh?
    Ms. Dabbagh. I asked--I made many requests to the American 
embassy in Riyadh, Saudi Arabia for assistance in doing what is 
called a welfare and whereabouts check in which an attempt is 
made to locate the child as well as try to visit with her. They 
have numerous times spoken with my ex-husband. They know where 
he works. My ex-husband tells the diplomatic staff, no, you 
can't see her. Then I'm called and said, oh, well, he won't let 
us see her. There's nothing we can do.
    Other attempts working through the U.S. embassy in Riyadh, 
Saudi Arabia have included determining when she leaves the 
country, when she reenters the country.
    Mr. Horn. Well, I am just interested in----
    Ms. Dabbagh. Yeah. That's about it. But nothing has ever 
happened.
    Mr. Horn. Mr. Rives, what kind of help did you get from the 
American embassy?
    Mr. Rives. Help from the American embassy?
    Mr. Horn. Yes. In Saudi Arabia.
    Mr. Rives. I got the same thing, whereabouts and welfare 
visits. Also I have asked the U.S. Embassy how according to 
worldwide Web site for Saudi Arabia it says that you cannot 
have a visa for Saudi Arabia unless you have a valid passport 
for at least 6 months. And my daughter's American passport 
which she entered in expires January the 9, 2003, so I was 
wondering why my child was not returned July 10th of this year. 
I mean that's the visa requirements there.
    Also I have asked the U.S. embassy how the Saudi Government 
took away my children's American passports. This has more to do 
with U.S.-Saudi relations, which you said that were the area of 
your expertise, as opposed to custody issues. So also I've 
asked the U.S. embassy how come I cannot get the passport 
numbers and also the State Department has not been able to get 
passport numbers of the Saudi Arabian passports that were given 
to my kids when they took the American passports away.
    And finally, how can they do anything, and I addressed this 
at the embassy as well. How can the Saudi Government do 
anything since I am their father, without my involvement. And, 
you know, since this is U.S.-Saudi relationship, I was 
wondering if Mr. Petruzzello, you know, knows something about 
that. They published this on the Web about the visa 
requirements, and so forth.
    Thank you.
    Mr. Horn. My--I have only a few minutes. Mrs. Tonetti and 
Mrs. McClain, I'd like to know did the Saudis help kidnap the 
children?
    Ms. McClain. Yes. The Saudi Government did help kidnap my 
daughter. I made them aware in both 1994 and 1995 that she was 
an American citizen, that I had legal custody of her. I sent 
them all the divorce and custody decree documents which my ex-
husband signed and agreed to in a court of law. I also 
contacted the CEO of Saudi Arabian Airlines, which is a 
government airline, that they were not to take my child out of 
the country. And they proceeded to do so anyway.
    Mr. Horn. Well, for the rest of you that's gone through 
there, what did you think of the testimony of Mrs. Tonetti and 
Mrs. McClain, who said the Saudi embassy was warned that their 
Saudi ex-husbands did not have custody of their children but 
that the embassy still helped the kidnappers get children out 
of the country? Do you admit that this has happened?
    Mr. Petruzzello. Congressman, when--in discussing visa 
regulations and requirements and the specifics of these cases, 
it gets well outside of my sphere of expertise. I can only 
comment on the public relations aspect of this. And I could say 
that progress--the Saudis are well aware that progress in this 
area would be helpful to their public relations efforts here.
    Mr. Burton [presiding]. If I might, if the gentleman would 
yield real quickly. Mrs. Tonetti I think had a similar 
experience. Would you like to comment on that with your----
    Ms. Tonetti. Well, it's just the fact that the embassy was 
notified by regular and certified mail that they were not to 
issue passports to my ex-husband, that he did not have legal or 
physical custody, he was not permitted to leave the country 
with them. But they ignored the court order and the divorce 
decree and they went ahead and issued passports. So they were 
accomplices in the kidnapping of three American children.
    Mr. Horn. That's really outrageous. I would notice that, 
Mr. Petruzzello, I don't understand your role because you don't 
seem to understand that it seems to me if I were the public 
relations person for the King of Saudi Arabia, I'd say, King, 
why don't we make some ways of getting these children out of 
the country and the King is absolute and so----
    Mr. Petruzzello. Congressman, I think you know the Saudi 
Government has stated publicly on a number of occasions that 
they want to see these cases find resolution where possible. 
They want to see new mechanisms that will help bridge the gap 
between United States and Saudi law, and they have said they 
are working diligently to do so.
    Mr. Burton. The gentleman's time has expired. Mrs. Morella.
    Mrs. Morella. Thank you, Mr. Chairman. Again I want to 
applaud you not only for this series of hearings but for the 
trip that you took and I thought your appearance on 60 Minutes 
was excellent in terms of defining what the problem is and the 
anguish that all of us feel, and I would say that certainly it 
is an unjust aspect of our relationship with Saudi Arabia that 
U.S. citizens can be held against their will with the full 
blessing of the Saudi Government and often in violation of U.S. 
law. But fortunately, because of Chairman Burton's involvement, 
the Saudi Government has evidently now expressed a desire to 
develop bilateral protocols to enable the State Department and 
the Saudi Government to resolve child abduction cases without 
going through the legal system. And while I welcome any 
discussions that could lead to less acrimony, I certainly have 
doubts about the commitment of Saudi officials, given the 
testimony that I've read from the witnesses that we have today, 
and I find it extremely troubling that Saudi embassy officials 
have knowingly allowed American children to leave the United 
States in direct violation of a court order that they've been 
told about.
    So I can't help but question the commitment and desire of 
Saudi officials to make the necessary concessions that would 
allow for bilateral agreements to be workable. I know we'll 
also hear more about that with the next panel.
    But now, addressing a question to you, Mr. Petruzzello, 
Qorvis Communications played a significant role in the visit of 
the Roush girls to London last month. In fact, I understand a 
Qorvis employee was actually present during at least one of the 
interviews. Did the Qorvis employee meet up with the traveling 
party in Europe or in Saudi Arabia?
    Mr. Petruzzello. The Qorvis employee met with the sisters 
in London.
    Mrs. Morella. In London. Was there only one Qorvis 
employee?
    Mr. Petruzzello. Yes, there was only one.
    Mrs. Morella. Were there any other lobbyists or Americans 
who are helping to advise the Saudis regarding this trip?
    Mr. Petruzzello. No.
    Mrs. Morella. No. There were none. Have the two Roush 
daughters ever been subject to coercion or duress?
    Mr. Petruzzello. Not that I'm aware of. But I wouldn't--I 
have never spoken directly to the sisters.
    Mrs. Morella. So you're just not certain about it. You're 
not certain about it. And were you comfortable----
    Mr. Petruzzello. Congresswoman, let me say that the Saudi 
Government has been very clear in saying that they have never 
coerced the sisters to say or do anything they didn't want to 
do.
    Mrs. Morella. OK. I mean, I guess there's a question of 
credibility or certainty. But this is what you have heard and 
that is what you're saying?
    Mr. Petruzzello. Yes.
    Mrs. Morella. All right. Were you comfortable in playing a 
part in these interviews? Are you comfortable in this whole 
situation? You know, as a father, and, you know, I mean, an 
American.
    Mr. Petruzzello. The answer to your question is that the 
objective of the Saudi Government was to give the al Gheshayan 
sisters an opportunity to meet privately outside of Saudi 
Arabia with the U.S. Government officials and the media to 
discuss their intentions on how and where they want to live 
their lives. And you know, and the Saudi Government felt that 
was a positive step.
    Mrs. Morella. How did you feel about it?
    Mr. Petruzzello. You know, the--you know, I think any 
progress on these cases is good for the families and good for 
U.S.-Saudi relations.
    Mrs. Morella. How do you know that there was no coercion or 
duress when a Qorvis person was not there?
    Mr. Petruzzello. When a Qorvis person was not there?
    Mrs. Morella. Was not there.
    Mr. Petruzzello. The only thing I can add to that is that 
there were no Saudi Government officials with the sisters 
during that time in London.
    Mrs. Morella. We've got all these interruptions occurring 
right now. I'm going to yield to you, Mr. Chairman, to pick up 
on that.
    Mr. Burton. If you would yield to me just briefly.
    Mrs. Morella. Yes, I would like to.
    Mr. Burton. You know, we had two different young ladies 
that testified before our committee, I believe there were two, 
that said that they were questioned in the presence of their 
father about whether or not they wanted to come to the United 
States. One of the young ladies, and I'll be glad to show you 
the tape if you want to see it, said that she did not want to 
come to the States. She wanted to stay in Saudi Arabia, and 
then when she got out she said that her father threatened to 
kill her if she didn't say what he wanted her to. Would you say 
that's coercion if he threatened to kill her if she didn't say 
what he wanted; would you say that's coercion?
    Mr. Petruzzello. I would agree with that, yes.
    Mr. Burton. Now, those women that went to Saudi Arabia, 
their husbands were with them. We believe there was an 
entourage of other Saudi men with them. We don't know if their 
children were with them or not. They may have had the children 
back in Saudi Arabia, which would have been another inducement 
for them to say what was supposed to be said. So how do you 
know that there wasn't any coercion? They had their abayas off 
when they talked to the American embassy people. But when asked 
if they would sign a statement saying that the statements that 
they made could be released to the public, she said, well, we 
can't--we can't sign those. We would have to ask our husbands 
first. Then they put their abayas back on. They went and sat in 
the corner of the room. The husbands came in and looked at the 
documents and said, well, we'll have to give this some thought. 
Do you think maybe there might have been some coercion there? 
Do you think there's any possibility of it?
    Mr. Petruzzello. Uhm----
    Mr. Burton. In view of the fact that this one girl when she 
got out said that my father threatened to kill me if I didn't 
say what I was told to say, do you think maybe there might have 
been a little coercion there?
    Mr. Petruzzello. Mr. Chairman, you know the government has, 
you know, has said that, you know, has been diligent in trying 
to get the al Gheshayan sisters to come to the United States 
because they have been told by the committee, by the media, 
that any interview or meeting with the sisters in Saudi Arabia 
would be suspect.
    Mr. Burton. That's right. So they didn't come to the United 
States. They took them to England when I went with my 
delegation to Saudi Arabia at the very same time, and so they 
took them to England and they did not see their mother. They 
did not come to the United States. They were not unattended by 
other Saudi men. And we're not sure they even had their 
children with them. So we really don't know, do we, whether or 
not they were coerced? I mean, how would you know?
    Mr. Petruzzello. Well, Mr. Chairman, the only thing that I 
can add is that it was our understanding that they have one 
child. The sisters have one child who was with them at the 
time.
    Mr. Burton. Were you there with them?
    Mr. Petruzzello. No, I was not, sir.
    Mr. Burton. So who on your staff was there?
    Mr. Petruzzello. Her name is Sharene Sojeir.
    Mr. Burton. And what was her purpose?
    Mr. Petruzzello. Mr. Chairman, when the sisters went to 
London they felt nervous about meeting with American media and 
they wanted to have a woman be there just to be there while 
they did the interview. Sharene is about their age, is an Arab 
American, speaks a little Arabic. For obvious reasons the Saudi 
Government didn't want a government official there. And so we 
were asked by the embassy to have Sharene go, and she was there 
for the interview with Fox and that was it.
    Mr. Burton. Yeah. I don't think--my personal opinion is I 
don't think there's any way to know whether or not they were 
speaking freely. I think that the coercion factor is a very 
real factor. I've talked to so many women who were trembling, 
crying, scared to death that their husbands might even find out 
that they're even talking to U.S. Congressmen or talking to 
somebody in the media. You know, to say there's no coercion or 
to indicate that I think is just uncertain to say the least. 
There's no way to know. The only way to know whether or not 
those ladies were coerced is to let them come to the United 
States, with the child, encumbered, and let them talk to their 
mother and the media here. If they want to go back to Saudi 
Arabia, I don't think the United States would ever hold them. 
So would you convey to the Saudi Government that the best way 
to make sure is to let them come to California? Let them come 
to the United States and talk to their mother and the media 
here and if they decide they want to go back, that's fine. 
Without their husbands. Without an entourage of men and without 
threats.
    Mr. Petruzzello. Mr. Chairman, the government has said that 
they've been working diligently to try to have the girls come 
to the United States.
    Mr. Burton. OK.
    Mr. Petruzzello. I think the trip to London wouldn't 
preclude that opportunity in the future, and I will certainly 
relay that message.
    Mr. Burton. Yeah. Well, I think they're probably going to 
get it anyhow. And with that, we'll stand in recess till the 
fall of the gavel. We have two votes on the floor. We will be 
right back.
    [Recess.]
    Mr. Ose. All right. We're going to proceed. We're going to 
proceed pending the arrival of the other three witnesses.
    Mr. Petruzzello. I am sorry. I apologize for that.
    It happens.
    Mr. Ose. I want to examine the issue of the London visit. 
Mrs. Morella or Mr. Horn asked a question as to whether or not 
Qorvis had somebody in attendance at that interview in London 
with the Gheshayan daughters, and I believe your testimony was 
that there was a Qorvis employee in attendance?
    Mr. Petruzzello. There was a Qorvis employee in attendance 
for one of the meetings.
    Mr. Ose. Which one?
    Mr. Petruzzello. The interview with Fox.
    Mr. Ose. Were both girls in that interview?
    Mr. Petruzzello. Yes.
    Mr. Ose. OK. Who else was in that interview? I mean, who 
were the other people in the room when Alia and Aisha Gheshayan 
were interviewed?
    Mr. Petruzzello. The producer from Fox, an interpreter, and 
I'm--to be honest with you, I'm not certain whether the 
husbands were in the meeting at that time or not.
    Mr. Ose. Were there any representatives of the Saudi 
Government?
    Mr. Petruzzello. No, Congressman, no.
    Mr. Ose. But you don't know if the husbands were in the 
room or not?
    Mr. Petruzzello. No, I don't.
    Mr. Ose. Who was the interpreter?
    Mr. Petruzzello. The interpreter was hired by Fox. I don't 
know the name, where the person came from.
    Mr. Ose. What was the name of the Qorvis employee who was 
in the room at the time of the interview?
    Mr. Petruzzello. Her name is Shereen Sojhier.
    Mr. Ose. Could you spell that for me, please.
    Mr. Petruzzello. S-h-e-r-e-e-n, and the last name is S-o-j-
h-i-e-r.
    Mr. Ose. And is she an American citizen or otherwise?
    Mr. Petruzzello. American citizen.
    Mr. Ose. Do you have her office base? Where is she 
stationed?
    Mr. Petruzzello. In our Washington office.
    Mr. Ose. So she's here in D.C.
    So she left D.C., flew to London?
    Mr. Petruzzello. Yes, Congressman.
    Mr. Ose. I want to go back to my earlier question. It 
appears to me as if--I'm sure it's coincidental. It appears to 
me that the Gheshayan daughters left Saudi Arabia in time to be 
in London concurrent with Chairman Burton's arrival in Saudi 
Arabia.
    What day did the employee of Qorvis leave Washington, DC, 
to go to London for the purpose of the interview?
    Mr. Petruzzello. Congressman, I can't recall the exact 
date, but she left, I believe, the Saturday before the meeting, 
which I believe occurred on Sunday.
    Mr. Ose. My recollection, Jim, that was around the 23rd of 
August, 22nd of August.
    All right. So somebody from the D.C. Office--somebody in 
the D.C. Office left D.C., headed for London a couple days 
prior to the interview?
    Mr. Petruzzello. That's correct. To the best I can recall 
the exact times and dates, it was a day or two before the 
meeting.
    Mr. Ose. If I recall your earlier testimony, it was that 
you had either been advised or discussed Chairman Burton's 
CODEL to Saudi Arabia prospectively with your client before the 
fact?
    Mr. Petruzzello. Yes.
    Mr. Ose. So the Saudis knew that Chairman Burton and the 
CODEL were headed their way?
    Mr. Petruzzello. Yes.
    Mr. Ose. And if I recall your testimony, they knew the 
purpose of the visit was to discuss these cases of American 
children and women in Saudi Arabia?
    Mr. Petruzzello. Yes.
    Mr. Ose. And concurrent with the chairman's trip, two of 
the women that we were specifically interested in, those being 
the Gheshayan daughters, were allowed for the first time in 
years to depart Saudi Arabia and go to London for the purpose 
of an interview.
    Mr. Petruzzello. I'm not sure I understand the question.
    Mr. Ose. What was the purpose for which the Gheshayan 
daughters went to London?
    Mr. Petruzzello. You know, Congressman--as I previously 
testified, you know, it was inspired by al-Jabir's appearance a 
couple weeks prior to where he appeared on the O'Reilly show 
and made a commitment to work to have the Gheshayan sisters 
interviewed and meet with U.S. Government officials outside of 
Saudi Arabia.
    Now, I understand from the Saudi Government that they had 
been working for quite some time to invite the sisters--to 
invite the sisters, to encourage the sisters to come to the 
United States, which they have refused to do, and that they 
were to have the sisters meet with the media in our embassy in 
London.
    Mr. Ose. Mr. Petruzzello, I touched on this subject 
earlier. You are assisted today by some people from your 
office. We have not asked them to testify, but we would like to 
put on the record your direct employees and any consultants who 
are here assisting you today.
    Mr. Petruzzello. Certainly. Judy Smith is one of my 
partners. She's the only other Qorvis employee here. This is my 
attorney, and there are two gentlemen in the back who are----
    Mr. Ose. What is your attorney's name?
    Ms. Kiernan. Leslie Kiernan from Zuckerman, Spaeder.
    Mr. Ose. Thank you.
    Mr. Petruzzello. And then the two gentleman in the--towards 
the rear of the room who serve as government relations 
consultants at the embassy.
    Mr. Ose. Kiernan is spelled K-i-e-r-n-a-n?
    Ms. Kiernan. Yes, Congressman.
    Mr. Ose. And your coemployee?
    Ms. Smith. Smith, S-m-i-t-h, Judy, J-u-d-y.
    Mr. Ose. Thank you. Now, the two in the back, Mr. 
Petruzzello, since we haven't subpoenaed them and we haven't 
invited them to testify, could you give me their names, their 
places of employ, and if you could spell their names, that 
would be helpful.
    Mr. Petruzzello. Jack Deschaeur, D-e-s-c-h-a-e-u-r, and 
Jane--who is with the law firm of Patton Boggs. And Jamie 
Gallagher, G-a-l-l-a-g-h-e-r, who is with the Gallagher Group.
    Mr. Ose. Thank you.
    Ms. Kiernan. Congressman, there is also somebody here with 
me from my office.
    Mr. Ose. OK. Let's put his name on the record.
    Mr. Angulo. Congressman, my name is Carlos Angulo, A-n-g-u-
l-o Zuckerman, Spaeder.
    Mr. Ose. From Qorvis?
    Mr. Angulo. No, with the law firm of Zuckerman, Spaeder.
    Mr. Ose. With Ms. Kiernan's law firm.
    Mr. Angulo. Correct.
    Mr. Ose. Thank you.
    Mr. Petruzzello, have you ever met the father of the Roush 
sisters?
    Mr. Petruzzello. No, I have not.
    Mr. Ose. Have you ever talked to the Roush sisters?
    Mr. Petruzzello. No.
    Mr. Ose. Do you know if the Crown Prince, the Foreign 
Minister of Saudi Arabia ever asked the Roush sisters to meet 
with their mother?
    Mr. Petruzzello. No, I don't know that.
    Mr. Ose. Do you know what is was that the Roush daughters 
were asked to do when they went to London?
    Mr. Petruzzello. They were asked to meet with 
representatives of the American media and with our U.S. 
embassy.
    Mr. Ose. So the purpose was twofold, American media and the 
American embassy?
    Mr. Petruzzello. That's correct.
    Mr. Ose. And clearly they met with the American media.
    Did they meet with the American embassy?
    Mr. Petruzzello. Yes. I understand that they did.
    Mr. Ose. With whom did they meet at the American embassy?
    Mr. Petruzzello. I don't know the name of the government 
official that they met with.
    Mr. Ose. I see my colleagues have returned. I would like to 
recognize the gentleman from Tennessee.
    Mr. Duncan. Thank you, Mr. Chairman.
    Mr. Petruzzello, your fee is $200,000 a month?
    Mr. Petruzzello. That's correct.
    Mr. Duncan. And that is $2,400,000 a year?
    Mr. Petruzzello. Yes. I believe that is correct.
    Mr. Duncan. That is a whopping fee. I suppose you know that 
every law firm, every public relations agency in this city 
would drool to get an account like that.
    Mr. Petruzzello. Mr. Congressman, as I understand it, 
that's not unusual or, you know----
    Mr. Duncan. You're not saying that--you surely don't 
believe that they would be happy to get that kind of an 
account?
    Mr. Petruzzello. I----
    Mr. Duncan. Could you tell me any firm that wouldn't be 
happy to get that size of an account?
    Mr. Petruzzello. No, I couldn't.
    Mr. Duncan. Yet I see here from the staff that you 
received, or your firm received, $3.8 million from Saudi Arabia 
before registering as a foreign agent under the Foreign Agent'S 
Registration Act; is that correct?
    Mr. Petruzzello. I don't have the foreign agent documents. 
I haven't looked at those documents lately, but that doesn't 
sound like it would be out of--you know, it doesn't sound like 
that would be incorrect.
    Mr. Duncan. Well, do you know whether or not your firm 
represented Saudi Arabia for----
    Mr. Ose. Would the gentleman yield?
    That was a double negative. Could you answer it without the 
double negative?
    Mr. Petruzzello. Oh, sure.
    Mr. Ose. You think the 3.8 number is correct?
    Mr. Petruzzello. I haven't looked at the documents lately 
or in the timeframe that the Congressman mentioned, but that--
you know, it doesn't sound out of line to me.
    Mr. Ose. So it does sound like it is in line?
    Mr. Petruzzello. It does sound like it is in line.
    Mr. Ose. Thank you.
    Thank you, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    Well, do you know----
    Mr. Petruzzello. I should make clear that--I'm sorry.
    Mr. Duncan. I noticed that in 2001 they were also 
represented by the--the Saudi Government was also represented 
by Akin Gump, Casting Associates, Dutton & Dutton, Shandwick 
Public Affairs.
    Do you have any rough guess as to what is the total amount 
the Saudi Government is spending on lobbying fees, public 
relations fees, consulting fees, legal fees here?
    Mr. Petruzzello. I don't know exactly what the total----
    Mr. Duncan. I didn't ask exactly. I said, do you have a 
rough guess.
    Mr. Petruzzello. I don't have a rough idea. I think some of 
the firms that you mentioned are firms that worked for the 
Saudi embassy some time ago, that are no longer working for 
them; and for firms like Akin Gump, I believe they provide 
legal services on trade matters, and I have no knowledge of 
what that relates to. And I'm not certain that involves any 
lobbying at all.
    Mr. Duncan. In addition to all that Chairman Burton 
mentioned yesterday, that the Saudi Government was spending 
millions in advertising fees now and for advertising on 
national television and so forth, do you have any idea how much 
they are spending, rough guess, on that?
    Mr. Petruzzello. Yes, and to--Congressman, to raise your 
earlier point when you quoted $3.8 until, that wouldn't be fees 
to Qorvis. You know, a significant amount of that would be 
money that was to pay for advertising, and for advertising, I 
believe what they're spending is--it was somewhere in the range 
of $4 or $5 million, which is, you know, by advertising 
standards, a very small amount.
    Mr. Duncan. Let me ask you--of any of the parents here, if 
you heard of some young woman or some young man in this 
country, a U.S. citizen, who was about to--or was thinking 
about marrying somebody from Saudi Arabia now, what would you 
say to them?
    Ms. Tonetti. Can I say what I really want to say?
    Mr. Duncan. Yeah, sure.
    Ms. Tonetti. Run like hell.
    Mr. Duncan. Well, I hope that--I hope that if nothing else, 
I hope the State Department takes action based on these 
hearings, but if nothing else, I hope that these hearings call 
attention and, hopefully, alert some young people that this is 
something very, very dangerous, often even tragic, to get into.
    Mr. Rives. Congressman, you asked about whether to marry a 
Saudi and so forth. Let me just say that the Saudi folks are 
terrific, and I had great admiration for the individuals that 
live there. It's the government, that keeps people in or keeps 
people out, I think, is the real problem.
    Mr. Duncan. All right. Thank you very much.
    Mr. Ose. Thank you, Mr. Duncan.
    Mr. Shays.
    Mr. Shays. I'd like to thank all our witnesses for 
appearing before the committee and to just set this up by 
telling you, Mr. Petruzzello, that my subcommittee and this 
full committee has had 40 hearings on terrorism, and 
periodically, the government that you work for shows up in that 
scenario. Fifteen of 19 of the suicide terrorists were Saudi 
citizens, and that is embedded in my thought. I have 70 
families who lost loved ones from what 15 Saudi citizens did 
with four others.
    The Wahhabi form of Islam showed up continually in my 
hearings as militant fundamentalists and sympathetic to 
terrorism. The teachings of Islam in Saudi Arabia showed up 
continually as being hateful, vengeful and creating an 
environment in which terrorism would flourish. You're working 
for a government that is holding American citizens against 
their will. You're also representing a government whose 
phenomenal wealth has gone principally to 30,000 Royal Family 
members, while at the same time the per capita income of the 
average Saudi citizen has gone from 24,000 to 7,000.
    I don't really have good feelings about the government you 
work for, but I will tell you it has intensified tremendously 
at the hearings that our chairman has conducted regarding 
family members who are being held against their will.
    I want to ask each of the witnesses who are on your left or 
right this simple question.
    Are your children, Ms. Tonetti, being held against their 
will?
    Ms. Tonetti. Yes, my American children are being held 
against their will.
    Ms. McClain. My daughter is a hostage in Saudi Arabia.
    Mr. Shays. Mr. Rives.
    Mr. Rives. My children are 3----
    Mr. Shays. Near the mic, please.
    Mr. Rives. My children are 3 or 4. They don't know what 
their will is yet.
    Ms. Dabbagh. My daughter is being held in Saudi Arabia 
against her will; and I would also like to go on record as 
saying in a particular response to the huge number of Saudi 
retainers here, I have been insulted, I have been warned, I 
have been threatened, and I have been intimidated over the 
years by Saudi employees and Saudi Government officials, and 
not knowing they were going to have such a large number of 
people here today, I want to go on record as saying I am very 
fearful that they will continue reprisals.
    Mr. Shays. I understand why you would feel that way.
    Mr. Petruzzello, do you believe that their children are 
being held against their will?
    Mr. Petruzzello. Congressman, I'm not a representative or a 
spokesperson for the government.
    Mr. Shays. I didn't ask you any other question than the 
question I just asked you. I asked you, do you believe their 
children are being held against their will?
    Mr. Petruzzello. I do not know the details of any of these 
cases.
    Mr. Shays. That is not what I asked you. You are under oath 
to answer a question, and you can answer yes or no, and you 
have your choice of describing the yes or no, but I asked you, 
do you believe that Ms. Tonetti's children are being held 
against their will?
    Mr. Petruzzello. But Congressman, I don't know anything 
about Ms. Tonetti's children.
    Mr. Shays. So what is your answer?
    Mr. Petruzzello. That I do not know.
    Mr. Shays. Do you think that she's lying?
    Mr. Petruzzello. I have no reason to believe that she's 
lying.
    Ms. Tonetti. I have a question? May I ask.
    Mr. Shays. You can ask me the question, yes.
    Ms. Tonetti. Did you publish this?
    Mr. Shays. And let me ask you, what is the document that 
you're holding?
    Ms. Tonetti. The Kingdom of Saudi Arabia that was being 
passed out here for these hearings.
    Mr. Shays. Are you at all involved in that?
    Ms. Tonetti. You're responsible for this.
    Mr. Shays. Ms. Tonetti, I don't want to lose control. I 
know that you could ask better questions than I could ask.
    So is all the material that you have in here--is all the 
material in this something that you're--you have been involved 
in and have presented?
    Mr. Petruzzello. We were involved in helping the embassy 
prepare those materials, yes.
    Mr. Shays. Is there any document here that would suggest 
that these children are not being held against their will?
    Mr. Petruzzello. I can't recall everything that is in 
there. I think the position of the Saudi Government is that 
while these are tragic cases, they are highly complex and that 
it's really a government-to-government matter that needs a lot 
of work to resolve.
    Mr. Shays. Mr. Petruzzello, let me just tell you, I'm going 
to have a second round, a third round, a fourth round, and so 
I'm not going to let up on understanding this issue.
    I believe Ms. Tonetti with all my heart and soul, and I 
understand that you're representing the Government of Saudi 
Arabia in terms of their public relations. The question I asked 
you is, do you believe that Ms. Tonetti's children are being 
held against their will?
    Mr. Petruzzello. I believe that there are significant 
differences between U.S. law and Saudi law and that----
    Mr. Shays. I'm not asking about the law now. No.
    I understand that the Saudi Government can incarcerate 
people. I understand that American citizens have no rights in 
Saudi Arabia. I understand that women can't drive. I understand 
that American diplomats can't even exercise their own rights as 
diplomats. I understand that American diplomats are isolated 
and can't travel to certain parts of Saudi Arabia. I understand 
that no Americans, if they aren't of Islamic faith, can go into 
certain areas. I understand that.
    What I also understand is that in this country, Saudi 
Arabian citizens can have the same rights and privileges that 
anyone else can. So I understand they have a double standard. I 
know they treat us one way, and we treat them with total 
freedoms. I understand all that.
    But we also have a very serious case where a citizen was in 
the United States under the protection of her mother, or father 
in some instances, and that they found themselves in Saudi 
Arabia. What is there to figure about that?
    Mr. Petruzzello. I'm sorry. What is the question?
    Mr. Shays. What is there to figure about it? They were 
taken against their will. They were minors. They were under the 
custody of the very women to your right.
    Mr. Petruzzello. I would, you know----
    Mr. Shays. So you don't understand Saudi law, but you 
understand American law.
    Mr. Petruzzello. You know, the Saudi Government has gone on 
record----
    Mr. Shays. Do you understand American law?
    Mr. Petruzzello. No. I'm not a lawyer.
    Mr. Shays. Well, I'm not a lawyer either, but do you 
understand if someone has jurisdiction and responsibility for a 
child, that they can't be taken against their will to another 
country? Do you understand that? Just answer that question.
    Mr. Petruzzello. Yes. I understand that. And I might add 
that the Saudi Government has gone on record to say that child 
abduction is wrong.
    Mr. Shays. Right, but once they are in Saudi Arabia, it is 
all right to keep them there?
    Mr. Petruzzello. You know, what the government has said is 
that, you know, you have conflicts between court orders and 
laws in Saudi Arabia and court orders here.
    Mr. Shays. I understand you have conflicts and all these 
other things. I understand that in Saudi Arabia Americans have 
no rights. That's true, isn't it? They have basically no 
rights.
    Mr. Petruzzello. You know, I don't know what the rights are 
of foreign visitors in Saudi Arabia.
    Mr. Shays. Well, the bottom line is that you were asked to 
appear before this committee, and it would strike me that you 
know a lot more than you're letting on, but you are under oath. 
And I asked you a question, do you believe that their children 
are being held against their will?
    Mr. Petruzzello. If you're looking for my personal opinion, 
I think there are--I think that the way Saudi law deals with 
these cases makes it, you know, possible--you know, for parents 
there to prevent their children from coming to the United 
States; and it also makes it very difficult for the Saudi 
Government to do anything about it.
    Mr. Shays. Why don't you explain that last part?
    Mr. Petruzzello. You know, what the Saudi Government has 
said is that in a case where, say, that a court has--a Saudi 
court is given custody----
    Mr. Shays. You can move the mic a little closer.
    Mr. Petruzzello. Where the court has given custody of a 
child, it is difficult for the Saudi Government to intervene 
and overrule that court order. But again, Congressman, you 
know, we start getting into the details of cases and the 
legalities that is just out of my sphere.
    Mr. Shays. Yeah. The only thing that shouldn't be out of 
your sphere is if these are children with a court order in the 
United States--and they resided here and the parent took them 
to another country--if they were basically kidnapped. And that 
doesn't strike me as taking much intelligence to understand.
    And so now the issue is, how do we get back kidnapped 
children? And what you've done is you've put together a package 
that helps express opinions about these cases, and yet you say 
you don't have opinions about these cases. And so, you know, 
you are under oath, and I'm just struck with the 
contradictions.
    You may be--and I think you are, and I know people who say 
you are--a very fine man, and you work for a very fine company; 
but sadly, you are working, in my judgment, for a very corrupt 
government, a government where they still haven't resolved or 
given us an answer of why 15 of their citizens killed nearly 
3,000 people in New York City on September 11th, didn't own up 
to their own people that they were Saudi citizens. That's the 
government you work for. You work for a government that is 
teaching its people to hate the United States and to not be too 
aghast at what happened.
    And so I view you as working for, frankly, a very corrupt 
government that has a lot of oil, and we depend on a lot of 
oil; but I hope that we're willing to just allow them to take 
their oil somewhere else, and if we have to--every other day, 
have to get oil, have to stand in line or wait in line, you 
know, so be it.
    Mr. Chairman, I have more questions, but I want to make 
sure others----
    Mr. Burton. Let me--if I might, I'd like to ask a couple 
questions.
    Mr. Burton. You're a public relations man, and you have a 
public relations firm, and you work for the Saudi Government 
and you get their $200,000 a month, $1.4 million a year. 
Obviously if you said something that didn't--they didn't agree 
with today, it would jeopardize your contract, wouldn't it?
    Mr. Petruzzello. Congressman, I----
    Mr. Burton. If you said, you know, I think Ms. Tonetti or 
Ms. McClain has a valid argument because their children were 
kidnapped after court orders were issued here in the United 
States. If you said them being kidnapped and taken to Saudi 
Arabia against their will with the complicit help of the Saudi 
Government, if you said that you thought that was wrong, 
wouldn't that jeopardize your contract?
    Mr. Petruzzello. Congressman, I doubt that.
    Mr. Ose. Well, then why don't you--you have a son. What 
would you say if your wife was a Saudi and she took your child 
to Saudi Arabia and you could never see your child again, and 
you had a court order saying the child was in your custody and 
she took him over there? What would you think about that? Would 
you like that?
    Mr. Petruzzello. No, of course not.
    Mr. Burton. OK. Well, would you say that the Saudi 
Government giving a passport to this woman to take your child 
out of the country when you had a court order to keep the child 
in your control, wouldn't you say that they violated and the 
government was complicit in helping get that child out of the 
country when they gave a passport when the court told them not 
to?
    Wouldn't you say they were complicit if it was your child?
    Mr. Petruzzello. Congressman, I would say kidnapping is 
wrong, and I would say that in order to resolve these cases, 
that much more work needs to be done, government to government, 
to resolve the differences that----
    Mr. Burton. What differences? The court in the United 
States said your child was in your custody and told the Saudi 
embassy not to allow that child to leave the country, not to 
give them a passport; and yet the Saudi Government, after being 
instructed not to do it, they gave that child a passport, and 
your wife took the child out of the country.
    Now, how is that something that you don't understand?
    Mr. Petruzzello. Congressman, I think there you raise a 
good point. Again, I'm not an expert in Saudi law, but as I 
understand it, if someone goes to the Saudi embassy and 
requests a passport, as their law is currently constructed, 
they are compelled to give that passport.
    Mr. Burton. Even if a court of the United States had 
granted custody to the American parent, said, don't do it, that 
they would go ahead and do it anyhow, because they don't 
recognize U.S. law?
    Mr. Petruzzello. Again, you're questioning me outside of my 
sphere, but that's what I understand.
    Mr. Burton. So you would just let your child go, then?
    Mr. Petruzzello. Of course not.
    Mr. Burton. What would you do?
    Mr. Petruzzello. Anything I could to get my child back.
    Mr. Burton. Would you sell your house and get $200,000 and 
have somebody steal the child in the middle of the night to get 
them back when they're U.S. citizens? Would you do that?
    Mr. Petruzzello. Congressman, I would do anything for my 
son.
    Mr. Burton. There. You would do anything for your son. What 
do you think about these people around you?
    That government has been helpful in kidnapping those 
children, even though court orders have been issued saying, you 
can't do that, you shouldn't do that. And they thumb their 
noses at the American Government and the American court system, 
take those kids, give them passports when they know they 
shouldn't, and the mothers never see them again.
    Think about your boy. You would never see him again. You 
would never talk to him again unless the father or the mother 
over there or the government said, OK, we'll let him talk to 
him.
    Ms. Tonetti, did you talk to your child yesterday? Did you 
talk to your children?
    Ms. Tonetti. For a little bit, yes.
    Mr. Burton. How did they sound?
    Ms. Tonetti. Beautiful.
    Mr. Burton. Beautiful. Did they recognize you and 
everything?
    Ms. Tonetti. Yes.
    Mr. Burton. First time you talked to them since we were 
over in Saudi Arabia. Right?
    Ms. Tonetti. Yes.
    Mr. Burton. Yeah. And you hadn't talked to them before that 
for 2 years, except for Congressman Kerns down there at the end 
arranging it for you, right?
    Ms. Tonetti. Yes, sir.
    Mr. Burton. Yeah. I know you're getting $200,000 a month. 
And I understand your business, I do, because lobbyists come to 
see us all the time, and I don't know if you have any influence 
over those guys over there, but these women haven't--she hasn't 
seen her children for 2 years, and the court gave her custody.
    This lady next to her, Ms. McClain hasn't seen her child, 
how long, Ms. McClain?
    Ms. McClain. I saw her this summer.
    Mr. Burton. How long has it been since she's been gone?
    Ms. McClain. Five years.
    Mr. Burton. Five years.
    Mr. Burton. How long has your son been gone?
    Mr. Rives. A year and a half.
    Mr. Burton. A year and a half.
    Ms. Roush. Seventeen years.
    Mr. Burton. This is the government that you're 
representing, and I know you're getting $1.4 million a year, 
and I'm sorry you're the whipping boy today. I apologize for 
you having to do that, but we're trying to make a point. I'm 
not after you, because lobbyists are all over this town, and 
some of them represent some pretty cruddy people, you know, so 
we're not after you.
    But the Saudi Government did not show up. All they've done 
is lie on television. They've had their mouthpieces, former 
Ambassadors from the United States to Saudi Arabia, who are now 
getting tons of money to represent them. You know, it just 
makes us sick, and the only thing we can do is beat up on the 
Saudi Government and put pressure until they bring about some 
change.
    And I'd just like to say to my colleague, Mr. Shays, down 
there--Chris, the Saudis in the 1970's, we got about 50 to 60 
percent of our oil from them. Now we get 15 percent. We're not 
dependent upon those guys anymore, like we were. Their balance 
of payments situation was very good in the 1970's. Now they 
have a balance of payments deficit, and they've got problems in 
their country.
    If they don't start working with the United States and 
helping these particular issues, they're going to have big 
problems, and I promise you that as long as we're in this 
Congress--and this is not a Republican or Democrat issue. I 
mean, we've got Mr. Sanders, who is an Independent. We've got 
Democrats, Mr. Delahunt, who is down at the committee right 
now. He was with us, from Massachusetts, not the most 
conservative State in the Union.
    We've got my colleagues who are moderates and conservatives 
here, and we all agree, there is no difference of opinion. We 
all agree that the Saudis have to be taken to task, and I 
promise you, there are going to be legislative measures. I've 
already talked to the Secretary of State about measures that 
should be taken, and we're going to keep beating the drum until 
there is a change.
    Now, you need to convey to the Saudis, as their 
representative, that we're not going to change. We're going to 
beat the hell out of them until they do something about these 
kids and bring these kids home; I promise you that. And you and 
all your PR--and I know you work for them and I know you've got 
to put these commercials on TV like we talked about a while 
ago. And I know you've got to make out these green folders with 
all the positives, if there are any, that the Saudis have. 
You've got to make them look good. I know that.
    But it ain't going to stop us until we get some 
satisfaction about these kids, and if you don't tell them, 
maybe the television cameras will tell them. It's going to go 
on, and the drumbeat is going to get louder and louder and 
louder until they have to change.
    I saw the foreign minister the other day on television. It 
was kind of interesting. When I saw him in Saudi Arabia, he had 
all his robes on and everything and his princely garb; and when 
he was on American TV, he was wearing a business suit. It's 
kind of interesting.
    You know, I don't see him in business suits very much. So 
tell him it was a positive image he created, but it ain't going 
to change anything. That ain't going to change anything.
    Ms. Holmes Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. First, I 
must thank you, above all, for your justifiably dogged 
determination on this incredible issue. I know I speak for 
every Member on my side when I assure the witnesses here that 
the chairman has total and complete, 100 percent bipartisan 
support for what he is doing to make sure that American 
citizens have access to their own children.
    I've come out of another hearing and will have to leave 
before the State Department witnesses come forward. I want to 
stress that the chairman's words, just now, I think should be 
understood to mean that he and we are not only in pursuit but 
are looking for a real remedy, that the series of witnesses we 
have had have made the case so indelibly that it becomes 
necessary, in a very difficult situation, to try to thread our 
way to a remedy. That is difficult. I understand.
    When relationships between and among nations involve the 
notion of reciprocity, what happens if one side takes a 
position, how that can produce from the other side retaliation. 
I understand all of those notions.
    On the other hand, the only polite way to describe our 
relationship with Saudi Arabia is, of course, schizophrenic. 
Perhaps the best way to describe it is hypocritical.
    These people believe in nothing we believe in, and yet what 
we have seen is their law trump our law. I'm not sure where the 
reciprocity is here. If, in fact, we were dealing with ordinary 
reciprocity where, one side has to remember that what it does 
can, in fact, affect how the other side behaves, or how other 
countries behave, that would be one thing; but the notion that 
a country with whom we supposedly have friendly relations can 
have law--understand, this is law--that trumps our law on the 
most fundamental rights such as access to your own child to 
whom you gave birth, or our own laws of kidnapping or our own 
laws about child abuse or abuse--spousal abuse, that those can 
be trumped by a so-called ally, while our State Department 
says, you've got to understand this is how diplomacy works, I 
mean, that is simply outrageous, shocking, won't be accepted, 
isn't accepted by anyone in this committee or anyone in this 
Congress.
    In many ways I'm speaking not to--you'll forgive me, sir--
the mouthpiece of Saudi Arabia, but our own State Department, 
because it's their job, it seems to me, to find a way to a 
solution here. This is our government bending to outrageous 
laws--completely inconsistent with international law, I might 
add, but certainly with our laws. And among--the complicity of 
our own government angers me more than the paid representative 
of Saudi Arabia.
    The notion--some of the notions that have come forward in 
these hearings, such as a mother making her way to our embassy, 
the only safe ground anyone is assured of in a foreign country, 
and being told she has to get out, this isn't any hotel, the 
notion that could happen in a foreign country; and certainly at 
least if somebody finds her way to American soil--that is where 
she was--there should be no way that somebody can be put off of 
American soil for pursuing her rights to have access to her own 
child, and yet our State representatives, our State Department 
in the embassy, put this woman out.
    Now, I'm not going to be here to question the State 
Department, but unless the State Department finds some way on 
its own to thread the eye of this needle, essentially what 
you're asking for is congressional intervention. The chairman 
is also on the International Affairs Committee. This issue now 
has come to the attention of the American people through the 
American media. Thus far, that has had little or no effect on 
Saudi Arabia.
    Yes, we have seen tiny steps. They still haven't gotten 
family reunification to occur. So I just--I've come in for a 
few minutes out of another hearing that I have to attend just 
to make sure that both the State Department and the Saudi 
representatives understand what I'm sure the parents already 
understand, that this is an issue that animates this entire 
Congress. It strikes us at the core of what we all put first, 
our own families. We won't accept this treatment from any ally; 
we won't accept it from any enemy.
    And speaking for myself, I regard a country that would 
treat these parents as these mothers have been treated not as 
an ally at all, not as a friend at all, but I put them in the 
category with other opponents of all we believe.
    You've got to understand that for us, this issue knows no 
party. It has become an issue of huge concern in the Congress, 
and the State Department had better find a way to do something 
about it or the Congress of the United States is surely going 
to find a way to do something about it.
    Thank you, Mr. Chairman.
    Mr. Ose. I thank the gentlelady.
    Mr. Petruzzello, I've been looking through this 
publication. This is your publication on behalf of the Saudi 
embassy?
    Mr. Petruzzello. It's the embassy's materials.
    Mr. Ose. This is actually put out by the embassy?
    Mr. Petruzzello. Yes.
    Mr. Ose. So presumably it represents the Saudi position?
    Mr. Petruzzello. Yes.
    Mr. Ose. OK. I notice in here there are two letters, one 
dated September 9th, another dated September 17th. Did you take 
part in crafting these letters.
    The first letter is to Chairman Burton regarding his visit 
to Saudi Arabia. It's three pages long. The second letter 
proposes the formation of a task force or ad hoc committee 
between our two governments to examine reaching the possibility 
of a bilateral protocol on the issue of child abduction.
    Did you take part in the creation of these two letters?
    Mr. Petruzzello. Is the one letter from Prince Saud to 
Colin Powell?
    Mr. Ose. Correct.
    The first letter, the September 9th letter, is from 
Ambassador Bandar bin Sultan bin Abd al-Aziz Al to Chairman 
Burton; and the second, the September 17th letter, is from Saud 
al-Faysal to Secretary Powell, yes.
    Did you take part in crafting either of those letters? 
Perhaps the clerk can take these down.
    Mr. Petruzzello. Yes. I----
    Mr. Ose. Could the clerk get me another copy of those 
letters, please.
    Mr. Petruzzello. Mr. Congressman, we didn't have anything 
to do with the letter from Colin Powell--from Prince Saud to 
Colin Powell, and the embassy drafted the letter from Prince 
Bandar to Dan Burton. I believe using some talking points that 
we provided for content of the letter, but it was drafted by 
the embassy.
    Mr. Ose. OK. The letter of September 9th on the third page 
concedes the fact that there are five cases of child abduction 
outstanding. I mean, you can go through all of the tortuous 
logic you want, but at the end of the day at the top of page 3, 
``This leaves about five cases outstanding of child 
abduction.''
    So the Saudi Government recognizes there's at least five 
cases of child abduction. It's right here in black and white.
    Mr. Petruzzello. Absolutely.
    Mr. Ose. What are they doing about it?
    Mr. Petruzzello. Are you asking me on the five cases, 
individually?
    Mr. Ose. Yes.
    Mr. Petruzzello. I don't know what they're doing about that 
specifically, but I do know that they are working to try and 
find resolutions on the cases. I couldn't go through with you 
case by case.
    Mr. Ose. Well, they yield--they concede the fact, 
stipulate, if you will. I don't know if that is the right term. 
Maybe some smart attorney here can answer that. They stipulate 
there's five cases of child abduction right there.
    Mr. Petruzzello. Yes.
    Mr. Ose. Maybe Ms. Kiernan can tell me whether that's a 
stipulation or not. But there are five cases outstanding signed 
by the Ambassador of the Kingdom of Saudi Arabia in a letter to 
Chairman Burton, dated September 9th.
    Mr. Petruzzello. That's correct.
    Mr. Ose. So what are they doing about it? What are you--do 
you have any knowledge of any effort of anybody associated with 
the Kingdom of Saudi Arabia, either official or otherwise, to 
at least resolve the five cases they're apparently stipulating 
exist?
    Mr. Petruzzello. The Kingdom of Saudi Arabia has said that 
they are working on finding resolutions to all the cases that 
involve Saudis.
    Mr. Ose. Well, what about these five cases where they say 
they concede the fact, they stipulate that this is a child 
abduction matter?
    Mr. Petruzzello. I don't know specifically what those cases 
are that Prince Bandar was referring to. What they've said is, 
they have people and resources applied to try and find 
resolutions to these cases.
    Mr. Ose. They're not doing anything, are they?
    Mr. Petruzzello. Pardon me?
    Mr. Ose. They're not doing anything, are they?
    Mr. Petruzzello. I believe they are working to try and find 
resolutions.
    Mr. Ose. Who is responsible for these five cases at the 
Saudi Arabian embassy? Who is the person, whom you may or may 
not have met with before this hearing? Who is the person at the 
embassy working for the Saudi Arabian Government that is 
responsible for these five cases?
    Mr. Petruzzello. Prince Bandar would be responsible.
    Mr. Ose. Same guy that signed the letter?
    Mr. Petruzzello. Yes.
    Mr. Ose. I mean, is that pretty normal, I mean, all these 
things matriculate up to the Ambassador himself?
    Mr. Petruzzello. Well, Prince Bandar has responsibility; 
and Prince Saud, the Foreign Minister, has responsibility in 
Saudi Arabia. And what I believe Prince Saud has said is that 
he has organized resources within his government to try and 
seek resolutions; the specifics of that I do not know.
    Mr. Ose. Well, if they're child abduction cases, why don't 
they just go instruct the people that these children are going 
home? I mean, that would resolve the matter.
    Mr. Petruzzello. Congressman, again, you get into the 
legalities of each of these cases that I can't comment on, 
because I don't know them.
    Mr. Ose. Well, certainly they wouldn't write that there's 
five cases of child abduction without having checked the 
legality of them.
    Mr. Petruzzello. And what I believe they have said is that 
they are working to find resolutions on those cases.
    Mr. Ose. But they've stipulated that there are five cases 
of child abduction?
    Mr. Petruzzello. Yes, they have.
    Mr. Ose. So apparently somebody has broken either American, 
Saudi or Sharia law.
    Mr. Petruzzello. That, I don't know.
    Mr. Ose. Well, it's stipulated to it right here, there are 
five cases of child abduction.
    Are you saying Saudi law supports child abduction?
    Mr. Petruzzello. I'm saying I don't know Saudi law.
    Mr. Ose. I regret that my time is up. We'll just keep going 
around and around here.
    Mrs. Maloney for 5 minutes.
    Mrs. Maloney. I just want to go on record in support of the 
extraordinary leadership that Chairman Burton has shown on this 
tremendously difficult issue. I can't think of anything, as a 
mother of two children, more jolting than to have your children 
taken from you, and being unable to get a visa to see them.
    And as an American woman, I'm particularly concerned about 
the opportunities of freedom that American citizens born in 
this country and then illegally, I would say, abducted to Saudi 
Arabia, not having the opportunities for education or for the 
right even to marry whom you like. By Saudi law, you can only 
marry a Saudi man if you're a woman. And many other rights are 
taken from you.
    I am here. We are in a Financial Services Committee meeting 
at this time, but I wanted to come and show my support to the 
committee staff, and to Chairman Burton, on their efforts to 
get these children reunited with their families, to restore 
their American citizenship and to allow the freedoms to these 
people that they're entitled to as American citizens.
    I know that the Saudi Government is an ally of our country. 
We have worked together on many joint causes of concern, and my 
message to you, Mr. Petruzzello, is to take to the Saudi 
Government the tremendous concern that we, as American citizens 
and Members of Congress, have on this issue.
    According to our laws--our laws, it's kidnapping. It is a 
kidnapping, literally: taking away the children that are 
American citizens, dividing the rights of families to see their 
children, and in many cases, not allowing these children to 
come back to America. I think that this is outrageous, and I 
think that we need to change the laws. We need the cooperation 
of the Saudi Government.
    To deny visas to Americans who want to come and see their 
children is just plain, flat wrong, and these families need to 
be reunited. I'm appealing to Chairman Burton to come forward 
with new rules, regulations on visas and passports and every 
other way to really protect the rights of Americans to protect 
their children from abduction and the rights of Americans to 
regain their children once they have been abducted.
    We have sat through many, many tear-jerking hearings where 
parents, both fathers and mothers, have come and told about 
children, siblings that don't see their siblings, children that 
were stolen, that they no longer have the right to see. It's 
outrageous, and it's wrong, and I feel that there must be a 
will and a way to correct it.
    But it would be helpful if the Saudi Government would be 
sensitive to the rights of individuals, the rights of American 
citizens and really work with our government to correct this, 
not only on an individual basis but in a sweeping law or an 
agreement of regulations what this doesn't happen in the future 
so that the families are reunited. And I yield my time to the 
chairman, and I congratulate your extraordinary leadership on 
it. I mean that sincerely. And, Mr. Burton, I wanted to, with 
your permission, set up a meeting in a bipartisan way with the 
Women's Caucus, because family issues are very important to 
women on both sides of the aisle; and I would like to join you, 
with the support of the Women's Caucus, in championing this 
issue for the reunification of families and really protecting 
the rights of American citizens.
    Mr. Burton. Well, Mrs. Maloney, let me just say that we 
will have legislation dealing with passports, entrance stamps 
and exit stamps which should help the Immigration and 
Naturalization people help get a handle on this. We will have 
legislation dealing with visas for Saudis, maybe the Saudi 
Royal Family or people in the Saudi Government who may want to 
come to the United States; and if they're complicit or involved 
in any of these things, we may have legislation that would deny 
them visas until these things are resolved, so they can't come 
and visit the United States and go to some of these very 
expensive stores where they buy their jewelry and things, so 
they can't buy those things.
    I believe the State Department is also looking at some of 
these things that we might be able to do without even having a 
bill passed. But we're going to do that, and I really 
appreciate your commitment to get the Women's Caucus on board, 
because there's nothing stronger as a caucus than a Women's 
Caucus.
    Congressman Kerns.
    Mr. Kerns. Well, thank you, Mr. Chairman, and I, too, want 
to commend you in your efforts, you and your staff, for 
bringing this important issue before the Congress, and really 
before the world. And I have to thank all of the people that 
have helped participate in this hearing today, particularly Ms. 
Tonetti. Although I don't serve on this committee, she is a 
constituent of mine from Terre Haute.
    I went to Indiana State, as well, she went to Indiana 
State, so the roots run deep; and I can tell you that it breaks 
my heart when I hear these stories, one by one, and when I hear 
and see the Saudi Government not assisting.
    I accompanied Chairman Burton to Saudi Arabia and met with 
the Foreign Minister, asked him directly, was there not some 
responsibility if, in fact, there is a U.S. court ruling, 
granting custody, and then also an additional court ruling not 
to take the children from the United States?
    The Foreign Minister's response was quite unacceptable to 
me, to Members on the trip, and I'm sure to this Congress, when 
he said that ``We do not recognize U.S. law.''
    Now, the question that I would have, don't you think that 
while in the United States, those from Saudi Arabia and other 
countries have a responsibility to obey the laws of this 
country while in the United States?
    Mr. Petruzzello. The Saudis who visit this country, do they 
have an obligation to obey U.S. law?
    Mr. Kerns. That's right.
    Mr. Petruzzello. I would say, you know, that Saudi Arabia 
would certainly agree with that and would probably add that of 
all visitors to the United States, that the Saudis have one of 
the fewest incidents of law-breaking of, you know, the 
countries that visit the United States.
    Mr. Kerns. Well, there's certainly evidence they've not 
followed U.S. law. What about those that assisted in--or 
helping arrange these children to be taken from this country, 
in fact, kidnapped from this country? Aren't those individuals 
breaking U.S. law? And do you think those individuals, those 
Saudis, should be permitted to stay in the United States?
    Mr. Petruzzello. Congressman, I'm not an attorney, and I 
don't understand or know what are the legal implications of 
people who are involved in this, and I really couldn't comment 
on it.
    Mr. Kerns. You don't understand that if someone breaks a 
law in this country, they should suffer consequences for 
breaking that law?
    Mr. Petruzzello. Of course.
    Mr. Kerns. That's what I was asking.
    Mr. Petruzzello. But then, if I understood your question, 
if you're talking about foreign diplomats, you know, I don't 
understand what--how that works.
    Mr. Burton. If the gentleman would yield, foreign diplomats 
are--cannot be prosecuted; you know, they're on--unless the 
government in question agrees. But what we can do, 
Representative Kerns, is, we can get our State Department to 
make them persona non grata and send them home.
    In other words, if they're working here in the visa section 
or the passport section of the Saudi embassy, and they've been 
supportive of giving passports to children when the courts have 
contacted them, as in the cases with Ms. McClain and Ms. 
Tonetti, then those people can be sent home, and anybody else 
that does that could be sent out of the country as non--persona 
non grata in this country.
    Mr. Kerns. Thank you, Mr. Chairman. I think that's a good 
point.
    Also I would offer that because of this issue and because 
of the refusal of the Saudis to cooperate in what we think is a 
reasonable manner and timeframe, we are now looking at many, 
many issues involving our relationship with Saudi Arabia--
perhaps the first time we're examining our relationship with 
Saudi Arabia. And these hearings and this issue have been, in 
part, the catalyst; and it's not going away. We're going to be 
looking at students that come to this country, the length of 
time they're here, who are not making progress, why they're 
being allowed to come into this country when they're not, in 
fact, pursuing an education in a reasonable manner. Those 
students that remain here for 20 years and do not have a 
degree, we're not going to permit this to continue; we're not 
going to tolerate it.
    And we have a phrase, ``opening a can of worms.'' It has 
opened a can of worms. And we're going to pursue this, and I 
know Chairman Burton is not going to let go of this, and I 
would--and you obviously run your own business, but if I were 
advising my client, I would remove this issue from a host of 
issues that we're now looking at because of what this issue has 
raised. With that, Mr. Chairman, I yield back.
    Mr. Burton. Mr. Clay, I understand you don't have any 
questions right now; is that correct?
    Mr. Clay. Mr. Chairman, I would like to make a brief 
statement.
    Mr. Burton. Mr. Clay, you're recognized.
    Mr. Clay. Thank you.
    Let me first thank you for conducting what I consider to be 
an extraordinary hearing; I am just amazed at the fact of the 
scene that's unfolding at this time. I am curious to see how we 
resolve this issue, how do we resolve reuniting these children 
with their families. And I don't know, maybe the witness can 
help us with that.
    How do you see us ending this? Where do we go? I mean, how 
do we reunite families, or do we?
    Mr. Petruzzello. Congressman, I think what the Government 
of Saudi Arabia has proposed is a bilateral protocol that would 
help bridge the differences in United States and Saudi law and 
would help--enable both governments to work better together to 
find resolutions to these issues faster. And that is the 
sincere desire of the Saudi Government.
    Mr. Clay. What does that mean? Does that mean that 
eventually there will be joint custody, visitation privileges? 
Just exactly where are we going with this?
    Mr. Petruzzello. Well, I think that would be a question to 
best refer to our State Department and to the government 
itself; but that what they are--what the government is saying 
is that closer cooperation is needed and new mechanisms are 
needed to address these issues.
    Mr. Clay. What about these families sitting here in this 
room, the families that have been impacted, the sisters and the 
brothers who have lost sisters and brothers, the mothers and 
the fathers who have lost, or the fathers who have lost contact 
with these children? How do we handle that emotional strain?
    Mr. Petruzzello. Congressman, I don't think anyone could 
not feel great sympathy for the families that are involved in 
these issues, and it's not lost on the Saudi Government how 
important this is, both to the families and to Saudi-U.S. 
relations.
    Mr. Clay. All right. Thank you for that.
    Mr. Burton. Would the gentleman yield to me?
    Mr. Clay. Yes, sir.
    Mr. Burton. If it's not lost on the Saudi Government--and I 
know you're their PR guy and you've got to make them look good, 
but I've got to tell you, I looked them right in the eye when I 
was over there. It's lost on them. It's lost on them. They 
don't know what--they don't care. They will give you lip 
service and they will pay you $200,000 bucks a month to make 
them look good, but they don't care. They don't care about 
these women and their kids. They don't care.
    The men rule. The men rule. If you're a woman and your 
husband says, you don't go to the bathroom, you don't go to the 
bathroom. If the husband says, you don't go out the front door, 
you don't go out the front door. They say to the kids, you do 
this. If you don't, they tie you up and beat the hell out of 
you like we were hearing about earlier.
    I mean, come on. To make it look like they have a humane 
face regarding the people whose kids have been kidnapped and 
taken away from them is just a dad-gum lie. It's just a lie. 
They don't care. And if they do care, they'd do something about 
it. And for them to say, you know, this is religious law and 
we're the religious--we're the leaders of this country, and we 
can't violate that and we can't do this and that, they can do 
it.
    When we were over there, Amjad, I talked to them and we 
raised Cain about that, finally they gave her a passport and an 
exit visa, but you know what they did? They waited until her 
father married her off to a guy who was 42 years old that she 
had never met. She didn't even know the guy. I'm sitting there 
with her and her new husband. She just met him, 42 years old; 
he's got a wife and several other kids, and he's a friend of 
the father. And he's got to sign off to let her go; and the 
Saudis say, well, he's got to sign off to let her go. Come on.
    Mr. Shays.
    Mr. Shays. Thank you. I know we need to get to the next 
panel, so I won't go into great depth.
    But, Mr. Petruzzello, just so I'm clear, as Ms. Tonetti 
pointed out, I had an opportunity to look at some of the 
information in this document, the document here. I want to be 
clear. We've already been asked about the letters.
    Did you have anything to do with either of the articles? 
You're familiar with what's in the packet, correct?
    Mr. Petruzzello. Pardon me. I'm familiar with what's in the 
packet, but I can't see it from here.
    Mr. Shays. Well, these are the two articles. Did you have 
anything to do with preparing these two articles?
    Mr. Petruzzello. The Washington Post article, that is the 
one from the Associated Press?
    Mr. Shays. Why don't you get out the packet that your 
office prepared.
    Mr. Petruzzello. I don't have it.
    Mr. Shays. Isn't this packet something you gave out?
    Mr. Petruzzello. This was distributed by the embassy?
    Mr. Shays. Right. Is this something that you helped 
prepare?
    Mr. Petruzzello. Yes.
    Mr. Shays. Let's give him the whole packet. I don't want to 
be disingenuous, but you helped prepare this packet?
    Mr. Petruzzello. No. I just want to be accurate in terms of 
your questions.
    Mr. Shays. I know you do. So I'm saying this is a packet 
that you helped prepare, but it was distributed by the embassy; 
is that correct?
    Mr. Petruzzello. Pardon me?
    Mr. Shays. This is a packet that you helped prepare, but 
it's distributed by the embassy.
    Mr. Petruzzello. That's correct.
    Mr. Shays. The two letters you've already responded to, how 
you got involved in those.
    Mr. Petruzzello. Right.
    Mr. Shays. The two articles, did you help prepare those 
articles?
    Mr. Petruzzello. The article by Donna Abu-Nasr. She's with 
the Associated Press, and no, I did not help with that article.
    Mr. Shays. The Wall Street Journal.
    Mr. Petruzzello. The Wall Street Journal, this is his 
letter to the Wall Street----
    Mr. Shays. ``we Are Not Holding Americans Captive,'' did 
you help prepare that?
    Mr. Petruzzello. Yes. And as I previously testified, we 
provided some talking points to the embassy, but this was 
developed by the embassy and by Prince Bandar.
    Mr. Shays. And then ``The Kingdom of Saudi Arabia Is Fully 
Committed to Resolving Parent-Child Abduction Cases,'' did you 
help prepare that?
    And when I say you, I mean you or anyone in your----
    Mr. Petruzzello. Yes. Yes. We helped the Saudi embassy 
prepare this.
    Mr. Shays. So when I'm asking questions about opinions and 
knowledge of the families, in order to prepare this, you would 
have had to have done some research about these cases. Is that 
not correct?
    Mr. Petruzzello. Well, we would have taken information that 
we were given from the embassy in helping them prepare this 
letter.
    Mr. Shays. Let me ask the question again. In order to help 
make suggestions and make a contribution of what should go in 
here, you would have had to have familiarized yourself somewhat 
with these cases; is that not correct.
    Mr. Petruzzello. On the individual cases we have some basic 
familiarity, but we do not know the details of them, no.
    Mr. Shays. But you had enough information in order to make 
a contribution and make suggestions for this document; is that 
not correct?
    Mr. Petruzzello. Yes, depending on what exactly you're 
referring to. You know, we have an understanding of what's in 
here.
    Mr. Shays. Let me just make reference to--it's not numbered 
but it's the fourth page. It relates to Al-Arifi and Mrs. 
Tonetti, correct?
    Mr. Petruzzello. Yes.
    Mr. Shays. And I'm going to read it. It says: A meeting was 
arranged with Representative Brian Kerns of Indiana and Joanna 
Stephenson's children. The children are of the ages 12, 11, and 
7, and were abducted by Saudi ex-husband in August 2000. 
Representative Kerns met with the children and arranged a 
telephone call between the children and their mother. This case 
is in the process of being resolved.
    We're talking correctly about Ms. Tonetti's case; correct?
    Mr. Petruzzello. This case has to deal with Ms. Tonetti?
    Mr. Shays. Yes.
    Mr. Petruzzello. OK.
    Mr. Shays. Correct?
    Mr. Petruzzello. I believe so, yes. I didn't----
    Mr. Shays. I want you to react to what's in this document 
and tell me where there's accuracy and where there isn't.
    Ms. Tonetti. Well it's extremely accurate where is says 
that they were abducted, which is a crime in this country, I 
believe, and I am sure it is a crime----
    Mr. Shays. Do me a favor. Just let me ask some questions.
    Ms. Tonetti. OK.
    Mr. Shays. In regards to this, is this the first time that 
you've seen the Saudi Government admit that they were abducted?
    Ms. Tonetti. Yes, it is.
    Mr. Shays. OK. So would you call at least this part of it 
progress?
    Ms. Tonetti. As far as they're being honest, yes.
    Mr. Shays. About finally acknowledging that your children 
were abducted?
    Ms. Tonetti. Yes.
    Mr. Shays. OK. Now--and would you then speak to the second 
part? I mean, you know, I appreciate what Mr. Kerns, what 
Representative Kerns has done. ``this case is in the process of 
being resolved.'' Explain to me how you interpret that.
    Ms. Tonetti. ``resolved'' I would interpret as bringing 
three American children home. I have no clue as to how it is 
being resolved. This is the first time I've ever seen that.
    Mr. Shays. OK. So have you felt that this case is being 
resolved?
    Ms. Tonetti. No, I have not.
    Mr. Shays. OK. Under what basis, Mr. Petruzzello, would you 
say this is being a resolved case. How is it being resolved?
    Mr. Petruzzello. That's the position of the Saudi Embassy.
    Mr. Shays. OK. But explain to me their position.
    Mr. Petruzzello. What they have said is that they are 
working on finding resolutions to these cases. I don't know 
about the particulars of this case, so I can't comment on it.
    Mr. Shays. Ms. Tonetti, tell me, in the last--tell me how--
what contacts have you now had with the Saudi Government or 
with your former husband or with--not with your children, 
because they're not resolving it, they're still too young for 
that. I mean, they're held captive, and they were abducted and 
held captive. So the question I'm asking you is, tell me, to 
your--explain ``resolved'' as it relates to your side of the 
story. How is it being resolved?
    Ms. Tonetti. As far as I know, I don't know how it's being 
resolved. I think the----
    Mr. Shays. Has the Saudi Government been in contact with 
you?
    Ms. Tonetti. I did meet with some officials yesterday.
    Mr. Shays. First time?
    Ms. Tonetti. Yes.
    Mr. Shays. First time.
    Ms. Tonetti. Yes.
    Mr. Shays. And did they talk about how they were going to 
bring your children home again?
    Ms. Tonetti. No.
    Mr. Shays. They didn't talk about how they were going to 
bring your abducted children home.
    Ms. Tonetti. No.
    Mr. Shays. OK. The gist of it was--can you share that with 
us, if you care to?
    Ms. Tonetti. The gist of it was trying to get some 
semblance of contact between me and my children on a hopefully 
regular basis.
    Mr. Shays. So they weren't talking about returning your 
abducted children. They were talking about somehow having you 
have contact.
    Let me ask you, your children were abducted in August 2000, 
so we're basically talking now 2 years. Again, describe--and I 
know you have answered it--how often have you seen your 
children?
    Ms. Tonetti. Never.
    Mr. Shays. How often have you spoken to them?
    Ms. Tonetti. Twice.
    Mr. Shays. OK. And that's been when?
    Ms. Tonetti. August 30th of this year, thanks to 
Congressman Kerns, and yesterday.
    Mr. Shays. OK. Now, I just for a second want to have you 
put yourself in the position of Pat Roush, OK? Your children 
are now--are age 12, 11, and 7. Is that the age--that's the 
ages they are now; is that correct?
    Ms. Tonetti. Yes, sir.
    Mr. Shays. So they were basically 10, 9 and 5.
    Ms. Tonetti. Yes, sir.
    Mr. Shays. OK. And I'm not trying to bring pain to you 
here, my friend, but I want you to put yourself in Pat Roush's 
position. Her children were--for the record, Mr. Wilson, would 
you tell me the ages of her three children when they were 
kidnapped?
    Mr. Wilson. Two children, very young. Infant children. 
Infant children. Now 23.
    Mr. Shays. Well I have the ages somewhere else. Excuse me. 
Alia was 3 and Aisha was 7. That's the ages. Now, if they had 
been--and they have been separated now from their parents for 
17 years.
    Do you think it's possible that if your children had been 
separated from you for 17 years, in other words, when they 
were--they were 10, they would be 27--when they were 9, they 
would be 17 years older; when they were 5, they would be 17 
years older. Do you think it's possible that they might say 
after 17 years of being incarcerated and not able to meet with 
you--that they might say that they, heaven forbid, may not love 
you or they may not want to see you again? Do you think that's 
possible, as horrific as that thought is.
    Ms. Tonetti. I think after 17 years of Saudi brainwashing, 
they would say anything that the Saudis wanted.
    Mr. Shays. So I'm going to ask your opinion about this, not 
Mrs. Roush's opinion. Do you think that 17 years later, do you 
think it is a coincidence that the one case that they sought to 
highlight and suggest that there was no incarceration, would 
be--of all these 11 families--that it would be the family that 
had been not in contact--the mother had not been in any 
meaningful contact in 17 years? And ``meaningful contact,'' I 
don't mean calling on the phone or coming to see one in the 
room. Meaningful contact is where you're able to put your arms 
around your child, be able to walk around the street, being 
able to see your child, maybe perform in some school program, 
maybe to be able to tuck your child in at night.
    Do you think after 17 years of not having that, that it was 
a coincidence that the one family they chose to highlight, to 
demonstrate that no one was being held against their will would 
be this family?
    Ms. Tonetti. I think it's very coincidental and highly 
suspect.
    Mr. Shays. OK. And do you also--and I would ask you Ms. 
McClain, and I would ask you, Mr. Rives, the same question.
    Ms. McClain. Yes. I agree with her that 17 years of 
brainwashing would do severe emotional damage to these girls. I 
saw my daughter this summer. She was not the same child that 
left me 5 years ago. She doesn't smile. She doesn't laugh. She 
only talks when her father lets her talk. I think she needs 
psychological help, and it's only been 5 years.
    Mr. Shays. Mr. Rives. And refresh me again, Mr. Rives, in 
terms of your case. Your child is----
    Mr. Rives. Sami and Lilly, they're 3 and 4 and they were 
taken a year and a half ago.
    Mr. Shays. So, I mean, let me just ask you this 
parenthetically. Do you think that they would treat you 
differently a year from now or 5 years from now or 10 years 
from now than they would today? Do you think that with each 
passing year you may lose contact with your children, that they 
may not have the same warmth to you that they might if you saw 
them today?
    Mr. Rives. My children only speak Arabic and they're only 
being taught Arabic. They only know me from a voice on a 
telephone. And if they have to go through those many years 
without seeing me or even talking to me in a language they can 
understand, they're going to say, Daddy, where were you?
    Mr. Shays. So, I mean, it's almost--not almost, it's 
totally meaningless, would not all three of you say, to have a 
press conference in London after 17 years, somehow describing 
that?
    Mr. Rives. No, it's ridiculous.
    Mr. Shays. Would you say it's ridiculous, Ms. McClain?
    Ms. McClain. Yes, I would. And it's very dishonest and 
disingenuous on the part of the Saudi Arabian Government.
    Mr. Shays. Ms. Tonetti.
    Ms. Tonetti. I agree. It's very disingenuous.
    Mr. Shays. Now, Mr. Petruzzello, don't you think that with 
every passing year--and tell me your children's name--not their 
name; excuse me, I do not want to bring your children's name--I 
apologize for even suggesting that. My apology to you. You do 
have children, correct?
    Mr. Petruzzello. I have one son, yes.
    Mr. Shays. Yes. And how old is he?
    Mr. Petruzzello. He's 6.
    Mr. Shays. Don't you think it's conceivable if you had no 
meaningful contact with your son for 10 years that he might not 
feel as close to you as he feels now?
    Mr. Petruzzello. Absolutely.
    Mr. Shays. OK. So as a PR person, now, do you think there's 
much validity for your client in having a family have this 
event 17 years after being abducted from their mother? Do you 
think that has much public relations benefit?
    Mr. Petruzzello. No, it does not.
    Mr. Shays. OK. Would you have advised them against doing 
that?
    Mr. Petruzzello. Against doing what?
    Mr. Shays. Having this charade of bringing a family to try 
to demonstrate that no one is being held against their will?
    Mr. Petruzzello. My recommendation to them, I think, which 
is consistent with their goal, is to have the girls come to the 
United States. And the Saudi Government said they would like to 
have the family reunited.
    Mr. Shays. OK. There have been very strong words today by a 
lot of us, and we might choose to express it more 
diplomatically in one sense. But the one thing I think that all 
of us are trying to convince your client, and so we are 
speaking to you--through you to your client--is that we as 
Members of Congress get involved with cases all over the world 
bringing children that have been abducted. I can cite cases in 
other countries. And we've even had the police in Romania go 
and bring back a child. They only found one.
    They didn't find the second, because they didn't go into 
the house. And we said, you know, that's kind of dumb because 
the other one was in the house. They went in the house and 
couldn't find it. We said, well, that's kind of dumb because it 
may not be in the house, but they may be somewhere else.
    They kept at it and they eventually reunited this mother 
with her two children. And we also knew that this mother could 
go in Romania and travel and speak to the press. We don't see 
that same--that same ability to Saudi Arabia. So I want to say 
to you, and through you, to your--the government you're 
representing--that it is a totally meaningless thing to have 
Mrs. Roush's children be put on display in London, not in the 
United States, not with their parent, to say what these 
children have said after 17 years.
    And while there seem to be 11 or 12 cases in dispute, which 
the Saudi Government may say is less than others, there are 
some huge differences. And that whether Mr. Burton or I or 
anyone else is reelected, we know that there will be others 
here who will pursue this with all the intensity that you can 
possibly imagine.
    And then I am just going to conclude by saying politicians 
get elected doing things to get attention. I mean, all of those 
are accusations. But there is--and I've lost my page on it--
there is in the document you distributed a claim--and could you 
read me the--Mr. Wilson, can you read me on the document the 
claim about the purpose of this is only being for public 
relations? Do you know where it is? Maybe you could find it. 
You find it for me, sir. You help do this. Read that line where 
it says that this is solely for public relations.
    Mr. Petruzzello. Which document do you think it's in?
    Mr. Shays. Well, one of the documents in the green folder. 
And I'm willing to just have you wait while you find it. We'll 
see who can find it sooner.
    Mr. Petruzzello. Congressman----
    Mr. Shays. We'll keep waiting.
    Mr. Petruzzello. Not trying to be cute here, but the line 
does not spring to mind. I am not clear whether it's in one of 
the letters or one of the materials.
    Mr. Shays. OK. Well, we have it in the article.
    Mr. Petruzzello. It's in the article.
    Mr. Shays. Let's find it in a few other places. No, I know 
it's there, so I have total comfort level. The abduction of any 
children is the human tragedy that should not be politicized is 
one comment. In the----
    Mr. Petruzzello. You're looking at Prince Bandar's letter 
to the Wall Street Journal?
    Mr. Shays. The Wall Street article. Turning this issue into 
a political football for publicity's sake clouds the realities 
and complicates the path toward resolution.
    Protocol to save children--where is it here? It's not a 
government-to-government problem. It's a family problem which 
is short of absurd. You know, the fact is that if Mr. Burton 
hadn't publicized this, had others not made this an issue, had 
the parents not spoken out, they would have surrendered, and 
the fact is that Ms. Tonetti would not see this statement that 
her three children were abducted. That would never have been 
stated. And we wouldn't see this case is in the process of 
being resolved.
    I'd also like you to just pass onto your client that the 
only way you resolve this case is returning the abducted 
children. That's the only way you resolve it, because they were 
abducted.
    And so, you know, I would just say to the chairman, keep 
pushing; to the staff, thank you for your good work.
    To the very precious parents, the way you reach us is to 
just have us think of our own children. And our hearts bleed 
for you. And we don't intend to bring you any more pain by the 
questions we ask, or add to your tears, but you have a right to 
expect that your government will speak up for you. You have a 
right to know that NBC employees will work on your behalf for 
justice. You have all those rights of expectation.
    And to Mrs. Roush, I would say to you, you have waited the 
longest and your wait has to be even more painful. But I do 
know you'll never give up. Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Shays.
    Let me go through some questions here that we want to have 
answered for the record rather than me expounding anymore. I 
think you have an idea how I feel about all this. The case of 
Amjad Radwan is a high-profile case and it involves a 19-year-
old girl who has consistently maintained that she wants to 
leave Saudi Arabia and return to the United States just before 
the congressional delegation left for Saudi Arabia, her father 
put her in the hospital to have her stomach stapled so she 
could lose some weight. Then he married her to a 42-year-old 
Saudi Air Force pilot who already had a wife and five children.
    Do you think her getting married--she was all packed and 
ready to come, and about 3, 4 days before we got there--is that 
right--she was taken and left in the middle of the night. The 
day we left here to go over there, she was--left in the middle 
of the night. She couldn't drive a car, so somebody picked her 
up and drove her someplace. And she was then with her new 
husband whom she really had just met. Do you think all that was 
a coincidence?
    Mr. Petruzzello. Mr. Chairman, I don't know anything about 
that. I would--I could probably say with some confidence that 
the government is not involved in that.
    Mr. Burton. Can you say with confidence that the government 
was not involved in that?
    Mr. Petruzzello. In having her married.
    Mr. Burton. No, no. Wait a minute. Her father was contacted 
by the Saudi Government, you know, saying that they wanted to 
work this out, they said. And then she was married to a 42-
year-old man with five children. And then we met with her, and 
she was extremely nervous and looking back and forth, saying 
she wanted to come to the United States, but not now. And you 
don't think the government had anything to do with that. You 
think this was just something that was between the father and 
this guy?
    Mr. Petruzzello. The government has said that was a family 
matter that----
    Mr. Burton. And why should I believe the government, 
because they have had no involvement in giving passports to 
these women's kids when the court ordered them not to and gave 
the information to the Saudi embassy here. So we should believe 
them?
    Mr. Petruzzello. I think what the government has said is 
that they have been working on enabling Amjad Radwan to come to 
the United States.
    Mr. Burton. Well, when did you just first hear about the 
marriage of her to this guy?
    Mr. Petruzzello. I don't know exactly when I heard about 
it. It was very recently. I think it was in something--either a 
report on your trip, I think it was actually. I think----
    Mr. Burton. So you didn't hear about it until after we were 
back.
    Mr. Petruzzello. I think I actually heard about it through 
one of your media appearances.
    Mr. Burton. You have previously told the committee staff 
that members of the Saudi Royal Family were personally involved 
in this case. Did any Saudi Government official or member of 
the Royal Family have conversation with Amjad Radwan's family 
that you know of?
    Mr. Petruzzello. I understand that these representatives of 
the Saudi Government have had contact with her family.
    Mr. Burton. Do you know when those conversations began?
    Mr. Petruzzello. No, I don't.
    Mr. Burton. Can you tell us anything about those 
conversations between the government and Amjad?
    Mr. Petruzzello. No, I cannot.
    Mr. Burton. Do you know who the conversations were with?
    Mr. Petruzzello. No, I don't.
    Mr. Burton. You're getting $200,000 a month and you don't 
know any of those things on this issue. Man, I ought to get 
your job. Man, I could just sit at home and watch TV and get 
$200,000 a month. Because you expressed great optimism to the 
committee that this case would be settled in a way that would 
be favorably received by the committee. Then on August 23rd you 
had a different message, and you said that the case was now 
proving more difficult. Why was there a change?
    You said it was going to be settled in a way that would be 
favorable to the committee. That's what you told my staff.
    Mr. Petruzzello. Yes.
    Mr. Burton. And then on August 23rd you had a different 
message, and you said it's proving more difficult. Now, why was 
there a change?
    Mr. Petruzzello. Because the feedback that the Saudi 
Government was getting was that she was telling our embassy and 
the government that while she wanted to leave Saudi Arabia, 
without anyone's permission, she didn't want to do so now. And 
I think that perplexed everyone involved.
    Mr. Burton. You don't think she was under any pressure from 
anybody or anything?
    Mr. Petruzzello. You know, my position is----
    Mr. Burton. I looked at her eyes. I couldn't see anything 
but her eyes because she had an abaya on, d she was trembling 
like this, she'd say I want to go to America; then she'd look 
at this guy who she just met and then she'd say, but I don't 
want to go right now.
    This week lobbyists were passing out a memo that said Amjad 
Radwan has been--the case has been resolved. Has he been 
passing these out? Have you been passing those out? The green 
packet says that case has been resolved. And yet just before 
the congressional delegation went to Saudi Arabia, Amjad had 
her stomach stapled and was married to a man 22 years older 
than her who had a wife and five children. Is that what you 
mean by resolving the case, or just her getting a passport?
    Mr. Petruzzello. Mr. Chairman, the position of the 
government is that she has a passport and the ability to leave. 
The government doesn't know what else they can do at this 
point.
    Mr. Burton. Do you know when she was married?
    Mr. Petruzzello. No, I do not.
    Mr. Burton. Was the operation that she went through and the 
marriage part of the resolution of this case?
    Mr. Petruzzello. I have no idea.
    Mr. Burton. You don't have any idea? Do you think that 
Foreign Minister Saud had the facts right when he said that 
Amjad claimed that she had been sexually molested by her own 
full brother? By her full brother--by her brother.
    Mr. Petruzzello. Can you repeat that? That Prince Saud 
said----
    Mr. Burton. Do you think that Foreign Minister Saud had the 
facts right when he said that Amjad claimed that she had been 
sexually molested by her brother?
    Mr. Petruzzello. I wouldn't know.
    Mr. Burton. You don't know about that either.
    According to Amjad's brother, when he and his sister lived 
with their father and stepmother they were treated, in his 
words, like dogs. They were both beaten and forced to eat on 
the floor. Both were physically and sexually abused, according 
to Amjad's brother and mother. Do you think it matters if an 
American citizen is held against her will in Saudi Arabia and 
is treated like a dog? And this came from the brother.
    Mr. Petruzzello. Do I think----
    Mr. Burton. Do you think it matters if they're treated like 
that over there?
    Mr. Petruzzello. I don't know how to comment on that.
    Mr. Burton. Well, do you think that you would want anybody 
to be treated like that?
    Mr. Petruzzello. Oh, of course not. Yes.
    Mr. Burton. Do you know enough about this case to be 
comfortable with the representation that the Amjad case has 
been resolved? Do you think you know enough about that case to 
say it's been resolved?
    Mr. Petruzzello. No. I could reiterate, Mr. Chairman what--
--
    Mr. Burton. Well, you put in that green folder that it's 
been resolved. Now you heard some of these things. Do you think 
you have enough information to say that it's been successfully 
resolved?
    Mr. Petruzzello. Well, the information from the embassy, 
reiterates their position, Mr. Chairman.
    Mr. Burton. That it's been resolved.
    Mr. Petruzzello. That she has the ability to leave the 
country when she chooses to do so and that the government is at 
a loss of where to go from there.
    Mr. Burton. She can leave the country when she chooses to 
do so, like the two young ladies that were in England had the 
right to free speech, with their husbands and the other people 
in the entourage sitting outside. And they have been brought up 
in a very repressive society where women are beaten or 
threatened or worse if they don't do what their husbands said. 
And so you think that she is speaking--and she could leave of 
her own free will if she wants to now after growing up in that 
kind of environment.
    Let me ask you about the million-dollar bribe. The Saudi 
Foreign Minister told the U.S. Ambassador to Saudi Arabia that 
I and the committee's chief counsel met with Amjad and her new 
husband and they told Prince Saud that they'd been offered $1 
million by me to come to the United States. When did you first 
hear of this accusation?
    Mr. Petruzzello. I first heard about that, it was after you 
had returned to the United States.
    Mr. Burton. Do you think I offered them $1 million?
    Mr. Petruzzello. Mr. Chairman, I think that was absurd.
    Mr. Burton. Yeah. The U.S. Ambassador was also told that 
Amjad and her husband said that they would stay in Saudi Arabia 
if the Saudi Government gave them more than $1 million. In a 
high profile case like this, do you really think it's likely 
that a scared 19-year-old and a Saudi Air Force pilot would 
attempt to extort money from the Saudi family?
    Mr. Petruzzello. I never heard anything about that.
    Mr. Burton. Yeah. Well, I've got to tell you I think that's 
a little far-fetched when you know how they treat people over 
there who break the law, you know. Pretty severe. Try to extort 
money from the Royal Family over there. My goodness. Somebody 
ought to write a novel about this. Apparently the husband 
signed a statement alleging--describing the alleged bribe. Have 
you seen that statement?
    Mr. Petruzzello. No, I have not.
    Mr. Burton. You have not seen that? OK. Can I get a copy of 
what? Can you get us a copy of the statement?
    Mr. Petruzzello. Can I personally? I don't think so. I 
could----
    Mr. Burton. Well, you work for them, for crying out loud. 
Will you ask them?
    Mr. Petruzzello. I will relay your request to the embassy.
    Mr. Burton. Well, will you ask them; say, hey, can you give 
me a copy? Just ask them.
    Mr. Petruzzello. OK.
    Mr. Burton. We have to go for a vote and we have--Chris, 
were you going to go over to vote? Representative Shays.
    Mr. Shays. Just one last point, just very quickly.
    Mr. Burton. OK.
    Mr. Shays. Just as I was going through, just on the front 
page of--the Kingdom of Saudi Arabia is fully committed to 
resolving parental and child abduction cases.
    The second paragraph: There's been a great deal of 
confusion, misconceptions, surrounding the issue of child 
custody and abduction. Some have charged that Saudi Arabia is 
holding Americans against their will. This is absolutely not 
true.
    I think even the statements of the Saudi Government through 
this has suggested that the abductions are against their will.
    But then they say, and then they go on to say--but there 
are some who are more eager to make headlines than make 
progress on this issue.
    And I would just say to you, I think without the 
administration, without your chairmanship--excuse me a second, 
excuse me, Mr. Chairman--without this committee making a 
forceful attempt to bring this to public attention, I don't 
think we'd see the progress we've seen. And so I guess that's 
the response that the Saudi Government wants to make, but I 
think it's mindless. Thank you.
    Mr. Burton. Thank you, Mr. Shays.
    I ask unanimous consent that Chief Counsel Wilson can 
conclude the questioning while I run over to the floor to vote. 
I will be right back and, without objection, so ordered. So 
he's going to ask questions of the witnesses. I'll be back just 
as soon as I can finish this vote.
    Mr. Wilson. It's always good when you start to question 
people and everyone leaves the room, so I will be very very 
brief.
    Mr. Petruzzello. Mr. Wilson, would you mind if we took a 
brief break?
    Mr. Wilson. That would be fine. If we could keep it very 
brief, say, to a couple of minutes, and we will try and finish 
this panel quickly.
    Mr. Burton. Excuse me. I think we will stand in recess 
until the fall of the gavel. I don't want to do anything that 
might be questioned by the rules of the House. We will be back 
in a minute.
    [Recess.]
    Mr. Ose [presiding]. We're going to reconvene here. All 
right, here's what we're going to do, ladies and gentlemen. 
We're going to have--we have a vote on right now. We have about 
5 minutes left. Then we have two privileged resolutions on the 
floor, so Members are going to be going back and forth as the 
debate goes on.
    We are going to proceed with questions. Counsel to the 
staff--to the committee, per the chairman's directive, is going 
to ask some questions, and to the extent Members come in and 
have additional questions those will get asked also.
    Mr. Wilson.
    Mr. Wilson. Just finishing off the line of questions on 
Amjad Radwan, are you able, Mr. Petruzzello to provide any 
assurances to the committee that Amjad Radwan was not coerced 
or that she has not been subject to incredible pressure?
    Mr. Petruzzello. I can't give you any personal assurances, 
no.
    Mr. Wilson. Do you think that she was afforded the types of 
basic rights that would allow her to make an informed decision 
about her future?
    Mr. Petruzzello. You know, I don't know, Mr. Wilson, 
anything about her family or her family situation to comment on 
that.
    Mr. Wilson. Just to return to one issue. We're trying to 
complete a record as much as possible, so I'll go through this 
very quickly. But you told us earlier that you didn't watch the 
hearing yesterday, and you told us that you had not been 
briefed about the hearing. But you have been able to hear today 
from Ms. Tonetti and Ms. McClain, Mr. Rives, and Ms. Dabbagh, 
and you have certainly learned a lot about the Roush case and 
the case of Amjad Radwan.
    Is it fair to say that you've learned in the last couple of 
days that kidnapped U.S. citizens in Saudi Arabia are under a 
great deal of pressure or duress? Is that a fair 
characterization?
    Mr. Petruzzello. I would say, listening to the testimony, 
that would be the impression one would gets.
    Mr. Wilson. So do you have confidence that when a Saudi--
when a woman who is in Saudi Arabia makes a statement that she 
is representing faithfully what she really thinks?
    Mr. Petruzzello. Mr. Wilson, you're asking me a 
hypothetical. You know, I don't know how to comment on that.
    Mr. Wilson. Well, the only reason I asked you this is 
because you're prepared to put your name and the name of your 
company on the publications that are handed out and the letters 
that go into the newspapers and the representations to us, so 
it is important for us to know whether you believe that what's 
being communicated is accurate.
    And so I think it is important for us to understand what 
you do believe. And so, you know, I ask you again, do you have 
confidence that when a woman in Saudi Arabia makes a statement, 
that it is an accurate depiction of what she believes?
    Mr. Petruzzello. I've had an opportunity to meet a number 
of women in Saudi Arabia and have seen a number of women, you 
know, come here to the United States. And of the women that 
I've met from Saudi Arabia, I've had no reason to think that 
what they have said is not how they feel.
    Mr. Wilson. Now, let's move quickly to the kidnap cases 
where you have women, sometimes men, who are kidnapped. Do you 
put them in the same category as the people you were just 
describing?
    Mr. Petruzzello. You're talking about individuals that I've 
never met and situations that I do not understand.
    Mr. Wilson. But, from the testimony that you have heard 
today, did you learn anything from that testimony that you 
consider germane to your job?
    Mr. Petruzzello. Yes. Absolutely, that these are very 
personal and tense and complex issues, without a doubt.
    Mr. Wilson. OK. Now we've heard here from Dria Davis and 
Maha Al-Rehaili and Ramie Basrawi who have been here today, and 
they have all said much the same thing: that when one of the 
kidnap victim is speaking, you can't believe what he or she is 
saying. Why do you have such confidence in what Amjad Radwan or 
the daughters of Patricia Roush have said in the last month?
    Mr. Petruzzello. I am not following you. Why do I----
    Mr. Wilson. Why do you have confidence? I mean, you have 
passed out talking points and various things that have said 
that the cases are resolved and basically there's not a problem 
in these cases. Why do you have such confidence that what 
you're saying is accurate?
    Mr. Petruzzello. The materials--I mean, the case of Amjad 
Radwan I don't think we have--the embassy has put out anything 
that speaks to what she has said, so I'm not quite sure what in 
these documents you're referring to.
    Mr. Wilson. But you believe that the Radwan case and the 
Roush case are resolved; is that correct?
    Mr. Petruzzello. The Saudi Government has stated that, you 
know, as far as--in terms of the Al-Gheshayan case, is that 
they will continue to try and encourage the sisters to come to 
the United States and they would prefer to see the family 
reunited.
    Mr. Wilson. But what I'm asking you is whether you believe 
that they've been resolved or not. Do you think there are any 
action items on the to-do list?
    Mr. Petruzzello. I mean, if you're going to ask my personal 
opinion----
    Mr. Wilson. Yes, I am.
    Mr. Petruzzello. Just personal opinion, Mr. Wilson, I would 
prefer to see the Al-Gheshayan sisters reunited with their--
that family reunited, without a doubt.
    Mr. Wilson. And do you personally think that should have 
been done before what happened in London? And I ask you this, 
not to be mysterious, but with each successive step that's 
take, or visit or foreign trip or time that they're put under 
pressure, it's difficult for them. They're human beings. It 
makes it very difficult. Would you have preferred to have seen 
them meet with their mother instead of what happened in London?
    Mr. Petruzzello. The Saudi Government would have preferred 
for the girls to come to the United States, and the Saudi 
Government has said that they would have preferred for the 
girls to have contact with their mother.
    Mr. Wilson. Is it your position that--do you believe that 
the Saudi Government was powerless to effect some meeting with 
their mother?
    Mr. Petruzzello. That's what they have said. They said that 
they----
    Mr. Wilson. But do you believe that?
    Mr. Petruzzello. They said that they have tried, and I have 
no reason not to believe that.
    Mr. Wilson. Dria Davis when she testified--are you familiar 
with the testimony of Dria Davis before this committee?
    Mr. Petruzzello. Her testimony yesterday?
    Mr. Wilson. She didn't testify yesterday. She testified in 
June.
    Mr. Petruzzello. In June. No, I am not familiar with that 
testimony.
    Mr. Wilson. OK. She testified and she said on television 
shows that she believes now, and she believed at the time, that 
if she had spoken her mind when she was in Saudi Arabia, that 
her father would have killed her. She's here now in the United 
States. Would you send her back?
    Mr. Petruzzello. Excuse me? Would I send her back?
    Mr. Wilson. Would you send her back?
    Mr. Petruzzello. You know, me personally, no I wouldn't 
send her back.
    Mr. Wilson. OK. Do you think that she should have been 
included on the list provided to this committee of kidnap 
victims?
    Mr. Petruzzello. What list?
    Mr. Wilson. We were provided with a list by Prince Saud. I 
should ask you first, have you ever seen a list that was 
generated by Prince Saud, provided to the committee delegation 
when we were in Saudi Arabia, of alleged victims of kidnappings 
by U.S. citizens?
    Mr. Petruzzello. I'm sorry. You're saying this is a list of 
citizens, Saudi citizens?
    Mr. Wilson. Of alleged kidnappings by U.S. citizens of 
people from Saudi Arabia.
    Mr. Petruzzello. Oh, so the inverse of what we have here.
    Mr. Wilson. Yes.
    Mr. Petruzzello. Oh, no. I have not seen such a list.
    Mr. Ose. Just a couple last questions--your opinion again. 
Before we leave that point, the document that the Saudi Embassy 
put out that I believe you testified you helped construct, 
which is this deal----
    Mr. Petruzzello. Yes.
    Mr. Ose [continuing]. In fact does contain some allegations 
about Saudi citizens being abducted. Now, is it the position of 
the Saudi Arabian Government that American citizens have 
abducted Saudi citizens and brought them to the United States?
    Mr. Petruzzello. I'm sorry. Can you show me what you're 
referring to? This is a document that's titled Summaries of 
Cases Related to Saudi Citizens of American mothers?
    Mr. Ose. OK. This is an item that's appended to the letter 
from Saud Al-Faisal to Secretary Powell listing four cases: 
Yasmin Khalid al-Shahoub, Sami Jalal Mograb and Yasmin Jalal 
Mograb, Abdulaziz Nasir al-Jamedi and Khalid Saud al-Shabrani. 
Have you ever seen that list?
    Mr. Petruzzello. Congressman, as I previously testified, my 
firm didn't have anything to do with the letter from Prince 
Saud to Colin Powell, and I've never seen this--this attachment 
before.
    Mr. Ose. So it's been slipped in this package without your 
knowledge? The letter was slipped into the package without your 
knowledge.
    Mr. Petruzzello. This is the embassy's package.
    Mr. Ose. OK. Thank you.
    Mr. Wilson. Just--I'll ask you a few questions about what 
happened in London with the daughters of Patricia Roush. But 
first, there were allegations that while the two women were 
being interviewed, there was a member of your firm making 
gestures or signals to the two women. Do you know anything 
about that?
    Mr. Petruzzello. I saw a media report that suggested that 
or--but I don't know where that came from. And, you know, 
according to Shareen, that did not happen.
    Mr. Wilson. So afterwards, you did ask your employee 
whether that was accurate or inaccurate and she said it was 
inaccurate.
    Mr. Petruzzello. That's correct.
    Mr. Wilson. So it did not happen.
    Mr. Petruzzello. That's correct.
    Mr. Wilson. OK. Did you--and we can check on this and we'll 
check on this--presumably there were other people there. Did 
you check with other individuals who were involved in this 
media event to find out----
    Mr. Petruzzello. No, I did not.
    Mr. Wilson. You were aware--and I know you're aware because 
we talked over the course of many hours about the fact that the 
committee was going to make a request of whichever the highest-
ranking Saudi official we would be able to meet with in Saudi 
Arabia. We asked to meet with Crown Prince Abdullah and we 
ultimately met with the Foreign Minister, Prince Saud. And you 
were aware that our principal request was that the kidnapping 
victims be allowed to meet with their U.S. parent in the United 
States, correct?
    Mr. Petruzzello. That's correct.
    Mr. Wilson. When did the Saudi Government decide to reject 
this approach?
    Mr. Petruzzello. I'm sorry. What approach?
    Mr. Wilson. Well, our request and it was communicated very 
clearly and many times to you, was that the delegation was 
going to go to Saudi Arabia and ask the highest-ranking person 
we would meet with that the kidnap victims be able to meet with 
their U.S. parent.
    Mr. Petruzzello. In America.
    Mr. Wilson. And obviously with the Roush daughters, as we 
arrived they departed. With the Radwan case, there was--that is 
a different fact pattern. But with the Roush case, something 
very different than our request happened, which means that our 
request was rejected. We didn't even get to go and make the 
official request. When was it rejected?
    Mr. Petruzzello. You know, Mr. Wilson, it was my 
understanding that the Saudi Embassy was operating under the 
understanding that you wanted to have--that the delegation 
wanted to have meetings with the Saudi Government officials, 
but that a meeting with families was not on the agenda.
    Mr. Wilson. Well, this is precisely what I'm saying. We 
very clearly said we didn't want to go and meet with, for 
example, the Roush daughters in Saudi Arabia. We wanted to make 
an official request. We wanted to tell--to ask--and the 
chairman wanted to ask the highest-ranking person that we met 
with for the kidnap victims, the defined list of people whose 
cases we were addressing, that those--the children, or in the 
case of the Roush daughters, the adults, would meet with their 
parent. That was our request. That was the whole point of going 
on this trip.
    And yet as we arrived, unbeknownst to us, the daughters 
were not going to meet with their mother, they were going to 
London to do something else. Which means that somebody decided 
that the chairman and the delegation members would not even get 
to make their request.
    And so I'm just asking, when was the decision made to do 
something other than hear our request?
    Mr. Petruzzello. You know, I am not aware--you know, I am 
not aware that--when this official request was made to Prince 
Saud or--and I'm certainly not aware that he has rejected any 
such request. In the case of the Al-Gheshayan sisters----
    Mr. Wilson. Well, if I may just cut you off, because the 
request wasn't made because it was irrelevant by the time we 
got there. As was clearly explained to you, that the delegation 
wanted to do something that to us--and we talked about this 
over the course of hours--that seemed very reasonable. And the 
reasonable thing that we thought was that the Members of 
Congress would go and, in good faith, ask whoever the most 
senior person we could meet with, for the kidnapped children to 
be able to meet with their parent in a noncoercive, nonduress 
situation. And we asked specifically that be the United States.
    And so that was what we were going to ask. And we 
telegraphed, we told you that in advance so there would be no 
mystery, or it would be very clear, and that the Saudi official 
could be able to address our requests. But as we got there, it 
was clear that our request had been rejected because the Roush 
daughters weren't being sent to meet with their mother. They 
were being sent somewhere else.
    Mr. Petruzzello. Mr. Wilson, it is my observation that 
Saudi Arabia has been trying to honor that request, if that 
request was made, or has been trying to work to have the Al-
Gheshayan sisters come to the United States. And they have said 
publicly that they have been working for some time to encourage 
and to make that happen.
    Mr. Wilson. But they chose to do something else. They chose 
to send them to--I mean, you're not telling us today that the 
two women volunteered to go to London for a media session, are 
you?
    Mr. Petruzzello. What they've said, what the Saudi 
Government has said, is that the sisters have refused to come 
to the United States and only agreed to go so far as London to 
meet with government officials there.
    Mr. Wilson. Fair enough. The Saudi Government also said 
that they went on a vacation to London.
    Mr. Petruzzello. Did they say that?
    Mr. Wilson. Now, is that accurate?
    Mr. Petruzzello. You know, I----
    Mr. Wilson. Would you have called that a vacation? I mean, 
did they say we want to go to London on a vacation?
    Mr. Petruzzello. I don't think I would have described it as 
a vacation. They were there for 10 days or so but----
    Mr. Burton [presiding]. Can I ask you a question?
    Mr. Petruzzello. Yes.
    Mr. Burton. Do you know who paid for that trip?
    Mr. Petruzzello. No, I do not.
    Mr. Wilson. Well, there have been newspaper articles where 
Saudi Government officials have said that they paid for the 
trip. Have you received any of--I mean, I don't know if you get 
clippings in your office, but there have been a number of 
articles about the trip that the delegation took and many of 
the things that happened. Have you read any articles about the 
delegation trip or anything that we're talking about today?
    Mr. Petruzzello. We get clippings of American media each 
day. You know, I scan them. I'm not sure which articles you're 
actually referring to.
    Mr. Wilson. Well, there is one where a Saudi Government 
official wrote an article and said that the Saudi Government 
paid for the trip.
    Mr. Petruzzello. Which official and in which publication?
    Mr. Wilson. We will provide that after. Actually, I should 
ask this now before--I always forget. Will you agree to answer 
questions in writing after the hearing?
    Mr. Petruzzello. I will certainly respond to any requests.
    Mr. Wilson. Thank you very much.
    Mr. Burton. Let me ask him a question here. You get 
$200,000 a month?
    Mr. Petruzzello. Yes, Mr. Chairman.
    Mr. Burton. And you knew you were coming to this hearing.
    Mr. Petruzzello. Yes.
    Mr. Burton. Because we subpoenaed you. How long ago did I 
subpoena you?
    Mr. Petruzzello. I received the subpoena on Monday. I was 
notified that I was coming on Friday.
    Mr. Burton. Friday. A week ago.
    Mr. Petruzzello. Well, not quite a week ago. I mean, this 
most recent Friday, yes.
    The Chairman. Yeah. But you knew about our trip.
    Mr. Petruzzello. Yes, I did.
    Mr. Burton. And you knew about the media coverage 60 
minutes and all that stuff didn't you.
    Mr. Petruzzello. Yes, I did.
    Mr. Burton. And you work for the Saudi Government.
    Mr. Petruzzello. Yes, I do.
    Mr. Burton. And you get $200,000 a month. And you don't 
know any of these answers. Why are they paying you? You know 
you're under oath. You have no idea who paid for that trip for 
those girls to go to London?
    Mr. Petruzzello. Personal knowledge of it, no. I was not 
told who paid for it.
    Mr. Burton. But you knew you were coming to this hearing 
and you knew we were going to ask you a bunch of questions.
    Mr. Petruzzello. Yes.
    Mr. Burton. And you didn't even read the newspaper clips 
that talked about this. I mean, did you see the 60 Minutes 
piece?
    Mr. Petruzzello. I did.
    Mr. Burton. But you didn't read the newspaper clips that 
talked about who was paying for that trip.
    Mr. Petruzzello. I don't remember the article that Mr. 
Wilson refers to specifically.
    Mr. Burton. Well, it said that the Saudi Government said 
that they paid for that trip. And I would think that if you 
were going to come and testify, you would be prepared and know 
that. And the thing is, if they paid for that trip, then they 
knew they were going; and they knew that they were going when 
we were coming, so they made sure that we didn't have a chance 
to ask for what we wanted because they weren't there.
    How many more questions do you have of this guy? OK. Just a 
few more questions and then we will go to the next panel. Did 
you have a question?
    Mr. Ose. Yes, sir.
    Mr. Burton. Mr. Ose.
    Mr. Ose. Thank you Mr. Chairman. I'm going to get this 
right. Mr. Petruzzello.
    Mr. Petruzzello. Yes.
    Mr. Ose. All right. Yesterday Ms. Tonetti got to talk to 
her kids on the phone. And I'm just trying to connect the dots 
here. The last time she got to talk to them on the phone was in 
August, when Chairman Burton and Congressman Kerns were in 
Saudi Arabia. And that was the first time she talked to them in 
2 years, according to her earlier testimony.
    And now I'm not all that--I mean, I'm not a rocket 
scientist, I'm just a Congressman. But it sure seems to me like 
every time we have a hearing, somebody in our country gets to 
talk to their kids. Now, I kind of enjoy this. If we bring you 
down here weekly, does that mean that some American citizen is 
going to get to talk to their kids? Because we'll do that if 
that's necessary. In your opinion, as a PR expert, I'm 
connecting the dots, what would you advise us?
    Mr. Petruzzello. Congressman, you know, from a public 
relations perspective--which is largely my role, which is why I 
don't understand a lot of legalities and the ins and outs of 
what happens in the Saudi Government--but from the public 
relations perspective, it would be very good for Saudi Arabia 
and for U.S.-Saudi relations for more progress to be made on 
these--on this issue in this case.
    Mr. Ose. Mr. Chairman, if I might be so bold. We ought to--
the members of this committee, we ought to refuse to vote for 
adjournment, and have a hearing every week and then maybe some 
of our people, in fact, get an opportunity to either see or 
talk to their children.
    Mr. Burton. Well, we can hold hearings even if we've 
adjourned. I'm chairman until--you know, for the foreseeable 
future--so we can, you know, we can do it in December, 
Christmas Eve. What are you doing Christmas Eve?
    Mr. Ose. I can be here, Mr. Chairman.
    Mr. Burton. Do you have some more questions you want to 
finish up with? Just a few more questions.
    Mr. Wilson. OK. Did you or any other Qorvis person speak 
with anybody at the State Department before we, the 
congressional delegation, went to Saudi Arabia?
    Mr. Petruzzello. No.
    Mr. Wilson. OK. Are you aware of any lobbyists talking to 
anybody at the State Department before the congressional 
delegation went to Saudi Arabia?
    Mr. Petruzzello. Lobbyists representing Saudi Arabia?
    Mr. Wilson. Well I'm saying--well, yes. Start with 
lobbyists representing Saudi Arabia.
    Mr. Petruzzello. Lobbyists representing--talking to the 
State Department.
    Mr. Wilson. Before the congressional delegation went to 
Saudi Arabia about this issue or the congressional delegation--
--
    Mr. Petruzzello. I'm not sure. I'm not sure about that. 
There may have been some conversations but I don't know with 
whom or what they were about.
    Mr. Burton. Well, was your firm involved in any 
conversations?
    Mr. Petruzzello. With the State Department, no.
    Mr. Burton. With anybody in an official capacity in our 
government.
    Mr. Petruzzello. No. Other than your good selves.
    Mr. Burton. Nobody in your firm.
    Mr. Petruzzello. No. No. Our firm, you know, again, our 
firm----
    Mr. Burton. It's PR, yeah, I understand. Do you work with 
any of the other firms that do lobbying for the Saudis?
    Mr. Petruzzello. We coordinate with them, yes.
    Mr. Burton. Do you know of any of those firms, any firm, 
anybody who's paid by the Saudi Government, who talked to our 
government officials prior to our visit.
    Mr. Petruzzello. Uhm----
    Mr. Burton. You're under oath.
    Mr. Petruzzello. I know. I'm trying to give you, see if I 
recall any conversations. Again, as I said, I said I believe 
there were some conversations but I don't know with whom in the 
State Department.
    Mr. Burton. So there was somebody who was lobbying for the 
Saudi Government, being paid by them, who did talk to the State 
Department before we went over there?
    Mr. Petruzzello. It is very possible, yes.
    Mr. Burton. You don't have any idea what they said?
    Mr. Petruzzello. No, I do not.
    Mr. Burton. Well, the next panel is the State Department. 
We'll ask them. We'll ask them.
    Mr. Wilson. Same question for the Department of Defense. 
Before the delegation left, the Department of Defense denied 
visas for people, or denied permission for people to go on an 
airplane. Are you aware of any conversations, either yourself 
or members of your firm, with anybody from the Defense 
Department about the delegation's trip to Saudi Arabia?
    Mr. Petruzzello. I don't believe any conversation occurred 
with the Defense Department, no.
    Mr. Wilson. Are you aware of any other lobbyists other than 
people in your firm--outside of your firm, talking with the 
Defense Department?
    Mr. Petruzzello. Not that I'm aware of, no.
    Mr. Wilson. Just one last quick train of questions and it's 
about whether--your views on whether the Saudi Government 
follows its own laws. Have you personally seen any examples of 
where members of the Saudi Royal Family do not follow the laws 
of Islam?
    Mr. Petruzzello. That's quite a question.
    Mr. Burton. Have you ever seen them drink any booze?
    Mr. Petruzzello. Have I seen members of the Royal Family 
drink?
    Mr. Burton. Yeah. You know, the Koran and the Saudi law, I 
think, prohibits the use of alcohol. Do you think they drink 
any of that stuff?
    Mr. Petruzzello. I have not seen any members the Royal 
Family drink alcohol, no.
    Mr. Burton. Do you think they do?
    Mr. Petruzzello. That's not an appropriate question to ask.
    Mr. Burton. Oh, it isn't? Well I'm the chairman, and I 
think it's appropriate, because I think they do. And the reason 
I'm bringing that up is because, you know, they obey the laws 
of the Koran that they think they should do publicly, but 
privately, they don't follow the laws. And I've talked to 
people in an official capacity who know that for a fact. And I 
think it is a little hypocritical to make them look 
sanctimonious and self-righteous and always following the law 
and treating us properly and treating American citizens 
properly when they don't.
    Mr. Wilson. I want to move directly to Mr. Rives, who is 
sitting right next to you. We have tried very hard to 
understand Mr. Rives' case, and from what we understand, Saudi 
law does not permit the Rives children to be maintained in 
Saudi Arabia. Have you looked into the Rives case at all? Are 
you even remotely familiar with Mr. Rives' case?
    Mr. Petruzzello. I'm not familiar with it, no.
    Mr. Wilson. Well, I won't take the time now to tell you 
everything about it. But--well it's a long story, but it 
appears that there is no basis for the Rives children to be 
kept in Saudi Arabia.
    Now, I raise this, because when we met, you and I and other 
lobbyists and our staff and the chairman and others were 
engaged. We were told repeatedly that the Saudi Government's 
hands were tied. They were powerless to do anything because 
their law prevented them.
    Mr. Rives appears to be a very clear case that stands in 
complete contradiction to everything we were told, and it's 
troubling to us when we spend hours and hours and hours meeting 
about these issues that--the legal term might be a willful form 
of ignorance or a willful blindness to the facts of some of 
these cases.
    Do you know whether the Saudi Government has taken any 
steps to try and get Mr. Rives' two infant children back to 
him?
    Mr. Petruzzello. Mr. Wilson, I don't know specifically on 
the Rives case. What I do know is that what the Saudi 
Government would like is to continue to have a constructive 
dialog with your committee and with the State Department to try 
and share information so that the----
    Mr. Wilson. They said----
    Mr. Burton. One second. Yesterday Ms. Tonetti was asked by 
Senator Bayh to come over, and the Saudi embassy sent some of 
their officials over to meet with her. Ms. Tonetti asked us to 
go over there and be with her, myself and Congressman Kerns, 
and you said just a moment ago the Saudi Government wants to 
work with our government and our committee to solve these 
problems. Well, I'm the chairman of this committee, and when I 
went over there yesterday, the Saudi Government refused to meet 
with Ms. Tonetti if I was in the meeting. That doesn't sound to 
me like they want to be too cooperative.
    Mr. Wilson. When we were in--when the delegation--the 
congressional delegation was in Jidda, Prince Saud very clearly 
explained that Saudi--the Kingdom of Saudi Arabia did not 
recognize U.S. laws that pertain to any family matter, marriage 
or children. Do you personally believe that the Kingdom of 
Saudi Arabia should recognize the laws of the United States 
that apply to children or marriages?
    Mr. Petruzzello. Mr. Wilson, I have little knowledge of 
international law, and I don't know which countries respect 
U.S. law or don't respect, whether that is singular to Saudi 
Arabia or whether that applies to other countries as well or 
whether the United States respects Saudi law, I have no idea.
    Mr. Wilson. OK.
    Mr. Burton. We'll submit some more questions to you in 
writing. You know, we went into Afghanistan, and Jay Leno's 
wife--I don't know if you've ever watched the Tonight Show, but 
his wife was the leading advocate for human rights for the 
women in Afghanistan, and the way the women in Afghanistan were 
treated was very, very similar to what I saw in Saudi Arabia, 
and we went in and liberated Afghanistan, and now the women 
over there can go to school, they can do all the things that 
they want to. And they don't have to wear those abayas, and 
they have some human rights. I personally--and I don't speak 
for our government, but I personally think that what happened 
in Afghanistan to liberate those women ought to happen in Saudi 
Arabia and those other countries. Women are treated like dirt. 
It looks like a bunch of ghosts going around the mall with 
these abayas on. They're treated terrible, and the kids are 
treated terrible if they're American kids. And, you know, I can 
understand why a mother or a father would be just absolutely 
terrified if their kids had to grow up in that society. And 
these are American citizens, American citizens who have been 
taken against their parents' will to Saudi Arabia to live in a 
13th or 14th century society. That's something that we 
shouldn't tolerate.
    With that, Mr. Shays, have you cast your vote on the floor? 
Mr. Ose? Let me have Mr. Ose take over the Chair, and I think 
we're about through with this panel. We can go ahead and start 
with the second panel if you want to.
    Do you have two questions?
    Ms. Despres. Mr. Petruzzello, I'm Sarah Despres with the 
Democratic staff, and I promise this will be brief. I just want 
to ask a couple questions about the Saudi Ambassador's Letter 
to the Editor of the Wall Street Journal on September 12th. You 
testified earlier that you helped draft that. Is that correct?
    Mr. Petruzzello. What I testified was that we provided some 
talking points but that the letter was drafted by the embassy.
    Ms. Despres. There are a couple of--I just have two 
questions about the letter. In the first paragraph, the 
Ambassador writes, ``Some have charged that Saudi Arabia is 
holding Americans against their will. This is absolutely not 
true.'' And what I'd like to know from you is had you heard the 
testimony before this letter appeared in the Wall Street 
Journal that you have heard today, would you have advised the 
Saudi Government to write that in the letter, that line?
    Mr. Petruzzello. No. I think the Saudi Government has said 
that there are cases of child abduction that exist within Saudi 
Arabia, and that those--and that work needs to be done to 
resolve those cases.
    Ms. Despres. But this letter says, ``Some have charged that 
Saudi Arabia is holding Americans against their will. This is 
absolutely not true.''
    Is it your understanding from the testimony today that this 
statement is inaccurate?
    Mr. Petruzzello. You know, I'm not absolutely certain about 
this, but I believe what--you know, from the Saudi perspective, 
there's, you know, a difference of opinion on who are Saudi 
citizens and who are American citizens, but, you know, I would 
say, you know, this is the position of the Saudi Government and 
I can't comment any further on it.
    Ms. Despres. So the testimony that you heard today would 
not change your position on whether or not this statement is 
true?
    Mr. Petruzzello. I don't know if it would change the 
position of the Saudi Government.
    Ms. Despres. Right. I asked about your position.
    Mr. Petruzzello. I don't set policy or have anything to do 
with Saudi policy.
    Ms. Despres. OK. I'm going to move on.
    The other part of the letter I had questions about, this is 
a paragraph that begins, ``Last week our Foreign Minister met 
with the U.S. congressional delegation led by Representative 
Dan Burton. While this meeting might not in itself set the 
final resolution to all outstanding child abduction cases, it 
should be viewed as the beginning of the end to this human 
tragedy. Both parties agree to come up with practical and 
workable solutions to these tragic cases. These solutions must 
guarantee parental rights while safeguarding the right of the 
children who are the real victims in these cases.''
    My question is, when the Saudi Ambassador refers to the 
rights of the children, is he referring to the rights 
guaranteed by U.S. law or Saudi law?
    Mr. Petruzzello. I don't know the answer to that.
    Ms. Despres. OK. I have no more questions.
    Mr. Ose [presiding]. Mr. Shays, anything else?
    Mr. Shays. No.
    Mr. Ose. I want to thank this panel for appearing today. 
It's been a long panel. I appreciate your participation. We're 
going to take a 2-minute recess. I'd like the second panel to 
go ahead and come on out. I think y'all know who you are.
    [Recess.]
    Mr. Ose. All right. I want to welcome the second panel 
here. As you know, we swear our witnesses in at every hearing 
under Government Reform. So would the three of you please rise?
    [Witnesses sworn.]
    Mr. Ose. Let the record show that the witnesses answered in 
the affirmative. I want to welcome Governor Raymond Mabus, 
Deputy Assistant Secretary Ryan Crocker, and Deputy Assistant 
Secretary Dianne Andruch to the committee.
    Now, we have possession of your written testimony, and I 
know I've read it. I'm sure the others have also. We're going 
to recognize each of you in order for a 5-minute statement.
    Mr. Mabus.

 STATEMENTS OF RAYMOND MABUS, FORMER U.S. AMBASSADOR TO SAUDI 
  ARABIA; RYAN CROCKER, DEPUTY ASSISTANT SECRETARY OF STATE, 
  BUREAU OF NEAR EASTERN AFFAIRS; AND DIANNE ANDRUCH, DEPUTY 
    ASSISTANT SECRETARY OF STATE, BUREAU OF CONSULAR AFFAIRS

    Mr. Mabus. Congressman, and members of the committee, thank 
you for your invitation to testify here today. I commend you 
for your efforts and your persistence on an important and 
heartbreaking issue of American children who have been 
kidnapped to Saudi Arabia. You've shined the public light on a 
situation which has long existed in virtual anonymity.
    It was my privilege to serve as U.S. Ambassador to the 
Kingdom of Saudi Arabia from 1994 to 1996, and I believe the 
relationship between the United States and Saudi Arabia is 
exceptionally important. It seemed to me as Ambassador and it 
still seems to me now with these cases that we're hearing about 
have nothing to do with Saudi laws or customs or Islam. These 
cases have everything to do with American laws, judicial 
decisions and protecting American citizens and to having the 
State Department aggressively try to resolve them.
    On the cases that I worked on while I was Ambassador, Saudi 
men voluntarily came to the United States on a visa this 
country granted them, voluntarily got married under American 
law, voluntarily had children in America, voluntarily put 
themselves under the jurisdiction of an American court in 
obtaining a divorce. They then intentionally violated the 
American court order and kidnapped the children and refused to 
return them.
    Unfortunately, it is an all too common occurrence in 
America for a noncustodial parent to take a child in violation 
of a court decision. The Federal Government, State governments, 
courts and law enforcement agencies take these cases seriously 
and usually treat the offending parent as a felon. One thing is 
very important in these cases involving Saudi Arabia. These 
children are American citizens. When Americans have problems 
overseas, they naturally turn to embassies and the State 
Department. I heard from one mother I was trying to help, and 
I've learned later as a result of these hearings that too often 
the State Department has turned a cold, uninterested shoulder 
to the parents trying to recover their children.
    Prior to my time in Saudi Arabia, the Department evidently 
cabled the embassy in Riyadh to be officially neutral in these 
cases. I understand from these hearings that during this 
earlier time an American mother and her children tried to take 
refuge in the embassy, only to be turned away by a foreign 
service officer who said that the embassy was not a hotel. But 
most times officers in an embassy are just following the 
dictates from Washington. The people in the field 
understandably don't want to risk their jobs and careers on 
something people in Washington don't support.
    Too often these cases have been dismissed as custody 
disputes. They are not. The custody issue has been settled by 
an American judge. While I was Ambassador, I worked on some of 
these cases in detail. I tried to help everyone in this 
situation who contacted me. In one case we were successful in 
getting an American mother, Angelica Longworth, and her four 
children returned to America from Saudi Arabia, and they were 
taken into the U.S. consulate in Jidda at our invitation.
    Others, I was not successful. I dealt with high levels of 
the Saudi Government on this issue, and they were receptive and 
usually tried to be helpful. In the case of Pat Roush's 
daughters responding to a request from me, the Saudi Foreign 
Ministry sent the embassy a diplomatic note agreeing to a 
compromise to solve her case. The father, however, refused to 
cooperate, and nothing happened.
    The one thing the Saudi Government would not do while I was 
there is to make the fathers return the children. The 
relationship between the United States and Saudi Arabia is 
important. At no time did I get the slightest inkling that 
raising this issue had any adverse impact on our relationship. 
There are issues all the time that need to be solved and are 
solved without straining the ties between countries.
    I did try one strategy to resolve Pat Roush's case. I 
instructed members of personnel that no one with the last name 
of her ex-husband who had kidnapped the children would be 
granted a visa to the United States. I was under the impression 
from my preparation of being Ambassador that visas were not a 
matter of right but a privilege that could be used to advance 
the interests of the United States. I was also under the 
impression that an ambassador had the authority to deny visas 
if the interest of importance of the United States was 
involved.
    Within a relatively short time, the ex-husband became 
increasingly desperate, calling the embassy to complain that, 
``his family was furious with him.'' Before any resolution, 
though, I resigned as Ambassador, as I long planned to do, and 
returned to the United States. My successor asked the State 
Department if this policy had their blessing and was told no. 
He was instructed to end it, and he did. Pat Roush's children, 
as we know, have not been returned.
    Why the State Department told my successor this is a 
mystery. This is a good, legitimate tactic that had a strong 
chance of working. What is not a mystery is that the American 
government, following the lead of this committee, should treat 
these cases a lot more seriously and give them higher priority 
and be more creative on how to solve them. These children 
should be returned to the United States. This certainly should 
not harm our relationship with Saudi Arabia. It would be 
justice for the children and for both parents and would help 
salve years of heartache.
    Thank you.
    Mr. Ose. Thank you, Governor.
    Mr. Crocker for 5 minutes.
    Mr. Crocker. Thank you, Mr. Chairman. I will not read 
through the written statement which you already have. First, 
let me say that yesterday's testimony was as gripping and 
wrenching and tragic as what we heard in this committee room on 
the 12th of June. No one can listen to these stories without 
being deeply, deeply moved and possessed with the clear view 
that they've got--work has to be done to get them resolved.
    This administration is engaged seriously on these cases, as 
the chairman's statement noted. The President has raised it. 
The Secretary of State has done so a number of times. 
Ambassador Jordan in Saudi Arabia has been engaged, most 
recently just 2 days ago, with the Foreign Minister.
    As a result of the focus of this committee and the focus of 
the administration, there has been some progress. The 
Government of Saudi Arabia has agreed that these are human 
tragedies, and they agree that the parent-child bond needs to 
be maintained. We are in discussion with the Saudis now on the 
means by which we can assure established and regular contact 
between parents and children without going through the often 
wrenching experiences of trying to do this on an ad hoc basis.
    At the same time, it is our view that resolution of these 
cases doesn't come through child-parent contact, however 
important and valuable that is. Resolution will come when 
children and parents are reunited. We have made that view clear 
to the Saudi authorities, and that is the end to which we will 
work.
    I would certainly express my agreement with Governor Mabus. 
The Saudi-U.S. relationship is a long-established, important 
and complex one for both our countries. We have dealt with 
difficult issues in the past. We are dealing with this 
difficult issue as we move ahead now, and I would share the 
Governor's assessment that the relationship can be the 
framework by which we can resolve these cases. That is what 
diplomacy is all about, in essence. It is not about doing the 
easier, polite things. It is about getting the hard and 
difficult work done in a way that advances our own interests, 
and that's what we are committed to do.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Crocker follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Ose. Thank you, Mr. Crocker.
    Ms. Andruch for 5 minutes.
    Ms. Andruch. Yes, sir. First, I'd like to take the 
opportunity again also to thank you, the committee, and 
especially the chairman for his trip and that of the delegation 
to Saudi Arabia and the continued focus I think that these kind 
of meetings keep on this very important subject.
    The Department of State is firmly committed to the 
principle that parental child abduction or retention is wrong. 
International abductions have a very traumatic effect and 
impact on the children who are deprived of access, not only to 
one parent, but very often they are cutoff completely from 
their own nationality, the country of their nationality. These 
separations are also devastating to those parents left behind 
who often go for years without meeting or contact with or 
information about their child.
    One of the greatest challenges in Saudi Arabia, as I think 
many of the committee now knows, is that if custody disputes 
cannot be resolved within the families, which is their first 
choice, that those must be resolved in Islamic courts. There is 
a firm belief in religious and other elements of Saudi society 
that Muslim children must in fact be raised in an Islamic 
environment, preferably in Saudi Arabia.
    It is within this very difficult context that the 
Department of State seeks to resolve abductions to the Kingdom 
of Saudi Arabia. We work very closely with the parents left 
behind to explain the various approaches available.
    We believe that through our consular visits to abducted 
children, often with the assistance of Saudi authorities, we 
are laying the groundwork for this parent-child contact. We by 
no means believe for a minute that this in fact replaces the 
necessity of having the families reunited.
    We welcome the Government of Saudi Arabia's offer to work 
with us to establish clear procedures now for Americans seeking 
to visit their children, even absent sponsorship from the 
taking parent.
    We believe that this positive movement is progress that 
will allow us to move forward on all other aspects of abduction 
and custody cases and restore these parents and children to 
each other. We do not consider that these are successful cases, 
but they are small steps.
    We have a variety of other mechanisms to assist left-behind 
parents. We have expanded our coordination with the FBI, the 
Department of Justice and Interpol in these abduction cases. If 
the taking parent is in Saudi Arabia, however, we right now 
have no legal mechanism, such as an extradition treaty, with 
which to work with on the parent's involuntary return to the 
United States. We can in fact deny a U.S. visa to an abducting 
parent, certain family members of that taking parent and others 
who aid and abduct--I'm sorry--who aid an abducting parent if 
the abducted child is a U.S. citizen and is being held overseas 
in violation of a U.S. court order. Visa refusals and 
revocations under this authority can often have a positive 
impact on our efforts to secure the return of a child.
    It can also complicate other instances. Nevertheless, we 
are more aggressively entering names of all those individuals 
in our consular look-up system. You have asked us what else the 
U.S. Government can do to put pressure on the Saudi Government 
to secure the release of these citizens. We would say first and 
foremost, don't give up. Your attention to these cases and the 
recent visit to Saudi Arabia have been extremely helpful. You 
ensured that the Government of Saudi Arabia more fully 
understands the importance the Congress and the American people 
attach to the resolution of these cases, and you encourage the 
Government of Saudi Arabia to work with us toward an 
arrangement that would help resolve these cases in a more rapid 
and fair manner. We will continue to be actively engaged in 
attempting to resolve each and every one of these cases. We 
will not be done with our work until the last child is returned 
to the United States.
    Thank you.
    Mr. Ose. Thank you, Ms. Andruch. We're going to have a vote 
on the floor here shortly about another privileged resolution. 
Between Chairman Burton, Mr. Shays and myself, I hope to keep 
this hearing going. One of us--I think Mr. Burton is on the 
floor right now. So he'll vote, come back, and we'll just keep 
going.
    Mr. Crocker or Ms. Andruch, which of you handles child 
custody cases for the State Department?
    Ms. Andruch. I think that would be my office, sir.
    Mr. Ose. All right. In response to some questions we asked 
back on June 12th, I have received--or excuse me, the committee 
has received from Mr. Paul Kelley a communication dated July 1, 
2002, in part which responds to a question I asked about the 
number of cases that might exist in Saudi Arabia for children 
in these circumstances.
    I just want to go through each of these cases one by one 
and ask you for an update on them, since it is now October 2nd 
or 3rd.
    Do you have this list in front of you?
    Ms. Andruch. I do have the list, sir, but I'm not really 
able to update you on individual cases in this particular 
forum, but I would be happy to meet with you or provide a 
written answer, a written update on each of these cases.
    Mr. Ose. I am aware of the admonition in the response I 
received the preference that these things not be discussed in 
public. The fact of the matter is not discussing them in public 
has not solved the problem. So, I mean, I'm just barely smart 
enough to figure that out, but since not discussing them in 
public doesn't seem to solve them, I'm prepared to talk about 
them in public.
    Ms. Andruch. OK.
    Mr. Ose. So we're going to go through them, and if you 
don't know the answer, you can just say I don't know. All 
right?
    Ms. Andruch. Yes, sir.
    Mr. Ose. Now, we have Namet Badune who last visited her 
mother in Texas in March 2002. Do you have any current or more 
current information on that particular instance?
    Ms. Andruch. I don't know, sir.
    Mr. Ose. All right. I have a family name, al-Sarani, based 
in Riyadh. Do we have any information on that particular 
instance?
    Ms. Andruch. No, sir.
    Mr. Ose. Family name, Sultan, American name Rickett. Do we 
have any information on that case, again in Riyadh?
    Ms. Andruch. No, sir.
    Mr. Ose. Child's name of Samuel Bodo, B-o-d-o, who will 
turn 18 in March of next year, do we have any current 
information on that case?
    Ms. Andruch. No, sir.
    Mr. Ose. OK. The Rives case we've had discussed here.
    Alshun Getty case we've discussed in the past.
    Catonni we've discussed.
    OK. Simone Nasser al-Ajmi, A-j-m-i, and apparently a 
sibling Salmere Fahad. Here it says the last update we have, 
recent attempts to reach the American parent were unsuccessful, 
her phone having been disconnected. And that was--the last 
actual contact date was September 2000.
    I don't have a date in terms of what recent attempt means, 
but do you have any current information on that case?
    Ms. Andruch. No, sir.
    Mr. Ose. How about the al-Arifi case? There were three 
children involved: Rosemary Helen al-Arifi, Sarah Frances al-
Arifi and Abdulaziz al-Arifi?
    Ms. Andruch. Yes. Well, I am very familiar with that case, 
and I heard the testimony of Ms. Tonetti--much of it yesterday. 
I know that we are in frequent contact through the lawyer in 
Saudi Arabia, and there was a question in fact as to whether--
part of the problems now for her unfortunately stem from the 
charge that has been brought against her, this crimes against 
Islam, and there was a question as to whether in fact she could 
renounce her Saudi citizenship. And that would certainly be an 
option, and it would allow her then to travel without the 
threat of being tried under those charges, I believe, and she 
was going to be--I understood at least would be talking to a 
lawyer about that.
    Mr. Ose. Is she still charged with crimes against Islam?
    Ms. Andruch. Yes, sir, she is.
    Mr. Ose. We have a Mark Bashir, who turned 18 on March 7, 
2002, and as I understand Saudi law, or Sharia law, whichever, 
if the male turns 18 then the control of the adult male in the 
house, the father, is no longer the determining factor. Is that 
correct?
    Ms. Andruch. That is my understanding as well for males.
    Mr. Ose. Basrawi, Ramie Jihad, and Suzanne Jihad Basrawi, 
which I think was the subject of yesterday's hearing. Rami 
turned 18 on August 17, 2001, but it is my understanding one of 
those children still resides in Saudi Arabia and travels back 
and forth.
    Ms. Andruch. Well----
    Mr. Ose. She does not travel? She is stuck there. That 
would be Suzanne.
    Ms. Andruch. She is stuck, yes, sir.
    Mr. Ose. Do we know how old she is?
    Ms. Andruch. I thought she's about 15, isn't she? 15, yeah.
    Mr. Ose. And you have no current information on her case?
    Ms. Andruch. No, sir.
    Mr. Ose. All right. My time is expired. Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman. I just am--I'm not 
sure, frankly, in my own mind what information I want to ask 
publicly about these cases if I have a conviction that there is 
a change in heart on the part of the State Department. And I 
need to understand what was the policy of the State Department, 
and what is it today as it relates to the cases in Saudi 
Arabia? And I'll start with you, Mr. Mabus.
    Mr. Mabus. Congressman Shays, anybody that approached me, 
there were I believe four cases while I was there that the 
mother or a family member approached me. My policy was to try 
to help them and try to put whatever pressure I could bring to 
bear on the Saudi Government to return the children. I kept the 
State Department informed, as Ambassadors do, on what I was up 
to, but I never asked if it was OK. And I issued the order to 
not grant visas to any family members on my own, because I 
thought that was within my prerogative to do as Ambassador and 
that it would work.
    My understanding is that as soon as I left, my successor 
came in, found the policy in effect and asked the State 
Department if that was OK, was told it was not OK and to end 
it, and he did.
    Mr. Shays. And that was when?
    Mr. Mabus. I left in May 1996, and my successor arrived in 
August 1996.
    Mr. Shays. Now, Mr. Crocker, the policy of the 
administration today is to go back to Mr. Mabus' policy? Or 
what? What is our policy, and what was it before--in between 
1996 and now?
    Mr. Crocker. Sir, our policy has always been to find ways 
to establish communication between separated parents and 
children and to try to--to effect the reunification----
    Mr. Shays. That is the policy. What was the practice?
    Mr. Crocker. The reunification of families. I'll be quite 
frank with you. The practices is the issue. The practice of--
and a lot of effort by a lot of people went into these, of 
working with the courts, the legal system, contacts with family 
members in Saudi Arabia, and so forth, while all important and 
all things we will continue quite demonstrably, and this 
committee has illuminated it, did not produce results.
    Our position is just as I've stated it. This has high-level 
attention from this administration, and that will be sustained 
high-level attention.
    Mr. Shays. I want to apologize, Ambassador. Your service to 
our country in Saudi Arabia was distinguished, and I just 
wasn't thinking by calling you mister. I should have called you 
Ambassador. I apologize for that.
    Ms. Andruch--am I saying that name correctly?
    Ms. Andruch. Andruch. That's right.
    Mr. Shays. Would you have anything to elaborate on what Mr. 
Crocker said?
    Ms. Andruch. Yes, sir. I'd like to say that I'm not sure 
what was done between his time in Saudi Arabia and more 
recently, but in 1998, thanks to some legislation, we were able 
to expand the ineligibility that we have for people who are not 
only abductors themselves but also to immediate family members 
of abductors. Now, what we need to be able to do that is the 
names and to the extent possible the date and place of birth of 
these immediate family members, and that will ensure that their 
names will be put into a system and that visa will be refused 
when they actually apply. That was--we were not able to do that 
for that particular category before that.
    In 1991, we were able to do it for the abducting parent 
himself.
    Mr. Shays. Thank you. Mr. Crocker--and your title is? I'm 
sorry.
    Mr. Crocker. I am Deputy Assistant Secretary of State.
    Mr. Shays. Thank you. So your proper title is Mr. 
Secretary? What is your proper title?
    Mr. Crocker. Mr. Crocker is just fine.
    Mr. Shays. Did you have a chance to look at some of the 
documents that were in this?
    Mr. Crocker. I've really only seen the first page of it.
    Mr. Shays. How would you respond to this paragraph? There 
has been a great deal of confusion and misconception 
surrounding the issue of child custody and abduction. Some have 
charged that Saudi Arabia is holding Americans against their 
will. This is absolutely not true, but there are some--let's 
just take that part.
    It is clearly your testimony that some children in Saudi 
Arabia were abducted. Is that true?
    Mr. Crocker. Yes, sir, that's true.
    Mr. Shays. And is it also the position of the State 
Department that they are being held in Saudi Arabia against 
their will?
    Mr. Crocker. It is very clear from testimony that the 
committee heard yesterday that is the case.
    Mr. Shays. And it's very clear that it is the government's 
highest policy to help return these children to their families?
    Mr. Crocker. Yes, it is, sir.
    Mr. Shays. Is there anything that this committee can do to 
give it more elevation, or do you think it's pretty high 
elevation already?
    Mr. Crocker. Judging by the hearing I attended in June and 
what I saw yesterday and earlier today, I'd say it's pretty 
high.
    Mr. Shays. My comment to the sitting Chair is that I want 
to give not a lot of time, but I want to give the 
administration an opportunity to pursue the efforts that our 
Ambassador pursued when he was there with distinction and to 
allow the dialog to happen hopefully in some cases in private 
if that ultimately results in the return of these children. And 
so I'm not particularly interested in pursuing every issue as 
it relates to family members in a public setting, unless staff 
wants to persuade me differently. And I yield back.
    Mr. Ose. The gentleman yields back, and I'm prepared to 
have a discussion on that. My particular concern here is that 
the Foreign Affairs Manual, the citations I see in the 
testimony we received are that the pattern and practice of the 
State Department are such as to once they ascertain there is no 
physical--immediate physical danger to the American citizen who 
has sought refuge, that person is then basically asked to leave 
the embassy.
    Mr. Shays. So let's talk about that.
    Mr. Ose. I'm prepared to talk about that as a matter of 
policy and practice.
    Now, I do think that Governor Mabus during his time in 
Saudi Arabia actually spoke a language that was clear and 
unequivocal and was making significant progress. And your 
suggestion about how to implement that is certainly noted from 
my end. I will tell you some of these individual cases, if 
we're talking about--what is the word, ``welfare''? Welfare and 
whereabouts checks, there have been a number of years passed 
since the name where any such welfare or whereabouts check has 
been effectuated, and that gives me great pause in that regard, 
whether it is one by one or all as a bunch, because if we can 
ascertain that in fact these American citizens' welfare is 
solid, you know, what exactly are we trying to accomplish?
    Mr. Shays. May I respond?
    Mr. Ose. Certainly.
    Mr. Shays. I'd like to know the policy and if the policy 
isn't being followed in practice, I want to be assured that the 
practice is changing. I just have the sense that we have the 
attention of the State Department and the Saudi Government. The 
parents certainly have our attention, and I just would be 
curious to see the outcome of the chairman's visit, the outcome 
of these hearings in dialog with the families. And so I would 
take some guidance from the families themselves, because 
ultimately it's their cases we're trying to resolve. So I know 
I'm going to go vote, and I'll have an opportunity to talk to 
some of the families before I come back.
    Mr. Ose. All right. I think the chairman is due back here 
shortly. We've got 6 minutes and 25 seconds left in this vote. 
Mr. Shays is faster than I am, so I'm going to chase him out of 
the room here in a minute, but we're going to recess for a few 
moments, and we will be back.
    [Recess.]
    Mr. Burton [presiding]. We will call the committee back to 
order, and I apologize for my absence. I do appreciate you 
being here.
    Ambassador Mabus, when you called Washington, I understand 
you called Washington and asked them if you should consider the 
practice that you had--Fowler called Washington and asked them 
if the practice should be continued to deny visas to the 
extended family of people who were involved in the kidnappings 
and holding of these children. Are you familiar with why they 
changed that policy?
    Mr. Mabus. No, sir.
    Mr. Burton. The policy you had?
    Mr. Mabus. No, sir, I'm not. Ambassador Fowler told me that 
he--when he arrived, he found my policy in place, that he then 
asked the State Department in Washington if he had permission 
to continue it and was told that he did not and that therefore 
he ended it. I don't know what the reason was.
    Mr. Burton. Did you ever have any opposition to that policy 
while you were Ambassador?
    Mr. Mabus. No, sir, but as I've said a little bit earlier, 
I informed the State Department, kept them informed at every 
step of the way of what I was doing, but to my memory I never 
asked if I could do it. I thought that it was within the 
prerogative of my job as Ambassador.
    Mr. Burton. It seems unusual that Wyche Fowler would--
Ambassador Fowler would ask that kind of a question. It seems 
that he would have just kept on with the policy, unless he had 
some problem with it.
    I've talked to a lot of Ambassadors. I've never heard of 
anybody when there was an ongoing policy of asking if it could 
be continued, have you?
    Mr. Mabus. No, sir.
    Mr. Burton. This is probably a question that you can't 
answer, any of you, but I'd like to ask this question now. Do 
you know if Mr. Fowler is now a representative of the Saudi 
Government?
    Mr. Mabus. I don't know, Mr. Chairman.
    Mr. Burton. Do any of you know that? Don't know if he is.
    Mr. Crocker, would you agree that in the Tonetti case, that 
the Saudi embassy appears to have issued passports to Joanna 
Tonetti's children, despite the fact that it had been warned 
that her ex-husband did not have custody of the children and 
was not allowed to take them out of the country?
    Mr. Crocker. I certainly heard her testimony in which she 
laid all of that out.
    Mr. Burton. Well, would you agree that in the McClain case, 
that the Saudi Government apparently issued a passport to 
Heidi, despite the fact that it had been warned that the father 
did not have custody of Heidi and was not allowed to take her 
out of the country?
    Mr. Crocker. There again, I heard the testimony.
    Mr. Burton. Does the State Department consider the Saudi 
Government to have been complicit in the Tonetti and the 
McClain kidnappings?
    Mr. Crocker. I can't take a position on that, Mr. Chairman. 
As I said, I've heard the testimony.
    Mr. Burton. You're with the State Department, aren't you?
    Mr. Crocker. That is correct.
    Mr. Burton. If a U.S. court gives custody of a child to an 
American mother and the court notifies the Saudi embassy that 
there is a court order giving the mother custody of the 
children and admonishes the Saudi embassy not to give passports 
to those children because they're not to be taken out of the 
country and then the Saudi embassy does exactly the opposite 
and grants the passports, would you say they're complicit in 
the kidnapping of those children?
    Mr. Crocker. Mr. Chairman, this is into an area of consular 
law and practice, and I'd like to ask my colleague to address 
it.
    Mr. Burton. OK. Ms. Andruch.
    Ms. Andruch. Yes, sir. At the risk of being a skunk at the 
garden party here, what I would like to say is that in the 
United States, for example, if the tables were reversed and we 
knew about a court order from another country, Saudi Arabia, 
any other country and an American citizen came to us asking for 
a passport, by law we may refuse to issue that passport, but we 
don't always--we don't necessarily refuse. And certain--and in 
certain circumstances, the safety of the child at the time, 
other mitigating circumstances, we would want to have that 
right to issue the passport.
    Now----
    Mr. Burton. Well, let me just say, who do you folks work 
for?
    Ms. Andruch. We work for the Secretary, for the government 
and for the people.
    Mr. Burton. And for who, the people of the United States?
    Ms. Andruch. And for the people of the United States, yes, 
sir.
    Mr. Burton. That's right.
    Ms. Andruch. But would you, sir--excuse me----
    Mr. Burton. I understand what you're saying, but here we 
have a case where a government was informed of a court order in 
the United States and they granted a passport to these children 
and let the father kidnap them. The mother doesn't see them or 
hear from them anymore, and you're saying that our State 
Department doesn't take issue with that?
    Ms. Andruch. No, sir. That is not exactly what I'm saying.
    Mr. Burton. You're saying that if the tables were reversed 
and there was a child in Germany that was under court order to 
stay there and if a passport was issued--was asked for that we 
might grant the passport for that child to come back to the 
United States in violation of that court order, is that what 
you're saying?
    Ms. Andruch. Yes, sir.
    Mr. Burton. OK. The difference is in Saudi Arabia their 
oppression is unbelievable. In Germany, if an adult, child or a 
child becomes of age or if a woman is of age and they want to 
leave the country, they can do it. In Saudi Arabia, they can't 
do it unless the husband grants that authority. And the women 
are persecuted and the children are persecuted if they try to 
rebel in any way against that kind of a system. So it seems to 
me that our State Department ought to take a different view of 
countries that have a repressive policy against women and 
children than we do against a government like Germany or France 
or any other country where they can leave of their own volition 
when they're of age.
    In addition to that, the Saudis don't recognize any 
religion except their own. In France, in Germany, in other 
countries where we have these kinds of problems, they can 
worship as they choose, and they don't have to wear abayas and 
they don't have to be persecuted. So it seems to me that there 
ought to be a standard against which we hold every government, 
and the Saudi Government should not meet that standard because 
of their repressive policies. That is the difference.
    Ms. Andruch. Yes, sir. Everything you say is true, and I 
don't disagree with any of it.
    Mr. Burton. Then why hasn't our government been more 
aggressive in getting these kids back, when in the 1980's--was 
it in the 1980's or the 1990's that they went to the embassy 
with these children?
    In 1990, that was the Stowers family, Ms. Stowers and her 
children, they went to the embassy in 1990, and they were told 
it wasn't a hotel and they said that our embassy observed Saudi 
law. These are American employees that work for the government 
of the United States and the American people, and here's 
American citizens coming in, and the Marine officers take them 
to the front gate. The mother is arrested. The 12-year-old 
daughter is married off, and we're supposed to represent 
American citizens, and on our passports it says right in the 
front that we're supposed to do everything we can to help them.
    Why hasn't our State Department been more aggressive in 
helping these cases?
    Mr. Crocker. May I respond to that?
    Mr. Burton. Yeah.
    Mr. Crocker. Well, as you mentioned earlier, Ambassador 
Jordan has made it very clear that no American who needs the 
help of the embassy is going to be turned away.
    Mr. Burton. And I admire Ambassador Jordan for saying that.
    But what else has the State Department been doing? Let me 
give you some ideas. I want to give a copy of this, OK?
    I gave a copy of this, incidentally, to the Secretary of 
State, who I think he is trying to help. I have admiration for 
Colin Powell, Secretary Powell. He helped get this beautiful 
young lady, I don't see her here now, out of Kuala Lumpur; and 
he said, we might lose some diplomats out of this, but he did 
it anyhow. You tell him, I appreciate it.
    Here are some things that could be done to fix the system. 
There should be an entrance stamp on our passports, an entrance 
stamp. If a father comes into the United States and in 
violation of a court order decides to take a child to Saudi 
Arabia, kidnap them, he comes into the country, he gets an 
entrance stamp on his passport. He goes to the Saudi embassy 
and gets two passports from them to take the children back to 
Saudi Arabia. When he goes to emigrate back with the children, 
his passport will have an entrance stamp on it, but the 
children's won't, and immigration officer will say, hey, where 
is the entrance stamp on this passport and that will raise a 
red flag on the children's passport, so that they will know 
immediately that these children did not come in with the 
father, and they'll want to find out if they are legally 
entitled to leave with the father.
    That is one way to skin the cat.
    There ought to be penalties for people who violate court 
orders. These fathers, some of them, were here in the United 
States, they were in court. They got custody of the children 
for 2 or 3 weeks and they knew that they were under a court 
order to not take them out of the country and yet they did it 
anyhow. Some of them, there are warrants out for the arrest of 
some of those. There ought to be penalties for kidnappers. 
Currently, the U.S. Government denies visas to the United 
States for kidnappers and those who directly assist them. That 
is not enough to put pressure on individuals to return 
kidnapped children.
    We are drafting legislation which would allow the State 
Department to deny visas to the extended families of 
kidnappers, as well as government officials from governments 
which assist in the kidnappings. I understand that was the 
policy in the past, and it was changed; is that right? Wasn't 
there a policy in the past that denied visas where we did not 
deny visas?
    Governor Mabus, you had that policy?
    Mr. Mabus. Yes, sir, anybody with the same last name did 
not get a visa.
    Mr. Burton. It would seem to me that would be a reasonable 
thing to reinstate.
    We also had a policy in the past which the Saudis objected 
to--and other countries, I suppose, did as well, but 
particularly the Saudis--that women were informed about the 
policies of the country to which they were emigrating or going 
to. I think every woman who marries a foreign national ought to 
understand the cultures and the rules of that country.
    Now, in particular, let's talk about Saudi Arabia. If women 
know they are going to have to wear an abaya everywhere they 
go, if they know they are going to have to have their husband's 
permission to go to the bathroom or anywhere else, that they 
can't come back to the United States without their husbands 
signing an agreement to allow them to go, if they know that 
their children are not going to be able to come to the United 
States ever again without their husband's approval, I think a 
lot of those women would have some second thoughts.
    I don't know why that State Department took that kind of 
information out of their Internet and are not giving it to 
women, but I would strongly urge that kind of information be 
reinstated for every country, including Saudi Arabia, and 
especially these countries that have these kinds of oppressive 
policies. Afghanistan, the way it was before, Iran, Iraq, Saudi 
Arabia, those countries ought to be--the people ought to be at 
least made aware; then they can make an informed decision about 
whether or not they want to risk going over there.
    A resolution regarding refuge in U.S. embassies: Now we're 
talking about introducing a resolution in the Congress that 
would say that nobody who is an American citizen would ever be 
denied refuge in an embassy or consulate anywhere in the world. 
That shouldn't be necessary. It should be State Department 
policy that any American citizen--woman, child, man--that comes 
into that embassy is guaranteed the protection of that embassy. 
That is U.S. territory. It is U.S. territory, and they should 
not be forced out onto the street to suffer the penalties of 
that government if they are in U.S. territory, the embassy. And 
that should be a policy not only in Saudi Arabia, but anyplace 
in the world; and we should try to help them get back to the 
United States if there is any way possible to do that. Even if 
we have to risk having some of our embassy officials become 
persona non grata and come back to the United States, that is 
something that we should risk.
    We are there to protect American citizens and if they come 
into that embassy--women, children, men, whatever--they ought 
to be guaranteed the protection of this government.
    And finally, I think that the Ambassador, like Ambassador 
Mabus, and the embassy staff, should be granted the authority 
to deny visas on security grounds. Specifically, they should be 
allowed to place the burden on the visa applicant to make sure 
that they are traveling to the United States for the purpose 
they claim and not because they are a security risk of any 
kind, which includes taking children who are under court order 
to stay with the other parent and whisking them back to the 
country--to Saudi Arabia. There ought to be more authority for 
the United States to deny visas to these foreign nationals if 
they suspect that they are coming over here for some purpose 
like that, OK?
    And do you have any other suggestions on what we could do 
to protect American citizens from this kind of a thing?
    Ms. Andruch. Sir, I just wanted to say, I was familiar with 
your suggestions. I think--I mean, they are all good ones. Some 
of them, we're already doing. Some of them, we clearly need to 
do more on.
    The thing on the visas, and I think you were out for a 
vote, but we do now already have--we are putting names in for 
at least immediate family members of known abductors. If there 
is legislation that allows us to go to the more extended family 
members, that is easy enough to do. We will do that.
    Mr. Burton. We ought to do that too.
    Ms. Andruch. I think also the thing on getting more 
information out, we have something that I think will be an easy 
mechanism to use. We have an information sheet for each country 
now. We can put more information in there on what American 
women and others can expect, the living conditions in that 
country.
    We have something now for Saudi Arabia; it is admittedly 
not strong enough, and we will do that now.
    Mr. Burton. Well, I hope you will make it as strong as 
possible. I know that you are a diplomat and that you want to 
make sure that you don't offend a country any more than you 
have to. But we are here, first of all--you, me, all of us--to 
protect Americans, to protect Americans' rights. And it seems 
to me that every single woman and child that is going to Saudi 
Arabia, or a country with these oppressive policies, ought to 
know what they are getting into.
    Put yourself in their place. You are an attractive lady. 
How would you like not knowing that if you go to Saudi Arabia 
you must wear a black abaya, and if you have your ankle showing 
on the street, somebody slaps you with a stick. You wouldn't 
like that.
    Ms. Andruch. No, I couldn't do it. And you are absolutely 
right.
    I do want to say, I do work for the American people. It is 
a privilege. We don't always get it right, but I very much--a 
lot of people actually would probably say I wasn't very 
diplomatic, but I have the luxury of having the protection and 
welfare of American citizens overseas being my only job. So to 
the extent that I can do it better, I am open to suggestions. I 
look forward to working with you and others to help us.
    Mr. Burton. Well, the embassy could have been--not the 
embassy, but the State Department could have been doing a much 
more aggressive and better job, in my judgment, to protect 
these women and children. And it seems to me that we ought to 
be very aggressive with governments like the Saudi Government, 
that has lied to us. You know, the FBI said--and I want to say 
to my colleagues, pardon me for going longer than I should--the 
Ambassador to the United States, according to the previous 
administration--two people that worked for the previous 
administration in the area of foreign policy and terrorism 
wrote a book, and they said that the Ambassador to the United 
States lied to them about the bombing of the Khobar Towers in 
Saudi Arabia. He lied to them about that.
    I understand he is a very charming fellow. But we should 
not allow an ambassador to the United States to lie to a 
President or to the President's Cabinet or to the people in the 
administration that are dealing with a terrorist attack that 
kills 17, 18, 19 Americans. And Bandar is still here. He lied 
about that, and we know he lied about them cooperating and 
trying to help these women with their children.
    Now, somebody ought to go to him next time he goes down to 
Texas or over to the White House and say, look, we know you 
lied, and we don't want you to do it anymore, because if you 
do, we are going to kick your fanny out of here and send you 
back to Saudi Arabia where you can wear your robes all the time 
and be a prince.
    I mean it. If I sound a little too vociferous, it is 
because I am so angry. I went through abuse as a child. I saw 
it firsthand. I saw my dad rip my mother's clothes off of her 
until she did not have anything on and knock her until we 
thought she was dead; and then he would look at me and say, You 
better get back upstairs or you will get some of this, and I 
did. .
    And I hate people, I absolutely abhor people who mistreat 
women and children, and they are doing it on a regular basis 
over there. And they are doing it to Americans, and the 
Americans couldn't find sanctuary after this gentleman left 
over there; and that is a tragedy. And for our State Department 
to allow that to happen, to turn a blind eye, is a sin. I hope 
to God that never happens again.
    I don't know if we are going to be able to get these kids 
back, that ought to be brought back to America. I hope we can. 
We are going to do everything we can to do that. But you should 
sure as hell should never let this happen again.
    Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman. Do we call you Ambassador 
or Governor?
    Mr. Mabus. Either one is way better than what I get called 
a lot of times.
    Mr. Ose. My house is like that too.
    Mr. Ambassador, when you took the step of withholding 
visas, was that part of a policy manual that the State 
Department has or was that kind of an individual initiative?
    Mr. Mabus. I think that would fall under individual 
initiative. It did seem to me when I was preparing to be an 
ambassador, I was told that visas were a privilege, not a 
right, and that Ambassadors--if there was an interest to the 
United States involved, that Ambassadors could deny visas; and 
I thought that an interest to the United States was involved in 
these cases. And I wasn't making a lot of headway with the 
Saudi Government, although they would listen, but they wouldn't 
force the husbands or the fathers to return the kids.
    And I was trying to find a leverage point to solve this, 
and Saudi families are exceptionally tight knit, close to each 
other; and I thought that if we denied visas to anybody with 
the same last name, that the family would put pressure on the 
kidnapper.
    Mr. Ose. Mr. Crocker, does the current policy of the State 
Department allow an ambassador to use visas in this manner?
    Mr. Crocker. There is a legislative restriction on visa 
denials.
    Mr. Ose. 4365?
    Mr. Crocker. Whatever it is, yes.
    Governor Mabus is exactly right, you can take initiative 
sometimes from the field if you don't ask.
    Mr. Ose. When you say a ``legislative initiative,'' is it a 
legislative initiative or is it a statute? Is it current law? 
Has it been passed by the Congress and signed by the President?
    Ms. Andruch. I think if you are talking about visa 
ineligibilities, that is part of the immigration and 
nationality act and part of the act is that only consular 
officers can adjudicate visas.
    Mr. Ose. What do you mean? Is the Ambassador a consular 
officer?
    Ms. Andruch. No, sir, he or she isn't.
    Mr. Burton. Don't they take their orders from the 
Ambassador?
    Ms. Andruch. They take their orders from the Ambassador 
certainly.
    Mr. Burton. If a consular officer is told--pardon me for 
interrupting--if a consular officer is asked to deny a visa for 
a reason that he thinks is important, what will the consular 
officer do?
    Ms. Andruch. If there is a basis in the law under which the 
visa can be denied, then it will be denied.
    Frankly, if it is just because there is a suspicion of 
something, that would not be enough to deny a visa. And I 
suspect what a consular officer would have done then is to come 
into Washington and say this is what we have, you know. Is 
there a way I can do what the Ambassador is asking me to do?
    Mr. Ose. There are lists of people maintained----
    Mr. Burton. Will the gentleman yield one more time?
    Mr. Ose. Certainly.
    Mr. Burton. Ambassador Mabus, did you ever have a situation 
like this?
    Mr. Mabus. No, sir, I told my consular officer that was the 
policy. My memory is that I gave him written orders, so that it 
would not harm him if there were any problems.
    Mr. Burton. And he acceded to your wishes?
    Mr. Mabus. Yes.
    Mr. Burton. Are you saying, that consular officer did not 
do the right thing?
    Ms. Andruch. No, sir, I'm not. I'm not in a position to 
know what happened. I thought, though--and I don't have all the 
names of the applicants, but there is also--I know very often 
families are told, well, if you apply for a visa, you are not 
likely to get one. And it could have, in fact, been that in 
many cases the people involved did not actually apply for a 
visa, but I don't know. And I will--we can certainly--if we 
have the names of the applicants, we can certainly go back and 
check our records and get back to you on that.
    Mr. Burton. Do you have a response?
    Mr. Mabus. I know in the case of Pat Roush's ex-husband, 
al-Gheshayan, that a lot of family members--not a lot, several 
family members applied and were turned down. He kept calling 
the embassy and saying his family was furious at him that we 
couldn't do this to them, that his family was bringing pressure 
to bear on him.
    And the first person that got turned down was a general in 
the Saudi national guard, who had cancer and was going to M.D. 
Anderson for treatment, and I got called in by the Crown Prince 
on that one.
    I issued the visa--I did not want to kill anybody over 
this--but I told him what was going on and why I was doing this 
and my reasons for doing so and his response was, You're doing 
the right thing. The only thing somebody like that understands 
is strength.
    Mr. Burton. So was it your impression that they were going 
to release the children?
    Mr. Mabus. It was my impression that the father was under 
increasing and pretty severe pressure from his family to 
release the children.
    Mr. Burton. And that pressure was relieved when Wyche 
Fowler became Ambassador?
    Mr. Mabus. The pressure was relieved when my policy was 
discontinued when Ambassador Fowler was there, yes, sir.
    Mr. Ose. Mr. Chairman, may I have another 5 minutes?
    Mr. Burton. Sure.
    Mr. Ose. Thank you, sir.
    Mr. Crocker, does the State Department keep a list of the 
names of the individuals who are involved in these cases with 
American children who have Saudi nationality?
    Ms. Andruch. I think I am probably in a better position to 
answer that.
    The list of the family members of parents who have abducted 
children, is that what you are asking?
    Mr. Ose. If we have an American national married to a Saudi 
national, is there a list of Saudi nationals who might be 
involved in such cases? Is there a list maintained?
    Ms. Andruch. We have a list of the names of abducting 
parents that we're aware of, yes.
    Mr. Ose. Are those people allowed to come to the United 
States?
    Ms. Andruch. No, sir.
    Mr. Ose. We had testimony yesterday that, in fact, there 
was a situation where a father and a child did come to the 
United States.
    Ms. Andruch. Let me say, when I say ``allowed'' I misspoke 
because there is--a visa can be denied to that person.
    Mr. Ose. Can be or is?
    Ms. Andruch. Can be. Is, I guess--let me go back.
    Mr. Ose. I know the definition of ``is.''
    Ms. Andruch. And I used to.
    Must be--the visa must be denied under these grounds.
    Now, there are waivers; you may obtain a waiver of that 
particular ineligibility. So if someone received a visa and 
traveled to the United States, I would have to look into the 
background to find out why that visa was issued.
    Mr. Ose. What would be the grounds for waiving a denial on 
someone who has arguably abducted an American child? What would 
those grounds be?
    Ms. Andruch. The very best reason would be if that parent 
were only willing to bring back the abducted child if he could 
either come with the child at the time or, say, was coming to 
the United States to take part in a custody hearing, but that 
it was somehow connected to the return of the child; then we 
would definitely request a waiver of that ineligibility.
    Mr. Ose. Are there such instances?
    Ms. Andruch. No, sir, not yet.
    Mr. Ose. But there are instances where those individuals 
have come back to the States under a visa that has not been 
denied?
    Ms. Andruch. I don't know, sir. I'd have to check. I'd have 
to check against names--a list of names to see if and when a 
visa had been issued.
    Mr. Ose. I know we have the names of the cases. I was going 
through part of them.
    I would appreciate in writing a response as to how the 
individual, the Saudi national involved in those cases, is 
treated if and when that person applies for a visa to the 
United States. I'd just like to know what the State Department 
would do in a situation like that.
    Can you respond to us in writing to that effect?
    Ms. Andruch. Yes, sir. Yes, sir.
    Mr. Ose. OK. Now, the second question I have is, back on 
June 12th, we asked for the name of the Department of State 
policy official who directed the U.S. Marines to escort Monica 
Stowers and her children from the U.S. embassy in Riyadh. I 
still don't have that. And it is now October what, 3rd? Is 
there some problem?
    Ms. Andruch. I am not aware of that, so again, I'm sorry. I 
will take the question though. I thought all of your questions 
had been answered.
    Mr. Ose. It says here--this was with Mr. Kelly's July 1st 
response, ``We are currently trying to contact officials who 
were present during the incident to better answer your 
question. We will provide a followup reply as soon as 
possible.''
    Now do we know who was at the embassy at the time? Do we 
have records, who was employed there?
    Ms. Andruch. I'm sure we must have records sir.
    Ms. Roush. That was Karla Reed.
    Mr. Ose. OK, I presume that we have records of where people 
who might have retired from the State Department now reside. I 
am going to keep coming back to this question, Ms. Andruch.
    Ms. Andruch. We both thought the question had been 
answered, so I do apologize and we will get you an answer.
    Mr. Ose. OK. I do want to know who it was who made that 
happen. Whether there were any e-mails or cables back and forth 
to Washington about it.
    Who made the decision? Who sort of pulled the trigger on 
Ms. Stowers? I think that would be very interesting piece of 
information to have.
    Mr. Chairman, I would yield back at this time. I do have 
more questions, but I see that my time is about up.
    Mr. Shays [presiding]. Mr. Crocker, the Saudi Foreign 
Minister sent a letter to Secretary Powell on September 17, 
2002, attaching a list of cases where children were abducted 
out of Saudi Arabia and brought to the United States against 
the wishes of their parents. That is the claim. Have you seen 
that list?
    Mr. Crocker. I have, sir.
    Mr. Shays. The Saudi Government appears to be claiming that 
Saudi citizens may be held against their will here in America. 
Do you believe that allegation?
    Mr. Crocker. My understanding is that when that list was 
passed, there was no commentary, background, or other expressed 
position coming with it. We are not treating that as a formal 
communication.
    Mr. Shays. There were no particulars? There were no 
specifics? No names?
    Mr. Crocker. No, sir, and we made the same observation that 
this committee did concerning Dria Davis.
    Mr. Shays. Ambassador Mabus, to your knowledge, are Saudi 
citizens being held against their will in America, and were any 
held against their will in America while you served as 
Ambassador? Are you aware of any complaints?
    Mr. Mabus. Is the question are American citizens being held 
in Saudi Arabia?
    Mr. Burton. No. To your knowledge, are Saudi citizens being 
held against their will in America?
    Mr. Mabus. No, sir.
    Mr. Shays. Were any held against their will in America 
while you were serving as Ambassador?
    Mr. Mabus. Not to my knowledge.
    Mr. Shays. Mr. Crocker, one of the names on the Saudi's 
list of abductions by Americans is Dria Davis. The Saudis 
allege that Dria was taken out of the United States on a 
military plane with the assistance of the State Department. Was 
she?
    Mr. Crocker. We have heard her own testimony that she was 
not.
    Mr. Shays. In fact, did not the State Department inform the 
Saudi Government that Dria was not taken out of Saudi Arabia 
with the State Department's help?
    Mr. Crocker. I am not aware.
    Mr. Shays. The answer is that you are not aware of that 
claim? OK.
    Ms. Andruch. No.
    Mr. Shays. In other words, you are not aware that the State 
Department informed a few years ago that was not the case?
    Mr. Crocker. That is correct, Mr. Chairman. I don't know. I 
am not saying that the State Department did not; I don't know.
    Mr. Shays. Another name on the purported list of American 
kidnappings is that of Jennifer Martin, yet isn't it true that 
Jennifer Martin had her son kidnapped by her Saudi ex-husband? 
In other words, wasn't her son kidnapped by her Saudi ex-
husband?
    Ms. Andruch. I'm not familiar with that case at all.
    Mr. Shays. Isn't it true that Ms. Martin has made a number 
of concessions to her Saudi ex-husband in an effort to see her 
son?
    You are not familiar?
    Ms. Andruch. No, sir, and if I could say--unfortunately, 
Mr. Ose is not here right now, but he had asked me earlier for 
an update on several cases; and this is one--another one, and I 
do have a list of the current cases, and you may be aware that 
there are families who are living in Saudi Arabia who have 
specifically asked us not to intervene in their cases and Ms. 
Martin may in fact be one of those. I don't know off the top of 
my head, but that was certainly the situation in some of those 
other cases that I addressed.
    Mr. Shays. In the case, Mr. Crocker, in the Rives case, 
Lilly and Sami Rives were not Saudi citizens; is that correct?
    Mr. Crocker. That is my understanding, yes, sir.
    Mr. Shays. Are the Rives children being held improperly in 
Saudi Arabia?
    Mr. Crocker. We consider this a case of abduction, and it 
is very much our desire to see that they are returned.
    Mr. Shays. And when I say ``Rives,'' it is ``Rives,'' so 
you have understood what I've meant, I'm sorry.
    Is it your understanding that the kidnapping mother in the 
Rives case comes from an influential family in Saudi Arabia?
    Ms. Andruch. I have heard that as well, sir. She is Syrian, 
and I think there are members of her extended family who are in 
fact Saudis.
    Mr. Shays. Is it your understand that the Saudi Government 
has taken action to protect this influential family? For 
example, has it granted the Rives children Saudi travel 
documents, despite the fact that they are not Saudi citizens?
    Ms. Andruch. I heard that just today from Mr. Rives, the 
fact that they did get Saudi passports.
    Mr. Shays. But there is no way for the State Department to 
confirm that?
    Ms. Andruch. We can--I think we could probably go to the 
Saudi Government and ask them to confirm that, yes, sir.
    Mr. Shays. So you are not all that familiar with the 
Michael Rives case?
    In other words, if I ask you this question: Has the family 
used its influence to keep Michael Rives from coming to Saudi 
Arabia?
    Ms. Andruch. I'm not aware of that, no. I am familiar with 
the case, but I am not aware of any influence that the Saudi 
Government may have put on the family, no--and the government.
    Mr. Shays. Has the State Department demanded the return of 
the Rives children from Saudi Arabia?
    Mr. Crocker. Ambassador Jordan has raised the Rives, as 
well as other cases, with the Foreign Minister, with the 
request that these children be returned to the United States.
    Ms. Andruch. And if I could just add, we asked--we have 
raised the case, and we have used as the logical argument that 
these children are not Saudi nationals. The mother is not a 
Saudi national, there is no reason for them to retain these 
American children in Saudi Arabia. We have also asked for the 
return of the two of the American passports that the Saudi 
Government now has.
    Mr. Shays. Let me ask you, what is their response to that?
    Ms. Andruch. As far as I am aware, as of yesterday there 
has not yet been a response.
    Mr. Shays. OK. I have some questions of Mr. Mabus. Do you 
want to go on?
    Why don't you go and then I will come back.
    Mr. Ose. Mr. Crocker, when the al-Gheshayan sisters went 
from Saudi Arabia to London, did the State Department know that 
they were leaving Saudi Arabia heading for London?
    Mr. Crocker. No, we did not.
    Mr. Ose. Did they meet with a State Department official in 
London?
    Mr. Crocker. Yes, they did.
    Mr. Ose. At what point did the State Department learn of 
the al-Gheshayan sisters' presence in London?
    Mr. Crocker. I believe that was Friday the 30th.
    Mr. Ose. And the interview was after?
    Mr. Crocker. Was Saturday.
    Mr. Ose. What is the State Department doing today regarding 
the al-Gheshayan sisters?
    Mr. Crocker. We have made it clear to the Saudi Government 
that what needs to happen with the Gheshayan sisters is for 
them to travel to the United States and to see their mother in 
the United States.
    Mr. Ose. Absent an affirmative action to do that, what is 
the State Department doing to bring leverage on the al-
Gheshayan family? In other words, are they free to get visas?
    Mr. Crocker. No, sir, consistent with the legislation that 
Ms. Andruch has described.
    Mr. Ose. Is al-Gheshayan or any member of his immediate 
family not able to get a visa today to the United States?
    Ms. Andruch. No, sir. In fact, because the women are now 
adults, that law does not apply; that ineligibility would not 
apply.
    Mr. Ose. So, in effect, the position of the United States 
is because X number of years have passed, the statute of 
limitations on these citizenship rights have evaporated?
    Ms. Andruch. No, I wouldn't sort of put it exactly like 
that.
    Mr. Ose. How would you put it?
    Ms. Andruch. Well, it is very--I mean it is a tragic 
situation that has gone on way too long.
    No one--I mean, we don't deny that, and I--and I have 
listened Ms. Roush during the last testimony. I know how awful 
this is for her. Unfortunately, though, because they are adults 
and what we would like--and as Ambassador Crocker said, even 
before we knew the delegation was going out there and we were 
trying to be able to speak to the women, our instructions to 
the embassy and all along the way was that we really want to be 
able to talk to them, we want to urge them to go to the United 
States, where we knew that they would be able to tell us 
exactly what they wanted.
    They have done that in London, and I hope that is not the 
only opportunity we get to hear from them. But right now they 
have told us that they really don't want us to intervene 
anymore in their lives.
    Mr. Ose. OK. Assume that Alia and Aisha are now majority 
status--by the way, what is majority age in Saudi Arabia for 
women?
    Ms. Andruch. I'm sorry sir, I don't know in Saudi Arabia.
    Mr. Ose. So, for the moment, let's set them aside in the--
why would we give a visa to any member of the al-Gheshayan 
family?
    Ms. Andruch. Right now, I would have to say, sir, because 
we have no ineligibility. There is no provision in the law for 
us not to give a visa.
    Now, again----
    Mr. Ose. Is there discretion in the law for you to--
Ambassador Mabus apparently had the discretion. It may have 
cost him his job, but he exercised it.
    Ms. Andruch. What we could do, we talked earlier about some 
possible legislative fixes; and that would be something that 
would certainly be worth exploring, because right now that 
ineligibility is until the child--and it is usually a woman--is 
18.
    That could be--is it 21? I'm sorry, it's 21.
    Mr. Ose. OK. It does bring up an interesting point, because 
we did have testimony yesterday from Debra Docekal that 
somewhere in the 1997-1998 timeframe her husband brought her 
children back to the United States on a vacation, that she 
alerted the State Department, hoping to be able to get the 
children back, and that nothing ensued. These were minor 
children brought back to the United States by an individual of 
Saudi nationality under circumstances that arguably supported a 
kidnapping charge.
    Apparently, he got a visa. This was 1997 or 1998, if I am 
correct.
    How could that happen?
    Ms. Andruch. I don't know sir. And I heard that testimony 
yesterday. That was the first I knew.
    Our records indicated that our first contact with Ms. 
Docekal was in 2000. There had been--we did know about the trip 
angle, and I just don't know enough about the case. I would 
have to sort of look into it and take that question.
    Mr. Ose. OK. Consider it asked.
    Ms. Andruch. Yes, sir.
    Mr. Ose. Now let me go back to another question.
    Mr. Shays was going through a list, or a series of 
questions, having to do with individual cases. I asked a series 
of questions having to do with individual cases. And some of 
those cases, according to the information we have in front of 
us, there has been no welfare or whereabouts check for any 
period of time--I mean, years in some cases.
    What is the standard that the State Department uses for 
determining welfare and whereabouts of these children?
    Ms. Andruch. I guess, sir, there are a couple of things. 
First, we do it at the request of the left-behind parent. If 
the parent in the United States asks us to do a visit, that's 
when we make our first attempts; and the reason we do that is 
because there have been instances where they may have been 
working on something else, and they did not want us to 
interfere by putting what might be considered pressure on the 
family.
    If we know where the child is, then we contact the taking 
parent, which I know is often a problem and we request the 
ability to send a consular officer to their home to meet with 
the child and sort of talk to him or her, find out how they 
are.
    Mr. Ose. Is that the same as saying that you have wide 
discretion in doing welfare and whereabouts checks?
    Ms. Andruch. We have wide discretion, sir; yes, I would say 
so.
    Mr. Ose. So if you have wide discretion in that, why don't 
you have wide discretion in the issuance of visas?
    Ms. Andruch. Because the visa is law. That has been 
legislated, and there are any number of ineligibilities. And 
certainly if an applicant is ineligible under any one of those 
provisions, a visa must be denied.
    Mr. Ose. So do you agree with the clear consensus of this 
committee that some means of denying visas to these people 
would be an effective tool? Or do you think it would not be an 
effective tool?
    Ms. Andruch. I think I agree that it would be an 
effective--that it could be an effective tool.
    Mr. Ose. Mr. Crocker, do you agree?
    Mr. Crocker. I think it could be an effective tool. The 
administration is not often in the habit of encouraging 
Congress to legislate on anything like a foreign policy matter 
but I will tell you frankly, from the policy side, that is the 
only way that the refusal categories could be broadened.
    Mr. Ose. And you are saying that ability to deny a visa is 
not in the foreign affairs manual, it is in statute?
    Ms. Andruch. Yes, sir.
    Mr. Ose. And it applies to children under the age of 21? Or 
minors under the age of 21?
    Ms. Andruch. That particular provision of the law that we 
were talking about that would allow us--that would actually be 
where we would have to refuse a visa to an abductor or 
immediate family is until the child is 21 or married.
    Mr. Ose. Would there be--for whatever reason, if someone 
perpetrated such an act on an American family, for whatever 
reason, would we ever issue them a visa?
    Just passage of time, geez, OK they are 21, OK, everything 
is forgiven?
    Ms. Andruch. Well, no. Not everything is forgiven. But 
again we would not have the legislative ability to deny a visa 
to that person any longer.
    Mr. Ose. So if we put forward a legislative effort to, in 
fact, allow--allow or mandate the denial of a visa to someone 
of foreign nationality who engaged in this kind of behavior, 
what would the position of the Department of State be on that 
legislative effort?
    Ms. Andruch. I think--I would have to consult with other 
offices, certainly other than my own.
    Mr. Ose. What would your position on that be?
    Ms. Andruch. My position would be, again, that I think it 
could be a very useful tool.
    I think--when we talk about legislation, though, I think we 
want to ensure that we have--that it isn't so rigid that we 
cannot work with it when we need to. That, I think--it could be 
a useful tool, but we might want to leave ourselves some 
discretion. And I don't know what that discretion would be 
right now, but it is something that I would like to look at 
with others in discussing it before you propose legislation, if 
that would be possible.
    Mr. Ose. How about you, Mr. Crocker; what is your opinion?
    Mr. Crocker. I would share Ms. Andruch's opinion that I 
think it could be a useful tool. But she cited the hypothetical 
example, at least, of an abducting parent who said as a 
condition for the return of the child to the United States, 
that he or she accompanied the child. So I would think it would 
be important to have some flexibility in it.
    But clearly, in my view, the current legislation needs to 
be strengthened.
    Mr. Ose. Mr. Mabus, Mr. Ambassador Mabus?
    Mr. Mabus. I obviously think that you should deny visas 
with probably the one exception that was--the hypothetical 
exception--but you should deny visas not only to a kidnapper 
but to that kidnapper's family; and that the passage of time, 
the fact that you pulled off a kidnapping and kept the kids 
long enough for them to be 21 or married shouldn't matter. It 
shouldn't be rewarded.
    Mr. Ose. No olly olly oxen-free kind of thing?
    Mr. Mabus. He shouldn't be rewarded for being a law-breaker 
over a longer period of time.
    Mr. Ose. In your opinion, would that be difficult to 
implement?
    Mr. Mabus. No, sir.
    Mr. Ose. Mr. Crocker would that be difficult to implement?
    Mr. Crocker. No, it wouldn't. It would be quite simple and 
straightforward.
    Mr. Ose. Just a moment, please. I want to go back to the 
al-Gheshayan interview in London.
    Since we cannot visit with the daughters, we get the 
opportunity to visit with the mother, I am curious, what does--
from your perspective, what is she recommending as it relates 
to this situation in terms of how the Department of State 
should proceed on this matter?
    Ms. Andruch. I'm not sure what she is recommending, since I 
haven't really spoken to her.
    Ms. Roush. I just spoke to Mr. Crocker.
    Mr. Ose. Mr. Crocker?
    Mr. Crocker. Mrs. Roush and I spoke before the commencement 
of the hearing, and she was quite clear that we should apply 
pressure on the Saudi Government to bring about the return of 
her daughters to the United States and for that return to be in 
a family context.
    I believe she mentioned, for example, wanting to serve her 
daughters a dinner in her home and not to do this in some kind 
of staged hotel event.
    Mr. Ose. Who informed--we touched on this earlier, who 
informed the State Department that the Roush sisters wanted to 
meet with a consular official in London?
    Mr. Crocker. The initial contact on Friday evening came 
from Adel Al-Jubier. My understanding is, at that time, he said 
they may want to meet with a consular official.
    Mr. Ose. This gentleman is a Saudi official?
    Mr. Crocker. Yes, sir. He was the one referred to earlier 
today as the advisor to the Crown Prince.
    Mr. Ose. OK. Who at the State Department made the decision 
to go ahead with that meeting in London?
    Mr. Crocker. That was a policy level decision above the 
bureau level, either Consular Affairs or Near Eastern Affairs. 
But I would have to go back to determine at exactly which 
level.
    Mr. Ose. Answer that question asked for the record, please.
    Now before--so you got a call on Friday asking whether or 
suggesting that perhaps the Roush sisters might like to meet 
with a consular official. Did anybody at the State Department 
call Mrs. Roush and inform her of the planned meeting?
    Ms. Andruch. Yes, sir, a member of the Office of American 
Citizen Services called Ms. Roush and just told her, I think--I 
don't have the verbatim conversation, but just told her this 
was a possibility.
    Mr. Ose. What was Ms. Roush's reaction?
    Ms. Roush. That's not true.
    Mr. Ose [presiding]. Let me get through my question, and if 
we have to swear in additional witnesses--it looks like I'm the 
chairman, so we can do that.
    So going back to my question, someone from the State 
Department did call Ms. Roush?
    Ms. Andruch. Yes, sir.
    Mr. Ose. And advised her of the planned meeting?
    Ms. Andruch. Of a meeting. I think at that point we did not 
know where it was going to be.
    Mr. Ose. And what was Ms. Roush's reaction?
    Ms. Andruch. I don't know exactly, sir; I'd have to go back 
and check the record.
    Mr. Ose. Do you know whether or not she asked to be part of 
that meeting?
    Ms. Andruch. No, sir, I don't.
    Mr. Ose. But you don't know whether Mrs. Roush supported or 
objected to the meeting?
    Ms. Andruch. No, sir, I don't.
    Mr. Ose. Mr. Ambassador Mabus, would you have proceeded 
with the meeting in London in the manner that the State 
Department did?
    Mr. Mabus. No.
    Mr. Ose. Why not?
    Mr. Mabus. Because we had been trying for 16 years to get 
these children--or their mother has been trying for 16 years to 
get these children out. The fact that a congressional 
delegation was in Saudi Arabia when they suddenly showed up in 
Great Britain accompanied by various Saudis and family members, 
I don't think the State Department should have been a party to 
that. To then say that--to then give some credence to the fact 
that they don't want to come back to the United States, they 
don't want to leave Saudi Arabia, they don't want to be with 
their mother, I don't think that part of our government should 
underpin that.
    An American law has been violated here, and the only way 
that American law is going to be upheld is for those children 
to be back in America, not being interviewed somewhere else 
about their supposed wishes now. And after 17 years, I wouldn't 
doubt that these children do believe now that they don't want 
to return.
    Mr. Ose. From your experience as Ambassador to Saudi Arabia 
and elsewhere, were the Roush sisters able to speak freely in 
this meeting?
    Mr. Mabus. Well, in the first place, I wasn't Ambassador 
anywhere else. But just from my experience as an ambassador, I 
don't believe any child in this situation would be able to 
speak freely. And from my experience as a parent, and a 
divorced parent who has custody, legal custody, of my children, 
I think that if you have some amount of time to press your 
point of view on a child, and particularly if you have 17 
years, that child will say whatever you have pressed upon that 
child for 17 years.
    Ms. Andruch. May I add something?
    Mr. Ose. Certainly.
    Ms. Andruch. Just from the standpoint of an American 
citizen overseas requesting a visit with a consular officer, we 
would not refuse that request. And that was why the meeting 
went ahead. Regardless of how it may have been, or appeared to 
have been, staged or what we think of what actually transpired 
during the meeting, the fact that American citizens are 
requesting to talk to a consular officer, that's what we do. 
That's what we would always do, if we did not know at that 
point what they might be asking of us.
    Mr. Ose. Irrespective of the conditions of the meeting?
    Ms. Andruch. Yes, sir, because at that time we did not know 
what the conditions of the meeting were.
    Mr. Ose. Who made the request for the meeting in the first 
place? Who called the consular office and said, We might be 
interested in having a meeting?
    Ms. Andruch. I'm not sure exactly how it all transpired. 
And, again, we will have to go back and get you the details.
    Mr. Ose. Answer that a request for a chronology of those 
events, please, for the record.
    Ms. Andruch. Yes, sir, OK.
    Mr. Ose. There is a gentleman named Adel Al-Jubier. He is 
the Foreign Policy Advisor to the Crown Prince, if I recall 
correctly.
    Mr. Crocker. Yes, sir, he is the one I mentioned, who 
telephoned Friday evening, the 30th of August, to say that the 
daughters might be interested in a meeting with a consular 
officer.
    Mr. Ose. OK, so we do know who called. It was the Foreign 
Policy Advisor to the Crown Prince?
    Mr. Crocker. Yes, sir. I'm sorry, I think we may have 
misunderstood your second question. That was not the call that 
said the girls definitely did want to meet with the consular 
officer. That's the one we are going to have to check into.
    Mr. Ose. All right. And you will append to that response 
the name of the consular officer who actually took the call and 
what have you?
    Ms. Andruch. Yes, sir.
    Mr. Ose. It seems awfully strange--or it just seems unusual 
to me that the Foreign Policy Advisor to the Crown Prince--
that's pretty high up in the Saudi hierarchy--would make such a 
call. I mean, did that set off any, you know, bells or alarms 
or anything like that?
    I mean, is that an unusual thing? Does a Foreign Policy 
Advisor for the Crown Prince of Saudi Arabia normally make such 
calls?
    Mr. Crocker. I can't make a lot of inferences here, sir, 
but I think it's important to note that prior to this 
development, we had pressed the Saudi Government at a high 
level on several occasions on the importance of the al-
Gheshayan girls being able to come back to the United States 
and see their mother here. And I think it is in that context 
that we may see Mr. Al-Jubier's involvement in the London 
event.
    Mr. Ose. And it just happened--I'm sure it was a 
coincidence, but just an uncanny coincidence with Chairman 
Burton's trip to Saudi?
    I think I will say the obvious: It seems to me it was set 
up, too.
    Mr. Crocker, in your testimony, your opening statement, you 
said that the Government of Saudi Arabia has no legal grounds 
to compel its citizens to return their children to the United 
States, even if the children are U.S. citizens.
    I believe that's an accurate quote from within your opening 
statement.
    Now Saudi Arabia remains a monarchy. Why couldn't the Saudi 
Government just kind of reach out and say, We are going to do 
this? Are there statutory prohibitions?
    Mr. Crocker. As I indicated earlier, sir, it is not that we 
have been idle on these cases. We have sought to work with them 
through existing legal structures, which is standard 
international diplomatic practice.
    It is quite clear, as I noted, that these events were not 
getting the only results that ultimately count, which is the 
children returned to the United States and their families here.
    We are now, in addition to these ongoing efforts--as I 
think I noted, because they are important, we are dealing with 
these cases at a political level and will continue to do so. 
That is not to say, though, that there is necessarily a switch 
to flip or a button to push and everything is magically 
resolved.
    These are difficult and complicated cases at whatever level 
they are dealt with.
    But the point I sought to make earlier is that at the very 
senior levels of this government to the very senior levels of 
that government, we're making the point that this is an 
important political issue, and it needs to be resolved.
    Mr. Ose. What are the standards you would recommend to me 
to put into legislation so as to effectuate denial of visas for 
such people who might otherwise take our children, irrespective 
of country? What are the--what would be the State Department's 
recommendation?
    Mr. Crocker. That is a matter where I think we would have 
to give this careful reflection and come back to you.
    Mr. Ose. Well, let me ask a couple hypotheticals. Let's say 
an American national has a court order granting custody to them 
and ordering the foreign national not to take the children out 
of the country. The American national alerts the embassy and 
the appropriate personnel at the embassy of the country, the 
foreign national, of this court determination. They're a 
signatory to the Hague Convention. Would that be a standard 
that would be satisfactory to the State Department for denial 
of visa at any time in the future to such foreign national if 
they then went ahead and took the--took a kid, left the 
country.
    Mr. Crocker. That's already in the current legislation for 
the abductor. He would be denied as matters stand now.
    Mr. Ose. OK. So let's back off a little bit from that. 
Let's say you hadn't alerted the embassy of the foreign 
national, that you only had a court order granting you custody 
and that they were a signatory to the Hague Convention in the 
country of the foreign national. Would that be satisfactory to 
deny such person a future visa?
    Mr. Crocker. Sir, such little depth--very little depth as I 
have in visa issues, I'm now beyond. I'll see if my colleague 
would care to speak to that.
    Mr. Ose. OK. Ms. Andruch?
    Ms. Andruch. Yes, sir. My colleague was just telling me 
something that, again, in things to explore for possible 
ineligibilities. The ineligibility that we have now for 
abductors is for countries that are not signatory to the Hague 
Convention. So if in considering possible changes, perhaps that 
could be extended to other countries. That's again something 
that I think we all have to discuss and look at, but the 
legislation as now written is for those non-Hague countries.
    Mr. Ose. And for those non-Hague countries, a foreign 
national who absconds with an American child----
    Ms. Andruch. A parent.
    Mr. Ose. A parent, correct. Who absconds with an American 
child, current statute says that until that child is 21, State 
Department has the ability to deny a visa?
    Ms. Andruch. Yes, sir, 21 or married.
    Mr. Ose. So if a Saudi national takes an American child, 
goes back to Saudi Arabia and marries them off at 12, that is 
compliant with the statute? And that person can subsequently 
get a visa?
    Ms. Andruch. That is an interesting case, and I would have 
to sort of go back and find out what would happen in that 
instance.
    Mr. Ose. Consider it asked for the record.
    Ms. Andruch. Yes, sir. And when we're talking court orders, 
I'd like to also clarify that we're talking U.S. court orders.
    Mr. Ose. Correct.
    Ms. Andruch. OK.
    Mr. Ose. Mr. Horn.
    All right. I'm going to exercise a little chairman's 
prerogative here. Ms. Roush, would you please rise? Raise your 
right hand. Her name is Pat Roush.
    [Witness sworn.]
    Mr. Ose. Let the record show Ms. Roush answered in the 
affirmative.
    Now, we've been going back and forth on a number of issues 
in particular relating to the case of your daughters. This 
issue of granting visas to the family of your ex-husband, I 
think just crystallizes whether or not we're serious about 
protecting our children. Do you have any thoughts on that? I 
mean, how do we get the attention of people if we can't have 
some leverage?

                     STATEMENT OF PAT ROUSH

    Ms. Roush. Yes. Thank you, Mr. Chairman. I'd like to say a 
few things. The 1998 law that Ms. Andruch is referring to was 
actually started--put into effect by law by Senator Feinstein 
at my request due to the actions of Ambassador Mabus. I went to 
see Senator Feinstein in 1997, and she was impressed with the 
work that Ambassador Mabus had done holding the visas up. That 
was so successful. That was our big hook. And therefore she 
passed a law attached to an omnibus bill. Unfortunately, the 
other Members would not go for it if it included the extended 
families.
    I was just listening to what was being discussed concerning 
the removal of the immediate families from the visa 
ineligibility, and so therefore when my daughter Aisha--I was 
informed that she was married the day before the June 12th 
hearing, she was 19. So by marrying her off, he rewarded the 
other family members by enabling them to come into the country. 
And the only hook that we had when Ambassador Mabus was helping 
me was the visas, as he has testified to and as I have told 
everybody and their uncle for the last 7 years. The visa--the 
power of the visa is extremely, extremely important. It made 
them pay attention, and it empowered the other members of the 
American embassy, the Consul General and other people that 
worked in the visa department.
    As soon as Wyche Fowler came in, Ambassador Mabus had met 
with the Crown Prince concerning this issue of the relative who 
wanted to come to M.D. Anderson for cancer treatment, and he 
released him. And the Crown Prince, as Ambassador Mabus has 
testified, was agreeing that this was very good and this was 
powerful, and we were very heartened. The Ambassador called me, 
and we were heartened that the girls would be released, and 
unfortunately the Ambassador resigned 2 weeks later.
    Khobar Towers happened a couple of weeks after that, and 
then Glen Carey, who was the Acting Consul General, would not 
even take my calls. I told him that the Ambassador had gotten 
the--permission from the Crown Prince of a point man being 
appointed, Abdul Mufano Tuwajmi. You remember that. And Glen 
Carey would not even take that information down. They would not 
even go back to the Crown Prince to make the final 
arrangements. And when Wyche Fowler came in, of course the 
whole visa lift was removed.
    Mr. Ose. Mr. Crocker, I don't want to diverge from it. Is 
Glen Carey still--I guess maybe, Ms. Andruch, this is better 
for you. Is Glen Carey still at the--in Consular Affairs?
    Ms. Andruch. I don't know, sir. I know the name, but I 
don't know if he is still a current member or if he is retired 
or where he is, but I can find out.
    Mr. Ose. Consider that asked for the record, please.
    Ms. Andruch. Yes, sir.
    Mr. Ose. All right. Ms. Roush, please continue.
    Ms. Roush. Yes. I have a couple of other comments. Mr. 
Petruzzello testified that Mr. Adel Jubeir got involved at the 
request of Bill O'Reilly when O'Reilly had him on his 
television show. He actually set the wheels in motion when he 
requested to be able to interview my daughters. O'Reilly called 
me and asked me if that was OK, and I said absolutely not, that 
this was undermining the work of the committee that was--the 
CODEL that was going and that we requested Congressman Burton 
not to meet with my girls because of the innately coercive 
environment in Saudi Arabia. And I asked Mr. O'Reilly, please 
do not do this, and he said, oh, well, you've got 24 hours to 
think about it. Let me know. And then he spoke to the 
Congressman. I'm not sure what the gist of that conversation 
was, but I'm sure the Congressman did not encourage him to do 
that.
    And then I just want to say, you know what? Last year when 
I got the call from the State Department telling me that Alia 
was married a year ago June, I thought that was the most 
painful moment of my life, that everything that I worked for to 
have my daughters returned was just gone up into smoke, but I 
didn't know that the year--ongoing year would cause me so much 
pain. My 17-year journey with this awful tragedy nightmare that 
happened to me and my family, this last year has been the 
most--one of the most painful years, starting with the marriage 
of Alia. The trickery and chicanery that has been played on my 
family and on me has caused me so much pain this last year. It 
is amazing that my heart still beats.
    Going back, if I could, it goes back to--you're talking 
about staged events of my daughters. My girls were subject to a 
videotaping when they were only in Saudi Arabia for 10 months. 
They were taped by the Saudi Arabia Government when they were 4 
and 8, and they were forced to say things against me and the 
United States. That went on.
    Then there's a continual trickery and charades all through 
the 17-year history, and I have to say one thing, that this 
document has come to light that I must address. I don't know, 
Mr. Ose, if you're aware of this.
    This is the document that was created in May 24, 1997 by 
Mazan Shaban, who is the foreign service national at the 
American embassy in Riyadh. He's been at the American Embassy 
for over 20 years, and he was there at the original taping when 
my girls were taped by the Saudi Government in 1986. He was in 
the room with me when I met my girls in 1995. He was acting as 
a translator. Ambassador Mabus was at the post then. To my 
knowledge, no document was created after that meeting, but this 
document was created 2 years later when Wyche Fowler was there 
and when I was getting a tremendous amount of press from 20/20 
and other media. And this document came to light through the 
subpoena of documents from the American Embassy and the State 
Department, and it contains information--it's four pages long. 
It's Mazan Shaban's recollection of the meeting between 
Patricia Roush and her daughters on June 13, 1995. He has such 
lies, disinformation in this, that it made me sick when I read 
it.
    I just showed it to Ambassador Mabus. He wasn't aware of it 
either. It states that my girls were laughing at me, calling me 
a prostitute in Arabic, absurd statements that daughters would 
certainly never make for their mother, saying that they didn't 
want to come to the United States to be prostitutes like their 
mother, that I was a fool, that they didn't want anything to do 
with me, that I was acting like a nut case. I mean, it's 
totally preposterous, and it states even--he even puts people 
there that weren't even there. He says al-Wahtoibe, who is the 
Assistant Deputy Governor of Riyadh was there. He wasn't there.
    The point is that my family and I have been subjected to 
nothing but lies and tricks for 17 years and that the 
Department of State has been complicit in these tricks, and the 
latest trick has been this staged Stalinistic show trial that 
happened over Labor Day weekend. I can't tell you, Mr. 
Chairman, and other Members, how this has hurt me so much. That 
weekend of Labor Day, I didn't think I was going to make it 
through the weekend. First, I got a call from Randy Carlino. I 
was speaking to Jim Wilson, Counsel, and I spoke to the 
Congressman there a couple days before. Then on Saturday, 
August 30th, after speaking with Jim, I received a call from 
Randy Carlino from the American Citizen Services. This is on a 
Saturday afternoon, and I was expecting everything to go well. 
The CODEL was there. We were expecting the Foreign Minister, 
etc. And he says, Ms. Roush, this is Randy Carlino from 
American Citizen Services. I'm calling to tell you that your 
daughters are in Europe. And I said what do you mean they're in 
Europe? I just spoke to Jim Wilson. They didn't say anything. 
What country are they in? He said I can't tell you that. We 
called to ask your permission for a member of the American 
embassy in Europe to take down a statement concerning where 
they want to live. I said absolutely not. Al-Jubeir had 
requested this statement to be taken down from Assistant 
Secretary of State Bill Burns in July. Ever since our hearing 
in June, al-Jubeir had been looking for an inroad where a 
statement would be taken down concerning where my daughters 
wanted to live.
    Al-Jubeir then and--well, let's go back to Labor Day. So 
that was that, and then I called Saudi Arabia to speak to the 
CODEL and say look what's happening. They're somewhere in 
Europe. Do you know anything about this? And they didn't know 
anything about this. And then I received a call from Bill 
McGurn, from the Wall Street Journal, who had met with al-
Jubeir and other members of--Petruzzello was there--in New York 
a couple of weeks before that, and they were talking about my 
case. So al-Jubeir on that same Saturday night called Bill 
McGurn in New York, and he says, they're in London. We got them 
to London. They're on vacation. And Bill said, you know, this 
wasn't a good move. This wasn't good. This wasn't a good thing. 
And Jubeir was gloating about it. And he said, well, what are 
you girls going to do when they're in London? And Jubeir said 
they're going to visit Big Ben and go to the cinema. And then 
on Saturday--or sorry, Sunday morning, the State Department 
called to read me the official statement after the consular 
officer had been there. And then I received a call that evening 
from Donna Abernasser, who is the Associated Press Writer from 
London, an Arabic-speaking woman who has written many, many 
articles about the Saudis in a very favorable light, and she 
was called, not by my daughters, I'm sure, to take down the 
statement that the Saudis included--Petruzzello included in the 
green folder, material that says my girls--one of my girls said 
I won't rest until she dies. Statements like that, just to hurt 
me.
    And then the next--2 days after that, I received a call 
from Bill O'Reilly's producer, and she said, we interviewed 
your daughters in London. And I said, what do you mean you 
interviewed my daughters in London? How could this happen? And 
she said, well, we want you to be on a show tonight, Pat. And I 
said, I'm not going to go through that. You interviewed my 
daughters? She said, well, we couldn't get them on tape, but we 
were able to send a producer from San Diego to talk to them, 
and we want to have you on the show. I said, I'm not going to 
be part of some kind of a setup. And she said oh, no, Pat, 
don't worry. It looks like your daughters were under extreme 
duress and coerced and that your youngest daughter, Aisha, 
seemed very confused why these people are being brought before 
her and why she was taken to London in this fancy hotel and 
various people are parading before her and her sister. Don't 
worry, Pat. We would never do that to you. And she said--I 
said, well, just tell me a little bit more. I don't know 
anything about my girls. What do they look like? What are they 
saying? And she said, well, just between you and me, it looks 
like your ex-husband was there, and it looks like his brothers 
were there.
    Mr. Ose. If I may interject, Mr. Crocker, Ms. Andruch, do 
you know whether or not the ex-husband was in fact there in 
London?
    Ms. Andruch. If they were--I think that the husband's--the 
ex-husband, I don't know. I know that----
    Mr. Ose. We're talking about Ms. Roush's ex-husband.
    Ms. Andruch. Right. I don't know. I know he was not present 
when the consular officer met with him.
    Mr. Ose. How about any of the brothers?
    Ms. Andruch. No, sir, I'm not aware of them. I mean, I know 
there were other family members there. I just don't know who 
they were.
    Mr. Ose. Thank you.
    Ms. Roush. The point is that this whole thing in London was 
contrived and staged, and then Bill O'Reilly has the nerve to 
quote Osama bin Laden, to say that my--they asked my little 
girl, who's 20 years old, who is actually very childlike, who 
has no idea what is what in the whole world, and he berated her 
for saying that Osama bin Laden was a clean and peaceful man. 
And then he goes on for 7 continuous days on his television 
show and berates my daughters and says that they're brainwashed 
and that they're not worth saving. He gets on--well, 
Congressman, you were on with him. You know what I'm saying. He 
has written my daughters off. He has been the jury and the 
judge and the executioner of my daughters in front of American 
media, and this whole Stalinist show trial has caused me so 
much pain and grief. And the only way to set that straight is 
to allow my innocent daughters and my little granddaughter to 
be able to come to the United States into my home in 
Sacramento, California and to be able to come and know the 
mother that loves them.
    Mr. Burton [presiding]. Let me just say that I--we know 
from witnesses that we've had before us that young women have 
been told to say one thing before embassy officials under the 
threat of death if they didn't comply, and then when they did 
get out of Saudi Arabia and came to the United States we found 
out just the opposite was true. So I don't think there's any 
way that anybody can believe what was said in London by your 
daughters, because nobody understands or knows the pressure 
that they may have been under. I do know that when they talked 
to the embassy official there, the consular officer, they had 
their abayas off. And when asked to sign the document that they 
had just concluded, they said they couldn't do that. They had 
to have their husbands look at it. And they put their abayas 
back on. And according to what I've been told, they went to the 
back of the room and sat down while the husbands came in and 
looked at it. So the very strong possibility of them being 
under great pressure and duress is, in my opinion, very real.
    And when you compare that to these others who have been 
told to say things to the embassy officials in Riyadh and then 
to find out when they were finally freed that they said 
something entirely different when they could speak without 
being scared to death, it sure stands to follow that your 
daughters faced the same kind of thing. And I agree with you. 
The only way for the Saudi Government to make a clean breast of 
this is to let your daughters come to the United States with 
your granddaughter and to talk to you, and then if they choose 
to go back to Saudi Arabia, we're not going to hold them. They 
will have a passport and they will be able to do as they wish. 
But we don't know that's the case based upon what we saw in 
London.
    So I would say to the Saudis if they were here, and I 
presume somebody from the Saudi Arabian Government is paying 
attention, that bring them to the United States with the 
granddaughter without being under duress from any male pressure 
point in Saudi Arabia, and let them express what they want to 
do with the rest of their lives. And if they want to go back, 
then of course you'll have to let them go back. But if they 
don't want to go back, then they will be in the United States.
    Any further questions? Mr. Horn, do you have any questions? 
Mr. Ose?
    Well, I know you've been here a long time, and, you know, I 
have to tell you, Ambassador Mabus, I admire you. I have never 
met you, but you did the right thing under a great deal of 
pressure over there, and I really wish we had more Ambassadors 
like you, and the State Department here, and if you can find 
any more relatives of his that are like him, let's get him back 
over there or--I don't care whether you're Democrat or 
Republican, it makes no difference to me. You did the right 
thing.
    Ms. Roush, we'll continue to fight for you. I promise you. 
I promise you.
    And Mr. Crocker and Ms. Andruch, I hope that you will take 
the message that we, the committee, very carefully explained 
today, back to the State Department, along with the 
recommendations that we've made, and hopefully that they will 
be adopted without legislative action. But if you need 
legislative action, rest assured that we'll get it. And as you 
heard--you were here today. You heard Democrats, Republicans 
unanimously say, hey, we're all for these changes. So let's get 
these changes made and make sure we protect Americans and their 
kids no matter where.
    Ms. Andruch. Thank you. I would like to just say again we 
do appreciate everything you're doing. I appreciate the 
opportunity to have come here again today, and I look forward 
to working with you and the committee.
    Thank you.
    Mr. Burton. Thank you. Thank you, Mr. Crocker, and give my 
regards to Secretary Powell. And could I get you to answer some 
written questions for the record since we didn't get that? I 
know you don't want to stay here all night and have me ask them 
all. So I'll send them to you. Thank you very much.
    We stand adjourned.
    [Whereupon, at 3:52 p.m., the committee was adjourned.]
    [Exhibits provided by Margaret McClain and Samiah Seramur 
follow:]

                 Exhibits Provided by Margaret McClain


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]





                  Exhibits Provided by Samiah Seramur







    THE SAUDI CLAIM OF PRIVILEGE: MUST SAUDI LOBBYISTS COMPLY WITH 
  SUBPOENAS IN THE COMMITTEE'S INVESTIGATION OF CHILD ABDUCTION CASES?

                              ----------                              


                      WEDNESDAY, DECEMBER 4, 2002

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Maloney, and Norton.
    Also present: Senator Blanche Lincoln.
    Staff present: Kevin Binger, staff director; James C. 
Wilson, chief counsel; David A. Kass, deputy chief counsel; 
Pablo Carrillo and Jason Foster, counsels; Blain Rethmeier, 
communications director; Allyson Blandford, assistant to chief 
counsel; Robert A. Briggs, chief clerk; Robin Butler, office 
manager; Joshua E. Gillespie, deputy chief clerk; Mindi Walker, 
staff assistant; Corinne Zaccagnini, systems administrator; 
Sarah Despres, minority counsel; Ellen Rayner, minority chief 
clerk; and Jean Gosa and Earley Green, minority assistant 
clerks.
    Mr. Burton. Good morning. A quorum being present, the 
Committee on Government Reform will come to order.
    I ask unanimous consent that all Members' and witnesses' 
written and opening statements be included in the record. 
Without objection, so ordered.
    I ask unanimous consent that all written questions 
submitted to witnesses and answers provided by witnesses after 
the conclusion of this hearing be included in the record. And 
without objection, so ordered.
    I ask unanimous consent that a set of exhibits relating to 
this hearing be included in the record. Without objection, so 
ordered.
    I ask unanimous consent that all articles, exhibits and 
extraneous or tabular material referred to be included in the 
record. And without objection, so ordered.
    I ask unanimous consent that Senator Blanche Lincoln be 
permitted to participate in today's hearing.
    And we are very happy to have you here.
    And without objection, so ordered.
    And I ask unanimous consent that questioning in the matter 
under consideration proceed under clause 2(j)(2) of House Rule 
11 and committee rule 14 in which the chairman and ranking 
minority member will allocate time to committee counsel as they 
deem appropriate for extended questioning not to exceed 60 
minutes divided equally between the majority and minority. And 
without objection, so ordered.
    Before I make my opening statement, I think it is important 
that we talk a little bit about some of the problems that have 
occurred in the last couple of days.
    The spokesman for the Saudi embassy, Mr. Jubeir, has been 
all over national television indicating that the Saudis are 
very cooperative and want to work with the U.S. Government in 
every area possible to make sure that we continue to have a 
good relationship. And he is a very good spokesman. I watched 
him on Fox this morning, and I watched him on some other 
channels; and it is amazing how adept he is at skirting the 
truth.
    I want to cite just a few examples of where we had problems 
as a government and as a committee in getting the truth from 
the Saudis. The Saudis said they were not complicitous in 
kidnapping American children whose mothers had parental rights 
and had custody of their children. But we know for a fact that 
the Saudis--even though they had been notified not to give 
passports to children who were kidnapped, they did. They issued 
passports to the children of Joanna Tonetti and Margaret 
McClain even though they knew the American courts had ordered 
the fathers not to take them out of the country, and the 
embassy had been contacted in some of these cases. And so they 
lied about that.
    The Roush girls supposedly were on vacation in London 
during the delegation's visit to Saudi Arabia. That's not so.
    The Saudis provided a list of kidnappings of their citizens 
by the Americans that the United States should address. That's 
not so.
    Dria Davis was kidnapped to the United States with the help 
of the State Department. That's not so.
    The congressional delegation did not request a meeting with 
Crown Prince Abdullah. The Saudi Government cannot intervene in 
family matters and urges them to be settled privately. We know 
that's not so.
    Fifteen of the 19 September 11th hijackers were from Saudi 
Arabia. And I have an article I want to read about that.
    The Saudis have held telethons to raise money for the 
families of suicide bombers. The FBI money has traced money 
from a suspected al Quaeda advance man back to the Saudi 
Ambassador's wife. We have a chart on that. The suspect, Omar 
Ahmad al-Bayoumi, may have assisted two of the hijackers of the 
plane that hit the Pentagon, and he's now missing.
    Besides oil, their main export is anti-American and anti-
Semitic propaganda. They funded the extremist madrasas in 
Pakistan and Afghanistan that created the Taliban. And Prince 
Nayef bin Abd al-Aziz, Minister of the Interior, said this less 
than 2 weeks ago, ``I presume there's a link between Israeli 
intelligence and terrorist organizations to attack Muslims 
through Islam and Palestine. The media is controlled by the 
Zionists, and we know that Jews have exploited the September 
11th events and were able to turn the American public against 
Arabs and Islam. The question is, who perpetrated the September 
11th events and who were the beneficiaries.''
    And then he says, ``I think the Jews themselves.'' He knows 
full well that 15 of the terrorists were Saudis and yet he's 
now saying that the Jews were responsible.
    Prince Nayef's attitude is pervasive there. When we went on 
our CODEL to Saudi Arabia, we stopped in Israel for some 
meetings there. The Saudis wouldn't even allow our plane to 
enter their air space after taking off from Israel. We had to 
make a diplomatic stop in Jordan first. I don't see how they 
can be seen as reasonable people and allies in the war on 
terror when they won't even let our airplane fly from Tel Aviv 
to Riyadh.
    On the issue of kidnapped American citizens, the Saudis 
have completely been inflexible. We recently got a letter from 
the foreign minister. He said we totally reject anything. The 
damages are Islamic shira law on which the total system of the 
state is founded and which one-quarter of the population on 
this Earth believe. The shira regulates and guarantees all 
humanitarian rights without any prejudices. It is founded on 
God's orders which we follow, as well as the good objectives of 
Islam, mainly justice. And I would like to know where the 
justice is in denying Pat Roush's daughters for 17 years.
    And where is the justice for harboring kidnappers? And we 
know that's been done, and we know they have been complicitous 
in this.
    So Mr. Jubeir, although he is very adept at making these 
statements to the media and they've done a good job of it this 
past week, the fact of the matter is there's a heck of a lot 
that needs to be explained.
    Now, we have contacted their lobbyists to get information 
that they may have regarding the kidnapping of these children 
and the complicitousness of the Saudi Government. The lobbyists 
have said that they are protected. And the Saudi Government has 
said they are protected by the Vienna Convention and that they 
are an arm of the Saudi Government, and therefore they don't 
have to give us any documents that they have. That is totally 
wrong, according to every lawyer that we have talked to that 
knows anything about the Vienna Convention; and we have some 
witnesses here today that are going to talk about that.
    So we asked the Saudi lobbyists, some of whom have been 
here before, to come and testify here today. Their lawyers said 
they didn't want to testify. And so we told them we would be 
sending them subpoenas to compel them to testify. When the U.S. 
Marshals went to serve the subpoenas, they weren't at their 
homes, they weren't at their offices, and they were nowhere to 
be found.
    Now, you would say, if this was one lobbyist, that would be 
understandable; but the fact of the matter is, there were three 
lobbyists from three different concerns, and none of them were 
anywhere to be found and so they have been hiding and I think 
that says a lot about the Saudi Government and their openness 
and their willingness to cooperate with the U.S. Government in 
helping us solve problems like these kidnappings and the money 
that's been going through to them, to families of terrorists 
who have blown themselves up in Israel, and possibly al Qaeda 
cells. And so we're very disappointed the lobbyists aren't 
here, but we will be asking some questions that are relevant to 
them anyhow.
    We are meeting, as I said before, to talk today about 
American children who have been abducted to Saudi Arabia. I 
don't want to be here today. It's the holidays. Congress is not 
in session. I don't think any of us, the Senator or the 
Congresswoman would rather be someplace else, but this is very, 
very important, and so we're here. But I feel we've reached a 
stalemate on this issue, and I don't think we can just forget 
about it.
    We've seen very little progress from the Saudis on any of 
these kidnapping cases. A couple of mothers have received phone 
calls, and that's about it. The lobbyists for the Saudis, as I 
said, have refused to comply with our subpoenas, the embassies 
continue to spread this information; and that's why we are here 
holding another hearing.
    One of the most frustrating things to me is that you just 
can't get a straight answer from the Saudis. Their spokesman 
had a press conference at their embassy yesterday and the 
things he said make it clear that they just don't get it. He 
said that these cases are private matters and have to be dealt 
with by the families. Well, that's not true. These are American 
children who were kidnapped in violation of U.S. court orders. 
In many of these cases, arrest warrants have been issued for 
the fathers. In at least two cases that we know of, the Saudi 
embassy helped the kidnappers by issuing Saudi passports to the 
children; and they did it after they were informed that the 
children were not allowed to leave the country.
    So the Saudi Government aided and abetted the kidnappings 
and they are harboring the fugitives. And that's not a private 
matter. Their government must take responsibility.
    I want you to listen to what Prince Bandar wrote in the 
Wall Street Journal in September, ``Some have charged that 
Saudi Arabia is holding Americans against their will.'' This is 
absolutely not true.
    I want you to know that's a lie. I've talked to women over 
there who are absolutely terrified that their husbands would 
even find out that they were talking to us. One woman said, 
Just put us in a box with our kids and stick us in the belly of 
a plane and get us out of here. So when the Saudis say, No 
Americans are being held against their will, they don't get it. 
They're misleading. At one hearing alone we heard from five 
parents who testified that their children are being held 
against their will. And that's just the tip of the iceberg.
    Just in case anyone from the Saudi embassy might be paying 
attention today, I want to refresh their memory.
    Joanna Tonetti: Her three children, Rosemary, Sarah and 
Abdulaziz, were kidnapped by their Saudi father in August 2000.
    Michael Rives: His two children, Lilly and Sami, were 
kidnapped to Saudi Arabia by their mother in July 2001.
    Maureen Dabbagh: Her daughter, Nadia, was kidnapped to 
Saudi Arabia by her father in 1992.
    Margaret McClain: Her daughter, Heidi, was kidnapped by her 
Saudi father in August 1997.
    Sam Seramur: Her three children, Safiah, Maha and Faisal, 
were abducted in 1994 by their Saudi father during a brief 
visit to Saudi Arabia. She has since been reunited with Maha, 
who was here, but her other two children are still being held 
in Saudi Arabia.
    Deborah Docekal: Her two children, Ramie and Suzanne, were 
abducted by their Saudi father in 1988 during a brief visit to 
Saudi Arabia. She has since been reunited with her son, but her 
daughter is still being held against her will in Saudi Arabia.
    Monica Stowers: Her daughter, Amjad, has been held in Saudi 
Arabia since 1986. We met Amjad in August. The Saudis said they 
gave her a passport and allowed her to leave. But if you hear 
the whole story of that, how her father married her off to some 
guy she didn't even know a week before we got there, I mean, 
the things--the hoops they jump through to keep her from coming 
to the United States are unbelievable and it was apparent to me 
when I talked to her she was scared to death.
    Not only that. The religious police came in and threatened 
our meeting because Amjad's mother didn't have her head 
properly covered during the meeting. I'm sure she was followed 
there because they came right in after she got there.
    Pat Roush, her two daughters, Alia and Aisha, were abducted 
by their Saudi father in 1986. Instead of allowing the 
daughters to meet with their mother in the United States, the 
Saudis sent them to London and pulled a publicity stunt at the 
very same time we were going over there. They got them out of 
the country and they had an entourage of men with them. And the 
way they were questioned showed very clearly that they were 
subjective to the men because when the men left the room--they 
were in the other room while they were questioning, when they 
came back in, they put on their abayas--it's those things that 
cover them from head to toe--and they sat meekly in the back of 
the room while the husbands answered the questions on whether 
or not any of the statements could be made public.
    So they were intimidated, and they should have been allowed 
to come to the United States and meet with their mother and be 
questioned here, but that wasn't going to happen.
    And those are just the parents who testified before our 
committee, and I guarantee you after having been over there 
myself with committee members, there are many more who are 
afraid to come forward. Some of them were threatened so 
severely when I talked to them over there that it was just 
unbelievable--I mean threatened with death and dismemberment 
and disfigurement. It was awful.
    Mr. Al-Jubeir talked a lot about all the progress the 
Saudis have made. He said they set up a commission and said 
they are working hard. This is simply one fact they can't hide 
and that is, according to the State Department the Saudi 
Government has never returned a single kidnapped American 
child. Not one. Until the Saudis return one of these children, 
all of their smooth talk is just a lot of hot air.
    Worse, they are actively working against the interests of 
some of those who were kidnapped. What happened to Pat Roush's 
daughter was just a PR stunt.
    It is no wonder the Saudis haven't returned any kidnapped 
children. They can't even answer the most basic questions, or 
they won't. In August, we asked whether Michael Rives' 
kidnapped children were Saudi citizens or American citizens. 
Now it's December and still no answer. Michael Rives is still 
waiting to get his kids back.
    We asked where Maureen Dabbagh's kidnapped daughter is. The 
Saudis won't even tell us what country she's in, much less 
return her. Is that what they call progress?
    The bottom line is that we just can't get a straight answer 
from the Saudi Government. That's why we issued subpoenas to 
their lobbyists here in Washington. It's not a step I wanted to 
take, but we have been getting so much double-talk and so much 
stuff in the media that is just not true, we had to try to find 
some way to verify the statements that are being made.
    We can't subpoena the fathers who are hiding out in Saudi 
Arabia. The only avenue to try to find out if we're being told 
the truth is to subpoena the lobbyists who are being paid to 
represent the Saudis and these PR people told us that they are 
working on the cases, but nothing ever happens.
    In October, we subpoenaed Michael Petruzzello to come and 
testify, even though he is a paid representative getting about 
$200,000 a month from the Saudis. He told us he couldn't speak 
for them. So we took the next step. We subpoenaed documents 
from the three main lobbyists who represent the Saudis, which I 
mentioned earlier. If the internal documents match the public 
statements, then maybe some of their statements are true. But 
if the internal documents don't match the public statements, 
then we will know the Saudis are trying to mislead the 
Congress, as we believe they have in the past, the mothers and 
the fathers and the children of the kidnapped children and the 
U.S. public.
    We have been told so many contradictory things that we have 
to have some way to assess their credibility. If we can't 
conduct basic fact-finding and we can't get the documents we 
need to determine the facts as they really are, then Congress 
cannot conduct oversight; and it is just as simple as that.
    The main reason we are here today is that our subpoenas 
have not been complied with. To those who have observed our 
investigations over the years, that shouldn't come as any big 
surprise. I thought we heard just about every excuse in the 
book, but I was wrong. The Saudis have taken the position their 
lobbyist documents are covered by the Vienna Convention on 
diplomatic relations.
    I went into that earlier so I won't continue with that, but 
I've got to tell you, our lawyers have checked on it. We have 
talked to lawyers from all of the leading institutions here in 
Washington and elsewhere and nobody agrees with the position 
they have taken. They are simply hiding behind something that 
they think will work.
    Today we are going to have Professor Eileen Denza of the 
University College of London here. And I want to read to you a 
very short quote from her letter of November 18: ``It is my 
opinion that the records which are subject to subpoenas from 
the Committee on Government Reform of the House of 
Representatives are not archives or documents of the Saudi 
mission and so are not protected on the basis of inviolability 
from disclosure.''
    Now this is not a trivial case. This affects a lot more 
than the committee's investigation. If the Saudis' position 
stands and if the documents of anyone who receives money or 
direction from an embassy are protected from law enforcement or 
from our government, it's going to have very serious 
consequences. For instance, the Foreign Agents Registration Act 
will become a useless piece of paper. Under FARA, the Foreign 
Agents Registration Act, foreign agents, lobbyists or foreign 
governments have to register with the Justice Department. They 
have to preserve all of their records, which are open to 
inspection by the Justice Department at any time.
    Those are exactly the kinds of records we subpoenaed. If 
the records of the Saudi lobbyists are suddenly covered by the 
Vienna Convention, what's going to happen the next time the 
Justice Department wants to inspect them?
    And these are very serious times we're working in. We have 
terrorists around the world and got all things going on and the 
threat to the American public and our way of life. And if 
lobbyists can hide these things under the Vienna Convention, 
then how's our government going to deal with it?
    One question I wanted to ask the lobbyists that have dodged 
our subpoenas is whether they still have the documents that 
FARA requires them to keep. If they don't, then they've broken 
the law. And if they do, we ought to be able to get them 
through our subpoena. It's pretty clear that the Saudis have 
fabricated this argument to protect embarrassing documents from 
disclosure.
    They can't cite a single precedent, not one, for their 
claim. In fact, we found out last night that the Saudi 
Government has allowed the Justice Department to access records 
just like the ones we're seeking and they've done that in the 
past. This makes a mockery of their claim.
    We received a report from the Justice Department's Foreign 
Agents Inspection Unit. They inspected the records of Saudi 
lobbyist Frederick Dutton. The report noted that the records 
were available for inspection and contained many memos from the 
registrant to the Ambassador. The Saudis didn't raise the 
Vienna Convention then. Why are they raising it now? And that's 
something our government ought to be very concerned about. 
Probably because they are hiding embarrassing documents.
    What if an embassy pays someone in the United States to 
conduct espionage? That would make them a paid agent for a 
foreign embassy. Are they immune from prosecution? Do they not 
have to comply with lawful subpoenas? That would be the effect 
of the Saudi position.
    So for all these reasons, we can't let this stand. We have 
to insist on compliance with these subpoenas for the sake of 
this investigation into child abductions and because of these 
other serious issues that would arise if we let this precedent 
stand. That's why I called before us today the three lobbyists 
and their legal representative.
    Now, they're not here. They're hiding someplace, possibly 
at the Saudi embassy.
    I want to finish my opening statement, and then I will let 
my colleagues make a statement. I want to finish my statement 
by showing a short video and I want to do this to remind 
everyone why this is so important. I want everyone to see one 
more time what Maha Seramur said. Now this is the young lady 
that was--said one thing in Saudi Arabia, because she was 
threatened, and when she came here and was free to say what she 
wanted to, she said something entirely different because she 
wasn't scared to death.
    So, with that, let's roll the tape and let the American 
public hopefully see.
    [Videotape played.]
    Mr. Burton. I hope everyone got that, ``If I had to go back 
to Saudi Arabia, I would kill myself.'' And yet when she was in 
Saudi Arabia and was asked questions about whether or not she 
wanted to stay or leave, she said something entirely different. 
That gives you an idea of the kind of terror that these young 
people and these women live under over there.
    And I talked to some of these women, and I want to tell 
you, it's not right for an American citizen to be treated that 
way by a foreign government. They do not recognize U.S. law; 
it's Saudi law, and the man rules. A woman can't leave the 
house or can't go to the bathroom unless he says it's OK.
    And we did something about that in Afghanistan. We raised 
Cain. I watched Jay Leno's wife talk about the horrible things 
that were going on in Afghanistan, where the women were treated 
like dirt.
    The same thing goes on in Saudi Arabia. If your ankles are 
showing, guys walk by, the religious police, and they smack you 
on the legs with whips. And if you do anything like show your 
head or face in public, you are subject to going to jail and 
you can be whipped up to 40 times with a whip while they hold 
the Koran under their arm. These are things that need to be 
known by the American people.
    If the Saudis want to do that to their women over there, I 
guess there's not much we can do about that. But when we're 
talking about American citizens and their kids, that's dead 
wrong.
    Let's watch now a short tape of Dria Davis. Dria's mother 
and grandmother paid $200,000 to help her escape from Saudi 
Arabia after she was kidnapped by her father. I think they sold 
their house or mortgaged their house. Can you imagine that, 
having to sell your house to get your kid back?
    Her testimony says it all, when it comes to living as a 
young woman scared and isolated in Saudi Arabia.
    Play the tape.
    [Videotape played.]
    Mr. Burton. The young lady said it all. And they said one 
thing in Saudi Arabia and when they were here in a free 
country--these are American citizens; in a free country, they 
told the truth. And when Mr. Jubeir, Al-Jubeir, makes those 
statements like he has the last couple of days, I really get 
upset, because the media, while they try to keep everything as 
accurate as possible, are providing a forum for this guy, and 
he's talking out of both sides of his mouth, day in and day 
out.
    And we need to hold them accountable; if they are an ally 
of the United States, then they should work with us to return 
American citizens to the United States. And if they are an ally 
of the United States, they should make darned sure that they 
are not allowing any of their wealth to go to terrorist 
organizations that are endangering the security of this 
country.
    And I can tell you right now, they have not been doing 
that, and I doubt seriously if they plan to do it in the 
future. And that's why our State Department is so important, 
that they keep the heat on them.
    I want to conclude my statement; and I am sorry, to my 
colleagues, for talking so long. I want to thank Senator 
Lincoln for joining us today.
    It's nice for you to come down from the high perch of the 
U.S. Senate to join us, but we really appreciate it.
    She has shown tremendous leadership over in the Senate in 
trying to help families of abducted children, and I'm glad 
she's here, and I congratulate her for her hard work. She has 
also talked to Senator Lugar and Senator Biden, and she's 
working very hard to have a hearing over there. So for you 
ladies who have been suffering, you have somebody who is 
beating the drum over there pretty hard, and we are very proud 
of her and happy she's here.
    I just wish you were a Republican.
    [The prepared statement of Hon. Dan Burton follows:]




    
    Mr. Burton. With that, would you like to make a statement, 
Senator Lincoln?
    Senator Lincoln. Mr. Chairman, I first want to commend your 
leadership on the issue of child abductions and the wrongful 
detention of U.S. citizens in Saudi Arabia. You mentioned that 
it's normally a break time for us here in Washington and that 
everybody is scattered far and wide as far as our colleagues 
are concerned. But this is a very important issue and it is our 
job to make sure that we continue to address this issue and 
bring it to the light of the American people and the people 
abroad to better understand what has happened to these American 
citizens.
    You, Mr. Chairman, have been a true champion of the most 
vulnerable among us; and I am personally grateful for the 
chairman's efforts. I think he has led very, very well the 
campaign here to bring about and bring to light the facts that 
are involved in these specific cases but, more importantly, in 
the overall unfortunate circumstances that so many American 
citizens have found themselves in.
    I also appreciate your willingness to allow me to 
participate in this hearing today to introduce a constituent of 
mine, Margaret McClain, who I think has done a fabulous job in 
working with our office and has just persevered under 
unbelievable circumstances.
    I am delighted to join my former colleagues in the House, 
the fun body--how's that--and delighted to be back over on this 
side and appreciate the working relationship that we have and I 
hope that we can continue that in the new year as we look for 
bringing up hearings in the Senate and bringing a greater 
awareness to my Senate colleagues about these issues so we can 
combine our efforts and get some results.
    As I mentioned, Margaret McClain, who is with us today, is 
a resident of Jonesboro, Arkansas; and Ms. McClain's Heidi Al-
Omary was abducted in Arkansas at the age of 5 by her 
noncustodial Saudi-born father, Abdulbasset Al-Omary, and taken 
to Saudi Arabia in 1997. I would like to point out that Mr. Al-
Omary used our system of justice, he used our court system to 
gain access to his daughter. In pleading with the judge to ask 
for those unsupervised visits, he used our justice system and 
then immediately turned in complete disregard and thumbed his 
nose at the very justice system that provided him that ability 
to have those visits with his child. And I think that is 
something that we must focus on, is this complete disregard of 
our justice system that is there to protect our citizens of 
this country.
    At the time of the abduction, Ms. McClain had legal custody 
of Heidi and Mr. Al-Omary was permitted unsupervised visitation 
against the will of Ms. McClain, I believe. In July of this 
year, Ms. McClain was permitted to travel to Saudi Arabia to 
visit with her daughter, who is now 10 years old, for 
approximately 3 hours.
    My colleague, Congresswoman Maloney, mentioned when I 
stepped up to the dais here, as a mother I could understand 
these issues; and she is so right. My heart and my prayers and 
my thoughts and my compassion have gone out not only to Mrs. 
McClain but to all of these other parents who have suffered 
this incredible separation from their children.
    Prior to this visitation in July, Ms. McClain had not seen 
or spoken to her daughter since Heidi was unlawfully taken from 
the United States. Even though I know that Ms. McClain was 
relieved to see her daughter after 5 years of separation, her 
painful experience is something no law-abiding parent should 
ever have to endure.
    I have become actively involved in Heidi's case because I 
am outraged. I am outraged that the Saudi Arabians continue to 
invoke its law and its customs to detain my constituent Heidi 
Al-Omary in blatant violation of U.S. law and a valid court 
order. The very court system that Mr. Al-Omary used to gain 
access to his child is now completely disregarded.
    I recognize that the issue of international child abduction 
is not limited to Saudi Arabia. We know that there are horrific 
situations all across the globe. However, the status of female 
abductees in the Kingdom is quite unique, since under Saudi law 
and custom women have very limited autonomy and will never have 
a meaningful opportunity to leave, even as adults, if we are 
unable to get them as children. And the chairman has made many 
references to the circumstances and the concerns, the problems 
that these young women and these young girls face as women in 
this country.
    Moreover, Mr. Chairman, as I have become more familiar with 
the specific facts of Heidi's case and others, I have sadly 
concluded that our own government has failed to represent the 
interests of abducted children adequately. Perhaps most telling 
in Heidi's case is the fact that even though Heidi, a U.S. 
citizen, was kidnapped in August 1997, our government did not 
formally ask that she be returned until October 2002. How 
inexcusable on our part is that?
    For too long it seems that the U.S. Government's role in 
these cases has been to maximize visitation and contacts 
between U.S. parents and their abducted children in an effort 
to avoid confrontation with foreign governments. It is sad to 
say that neither I nor Ms. McClain are satisfied with that 
approach. It is absolutely unacceptable. I firmly believe that 
our policy should be to aggressively seek to recover abducted 
children who are American citizens being held against their 
will, especially when they are taken to a country that displays 
contempt for the basic values that we all cherish as Americans.
    I, for one, am not prepared to accept any result short of 
the recovery of Heidi from Saudi Arabia. Ms. McClain, I join 
you in that fight; and you know that I will be there with you. 
And I will join the rest of these members here as we work 
toward that end. I am monitoring the progress of Heidi's case 
personally, and I fully intend to hold the Saudi Government and 
the Bush administration accountable to bringing this matter to 
a satisfactory conclusion. I discussed Heidi's case at length 
with Secretary Powell on the phone, and he has assured me that 
he will be personally involved in resolving her case.
    It's my understanding that the Saudi Government is 
currently unwilling to pressure Saudi parents who have abducted 
American children to comply with that of U.S. custody orders. 
If the administration is unable to persuade the Saudi 
Government to reverse its position in these cases, others are 
prepared to take steps in Congress to ensure that the Saudi 
Government is fully aware that its current policy is absolutely 
unacceptable. To this end, Mr. Chairman, I was pleased to join 
you in introducing legislation this year that gives the 
Secretary of State additional authority to deny visas to the 
extended family members and employers of child abductors.
    In addition, I believe the Embassy Sanctuary Resolution 
that we drafted is an important statement that our government 
is committed to protecting the rights of American citizens 
abroad. We never want to see that case happen again where 
American citizens and American children are taken to a U.S. 
Embassy abroad and denied sanctuary and actually removed by 
military. I look forward to working with you, Mr. Chairman, and 
all of the others again next year on these and other 
legislative proposals to help resolve parental kidnapping cases 
worldwide.
    In closing, I want to express my appreciation to Margaret 
McClain and to Pat Roush for their willingness to come forward 
and share their painful stories today. The fortitude and the 
perseverance they have exhibited under the most difficult of 
circumstances is truly inspiring to all of us. I believe the 
hearing you have convened today will shed light on one of the 
many obstacles they face in being reunited with their children. 
And while I am not intimately familiar with every detail of the 
subpoenas that issued today, I share your concern about the 
broad scope about the privilege being asserted and how that can 
impede in the future our ability in Congress to protect the 
rights of citizens, American citizens now, in the future and 
certainly in term of our own security in this country.
    Mr. Chairman, I thank you for your unbelievable tenacity in 
this issue in working through this; and I would like to remind 
all of us and especially the Saudis, who we would like to see 
as an ally and as a friend, as a good neighbor that we could 
work with in many of the compromising situations we see across 
the globe today, but I must remind all of us that a friendship 
and an alliance is built on mutual respect. And until we can 
gain the same kind of respect for our laws and our citizens as 
we provide to those Saudis that live in their own country in 
respect for their law and respect for their customs, it's going 
to be hard to understand any type of friendship that will take 
us forward in the 21 Century. So I hope we can gain that 
respect and that working relationship with the Saudi Government 
to move forward and bring resolution to these heart-wrenching 
situations and cases that we have seen and we have heard from 
these incredible women today and in the past.
    Thank you, Mr. Chairman, for allowing me to be a part of 
this; and I look forward to working with you next year as we 
continue in our struggle to make sure that the American people 
and the Senate and the House are doing all that we can to 
assist these families.
    [The prepared statement of Senator Lincoln follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Burton. Thank you, Senator Lincoln.
    I just would like to say that if the Saudis are paying 
attention, and I have a sneaking suspicion that they are, that 
this is not a partisan issue. We have Democrats and Republicans 
who agree 100 percent on this. I think it is the vast majority 
of both the House and the Senate. So they ought to be aware 
that this is not an issue that is going to go away.
    With that, my good friend, Mrs. Maloney, is here; and you 
are recognized.
    Mrs. Maloney. Thank you Mr. Chairman.
    I would like to applaud your extraordinary leadership on 
this issue and the vaccines, for personally going to Saudi 
Arabia and meeting with the children, for introducing 
legislation and for continuing to work on this even as we are 
on break.
    And to my dear, good friend and former colleague, we came 
to Congress together. Blanche left to have her two children, 
and I am really happy that you have come back to the Senate. 
She has introduced the Burton bill in the Senate; and not only 
will she be helping Heidi return to her mother, but this 
broader bill will really help all American children get back to 
their homes.
    I think that's very, very important; and I am very proud to 
be working with Mr. Burton as the lead Democratic sponsor on 
H.R. 5715, which works to help these parents whose children 
have been abducted and taken overseas. This bill expands the 
classification of who can be denied visas from the immediate 
family of child abductors to the extended family and employers 
in order to put pressure on the abductor to resolve these 
cases.
    I would like to further note that we have heard testimony 
from former Ambassador Mabus that denying visas to the families 
of abductors can put pressure on the abductors; and, 
unfortunately, Ambassador Mabus left the U.S. Embassy shortly 
after instituting this policy. We hope to pass this bill in the 
next Congress and have this as a policy that will help 
families, American families.
    After all this moving testimony on Heidi and the two films 
that Mr. Burton shown, I want to remind everyone why we are 
here today. We are here to debate whether or not these three 
public relation firms representing the Saudi Government must 
release the subpoenaed documents. But we must not forget that 
the real reason we are here is because American children have 
been torn apart from their parents and are being held against 
their will in a foreign country that does not observe them any 
rights American citizens enjoy in our own country.
    I have said over the course of these hearings that our 
witnesses have presented wrenching accounts, and I would like 
to thank the two witnesses today for your willingness to share 
them with us.
    I would like to state that I believe the Government Reform 
Committee acted well within its jurisdiction when it requested 
the documents in question. Over the course of these hearings, 
we have been unsatisfied, to say the least, with the level of 
cooperation and amount of information provided to us by the 
Saudi Government. At times, information has been withheld. In 
other cases, information has been patently false. This is 
unacceptable. I strongly believe that if there is one sentence 
in all these documents that might help return one child to his 
or her mother, then these records must be released.
    Second, the Saudi Government has provided a weak 
interpretation of the Vienna Convention to support their case. 
The Convention has rules and procedures that govern the 
privileges and immunities of diplomatic missions. However, 
there is nothing in the treaty which would extend these 
diplomatic privileges to outside agents of the mission. In 
other words, these three lobbying firms should not be accorded 
any special privilege under the Convention.
    In addition, these three firms are registered under the 
Foreign Agents of Registration Act, known as FARA, which 
requires registrants to keep records and preserve written 
communication so these records can be made available to the 
Justice Department upon request. The Saudi Government claims 
that if there is any discrepancy between the Vienna Convention 
and FARA, the Convention should take precedence. To that I say 
that FARA has been in place for over 60 years and has proved 
critical over the years, and I am certain that these three 
firms were aware of the requirements of FARA, and I am 
disgusted by their decision to deny U.S. law and to not comply.
    Finally, we are in a period when our countries require 
greater cooperation and greater disclosure of information. 
While I am troubled by the Saudi government's refusal to 
release these documents, I am hopeful we can work together to 
achieve greater cooperation, transparency and ultimately to 
resolve these tragic family situations. These families, these 
children have a right to know what is contained in these 
documents; and I look forward to the hearing.
    Finally, Mr. Chairman, I would like permission to place 
into the record an article that is in the--this is the 
Washington Post today, and I think it's directly related to 
what we are working on today. It's called, Saudis Deny Dragging 
Feet on Terrorism.
    [The information referred to follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mrs. Maloney. If they can deny information on domestic 
individual cases, then they can deny information on alleged 
activities of their charities, on alleged activities of funding 
suicide bombers and other information that has been 
disturbingly exposed by the press in this country; and I feel 
it is extremely important to the families, but it is also 
important in our cooperation in our fight against terrorism.
    So, again, I thank you for really putting--you didn't just 
put one finger in--you know, the old game, hokey-pokey--you put 
your whole body into this issue and have been working very 
hard; and we appreciate it.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mr. Burton. You have to explain to me what that game was. 
You put one finger in and put one finger out. You put one foot 
in and one foot out. You put the whole body in. It's a 
compliment.
    Ms. Norton. I'll rescue you from that lesson you were about 
to receive from my good colleague.
    Let me thank you, Mr. Chairman, for what can only be called 
tenacious work and follow through on an issue where you have 
been resisted at every turn. I think that your failure to be 
deterred sends an important lesson to the Saudis, a lesson I 
hope the Congress and the committee will follow through in the 
next Congress and especially as we learn more, as we will 
today, about the consequences of Saudi action.
    I think we are all going to see a response from the 
American people that will--that can even move the Saudis. And I 
say that, Mr. Chairman, because I recognize that the time of 
this hearing is entirely coincidental, but I think we have seen 
what the Saudi Government will do when there is, in fact, 
pressure. The firestorm that erupted about funds that 
apparently made their way from the Ambassador's wife to the 
realm of the hijackers and the outrage of the American people 
on that brought forth the foreign policy advisor, Mr. Al-
Jubeir, to voluntarily offer up apparently all kinds of 
information about funding--about what the Saudi Arabia--what 
the Saudi Government has done to trace these funds and to make 
sure that these charities are, in fact, not contributing to 
terrorism. I haven't seen this document, but I do know that 
they weren't willing to say very much about this until, in 
fact, this caught the attention of the press and of the 
American people.
    Now there was a lot of spin in Mr. Al-Jubeir's press 
conference, and he is a master of that. He uses the English 
language better than most Americans. And when he slips, he 
says, oh, you have to forgive me. My English is a little rusty. 
This is a man who is absolutely and totally immersed in 
American culture. He must understand and indeed the entire 
sophisticated Saudi power structure must understand, therefore, 
because of their familiarity with our country, how outrageous 
these crimes are. And what we are dealing with are certainly 
crimes.
    We are taught that we have got to understand that when you 
go into these countries where people have different cultures we 
can't change peoples' cultures by ourselves. I couldn't agree 
more. I think we have to follow the lead of those in those 
countries who would change those cultures. But, Mr. Chairman, 
they are now messing with our culture and with our children and 
our laws. This is no longer a case of you're dealing with the 
Saudis and how they deal with things. They have not only 
implicated us in our laws; they are in direct violation of our 
laws. They have shown no respect for our people as American 
citizens. They have enslaved some of our children, kidnapped 
some of our children and their families, forced marriage on 
some of our children. The notion that we would abide this and 
that our own government would be complicity in it is a complete 
and total outrage.
    Now your hearings have begun to begin the kind of exposure 
to this problem that all the subpoenas in the world that they 
refuse to honor may not do. Because that exposure, I think, is 
ultimately going to get the kind of response from the American 
people that the scandal about the funds of recent days got with 
some results, apparently, from the Saudi Government.
    I regard this issue involving our families and our children 
as a real task for the Saudis and their relationship to the 
United States of America. They claim to be allies. They have 
indeed been allies in many ways. There is a kind of reciprocal 
dependence: We need their oil; we need their bases. In all such 
relationships you look for a win-win. When it comes to our 
children and what is happening to these families, this is a 
win-lose. The State Department has--can cite no single instance 
in which a child has been returned. That's what I mean by win-
lose. We are losing 100 percent.
    What are we going to do about it? The chairman has said, 
let's subpoena the records, and we get the kind of legal 
obfuscation that perhaps we should have expected. I expect a 
number of things will happen. There may be a way to turn to the 
courts and get damages and other remedies from the courts. 
There must be treaty obligations involved here. This is an ally 
where we must have all manner of treaties when those kinds of 
violations occur. Surely there are remedies that our government 
can be forced to pursue.
    Mr. Chairman, there is about to commence an independent 
investigation of September 11th that members of the oversight 
committees in the House and Senate recently opposed, that the 
President of the United States opposed. Why is there now going 
to be an independent investigation of September 11th? Because 
the families who were victimized by September 11th demanded it.
    I regard this as an issue which can be resolved if the 
families who have come forward today, the families that we have 
heard from before and the other families implicated do for this 
issue what the September 11th families have done to get an 
independent investigation of the events and the responsibility 
leading up to September 11th. So I don't think we should be 
discouraged that we don't get voluntary cooperation from the 
Saudi Government or from those involved.
    I believe that your work, Mr. Chairman, in bringing the 
families forward, the public exposure that gives this issue so 
that the American people can understand what is happening, will 
lead to a resolution of this issue if we continue to do the 
work that you have begun. Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Mrs. Eleanor Holmes Norton.
    We will now go to our witnesses. Would you all rise, 
please, and be sworn.
    [Witnesses sworn.]
    Mr. Burton. Be seated.
    Well, we have had you, Ms. Roush and Ms. McClain, here 
before. Welcome Professor Denza.
    We'll start with you, Mrs. Roush; and we will go to you. 
Then, Professor, we would like to hear from you about the 
claims made by the lobbyists.
    Ms. Roush.

    STATEMENTS OF PATRICIA ROUSH, MOTHER OF ALIA AND AISHA 
GHESHAYAN; MARGARET MCCLAIN, MOTHER OF HEIDI AL-OMARY; MICHAEL 
  PETRUZZELLO, QORVIS COMMUNICATIONS; JACK DESCHAUER, PATTON 
BOGGS LLP; JAMIE GALLAGHER, THE GALLAGHER GROUP; AND PROFESSOR 
  EILEEN DENZA, VISITING PROFESSOR OF LAW, UNIVERSITY COLLEGE 
                             LONDON

    Ms. Roush. Good morning, Chairman Burton and members of the 
committee. It is once again an honor to bring my testimony 
before this distinguished body in regards to this committee's 
continued efforts to assist American women and children who are 
in grave danger inside the walls of Saudi Arabia and are unable 
to come home to the United States of America.
    This hearing, which concerns the Saudi embassy claim of 
privilege in instructing its lobbyists and public relation 
specialists to not turn over subpoenaed documents to the 
committee concerning abducted American citizens, is of the 
utmost importance in helping to reveal the truth about the role 
of these firms who do the bidding for the Saudi Arabian 
government. For 17 years, my daughters and I have been victims 
of the gamesmanship played by the Saudi Government, State 
Department and Saudi handlers. It all started almost from the 
very beginning of the kidnapping of my daughters in 1986.
    My past experiences in dealing with the paid 
representatives of the Saudi Arabian government.
    Let's begin with Saudi national Salah Hejailan. His name 
was sent to me by the State Department just 6 months after my 
daughters were kidnapped. They advised me there was nothing 
they could do to get my daughters out of Saudi Arabia, and I 
had no recourse except to hire a Saudi attorney and go to 
Islamic court to try to win custody of my U.S. citizen 
daughters. The State Department knew very well that I would 
never win in an Islamic court in Saudi Arabia as an American, 
Christian woman but prodded me to hire an attorney who assured 
me from the very beginning that he was very well connected to 
the king's brother, Prince Salmon bin Abdul Azziz, Governor of 
Riyadh. In fact, he gloated that he was a member of Salmon's 
court and that his brother was the Saudi Minister of Health and 
another relative was the former Saudi Ambassador to the United 
States.
    In other words, the State Department had recommended that I 
hire a member of the Saudi Government to work to get my 
daughters back when, in fact, the State Department should have 
been doing everything they could to bring these young girls 
home. It's like being told by your commander that you have to 
go to the enemy to save you because, sorry, we're not going to 
help you.
    Due to pressure raised in the U.S. Congress by former U.S. 
Senator Alan Dixon, the Saudis, through Hejailan, proposed a 
plan to have my daughters released from Saudi jurisdiction and 
returned to U.S. soil. Hejailan enjoyed a pristine relationship 
with the U.S. Embassy in Riyadh and suggested that he be 
endowed with the title of, ``special legal advisor,'' to the 
embassy in order to work for the release of my daughters. When 
the U.S. Embassy in Riyadh suggested this to the State 
Department, Washington replied that this was totally out of the 
question. Hejailan could never, never, never have that title. 
Then the State Department double-crossed me at the eleventh 
hour of the final negotiations for the release of my girls and 
refused to send the then U.S. Ambassador, Walter Cutler, into a 
meeting to finalize the release of my daughters and informed 
the embassy to, ``remain neutral and impartial.''
    Hejailan crowed, ``your government won't help you; your 
State Department doesn't want you, you will see your children 
if and when we decide.'' Then he proceeded to bring a camera 
crew inside the villa where my daughters were being held, and 
told them to make statements about how they hated me and the 
United States. When the girls refused to comply, they were 
taken into a back room and threatened. This was told to me by a 
witness at that taping, former U.S. Consul General Richard 
LaRoche, who sat by and merely observed as these two little 
girls, then 4 and 7 years of age, were intimidated and scared 
by Hejailan and the nine other men he brought into that villa 
to make that tape. That was the first time the Saudi Government 
and their retainers coerced my daughters to disavow their 
mother and country with the complicity of the Department of 
State.
    In 1995, 9 years later, U.S. Embassy Riyadh Consul Gretchen 
Welch informed me that Hejailan had at last been bestowed the 
title of, ``legal advisor,'' to the U.S. Embassy, and that, 
``everyone around here values his opinion.'' How could a Saudi 
who works for the Prince of Riyadh be a legal advisor to the 
U.S. Government? And if the State Department was going to honor 
him in this way, why wouldn't they do it when it would have 
made a great deal of difference in the outcome of the 
negotiations for my daughters?
    Over the years, Hejailan continued to use everything he 
could to double-cross me and cause me an incredible amount of 
pain. He penned letters of gratitude praising himself, and 
faxed them to me, claiming that if I did not sign them, I would 
not be able to see my children again. Time after time he placed 
me in a position of a supplicant on my knees to beg for what is 
mine--the bone of my bone and flesh of my flesh.
    Then there was a set-up regarding Walter Cutler and the 
hold I asked Senator Dixon and Senator Helms to place on 
Cutler's second confirmation as U.S. Ambassador to Saudi Arabia 
after Hume Horan was expelled from the kingdom in 1988 in 
persona non-gratis. Another betrayal and double-cross with the 
assistance of Walter Cutler and the State Department. Hejailan 
also worked with Wyche Fowler to perform dirty trick after 
dirty trick upon me, including the fabrication and creation of 
false documents, phony visits, and endless lies and ruses. At 
one point he screamed at me, ``you are being punished for going 
to the politicians and the press.'' He still tries to get 
involved with these kidnapping cases. As recently as last 
summer, after the Government Reform Committee hearing on June 
12th, Hejailan contacted Monica Stowers in Riyadh and had a 
deal for her. He might have even had a hand in that whole 
million-dollar bribe episode and the underhanded scheme to take 
Amjad Radwan into the marriage with the Saudi Air Force pilot.
    Next we have Fred Dutton of the Washington law firm of 
Dutton & Dutton. Mr. Dutton has represented the Saudi Embassy 
for almost two decades. He has been instrumental in working 
with Saudi Ambassador Prince Bandar, Saudi Foreign Advisor to 
the Crown Prince-Adel Jubeir, Rehab Mahsoud of the Saudi 
Embassy, and others in trying to discredit and marginalize me. 
He met with former U.S. Senator Alan Dixon in May 1987 and told 
him in no uncertain terms that if Gheshayan was deemed an unfit 
father to my daughters, the girls would never, never be 
returned to me, but rather given to another male relative of 
the family.
    Even a few months ago he told my attorney that I had caused 
a great deal of pain and anguish to many people at the Saudi 
Embassy in Washington. He repeatedly blocked negotiations, 
including the deal to release my girls in 1996 with former U.S. 
Ambassador to Saudi Arabia, Raymond Mabus.
    Then in 1998 when I was organizing a press conference at 
the National Press Club in Washington regarding violations of 
human rights by the Saudi Government and had invited various 
parents of victim children and a former U.S. diplomat that was 
assigned to the U.S. consulate in Jeddah, I met with the Saudi 
torture lobbyist group, Hill & Knowlton. I had discovered that 
many of the rooms at the National Press Club had been reserved 
by Hill & Knowlton for the same day that our press conference 
was scheduled. I thought it was more than coincidental. Shortly 
after that, I began receiving e-mails from Jim Jennings, 
Director of National Practices at Hill & Knowlton. His e-mail 
states:
    I have seen recent e-mail traffic about your concerns over 
meetings at the National Press Club next week. You are mistaken 
if you believe in any way, shape, or form that our company is 
involved with this matter or representing any aspect of the 
Government of Saudi Arabia on any matter. I have been with this 
firm for 25 years and do not remember a time when we have ever 
represented the Saudis; yet you state boldly in your e-mail 
that we do.
    Although Mr. Jennings denied that his firm ever represented 
the Saudi Government in any shape, way, or form, Hill & 
Knowlton is mentioned in the book, Agents of Influence, by Pat 
Choate. I would like to read to you a piece from the December 
15, 1992 Houston Post:
    Human Rights Abusers Pay Lobbyists Millions.
    Nations that abuse human rights pay millions every year to 
Washington insiders, Republicans and Democrats alike, seeking 
foreign aid and special treatment from the U.S. Government, 
says a report due out today. ``U.S. taxpayers are indirectly 
supporting the activities of lobbyists, lawyers, and public 
relations firms who were paid more than 24 million in 1991 to 
1992 to represent foreign interests that are persistent abusers 
of human rights,'' concludes a report by the Center for Public 
Integrity.
    But I have to say that in my 17 years of fighting Saudis 
and their torture lobbyists, retainers, and mouthpieces, this 
last experience with Qorvis Communications has been the most 
shocking and blatant disregard for human life I have ever seen. 
It was not even covert. They didn't even do it to me behind 
closed doors, like Hejailan and Dutton, and then just walk away 
smirking. No, this time, Adel Jubeir and Qorvis, Gallagher, and 
Patton Boggs felt so arrogant, so smug, and so confident that 
they could pull off this scheme in London with my daughters as 
their little pawns to move around the planet anywhere and 
anytime they wanted. They, so to speak, pulled it off in broad 
daylight.
    Michael Petruzzello of Qorvis testified in October that the 
Saudi Government has been trying so hard to convince my 
daughters to come to the United States to visit me, but they 
just couldn't talk the girls into it. Nope. But the girls had a 
great idea to go to London at the same time Members of the U.S. 
Congress were in Saudi Arabia trying to free them. Petruzzello 
also stated that he only knew about the London trip 2 days 
before the girls were taken there. Does Petruzzello know that 
perjury is a crime? Does he know that his dealing--he is 
dealing with flesh and blood? How far would the Saudi officials 
and Saudi retainers take this cruel and treacherous game to 
destroy me and my daughters? What is next in line for us? 
Murder? Will we be ``accidented'' or ``suicided''? Or is a 
better punishment for all of us to continue to force my 
daughters to remain in Saudi Arabia for the entire remainder of 
their lives and never leave, having a baby each year and live 
lives of total submission and servitude to the males their 
father sold them to, with absolutely no freedom and no choices 
at all?
    The Saudi officials and American traitors who do their 
bidding for them just had to come up with a plan to finally 
stop me, shut me down. I am sure they all sat around some plush 
office like the one Margaret, Maureen, and I were in at Hill & 
Knowlton, or perhaps it was out at Bandar's palace in McLean on 
the Potomac where they kicked around this little hatchet job on 
me and my daughters, Congressman Burton, and the CODEL. They 
felt so positive that no one could stop them that they even 
chose to do the deed the very same weekend that Members of 
Congress had journeyed to Saudi Arabia to ask the highest Saudi 
authorities for the release of my U.S. citizen daughters and 
others like them who were locked up in that treacherous prison 
known as the Kingdom of Saudi Arabia.
    Did they know that these plans involved criminal acts 
committed by Saudi nationals against U.S. citizens and should 
not have been taken so lightly? Adel Jubeir had been salivating 
to make this happen for months, ever since the June 12th 
hearing. First he went to Burns, State Department Near Eastern 
Bureau. In July Randy Carlino of American Citizens Services 
called me and stated that Jubeir told Burns that my daughters 
would be available to meet with U.S. Embassy consular officers 
in Riyadh concerning a statement where they wanted to live, but 
this statement had to be made public. I asked Carlino what 
Burns told Jubeir. ``He said it would appear to be staged.'' 
And then I asked Carlino if Burns had told Jubeir that these 
were two American citizens and that the U.S. State Department 
wanted returned as soon as possible. Carlino stated that Burns 
had not mentioned that to Jubeir.
    Then while the CODEL was making plans for the trip to Saudi 
Arabia and the Saudis and their guys downtown were planning all 
these television appearances for Jubeir to try to make them 
look good, Jubeir popped up on television personality Bill 
O'Reilly's O'Reilly Factor on August 9th. I had been a guest on 
The Factor earlier in the year and O'Reilly asked Jubeir if my 
daughters were being held against their will in Saudi Arabia. 
Jubeir answered, of course not. And then O'Reilly offered--and 
then Jubeir offered O'Reilly a chance to interview my 
daughters. Jubeir knew he had hooked his fish.
    O'Reilly's producer, Kristine Kotta, called me. I told her 
that was absolutely not to be done. It was just what Jubeir had 
wanted and needed to destroy my girls. O'Reilly called me the 
next day and I told him to stay out of it. I offered to meet 
Jubeir on national television on O'Reilly's show, and O'Reilly 
informed me that Jubeir declined to get on television with me 
and referred to me as an enemy of the kingdom.
    I never heard from O'Reilly again and I assumed the matter 
was put to rest. I was wrong. Labor Day weekend, while the 
CODEL was in Saudi Arabia to ask the Saudi authorities for my 
daughters to return to me in the United States, O'Reilly, Fox 
Television, the Department of State, and the Associated Press 
Arab woman reporter who had written many, many favorable 
articles about the Saudi regime plus Adel Jubeir, his brother 
Nail Jubeir who works for the Saudi Embassy, and Qorvis 
Communications, were all very busy, directing, producing, and 
participating in the sadistic Stalinistic show trial of my 
innocent daughters that was taking place in London at the 
Langham Hilton Hotel, forcing them once again at gunpoint to 
disavow their mother and the United States.
    Alia and Aisha had not been allowed to leave Saudi Arabia 
since they were kidnapped in 1986. When I saw my daughters in 
Riyadh in 1995, Alia told me that they never left the kingdom, 
they were never taken to Europe on vacation like their friends 
were; their father was wanted by Interpol and did not travel. 
And he kept his promise to me that Alia and Aisha would never 
be allowed to leave Saudi Arabia. But that was until Adel 
Jubeir and Qorvis and the others got involved with this scheme.
    On August 31, 2002, I had spoken to Chief Counsel Jim 
Wilson and Chairman Burton in Arabia. A few minutes after that 
phone call, the State Department called me to inform me that my 
daughters were somewhere in Europe. Carlino wouldn't tell me 
what country they were in. Since neither Mr. Wilson nor 
Congressman Burton had mentioned anything about the girls in 
Europe, I was perplexed. He asked my permission for a U.S. 
Embassy consular officer to take down a statement from my 
daughters. I said no, as I had done in July. No other 
information was given to me. Carlino never mentioned the Saudi 
Government involvement in this matter.
    The next day, a reporter friend had called me and read the 
official statement to me that was released by the State 
Department regarding my daughters--what my daughters told them 
at the Langham Hotel. Unbeknownst to me at that time, Ms. Diane 
Andruch, Deputy Assistant Secretary of State for Consular 
Affairs, had given the order for Acting U.S. Consul General 
Margaret Higgins, at the U.S. Embassy in London, to make the 
visit to the girls' hotel suite. And who had contacted the 
State Department to make this request? Adel Jubeir, supposedly 
on August 30th. We still don't know who gave Diane Andruch the 
order for the London Embassy meeting with the girls. Was it the 
Secretary of State himself?
    When the State Department was asked, via written questions 
by the Committee for Government Reform, why Alia and Aisha did 
not make the request themselves, the response was that neither 
Alia nor Aisha spoke English. But this was simply not true. 
When I visited my daughters in 1995, with the assistance of 
U.S. Secretary--U.S. Ambassador to Saudi Arabia Raymond Mabus, 
my daughter Alia spoke English very well and has 100 percent 
comprehension of English. So if she really wanted to make her 
wishes known to the American Embassy in London, she could have 
called them herself. Instead, her husband called Nile Jubeir, 
Adel's brother, who then called the U.S. Embassy in London 
after Adel Jubeir had personally made the arrangements with 
Washington for the London meeting.
    Then Qorvis sent one of their employees from the Washington 
office, Shareen Soghier, who called herself, ``a Saudi media 
specialist.'' She sat in on the interview with Fox Television, 
giving my daughters head signals as to how to answer questions. 
This ``minder'' was there to be sure that the girls didn't say 
anything that the Saudi Government or their paid retainers 
didn't want them to say.
    The Associated Press reporter, Dona Naser, told my 
daughters--told me that my daughter Alia exclaimed: I don't 
want to go to the United States or see my mother. And then 
Aisha chirped: We want her to leave us alone and will not rest 
until she is dead. This is the same daughter who 1 year ago 
bravely defied her father and told me on the telephone: Hello, 
Mom. I love you, Mom. I love you. I love you.
    Abu Naser also stated Alia had dark circles under her eyes 
and the girls jumped when there were two separate knocks on the 
door of the hotel suite, one room service and then maintenance.
    O'Reilly's producer told me that Aisha seemed confused 
about why they were taken to London and why all those people 
were paraded into the hotel suite to talk to them. But Alia 
knew what was going on. I can imagine her lying awake at night, 
knowing that she was in a free country at last, and knowing 
that there was no way for her to get away from all those Saudi 
men. What was she to do? Tell the London Embassy representative 
that she and Aisha wanted to get out of there? She knew she 
could never trust the American Embassy or anyone connected to 
them. They were trapped, whether inside the despotic kingdom or 
guarded in a hotel suite in London.
    When Fox asked Aisha what they were going to do in London, 
she replied: Visit Big Ben and go to the cinema. This was the 
same line Jubeir had told William McGurn. The script was 
rehearsed down to the last detail. Poor Aisha hadn't been to 
the cinema since she was 3 years old, when I took her and Alia 
to see E.T. here in the United States. There are no cinemas in 
Saudi Arabia; and Asia, cloistered up in the kingdom, I'm sure 
never heard of Big Ben.
    Not only were Alia and Aisha kept in this little hothouse 
controlled environment in a hotel suite in London by the men 
their father sold them to, their father and his brothers, as 
was told to me by the O'Reilly producer, but also the Jubeir 
brothers who worked for the Saudi Government.
    For 17 years the Saudi Government has been stating that 
their Islamic law forbids the government to get involved with 
these private family matters, but this public relations stunt 
in London was written and directed by Qorvis, and maybe the 
others, produced by the Saudi officials and Jubeir, and taped 
by the American media under the full blessings of our own U.S. 
Department of State.
    Saudi Foreign Minister Saud bin Faisal sent a recent letter 
to the Government Reform Committee stating that there should be 
a clear and joint vision, whose first priority would be the 
interests of our children, and guarantees their life with 
freedom and security. He also went on to say: I wish to explain 
and--I wish to explain and ascertain that the Government of 
Saudi Arabia had nothing to do with the travel arrangements. 
You should know that the meeting was initiated by the husbands 
of the two Gheshayan girls themselves.
    So who are we to believe? The State Department states in 
their written questions to the Committee for Government Reform 
that Adel Jubeir called Washington NEA Bureau and made the 
request for the London meeting. Adel Jubeir told William McGurn 
of the Wall Street Journal that he had made all the 
arrangements. Michael Petruzzello testified that Jubeir had the 
idea when he was on the O'Reilly program. And now the Saudi 
Foreign Minister sent a letter stating that the men that 
married my daughters were the ones that initiated the travel 
arrangements. And the Saudi-owned Arab News states that the 
Saudi Government bore the expenses of their travel with their 
husbands and children to London in order to allow them total 
freedom to speak.
    In a letter to Chairman Burton, Al-Faisal continues to hide 
behind their stated belief system as though they are all 
anointed and far too holy to be questioned about their actions. 
He says what is really surprising is that you use unacceptable 
allegations against the kingdom and its Islamic Shari'a laws; 
therefore, we totally reject anything that damages our Islamic 
Shari'a on which a total system of the state is founded, and in 
which one quarter of the population of this Earth believe. This 
Shari'a regulates and guarantees all humanitarian rights 
without any prejudices. It is founded on God's orders which we 
follow as well as the good objectives of Islam, mainly justice.
    I am really sick and tired of these criminals, this Saud 
family who took the Arabian peninsula by force after World War 
I, and all their degenerate descendants who have stolen the 
money from the oil revenues from the indigent people of Arabia 
to continually hide behind this Wahhabi belief system and shove 
it down the throats of the West as though they are saintly, 
devoutly religious, righteous men who uphold justice, freedom, 
and truth.
    Quite the opposite is true. Just review the human rights 
record of this sadistic regime with their secret police, 
religious police, military police, and torture chambers. This 
regime who takes their own people's money has nothing to do 
with freedom or any of the virtues or high principles of 
mankind. This continual posturing and lying is absurd.
    Yesterday, Adel Jubeir held a press conference at the Saudi 
Embassy to do some damage control on the Haifa incident. 
Petruzzello was coordinating, of course. Jubeir continued to 
state that there are only four cases of Saudi abductions. This 
is a blatant lie. There are hundreds of American women and 
children in Saudi Arabia that are prevented from leaving. They 
are afraid of the men that rule them and the Saudi Government. 
How can you compare Germany and Western Europe with the 
repressive evil tortures done to these people inside Saudi 
Arabia? When questioned by a reporter concerning the subpoenaed 
documents, Jubeir stated: Is Chairman Burton serious about 
dealing with child custody cases, or is he engaged in a 
publicity stunt?
    Jubeir and his servants are the experts in publicity 
stunts, not Dan Burton. I haven't met a man of Dan Burton's 
caliber and integrity on Capitol Hill since former U.S. Senator 
Alan Dixon retired. He has been working to free American 
citizens held hostage in a 9th-century hellhole. He deserves 
our respect, admiration, and support. Everyone in this town 
should be involved in this issue. Teddy Roosevelt would have 
sent in the cavalry, and Winston Churchill the RAF. What did G 
I Joe in the trenches die for? Certainly not for us to forfeit 
the freedom of American citizens to a despotic regime like 
Saudi Arabia.
    In their response to the written questions, the State 
Department repeats that their highest priority is protection of 
American citizens. Consular officers met with my daughters in 
London at the request of Adel Jubeir, not Alia and Aisha, and 
against my wishes, knowing full well that the girls never had a 
chance to speak freely.
    The State Department was so eager to make this happen and 
put a knife in my back and then turn it to appease their Saudi 
clients, stop me and prevent my innocent daughters from even 
having a chance at freedom. They knew the girls would be taken 
back to their Saudi prison. If the Saudis and their American 
pimps were sadistic and cold-blooded, what about our own State 
Department?
    The State Department feels they are justified. Case closed. 
In their written response to questions posed by the committee, 
they state that in the London meeting, Alia and Aisha were told 
that they were American citizens and could claim their U.S. 
passports at the American Embassy in Riyadh. What a joke. 
Prince Saud states that any American citizen woman can leave if 
she wants to, but no one has left. And U.S. Ambassador to Saudi 
Arabia Robert Jordan states that he will not expel any U.S. 
citizen from the embassy in Saudi Arabia like Monica Stowers 
and her children were escorted out by the Marines. But Jordan 
failed to state what he would do with these American women once 
they got to the embassy. He didn't offer to assist them, to 
offer them passports, get them into an embassy car, and then 
take them to a U.S. military base and pack them safely on a 
military plane heading for U.S. soil. No, Mr. Jordan didn't 
make that promise. It would offend the Saudis and our special 
relationship with them would be in jeopardy.
    Funny thing, last week Prince Bandar's wife, Princess Haifa 
Al-Faisal, was caught funneling money to the same terrorists 
that killed almost 3,000 Americans on their way to work one 
September morning. The New York Times explained that the 
princess was sitting in her poolhouse, surrounded by her eight 
children, and received telephone calls offering her support 
from Barbara Bush and Alma Powell. In 17 years, no one has 
called me to say how sorry they are for what this government 
and the Saudi Government have done to my family, but the Saudi 
Ambassador and his wife are consoled by our highest leaders and 
their families before the facts are known about their 
involvement on an attack on our country. But of course the 
Saudis are our friends, and this friendship is based on money, 
and that is all that counts. Let's work backward from that 
premise.
    Meanwhile, Petruzzello stated in the October hearing that 
he has no opinion about whether or not the Saudi Government is 
holding Americans against their will in Saudi Arabia. He only 
writes the scripts, disseminates the propaganda on Capitol 
Hill, organizes dirty games against two defenseless, innocent 
women who have suffered nearly all their lives at the hands of 
the Saudis, and then collects his $200,000 per month from his 
Saudi masters. In other words, he will do anything for money.
    The Saudi Embassy has instructed all the lobbyists and 
public relations specialists not to turn over the subpoenaed 
documents. If they have nothing to hide and are so interested 
in assisting the committee in resolving these cases, as their 
attorney Maureen Mahoney from the Washington law firm of Latham 
& Watkins states, why not just allow the committee to review 
the documents?
    In her letter of November 14th to Chief Counsel Wilson, Ms. 
Mahoney states that the Saudi--that Saudi Arabia has given very 
serious conditions--consideration to the issues raised by the 
committee surrounding the kidnapping of American citizens. She 
carefully outlines the steps that the Saudi Government has 
initiated to protect the children and reach an 
intergovernmental solution.
    I can tell you that as a 17-year veteran of the Saudi 
Government and their retainer schemes and dirty tricks, Ms. 
Mahoney's statements are nothing but a perpetuation of non-
meaningful jargonese expressed by another paid mouthpiece for 
the Saudis. What she is saying means nothing in reality to my 
daughters, granddaughter, Monica Stowers' daughter, or the 
hundreds of other American women and children in Saudi Arabia 
whose voices cannot be heard and whom I represent in absentia.
    The creation of a task force, ongoing dialog with the State 
Department, means nothing. Prince Bandar's letter to Dan Burton 
dated October 22nd states, ``The embassy retained these firms 
to assist with its performance of core diplomatic functions.'' 
Does Prince Bandar call what happened in London over Labor Day 
weekend part of the embassy's diplomatic functions? Sending my 
daughters to London was a public relations stunt to harm the 
efforts of the chairman and the committee to have my daughters 
released. It was also a cynical, brutal manipulation of two 
young women who are victims of contemporary slavery.
    This is all part of the continual dissemination of factual 
misrepresentations to Members of Congress and the media by the 
Saudi officials and their PR people. These documents are of the 
utmost importance to reveal the true facts behind what the 
lobbyists and PR specialists have been doing to American 
citizens. This has nothing to do with diplomatic relations, and 
the Saudi Government is once again attempting to hide behind 
some law or convention to protect itself from being revealed as 
participating in possible criminal acts and against all 
humanity which are certainly against all of God's laws.
    For the Saudi Arabian Government to hide behind the Vienna 
Convention for Diplomatic Relations is a scandal and a mockery 
of that document. These torture lobbyist public relations 
specialist law firms are working as foreign agents inside the 
United States and are not diplomats. I further charge that 
diplomats such as Adel Jubeir, Nile Jubeir, Prince Bandar, and 
others like him be expelled from the United States persona non 
gratis for their participation in criminal acts against 
American citizens. We cannot deport Petruzzello and the other 
U.S. citizens who sold themselves to the Saudis, but we can and 
must hold them accountable for their dastardly deeds, and may 
have God have mercy on their souls.
    Mr. Burton. Thank you very much Ms. Roush. I think you 
covered it all very well.
    [The prepared statement of Ms. Roush follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Burton. Ms. McClain, we will recognize you now. We want 
you to tell your whole story as you want to, but we would like 
to hold it down to 15 minutes if we could. I know that you have 
a lot you want to say, and, as did Ms. Roush--I mean I can 
understand the emotion behind this because you have been 
fighting this battle for so long, so we will be as lenient as 
we possible can.
    And Professor Denza, we will get to you in just a little 
bit.
    Ms. McClain. Congressman Burton and members of the 
committee, thank you for asking me to appear here again. I have 
personally had a long and unpleasant acquaintance with the 
Saudi public relations machine in Washington. Shortly after the 
Saudi Embassy aided in the kidnapping of my daughter Heidi Al-
Omary in 1997, I contacted----
    Mr. Burton. Excuse me just one moment. I see the four Saudi 
lawyers back there. Do you guys find something humorous in 
what's going on here? I've noticed you were laughing. I thought 
maybe you found something funny.
    Thank you. OK. Ms. McClain.
    Ms. McClain. I have personally had a long and unpleasant 
acquaintance with the Saudi public relations machine in 
Washington. Shortly after the Saudi Embassy aided in the 
kidnapping of my daughter Heidi Al-Omary in 1997, I contacted 
then-Secretary of Transportation Rodney Slater. I took issue 
with the Department of Transportation's failure to investigate 
Saudi Arabian Airlines' complicity in the disappearance of my 
child. I recommended that Saudi Airlines' U.S. landing rights 
be suspended for knowingly allowing its employees, one of whom 
is Heidi's uncle, to violate our laws. Foolishly, I believed 
that Slater, a fellow Arkansan and former colleague at Arkansas 
State University, would take an interest in a missing Arkansas 
child.
    Little did I know of the very cozy relationship between 
Slater and the Saudis. I did know, of course, that Slater's 
alma matter, the University of Arkansas, has been on the 
receiving end of Prince Bandar's largesse in the form of a 
$23.5 million gift to establish a Middle Eastern Studies 
Center. Little did I suspect, however, that the same public 
official who so cavalierly turned his back on my daughter would 
go on to a lucrative position at Patton Boggs, the same outfit 
that supposedly sits here today scoffing at Congress and 
protecting the secret communiques of the Saudi terrorists at 
Bandar's embassy. Patton Boggs' own literature lauds Slater's 
accomplishments in the areas of national security and his 
pivotal roles in liberalizing the global aviation marketplace. 
Need I point out that Slater's concern for national security 
and liberalization of global aviation allowed our children to 
be stolen and subsequently allowed 15 Saudi terrorists to enter 
our country?
    In 1999, we victims of Saudi kidnapping plots were attacked 
further by Bandar's PR gurus. Hill & Knowlton, as Ms. Roush has 
already mentioned, intercepted our private e-mails and 
threatened us. Apparently, H&K was upset about two things: one, 
our upcoming press conference at the National Press Club on the 
topic of Saudi human rights abuses; and, two, our Texaco/ARAMCO 
boycott. Texaco is in partnership with ARAMCO on numerous 
projects. Since ARAMCO is owned by the Saudi royal family, it 
is they who give aid, comfort, and lucrative jobs to 
international kidnappers like my ex-husband.
    It is not difficult to guess why the Saudis want secret 
communiques and documents regarding the abductions of our 
children to be kept out of the public eye. Such revelations 
would result in further humiliation for the embassy, even more 
embarrassing than Mr. Adel Jubeir's exposure on 60 Minutes. The 
release of documents relating to my daughter's case now in the 
hands of lobbying firms could reveal the existence of the 
following information: correspondence between the embassy and 
the kidnapper regarding this matter; correspondence from me 
informing the embassy of Heidi's legal status; records 
indicating that the kidnapper was on the embassy payroll at the 
time of my child's kidnapping; records pointing to the 
involvement of a high Saudi National Guard official in the 
harboring of the criminal in the Washington area; financial 
records relating to the ticketing of the fugitive and my 
daughter aboard a Saudi airline's flight; the names of other 
Saudi government officials involved in the kidnapping of my 
child; falsified birth certificate for my daughter; memos 
relating to the embassy's knowledge of Al-Omary's and my 
daughter's whereabouts in 1997 in spite of 2 years of Saudi 
denials to the U.S. Embassy in Riyadh; and other documents 
indicating whether the embassy's lobbyists are aware of the 
Saudi Embassy's complicity in Heidi's kidnapping.
    Just as the money trail has led back to the lap of Prince 
Bandar's family in the September 11th terrorist attacks, so too 
will it in the kidnappings of American citizens. If the Saudi 
Embassy has nothing to hide, why have Bandar and his PR machine 
gone into overdrive to protect known criminals like my ex-
husband, a mere lowly computer programmer?
    The relationship between the embassy and the September 11th 
terrorists, the complicity of the Saudi Embassy in the stealing 
of American children, these are just two examples of the 
concept of diplomatic immunity gone awry. Now American lobbying 
firms are trying to give a whole new meaning to the term 
``diplomatic immunity,'' as they aid and abet a massive cover-
up of Saudi crimes against American children. While the Saudi 
Embassy continues to break U.S. laws, it scatters its blood 
money all over Washington. The Saudi PR web of deceit manages 
to buy or beg air time in the U.S. media to promulgate the 
Saudi version of history: that the Saudis are our allies; that 
Wahhabism is a peaceful religion, that Granny Haifa would 
never, ever send money to terrorists, despite the fact that her 
family financed a telethon to raise cold hard cash for suicide 
bombers; and that there are no American children taken to Saudi 
Arabia against their will. What other lies about the Saudi 
Government are hidden in the secret vaults of Qorvis, Patton 
Boggs, and the Gallagher group?
    It is indeed a telling circumstance that even Patton Boggs 
insiders are aghast at some of the dirty work they have been 
forced to do. One whistleblower called for Patton Boggs to end 
its relationship with Qorvis. He told Forward magazine in May 
2002 that the Saudi-financed PR campaign was scurrilous. Patton 
Boggs' managing partner, Stuart Pape, reported that several 
partners had lobbied to drop Saudi Arabia as a client.
    In the November 22nd issue of the New York Sun, Mr. Pape 
revealed that the firm had been, ``instructed by the Saudi 
Embassy to work with Mr. Burton's committee to find a solution 
to the Saudi kidnapping problem.'' Is this what Patton Boggs 
calls working with the committee; to seek lies in the refusal 
to turn over subpoenaed documents? And now the escape of the 
people I'm talking about.
    Well, my daughter and I still don't have a solution. So 
what are these lobbyists waiting for? After hearing Adel Jubeir 
dismiss all but four case of international child abduction 
yesterday, it is obvious that the Saudis' idea of a solution is 
the same as it has always been: Delay, delay; stall, stall; and 
then delay some more until our girl's old enough to be sold off 
to the highest bidder. That is what the solution was for Pat's 
and Monica's daughters, and that is what will happen to Heidi.
    Last month, I and other grieving parents had to sit here 
and bite our tongues as we were subjected to a sickening 
display of stonewalling and double-talk by Bandar's mouthpiece, 
Michael Petruzzello of Qorvis. We came here to tell the truth. 
Unlike Mr. Petruzzello, we did not have an entourage of lawyers 
whispering in our ears at every turn, telling us how to make 
our lies sound good. There isn't enough cash in the entire 
Kingdom of Saudi Arabia to make the Saudi royals or their 
Washington henchmen look any better than they do right now.
    In conclusion, I would like to remind the Saudis that they 
have no need to fork over tons of cash to the likes of Qorvis, 
Patton Boggs, Gallagher, Hill & Knowlton and others of their 
ilk.
    Let me close by giving the best public relations advice the 
Saudi Embassy will ever receive--and my expertise won't cost 
them one red cent. I'd give the Saudi royals the same counsel 
given to the Egyptian Pharaoh over 5,000 years ago. And I quote 
from the Book of Exodus in the words of the Jewish prophet 
Moses: ``Let my people go.''
    Mr. Burton. Thank you very much, Ms. McClain.
    Ms. McClain. You are welcome.
    [The prepared statement of Ms. McClain follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mr. Burton. That is a very cogent statement.
    Professor Denza, do you have a statement?
    Ms. Denza. Thank you, Mr. Chairman.
    Mr. Burton. You might pull your mic a little closer, 
because sometimes it's hard to pick up. And--is your mic on?
    Ms. Denza. I think it is on now.
    Mr. Burton. Thank you.
    Ms. Denza. I would like to begin, before coming on to the 
exact definition of the term ``archives and documents under the 
Vienna Convention,'' with a very important provision which 
governs all the privileges and immunities set out in the Vienna 
Convention on diplomatic relations. And that's Article 41, 
first paragraph, and it begins: ``without prejudice to their 
privileges and immunities, it is the duty of all persons 
enjoying such privileges and immunities to respect the laws and 
regulations of the receiving state. They also have a duty not 
to intervene or interfere in the internal affairs of that 
state.''
    It is very clearly accepted now as a proposition of modern 
international law that there is no question short of specific 
exemptions or exceptions for embassies or their diplomats not 
to be legally bound. And the Foreign Agent Registration Act, 
which has been in existence for about 60 years, has a very 
clear application to the operations of foreign states in the 
United States. The policy of the act is--it seems to a lawyer 
from outside, is that it is quite acceptable for the propaganda 
activities, if I can use that expression, to be carried on, but 
they must be carried on within the framework of transparency.
    There are no specific exemptions in the Foreign Agent 
Registration Act. The three firms we are dealing with are all 
registered under the act, and I don't believe that there ever 
has been any complaint by any foreign state that somehow this 
act was incompatible with their ordinary operations. And, of 
course, I accept it is an essential diplomatic function of the 
Ambassador and his staff to be put in the position of, in this 
case, Saudi Arabia. It used to be said that the Ambassador was 
the eyes, the ears, and the mouth of the dissenting state. But 
no one has ever seen any problem with the act.
    The act, of course, has to operate within the exact terms 
of the specific privileges and immunities. But part of my 
reason, before I come to that, for setting out 41 and the 
background is that I see no reason for construing the term 
``archives and documents'' in this case which--it's an unusual, 
it's an unprecedented claim. I see no reason for pushing the 
definition of ``archives and documents'' out.
    I will turn now to the definition and the terms of Article 
24 of the Vienna Convention, which says very shortly that the 
archives and documents of the mission shall be inviolable at 
any time and wherever they may be.
    Now the inviolability of archives is, in the history of 
diplomatic laws, a relatively recent development. I think it is 
fair to say that until the early years and perhaps about the 
time that the Foreign Agent Registration Act was being passed, 
it was generally regarded as only applying to archives on the 
premises of the mission. And that's perhaps what one thinks of 
as archives--ancient documents on parchment, old treaties, 
records of memoir which are held physically, securely in the 
embassy.
    The question of the status of archives outside mission 
premises came very sharply into focus in 1946 in a leading case 
in Canada where the Canadian courts of appeals had to decide on 
whether embassy archives from the embassy of the Soviet Union 
were admissible. What had happened was that a Soviet cipher 
clerk had defected, and when he defected, he had taken with him 
incriminating documents which showed the existence in Canada in 
the early years of the cold war of a whole network of spies; 
and that extended not only to Soviet citizens, it extended very 
importantly to a Canadian member of parliament. And that was 
the Rose who--it was tried and appealed from conviction, 
arguing that there was no other evidence against him except the 
stolen embassy documents, and he couldn't be convicted.
    Now, there were a variety of reasons given by the court for 
rejecting admissibility and allowing the conviction to stand on 
the basis of the archives. One of them, I noticed with some 
interest, was that one of the judges actually said that the 
relevant documents, which were documents of an espionage bureau 
within the Soviet embassy, not directly within the control of 
the Ambassador, were not embassy documents. I think that's--
there may be some importance in that reference to control.
    Now, going to 1961, the Rose case was very much in the 
minds of the negotiators. Certain propositions were clearly 
established that archives and documents of the mission were 
inviolable at any time. That was really referring to the 
possibility of reach of diplomatic relations and wherever they 
may be. And I think primarily what was in the minds of the 
negotiators was not that somehow archives and documents could 
cover up the whole of the in-and-out correspondence of the 
mission; it was looking at the possibility that the archives 
were in the custody of a member of the mission physically going 
to a meeting, administrative foreign affairs, going to the 
airport without being an accredited courier, possibly even 
without having a mission status, or that they had actually 
physically been lost or stolen, and that accident shouldn't 
deprive them of their character.
    The Convention also made clear that the documents don't 
require to be identified by visible official marks, and of 
course, in that the position is different from that of 
diplomatic backs.
    Now, there have not been very many cases about archives on 
the whole. The most sensitive things tend to be rather 
carefully safeguarded. But the case which I've referred to in 
the opinion which I've given to the committee is very relevant. 
It describes the test for archives is that the documents must 
belong to or be in the possession of the mission. And I think 
that case, which depended on legislation which carried over the 
specific terms of the Vienna Convention--while, of course, it 
clearly would not be binding on the U.S. court, would be very 
persuasive, a decision at the highest level, the House of 
Lords, and it was unanimous. And, as I understand it, the test 
of the belonging to or in the possession of is--I think seems 
to be generally accepted in the informal discussions there have 
been.
    Now, there was a slight lacuna in the ten council, 
international ten council in that the international ten 
council, to narrow the issues, said they were not concerned 
with the documents in the possession of an agent or bailie of 
the council. The reason for that concession, as I recollect--
because I actually was one of these appearing in the case--was 
that there seemed no one reason to support that the documents 
which had found their way into the public domain had actually 
done so by being given to agents or bailies. So, the House of 
Lords don't specifically deal with agency.
    I think--I've been thinking about what the test is on the 
question of documents where there may be some degree of an 
agency relationship. One possibility is that at that point one 
looks to local law to interpret. Of course, this is not my area 
of expertise, but the common law is fairly uniform.
    I don't think there are huge differences. I don't believe, 
under English law, that the documents of consultants, advisors 
to an embassy would be regarded as the property of the embassy. 
The basic starting principle of the common law, as I understand 
it, is that when a letter is sent, the physical property in the 
documents passes to the recipient. There could, of course, be 
special terms, but as I understand it, there have been no 
special terms here. And, of course, there may be other issues 
of copyright, for example, which I think, again, are not 
material.
    The test of local law to determine ownership is perhaps not 
entirely satisfactory because it could lead to--possibly to a 
lack of uniformity not only among the 180 states who are 
parties to the Convention, but also, as I understand, within 
the different jurisdictions in the--in the United States. It 
would be rather difficult to determine the question differently 
in the law of Virginia, in the law of District of Columbia.
    It may be there that the right test is to look for--at 
whether there are any circumstances in which documents 
originating in an embassy, but sent outside could remain 
protected. And thinking objectively about it, it seems to me 
that really ought only to be the case where one is perhaps 
talking about an agent who is purely a mouthpiece for the 
embassy; and I underlined the possibility of an interpreter or 
translator sent a document in the foreign language, the 
language of the sending state, in order to translate it with no 
substantive input into the content. And I think it's arguable 
that, in that case, the document would continue to be an 
archive.
    That seems to me very different from the position of public 
relations specialists whose function is very much to advise; 
and then that takes me back to the policy of the act that 
advice on how to present the case for your government is quite 
proper. It's perfectly proper for the Ambassador to employ 
local expertise, but he must respect and obey the local law 
which provides the framework.
    So, coming back, it does in fact remain my own conclusion--
although, of course, ultimately the question might require--
might well require to be tested in a court of law--but that in 
the present circumstances, these documents, which cover, of 
course, opinions generated outside the embassy--and I find it 
very interesting to listen to the kinds of documents listed by 
the previous witness as to what we are talking about, many of 
these not in any sense being embassy memoranda or secret 
communications between the Saudi Ambassador and his government, 
but quite different kinds of information, perfectly properly 
held within the scope of the act, and as it seems to me, 
perfectly clearly accessible.
    I'd just like to also deal with the question of the 
correspondence of the mission, because that takes us over to a 
different article of the Convention, Article 27, which deals 
with freedom of communication. And that has been argued in the 
exchanges that there have been about the status of the 
documents.
    Article 27.2 says that the official correspondence of the 
mission shall be inviolable. Now, it is clear from--to some 
extent from the records of the Convention that what was meant 
by a correspondence was really material in transit. There is no 
indication of the records of the conference that they were 
meaning that any letter that came from an embassy to anyone in 
the receiving state was inviolable. It was a question of the 
agents of the receiving states not intercepting this--and, of 
course, in this article there are a great many cases of 
interception of an embassy's communications. And again 
perhaps--I think it probably is the case that letters actually 
in transit to an embassy are inviolable in that they can't be 
intercepted in the post.
    There is--I think it is also helpful in looking at the 
extent of the protection given by Article 27 to look back at 
the beginning of Article 27, which is, my view, the most 
important article in the Vienna Convention. And what the 
Article 27, at the beginning, says is, ``The receiving state 
shall permit and protect free communication on the part of the 
mission for all official purposes.'' Now, the critical point I 
think is the next sentence, which says, ``In communicating with 
the government, the other missions and consulates of the 
sending state wherever situated, the mission may employ all 
appropriate means, including diplomatic couriers and messages 
in code or cipher.'' And there are also references to the 
diplomatic wires.
    One sees from the beginning of 27, which I think should be 
carried over to paragraph 2 of Article 27, that this is not 
really dealing with the correspondence between the mission and 
the outside world; it is really dealing with internal 
correspondence. It means that a state which can't afford to 
send a courier and a bag can put a letter in the post, address 
it to the government ministry of foreign affairs, and that 
letter, if it accidentally is lost or if it is intercepted or 
stolen, is not admissible in evidence. And again, I think the 
test on 27.2 is legally the same as that applies in the case of 
archives and documents.
    There is very little case law on 27.2 for the simple reason 
that it is the practice of government not to send delicate, 
sensitive, controversial letters through the open post; they 
send them by hand of a diplomatic agent or they send them by 
hand of the courier. But I don't think that 27.2 gives a wider 
protection to any of the documents that we are concerned with.
    So simply to sum up in one sentence, it is not my view that 
the documents in the--which are clearly in the possession of 
the firms which have been subpoenaed are entitled to 
inviolability. And it is also my view, having--in the light of 
the correspondence I've seen, that the implications of 
accepting the proposition put forward that these archives are 
inviolable would be very far-reaching and very dangerous. And I 
realize that the committee are very well aware of this.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Professor.
    Professor, do you have any concern that the legal theory 
being put forward by the Saudis could be used to cloak the 
documents of spies, terrorists, and other individuals who 
receive funds and directions from embassies?
    Ms. Denza. So far as documents, yes. I think that was what 
I was alluding to in my concluding--concluding words. I think 
there is no distinction of principle.
    Mr. Burton. Let me just interrupt, because I want to make 
sure in layman's language everyone understands. As I understand 
your statements and all of the research that you have done, if 
it's between the embassy and other internal governmental 
agencies, that is held inviolate.
    Ms. Denza. Indeed. Yes.
    Mr. Burton. But if it is correspondence or some kind of 
transmission between an embassy government or government entity 
to a public relations firm that is in the control of the public 
relations firm, then that is not inviolate?
    Ms. Denza. I believe that is the correct position. These 
documents are not inviolable.
    Mr. Burton. Now, let me ask you about your credentials, 
because I think this is very, very important. You advise--as I 
understand it, you advise the British Government and the U.S. 
State Department regarding the Vienna Convention. Is that 
correct?
    Ms. Denza. I was a legal advisor within the British Foreign 
Office for a number of years. I think my main credentials 
really are that I have written what I think is the standard 
book on the Vienna Convention and diplomatic relations. And I 
did work on these issues when I was working within government.
    Mr. Burton. So you are considered probably, and I don't--I 
know you are probably very modest. But you are probably one of 
the foremost experts on the Vienna Convention.
    Ms. Denza. I've always been very, very interested in it. 
When I joined the Foreign Office as an assistant legal advisor, 
the first thing I was asked to do was to--which was after the 
conclusion of the Vienna Convention--was to write an article. 
And the article grew over a period of about 10 years into a 
book. And there has been a more--a second edition, which, of 
course, I've written outside government and therefore which--
without using any privileged information.
    Mr. Burton. Excuse me for 1 second. In the letters of the 
lawyers for the Saudi Embassy, which you have received, they 
claim that a court could conduct an in-camera review of 
documents in a case of espionage and find that law 
enforcement's need for the documents outweighs the embassy's 
interests in keeping them secret. Do you think there is any 
support for such a theory, or are the Saudis just making that 
theory up to draw attention away from the disastrous 
consequences of the privilege claim?
    Ms. Denza. It is my view that this idea will not work in 
the context of inviolable documents. I've--except that the 
position may be different if you're dealing with a privilege 
conferred by local law; for example, the privilege of the 
executive or the privilege of the lawyer. It's then perhaps 
possible for a national court, a domestic court, to carry out a 
balancing act.
    When you're dealing with inviolable documents, which if 
they are inviolable essentially belong to a foreign government, 
I don't think this is practical or possible. Either the 
documents are inviolable or they're not inviolable.
    Of course, some of the documents may also be covered by 
claims to privilege, which is not my concern; that's a legal 
professional privilege where there may be more than one ground 
advanced to protect the documents. And, of course, I'm not 
saying anything about what's the position, if it was argued 
they were covered by legal professional privilege; but I don't 
think there's any support in any of the cases for the idea that 
an inviolability--the court of the receiving State--in this 
case the United States--can properly balance the interests of 
the foreign state against the interests of its own judicial 
system. Such balancing as is done has to be done by the actual 
terms of the convention.
    Mr. Burton. Thank you. We have a little bit more tape I'd 
like to run and then we'll get back to our questions and wrap 
this up.
    [Tape played.]
    Mr. Burton. I think that pretty much says it all.
    I asked questions of the State Department when they were 
here. One of the questions was, has the State Department 
expressed any concern to the Saudi Government regarding its 
role in the kidnapping of Heidi Al-Omary? And the answer they 
wrote back to me in writing was the Department has no evidence 
that the Saudi Government played a role in the kidnapping of 
Heidi.
    And that is just so disgusting because it's so evident that 
the Saudi Government knew about it, they were informed about 
it, and they went ahead and granted the passports anyhow. And 
I'm disappointed in our State Department for making that kind 
of a statement because it's so evident that they were 
complicitous.
    Professor Denza, let me just ask you one more question. Is 
there any reason to think that the definition of inviolability 
under the Vienna Convention would differ depending upon whether 
the Justice Department or Congress was asking for the 
documents?
    Ms. Denza. No. Inviolability implies that neither the 
executive nor the legislative nor the judicial authorities in 
the receiving State can use any legal powers of compulsion to 
require documents to be supplied; or, in the case of personal 
immunity, a person to appear. That was very clearly helpfully 
set out in the judgment in the international case to which I 
referred.
    Mr. Burton. So if a public relations firm had 
correspondence and other information in their control, in your 
opinion, whether it was the Justice Department, the 
administration or the Congress, the legislative branch, 
subpoenaed those, they would be able to get them?
    Ms. Denza. That's right. If they're not inviolable, then 
the ordinary process of U.S. law apply.
    Mr. Burton. OK. Let me just ask Ms. Roush and Ms. McClain 
just a couple of questions here, and then we'll--I'll make a 
final statement and then we'll wrap this up.
    Ms. Roush, you have lot of experience dealing with Saudi 
lobbyists. Have they been honest with you in the past?
    Ms. Roush. No, sir. They have manipulated me and they've 
lied to me and betrayed me and used me.
    Mr. Burton. Have you ever received assurances from the 
Saudi lobbyists that they're working on the return of your 
children and that the Saudi Government was working in good 
faith and what was really going on?
    Ms. Roush. No. They have continually betrayed me and 
deceived me, and the Saudi Government and their paid 
mouthpieces have worked hand in hand for 17 years to keep me 
from my daughters.
    Mr. Burton. Let me ask both of you this question. It's my 
understanding that both of you have been threatened in the past 
by Saudi lobbyists. Can you tell us how they were threatening 
you?
    Ms. McClain. They have threatened us via e-mail. They have 
threatened us with legal action on occasion if we did not drop 
boycotts that we were involved in. And they just boycotted our 
press conference that we had here in Washington. That was kind 
of an implied threat, I felt.
    Ms. Roush. Yes, when we were dealing with Hill & Knowlton, 
the torture lobbyists in Washington, they sent me a letter that 
is included in the file, saying they were going to sue me 
because in fact they did not represent the Saudi Government. 
Which I sent a letter back to them stating under--in the book 
Agents of Influence by Pat Choate in 1990, they were listed as 
not only representing the Saudi Arabian Government, but Prince 
Talal and Adnan Koshaggi.
    Mr. Burton. Did the lobbyists from Hill & Knowlton lie to 
you regarding their relationship with the Saudi Government? 
That's what you just commented about. They did lie to you.
    Ms. Roush. Yes, they lied; blatantly lied.
    Mr. Burton. You believe that permanent damage was done to 
your daughters by what happened on August 31st in London, 
correct?
    Ms. Roush. Oh, sir, sir, what they did to my daughters in 
London is unspeakable. It's inhuman. It's--these people, 
Petruzello and etc., they should be held responsible for what 
they did to my daughters, let alone what they did to me that 
weekend. I truly thought that this was all coming down around 
me, all my work to get my daughters back. But never mind what 
they did to me. I can't even imagine Alia and Aisha and Alia's 
baby in that hotel room in London, and that woman from Qorvis 
was there, and they were coordinating all this, and O'Reilly's 
producer. And they knew they were in a free country and they 
couldn't get out, d they were forced to say things against 
their mom, again and again and again. And then they were taken 
back to Saudi Arabia, knowing full well that they couldn't get 
out. They knew that was a chance. Alia did. Aisha was probably 
so confused by it all, but certainly Alia knew what was 
happening.
    And it's frightful to realize the power of the Saudi 
Arabian Government and the power of these lobbyists, how they 
manipulate, how they manipulated my daughters. It's unspeakable 
and it's against all of our laws and the laws of the Lord.
    Mr. Burton. Do you think it's important that we obtain the 
documents from the lobbyists so that we can see what was really 
going on and why they sent your daughters to London?
    Ms. Roush. I think that's exactly true. I think it's so 
important because they're hiding so much about the 
interference--the participation of the public relations firms 
with what happened not only in the very past past, but also 
concerning this whole scheme, this whole Stalinistic show trial 
in London. I mean, I think there are documents there. It's my 
belief, sir, that there are such incriminating documentation 
that they might even be able to go to jail because of what they 
did.
    Mr. Burton. The Saudis claim that they're trying to resolve 
the kidnapping of your daughter, Ms. McClain. Have you seen any 
evidence of that?
    Ms. McClain. I have not seen any evidence that they're 
trying to resolve this. I just found out from an article on the 
Internet that they had told Patton Boggs to go ahead and try to 
resolve these. I haven't had any calls from Patton Boggs saying 
we'd like to work with you on this. So the answer is no.
    Mr. Burton. The Saudis and the U.S. State Department deny 
that the Saudi Embassy was complicit in your daughter's 
kidnapping. Do you believe them?
    Ms. McClain. That is patently false. Several years before 
my daughter was ever kidnapped, I sent all my legal documents 
to Prince Bandar, to all the Saudi consulates in the United 
States. I believe there was one in Houston at the time and I 
think the other one was in Los Angeles. They all have those 
documents. I sent them registered. I sent them certified. I had 
them translated into Arabic so they knew exactly what they 
said. And I said, this child does not have permission from me 
or from the court to leave the United States of America with 
her father. And Prince Bandar knew that.
    Mr. Burton. So the State Department, en they say they have 
no evidence that this--that the Saudis were complicitous, the 
State Department must have their eyes covered.
    Ms. McClain. I don't know if the State Department has that 
evidence or not. I've told the State Department. I don't know 
if the Saudis have turned those documents over to the State 
Department or shared that information with them. But----
    Mr. Burton. But you think the State Department ought to 
help us in our quest to get these documents from the public 
relations firm so that we can check that out.
    Ms. McClain. Definitely. The State Department, the Justice 
Department, the FBI, needs to get involved in this. I don't 
think this is any less bad than embassy officials writing 
letters and checks to terrorists. You know, to me this is just 
as bad. My children are victims of terrorism.
    Ms. Roush. It's worse. It involves our flesh and blood.
    Mr. Burton. Let me just end up by saying--and I want to 
thank my staff for all the hard work they've been doing on 
this. Jim and David and Kevin, you guys work very hard and I 
really appreciate it. You guys ought to give them a pat on the 
back when you get a chance.
    Let me end up by saying this. We're at the end of the year 
and I see some of the lawyers for the public relations firms 
out there. And I'm sure that they understand that at the end of 
a session like this, it's hard to go ahead and get legal 
actions taken. And so I'm confident that they feel they can run 
out the clock on us. But it isn't going to work because we're 
going to continue this next year. We now have the Senate that's 
going to work with us. And I promise you that we will continue 
to beat on this issue until something is resolved.
    And the people are getting $200,000 $300,000 a month or 
however much they get representing the Saudis, need to give 
them some good advice. And that is, resolve these cases. Show 
the American people and these mothers that they really do want 
to solve these problems and do care, and that the Wahhabis over 
there are not controlling the government--as many of us, myself 
included, think that they are to a large degree--and that 
they're going to be concerned about the human rights and the 
rights of American citizens who have been kidnapped here in the 
United States and taken overseas.
    So this isn't going to go away. It's something that will 
continue. I won't be chairman next year, but I don't know if 
you guys know much about me. But I won't keep my light hidden 
under a basket, and I'll make sure that we push the right 
buttons to continue to move this thing forward. So you ladies, 
don't give up hope. There's still--still some good possibility 
that we'll get this thing resolved eventually.
    And with that, thank you all for being here. We stand 
adjourned.
    [Whereupon, at 12:37 p.m., the committee was adjourned.]
    [Additional information submitted for the hearing record 
and a complete set of exhibits follow:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]







    THE SAUDI CLAIM OF PRIVILEGE: MUST SAUDI LOBBYISTS COMPLY WITH 
  SUBPOENAS IN THE COMMITTEE'S INVESTIGATION OF CHILD ABDUCTION CASES?

                              ----------                              


                      WEDNESDAY, DECEMBER 11, 2002

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:15 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Weldon, Duncan, Ballenger, 
Norton and Cummings.
    Staff present: James C. Wilson, chief counsel; David A. 
Kass, deputy chief counsel; Jason Foster, counsel; Caroline 
Katzen, professional staff member; Blain Rethmeier, 
communications director; Allyson Blandford, assistant to chief 
counsel; Robert A. Briggs, chief clerk; Robin Butler, officer 
manager; Joshua E. Gillespie, deputy chief clerk; Michael 
Layman, legislative assistant; Nicholis Mutton, deputy 
communications director; Leneal Scott, computer systems 
manager; Corinne Zaccagnini, systems administrator; Phil 
Barnett, minority chief counsel; Sarah Despres, minority 
counsel; Ellen Rayner, minority chief clerk; and Jean Gosa and 
Earley Green, minority assistant clerk.
    Mr. Burton. Good morning. A quorum being present, the 
Committee on Government Reform is called to order. I ask 
unanimous consent that all Members and present witnesses' 
opening statements be included in record. Without objection.
    I ask unanimous consent that all written questions 
submitted to witnesses and answers provided by witnesses after 
the conclusion of this hearing be included in the record. 
Without objection, so ordered.
    I ask unanimous consent that a set of exhibits relating to 
this hearing be included in the record. Without objection, so 
ordered.
    I ask unanimous consent that all articles, exhibits and 
extraneous or tabular material referred to be included in the 
record. Without objection, so ordered.
    I also ask unanimous consent that questioning in the matter 
under consideration proceed under clause 2(j)(2) of House Rule 
11, the Committee Rule 14, in which the chairman and ranking 
minority member allocate time to committee counsel as they deem 
appropriate for extended questioning, not to exceed 60 minutes, 
divided equally between the majority and the minority. Without 
objection, so ordered.
    Before we start, my good friend Cass Ballenger from North 
Carolina is here and he'd like to recognize one of the 
witnesses. So, Cass, we will recognize you.
    Mr. Ballenger. Thank you, Mr. Chairman. I just wanted to 
put in a good word for a friend of mine, who has worked with me 
in El Salvador back in the days when that was not the most 
popular thing. You and I were some of the couple that did a 
great deal of work there. And he was--I met him through the 
Republican Study Committee, which was a fairly substantial 
organization in our modern--in the days when we were in the 
minority.
    And I would just like to put in a good word for Jamie 
Gallagher, who has been married to a staff member of mine 
whose--his mother-in-law happens to be campaign chairman for me 
in one of my strong counties. So don't beat him up too badly, 
if you would, sir.
    Mr. Burton. We're not here, Cass, to beat up on anybody. We 
just want to find out some facts about kidnapped kids.
    Mr. Ballenger. Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Cass. Nice seeing you, Buddy, and 
merry Christmas to you.
    Let me also saw that Margaret McClain just gave me a bag of 
pecans which were picked from a tree in her yard by her 
daughter Heidi before she was kidnapped 5 years ago, and she 
has been freezing these and saving these for special occasions.
    I really almost hate to eat these, but I do appreciate the 
thought, and maybe 1 day Heidi will be back here and she can 
help you pick some more pecans. A couple of weeks ago--it is 
nice seeing you again, Mr. Petruzzello. Couldn't find you last 
week, But we are glad you are here today.
    A couple of weeks ago, Prince Nayef, the Saudi Interior 
Minister, blamed the Jews for September 11th. He stated, ``the 
Jews have exploited the September 11th events to undermine the 
image of Arabs before the American people to instigate the 
latter against the Arabs and Muslims. The question is, is who 
perpetrated the September 11th attacks and who were the 
beneficiaries? I think the Jews themselves.''
    This man, Prince Nayef, is the Saudi equivalent of the FBI 
Director here in the United States. He is supposed to be 
tracking down al-Qaeda terrorists in Saudi Arabia. He also has 
a role in resolving these kidnapping cases. I don't think he is 
on our side if he thinks that the Jews are responsible for 
September 11th. If he is part of the Saudi initiative to solve 
the abduction cases, it is not only easy to see where the bad 
faith comes from, it is hard to summon up much optimism for the 
future.
    I start this hearing by discussing Prince Nayef because it 
is important for the public to understand who we are dealing 
with and what kind of people are in control of the Saudi 
government.
    Once you understand that, you know why it is important to 
have this kind of scrutiny regarding the kidnapping of 
Americans to Saudi Arabia. You also understand the enormous 
frustration we feel when Saudi officials and their mouthpieces 
lie to us. This is the 5th day of hearings by this committee on 
the subject of Americans kidnapped by Saudi Arabia and to Saudi 
Arabia.
    Why are we holding these hearings? Simply put, the U.S. 
Government has a choice. It can continue with the status quo, 
the way these cases have been managed for the last 20 years by 
the State Department, or it can face the facts.
    The status quo is not working. For 20 years the Saudis have 
refused to admit that there is a problem. They deny that they 
are even holding kidnapped Americans. They deny that they have 
been complicit in kidnappings. The State Department seems to go 
along with that. It has taken the State Department years to 
even request that the kidnapped Americans be returned. Who 
knows if they will ever actually place pressure on the Saudis 
to return them.
    I don't think we should stand for the Saudis' behavior any 
longer. In the 1 year the committee has been looking at this 
issue, we have seen dozens of examples of Saudi deception and 
deceit. And I will outline just a few examples of the ways in 
which the Saudi government has lied and distorted the facts.
    Just a couple of days ago we received a call and a letter 
from a person who described himself as a legal advisor to the 
Saudi Mission to the United Nations. I don't know if he is who 
he says he is. I hope not. He told us that there are no 
kidnappings, and that under international law a Saudi father 
has the right to take his daughters.
    He also said that the committee's investigation was part of 
a vicious campaign, and that Congress is controlled by the 
Israeli lobby. This person's thinking is echoed in many ways by 
the Saudi Foreign Minister. He wrote to me a few weeks ago 
saying, ``we reject anything that damages our Islamic Sharia, 
on which a total system of the state is founded.''
    Now, this Sharia regulates and guarantees all humanitarian 
rights without any prejudices. That is what he said. Let me 
translate. He was saying that the Saudis don't have a problem 
if one of their citizens travels to the United States and 
kidnaps a U.S. citizen. He was saying that he doesn't care if 
our laws are broken.
    He even told us when we met that Saudi Arabia doesn't 
recognize our laws. When we go there, we are supposed to obey 
their laws. So why shouldn't they obey our laws? The Saudi 
Foreign Minister also sent a letter to Secretary of State 
Powell in which he accused four American women of kidnapping 
their children from Saudi Arabia.
    Now, that might have sounded good. But, like most of the 
other Saudi talking points, it was a lie. In two of the cases 
cited by Prince Saud, the American children still live in Saudi 
Arabia. In another one of the cases, the American girl was 
kidnapped from America, held for 2 years and then escaped.
    If the Saudi Arabia government is so calculated in its 
deceptions, how can we believe them on any issue? The things we 
are complaining about aren't simple misstatements. They are 
calculated, carefully crafted lies. They are told for a 
purpose, and they were told by their Foreign Minister to me, 
and that is not very encouraging.
    In a letter to the Wall Street Journal, Saudi Ambassador 
Prince Bandar stated that, ``some have charged that Saudi 
Arabia is holding Americans against their will. This is 
absolutely not true,'' Prince Bandar said. Prince Bandar's 
statement is completely false. This committee has heard 
testimony from just a few of the many American parents whose 
children are held in Saudi Arabia. Even Prince Bandar's own 
paid mouthpieces can't defend this statement. They don't even 
try because it is so dishonest.
    They may take huge sums of money from their Saudi masters, 
but they won't tell a whopper that big. In fact, it looks like 
some of the PR experts, three of them at Mr. Petruzzello's 
firm, are so tired of representing the Saudis that they quit. 
You might want to elaborate on that, Mr. Petruzzello.
    The Saudi lobbyists have been saying how hard they have 
been working to resolve the outstanding cases of kidnappings. 
The truth is that no children have been voluntarily returned by 
the Saudi government, not one. Even worse, there is not even an 
indication that the Saudis are working to get the answers to 
basic factual questions about the kidnappings.
    Michael Rives' two kids have been held for 2 years. In 
August we asked whether there was any legal basis to hold those 
children in Saudi Arabia. There still isn't any answer. The 
Saudis just want to run out the clock, and that isn't going to 
work.
    I could go on with dozens of examples of Saudi bad faith. 
They accused me of offering a $1 million bribe to Amjad Radwan 
to make her come to the United States, and they flew Pat 
Roush's daughters to London so they could try to make a mockery 
of the congressional delegation that I led to Saudi Arabia. So 
these examples just go on and on.
    So that brings us to why we are here today. Because the 
Saudi government could not get its story straight, because it 
could not tell us what was going on with these cases that we 
had raised, we issued three document subpoenas to their 
lobbyists. They refused to comply. Instead they came up with an 
unprecedented claim of privilege. They claim that the documents 
of these lobbyists and PR specialists are archives and 
documents of the Saudi Embassy, entitled to protection under 
the Vienna Convention on Diplomatic Relations.
    Let me translate. The Saudis are hiding these documents. 
They are stonewalling. They are obstructing Congress. It is 
just that simple.
    Last night the Saudis made an offer whereby a third party 
could review the documents and answer questions about them. 
Now, that is not going to be acceptable to the committee, but 
it is really important because it shows that these documents 
are not sacred. They just don't want us, the committee, the 
government of the United States to look at them.
    We tried to have this hearing last week. We invited the 
three Saudi lobbyists to testify. They refused. We then told 
them we would issue subpoenas. Their lawyers refused to accept 
them. The lawyers claimed that a subpoena issued after 
adjournment was invalid, which is not the case. Then when we 
tried to serve the lobbyists, they were nowhere to be found. 
They weren't at their houses, they weren't at their offices, 
they weren't anywhere to be found, and we sent the U.S. 
Marshals out and you guys might have just left town, I don't 
know, or gone to the Saudi Embassy. Just another example of 
Saudi cooperation.
    So we had to come back again this week. I am glad that we 
are here and we can discuss some of those issues. I appreciate 
you gentlemen showing up today.
    I am sure that the Saudis thought if they could skip that 
one hearing we would just go away and the issue would go away. 
Well, it is not quite so easy. We are holding this hearing 
again. Ms. Roush and Ms. McClain have traveled back to 
Washington again to attend this hearing. The Saudi lobbyists 
have caused a lot of inconvenience and wasted a lot of time. 
But we are patient and we will finally hear from them today.
    It is my understanding that the Saudi lobbyists may claim 
privilege over a lot of matters today. This is unfortunate, 
because when he appeared before the committee 2 months ago 
Michael Petruzzello answered questions about his communications 
with the Saudi Embassy staff. According to one of the Saudi 
Embassy's lawyers, the Saudi government chose to disclose 
information to the committee at that hearing, and it is now 
choosing not to disclose information to the committee.
    Now, that is a major point. The Saudis certainly aren't 
obligated to raise this privilege. Why are they blocking the 
committee? The answer is simple. They don't want us to know 
what is in those documents.
    Now, last week's hearing was useful. We heard testimony 
from the world's leading authority. Now this is--I know that 
somebody here is going to say that there is a question about 
this lady's credentials. But let me say that she is the leading 
authority in the world on the Vienna Convention, and she is 
used by the government of England and the government of the 
United States whenever there is a question about the Vienna 
Convention.
    So I know Ms. Mahoney is going to try to say that she 
doesn't know what she is talking about. But I want to stress 
for everybody, she is the leading authority in the world on the 
Vienna Convention. So, Ms. Mahoney, when you get to that, just 
bear that in mind.
    Last week's hearing was useful. We heard testimony from Ms. 
Eileen Denza. Professor Denza stated quite clearly that it is 
not my view, and I am quoting here, it is not my view that the 
documents, which are clearly in the possession of the firms 
which have been subpoenaed, are entitled to inviolability. It 
is also my view that the implications of accepting the 
proposition put forward that these archives are inviolable 
would be very far reaching and very dangerous, end quote.
    Let me repeat what she said. Very far reaching and very 
dangerous. When Professor Denza was asked if the Saudi legal 
theory could be used to protect documents of spies and 
terrorists, their theory, she said yes. I think there is no 
distinction in principle.
    Now, I want everyone from the State Department and the 
Justice Department to hear that. Let me read that to you one 
more time. That is important. She is the leading authority in 
the world. When Professor Denza was asked if the Saudi legal 
theory could be used to protect the documents of spies and 
terrorists, we are concerned about that right now, she said 
yes. I think there is no distinction of principle.
    Now, I want everyone from the State Department and the 
Justice Department to hear that. I presume there is some of you 
here today because we asked you to be here. According to 
world's leading authority on the Vienna Convention, the Saudi 
theory is wrong. And it could be used to protect not only these 
documents that we want, but also documents about terrorism, 
espionage, and any other activity that is directed by a foreign 
embassy.
    The Saudi theory would also put an end to the Foreign 
Agents Registration Act, a vitally important law which makes 
sure that the government and the public know about the 
activities of agents of foreign governments. I look forward to 
hearing from the witnesses from the State Department and what 
they have to stay about this matter.
    Finally, I want to note that I am deeply disappointed that 
the Justice Department has declined to appear at this hearing. 
As I just indicated, this claim of privilege has implications 
that directly impact the Justice Department and their efforts 
to investigate terrorism.
    However, they informed me yesterday that they would not 
testify at this hearing, because they're concerned about 
offering an opinion in a matter where they are later asked to 
prosecute a contempt citation. If we don't get some answers, I 
assure you that there will be a move to have a contempt 
citation in the next Congress. I will see to that, a contempt 
citation.
    I don't think this objection makes very much sense. We 
aren't going to ask for any advisory opinion about our 
subpoena. I think that the Justice Department is really failing 
to defend its considerable interest in this matter, and I can 
understand the quandary that the State Department and the 
Justice Department is in, especially since we have a base in 
Saudi Arabia and that we may be going into a conflict with 
Iraq.
    So I understand that there is a lot of things in this mix. 
But the thing that needs to be realized by State and Justice 
and our government is there is Americans who have been 
kidnapped, who have been held against their will by a 
government that is supposed to be an ally of ours, and we ought 
to be doing everything we can to get them back, and we should 
not be closing our eyes and winking just because we have a base 
there. There is a lot of places that we could put bases if we 
need to do our job. We have got floating bases all over the 
Persian Gulf, and we have got other places that have asked us 
to put our bases in close proximity to Iraq.
    So this just doesn't wash with me. As far as the issue of 
oil is concerned, as I have said before, we get about 15 
percent of our oil from that area right now, not the 50 some 
percent we used to, and they are not in a position economically 
like they were 25 or 30 years ago. They have a balance of 
payments deficit instead of a surplus. So it is unbelievable to 
me that our government would continue to close their eyes to 
these things and try to ameliorate the situation with the 
Saudis when we are talking about American citizens who are 
being held against their will.
    Now, before we go to our panel, I think it is important 
that we once again set the stage for this hearing. So I want 
the staff to show a video of some of the testimony we have had 
so that anyone who is paying attention can see what we are 
talking about.
    So would you roll the tape, please?
    [Video played.]
    Mr. Burton. I think what we will do is maybe at the 
conclusion of the hearing run the rest of this tape, because I 
think it is very, very important that the American people who 
may be watching this on C-SPAN get the flavor of really the 
problem that we have.
    But anyhow, to move on with the hearing, did you have any 
opening statement you would like to make, Dr. Weldon?
    [The prepared statement of Hon. Dan Burton follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Weldon. Yes, Mr. Chairman. I just want to commend you 
once again for your tenacity in pursuing this issue. The 
holding of American citizens hostage in Saudi Arabia is 
increasingly becoming a problem. Were it not for your 
leadership in bringing this to the attention of the committee 
and to the Congress, I don't know if there would be any forum 
for those people to really have their grievances addressed.
    I do want to say at the outset that not knowing you were 
going to be having this important hearing today, I scheduled a 
hearing for the Civil Service Subcommittee, which will be 
starting in about 20 minutes. Hopefully our hearing won't go 
that long and I will be able to come back later and join you.
    But I consider this issue of extreme importance, and I 
yield back.
    Mr. Burton. Thank you, Doctor. And I appreciate your help 
yesterday as well.
    We will now hear testimony from our first witness panel.
    Pat Roush, Margaret McClain, Michael Petruzzello, Jack 
Deschauer, Jamie Gallagher, Maureen Mahoney, and Morton 
Rosenberg.
    So would you please rise so I can swear you in.
    [Witnesses sworn.]
    Mr. Burton. We have heard lengthy testimony from you, Ms. 
McClain and Ms. Roush in the past. So if you could keep your 
testimony, I would like to try to keep everybody to 5 minutes 
today if we can so we can get to questions. So we will start 
with you, Ms. McClain.

   STATEMENTS OF MARGARET McCLAIN, MOTHER OF HEIDI AL-OMARY; 
  PATRICIA ROUSH, MOTHER OF ALIA AND AISHA GHESHAYAN; MICHAEL 
  PETRUZZELLO, QORVIS COMMUNICATIONS; JACK DESCHAUER, PATTON 
   BOGGS LLP; JAMES P. GALLAGHER, THE GALLAGHER GROUP; MORT 
ROSENBERG, CONGRESSIONAL RESEARCH SERVICE; AND MAUREEN MAHONEY, 
                        LATHAM & WATKINS

    Ms. McClain. Chairman Burton and members of the Government 
Reform Committee, it was clear to everyone who was present at 
these hearings last week that the Saudi's Washington public 
relations firms have further damaged their credibility. Dodging 
this committee's subpoenas was an inexcusable cowardly act. If 
these firms and their clients of the Saudi Embassy have no 
criminal activity to hide, then what are they so afraid of?
    In the wake of September 11th, these firms have already 
learned that their association with the criminal enterprises of 
the Saudis have begun to cost them dearly in terms of their 
reputations. The spate of recent defections from Qorvis by some 
of the firm's brightest minds should be an indication of 
troubles to come. There is an old saying where I come from: You 
lie down with dogs, you get fleas.
    My own relationship with the Saudis entangled me in their 
web of deceit and violence, but these public relations firms 
are not looking past the dollar signs in their dealings with an 
extremely demonic and virulent entity.
    Patton Boggs, Qorvis and the Gallagher Group are in bed 
with a family reminiscent of the crime families that once held 
decent Americans hostage. My daughter, Heidi, and I have lived 
as hostages of the Saudis for several years. But, after 
September 11th, our whole country has been prey to their 
Machiavellian schemes.
    These public relations firms imagine themselves to be 
immune from the Saudi's venomous aims. But let me disabuse them 
of that notion. The Saudis have a long history of letting 
others do the dirty work for them, leaving their partners on 
the short end of any deal.
    When I appeared here a week ago, I was most encouraged by 
the remarks of Senator Blanche Lincoln from my home State, 
wherein she announced new legislation to deal with Saudi and 
any our child stealers. Senator Lincoln spoke of proposed 
legislation which would make it mandatory for the State 
Department to deny U.S. visas not only to the kidnappers, their 
accomplices, and their families, but to their employers as 
well.
    My child's kidnapper is employed at the ARAMCO Oil Co. I 
would be only too glad to see all of the Saudi ARAMCO employees 
stationed at the huge complex in Houston expelled. In addition, 
any ARAMCO personnel from Dhahran which plans to travel to the 
United States, including the CEO, Mr. al-Jummah, could be kept 
out of our country under such legislation.
    Mr. al-Jubeir from the Saudi Embassy has given his PR 
advisers a mandate to try to resolve what he calls child 
custody issues. This is a ridiculous statement, meant to act as 
a distraction. PR firms are not law enforcement and thus hardly 
qualified to handle kidnappings. Their job is to spin the news 
in their client's favor, and their real mandate is to make the 
whole embarrassing issue of the Saudi Embassy's complicity in 
child stealing disappear.
    Mr. al-Jubeir needs to be informed that there is no child 
custody issue in my daughter's case. I have legal custody, and 
my ex-husband willingly signed a divorce and custody decree 
issued in an American court. The kidnapper held legal residency 
status in the United States, and so placed himself under the 
jurisdiction of American law, and even swore an oath of loyalty 
to the United States. In this oath, he denied his allegiance to 
the Saudi royals.
    Any involvement of Saudi-financed PR firms in my daughter's 
case is a blatant conflict of interest and therefore out of the 
question. Furthermore, Mr. al-Jubeir's suggestions that the 
National Center on Missing and Exploited Children should be 
involved in negotiations for my daughter's life is totally off 
base.
    I ask if anyone here has wondered why al-Jubeir has been 
touting the accomplishments of the International Section at the 
National Center. There are personnel at the National Center who 
are or have been on the Saudi Embassy payroll, who have had 
access to the records of our missing children, who have stabbed 
various parents in the back at one time or another, and I 
reject the involvement of these Saudi plants at any cost.
    Mr. al-Jubeir went on at length about a bilateral solution 
to these kidnappings. Who are these bilateral players he is 
talking about? Translated into ordinary English, he means that 
the criminals at the Saudi Embassy, their hired guns at the PR 
and detective firms, their plants in the NCMEC, their pro-Saudi 
friends at the State Department, and the fugitive Saudi 
kidnappers themselves will be dictating all of the terms.
    Basically al-Jubeir's plan just gives the criminal who 
stole my daughter a get out of jail free card. I do not believe 
our government should negotiate with criminals. Nothing short 
of the unconditional return of our American children is 
acceptable.
    Those matters are criminal cases, not child custody 
disputes. If Saudi Arabia is serious about resolving these 
cases, then they must send our children home immediately and 
arrest and extradite the kidnappers for trial in the United 
States. My daughter's kidnapper faces multiple county, State, 
Federal and Interpol charges for which he must be held to 
account.
    In the past the Saudis mouthpieces have intercepted my e-
mails, threatened Pat Roush, Monica Stowers, Maureen Dabbagh 
and me. They invade our privacy and keep voluminous files on 
all of us, which they dutifully turn over to their Saudi 
handlers. This brings me to one of the disturbing aspects of 
the recent behavior of Qorvis, Patton Boggs and the Gallagher 
Group. In reading the subpoenas issued to representatives of 
the three firms, I came across a most distressing information 
that these firms at the instigation of the Saudis have 
apparently engaged the services of private detectives to dig up 
dirt on the parents of their kidnapped victims in an attempt to 
harass, intimidate and victimize us further.
    Perhaps this explains the mysterious hang-up phone calls in 
the middle of the night, the hacking of our computers and Web 
pages, and the Arabic speaking phone stalkers that have been 
pursuing some parents. In the wake of our 1998 announcement 
that we would be boycotting ARAMCO's partner Texaco, one of our 
missing children's Web sites was accessed thousands of times 
from inside Saudi Arabia, and then repeatedly hacked.
    That is when the harassment from PR began. Coincidence? I 
think not. I am beginning to feel like the rape victim under 
cross-examination by the rapist's lawyer. That is how I feel 
about the rapacious Saudi Embassy and their lackeys. They take 
sadistic pleasure in torturing and enslaving innocent women and 
children and then twisting the knife in the wound.
    While cash-flows from the Saudi Embassy to kidnappers and 
terrorists, the wives of present and former U.S. officials have 
paid a courtesy call on the Saudi Ambassador's wife to 
commiserate with her in her embarrassment. Her embarrassment--
--
    Mr. Burton. Could you sum up? Because, like I said, I want 
to make sure that we stay as close to 5 minutes as possible. 
But thank you.
    Ms. McClain. Just a minute.
    Mr. al-Jubeir bemoans the fact that the attitude of 
Americans toward his country is bordering on hate. Let me 
remind the Saudi Embassy that the murder of American civilians, 
the teaching of hate against us in their schools, their 
espionage on American victims, their refusal to cooperate with 
the Government Reform Committee, and the stealing and selling 
of our women and children, these are not conducive to a big 
love fest between us and the Saudis.
    Thank you.
    [The prepared statement of Ms. McClain follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Burton. Thank you, Ms. McClain. Ms. Roush.
    Ms. Roush. Good morning. I don't have a prepared statement 
this morning. But I would like to make a couple of points. 
First of all, Ms. Diane Andruch I see is on the witness list. 
She is representing the State Department. She is the same 
little lady who sat here in the last couple of hearings with 
her little scarves on and her little pert hairdos.
    In the meantime, she was the hatchet job lady for my 
daughters and gave the order that these characters to my left 
to be able to do that little deed they did to my daughters in 
London. I would like for the committee to address Ms. Andruch 
and ask her why she gave the order when al-Jubeir requested it 
for the American Embassy to send someone to that hotel in 
London to interview my daughters without my knowledge, when 
Randy Carolino called me and asked me for my permission to make 
this happen, and I said no, and they went ahead and did that 
anyway.
    The second point I would like to make is, there is a letter 
here addressed to the committee chairman by Ms. Leslie Kiernan, 
who is the representative of Mr. Petruzzello from Zuckerman 
Spaderman. In the letter she says that the committee--Mr. 
Petruzzello will appear, but she objects to the way that the 
committee treated Mr. Petruzzello the last time that he was 
here.
    I am wondering if Ms. Kiernan and Mr. Petruzzello and the 
Patton Boggs representative and Jamie Gallagher realize what 
they have done to my daughters. And if they object to Mr. 
Petruzzello and the others being here, as exemplified by last 
week's little shenanigans with him running away, with all of 
them running away from Federal marshals, what do they have to 
hide?
    Do they ever think about, does it ever keep them awake at 
night what they have done to my innocent daughters? They object 
to being here and being asked some questions from the committee 
concerning this dastardly deed. I think not.
    What are they hiding? Why won't they produce those 
documents? I believe that these documents are so incriminating 
that we can trace evidence to Prince Bandar and to al-Jubeir. 
Al-Jubeir is the spin doctor who is referred to in the Weekly 
Standard this week, under the article Spin Doctors, as a lying 
son of a bitch. I think he is a pathological liar and a menace 
to America. He has caused me and my family a great deal of 
pain, and he should be held responsible for this, and he should 
be kicked out of the United States persona non gratis.
    And Petruzzello, the people from Patton Boggs and Jamie 
Gallagher should be held responsible for what they did to my 
daughters. But I can tell you one thing, Mr. Chairman, the 
clock--they may think the clock is going to run out for you, 
but the clock will never run out for me.
    I am going to bring this to world forums, and my book is 
coming out and a film. So help me God, the clock will never run 
out, and they will be held responsible one way or the other.
    Thank you.
    Mr. Burton. Thank you, Ms. Roush.
    Mr. Petruzzello.
    Mr. Petruzzello. Mr. Chairman, members of the committee, my 
name is Michael Petruzzello. I am the Managing Partner of 
Qorvis Communications, an outside communications firm for the 
Saudi Embassy in Washington.
    I am here today in response to the committee's subpoena. As 
I explained when I testified before the committee in October of 
this year, Qorvis Communication was hired late last year to 
assist the Saudi Embassy on media and communication matters in 
the United States. The vast majority of our communications work 
is related to the war on terrorism and bilateral U.S.-Saudi 
relations. We do not set or implement policy.
    I understand that I am being asked to testify today 
regarding Qorvis' response to the committee's document subpoena 
and the Vienna Convention. I am not an attorney, and I am not 
the person at Qorvis who is responsible for subpoena 
compliance. In addition, I am not an expert on the Vienna 
Convention.
    As I understand it, counsel has advised the committee that 
the Royal Embassy of Saudi Arabia has asserted that the 
documents are protected by the Vienna Convention, as well as 
other legal privileges.
    Pending a resolution of these legal issues between the 
Embassy and the committee, Qorvis cannot produce the documents. 
I do not believe I can add anything to the committee's 
consideration of these legal matters.
    Furthermore, as the committee is aware, I have already 
testified at great length regarding the underlying child 
abduction issue.
    Before closing, I would like to respond to the accusation 
that I acted improperly by not appearing at the hearing last 
week. Nothing could be further from the truth. I worked all day 
Tuesday and tried to prepare for the hearing in the event I was 
called, and I did not evade service. I was home Tuesday night 
and Wednesday morning.
    With that, I will answer any questions I can.
    Mr. Burton. The U.S. Marshal came to both your office and 
your house but you say you were home?
    Mr. Putnam. I was not home at that--when they came to my 
house.
    Mr. Burton. Well, we will ask your colleagues from the 
other PR firms where they were, too, because all three of you 
were missing, couldn't find you. But we will take you at your 
word.
    Mr. Deschauer.
    Mr. Deschauer. Mr. Chairman, Dr. Weldon, I am John J. 
Deschauer, Jr. I am an attorney at the law firm of Patton 
Boggs. The Embassy of Saudi Arabia retained us in November 2001 
to provide them with legal advice and counsel regarding 
developments within the executive and legislative branches of 
the U.S. Government affecting the U.S.-Saudi Arabian bilateral 
relationship.
    In June of this year, after your committee held its first 
hearing on the subject of international child custody cases and 
the Kingdom of Saudi Arabia, we were specifically asked to 
counsel the government, again through the Embassy, on the legal 
issues concerning the subject of child custody, and to provide 
advice to the government of Saudi Arabia on ways to bridge the 
gap between two very different legal systems in ways that 
protect the interests of the children in question and help to 
reunite them with their families.
    At the outset, let me acknowledge that it has been this 
committee's personal involvement and public hearings that have 
brought this very serious issue to the forefront. At the same 
time as a parent myself, I have read every word spoken by the 
parents who have testified before this committee. I can only 
begin to imagine the pain that these people have suffered in 
these cases.
    While we are advising our client on the legal issues 
involved, I cannot nor will I--cannot nor will not put out of 
my mind the harrowing stories that these parents have hold.
    The Kingdom of Saudi Arabia believes international child 
custody is a serious global problem. It is the position of the 
Saudi government, as made in their public statements, that 
every effort must be made to develop a resolution that protects 
and promotes the interests of the child, while recognizing the 
rights of both parents.
    Accordingly, our firm has been asked by our client to 
provide it with legal advice concerning the subject of 
international child custody, existing and potential 
multilateral and bilateral frameworks, and possible U.S.-Saudi 
protocols to address these issues.
    You have asked me here today to testify about the 
application of the Vienna Convention to the subpoena sent to 
Patton Boggs on October 10, 2002 by committee counsel, James 
Wilson.
    The subpoena directs a variety of documents relating to 
this firm's representation of the Royal Embassy of Saudi 
Arabia. I am not an expert in either Vienna Convention or the 
attorney-client privilege. I have attempted to address these 
issues in my written statement.
    I would also like to address the circumstances surrounding 
last week's hearing. I want to make it clear that I am 
appearing voluntarily, that my inability to appear last week 
was the result of a last-minute notice and a long-planned 
personal trip, and that the embassy in no way instructed or 
otherwise encouraged me not to appear.
    I am here voluntarily today and ready to answer your 
questions within the bounds of my ethical obligations to my 
client.
    Thank you, sir.
    [The prepared statement of Mr. Deschauer follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Burton. Thank you, Mr. Deschauer.
    Mr. Gallagher.
    Mr. Gallagher. Mr. Chairman, Dr. Weldon, my name is Jamie 
Gallagher. I am 39 years old, self-employed in a consultant and 
lobbying business, the Gallagher Group, LLC. I am not a lawyer. 
My counsel, James D. Wareham, is here with me today.
    For 4\1/2\ years, I served as the Senior Policy Analyst for 
the Republican Study Committee here in the U.S. House of 
Representatives. During that period, Mr. Chairman, you served 
as the Study Committee's vice chairman, and I was fortunate to 
work closely with you and your staff on a wide range of issues.
    From there I served as Director of Congressional Affairs at 
the Defense Base Closure and Realignment Commission from 1991 
and 1993. I then joined the staff of Senator Judd Gregg, your 
former colleague, as Legislative Director.
    I subsequently served as his Administrative Assistant, and 
ran his Washington, DC, office. In 1995, I joined the lobbying 
firm of Boland and Madigan as a vice president. In January 
2000, I left Boland and Madigan to fulfill my entrepreneurial 
dreams and start my own lobbying and consulting business.
    On November 15, 2001, I was retained by the Royal Embassy 
of Saudi Arabia, through Qorvis Communications, LLC, to advise 
the Embassy on its relationship with the U.S. Congress, and to 
a lesser extent with the executive branch. I often confer with 
Members of Congress and their staff on matters of mutual 
interest.
    On October 8, 2002, this committee subpoenaed the Gallagher 
Group in connection with its investigation of whether any 
children of Saudi and American parents who are being kept by 
one parent in Saudi Arabia wish to return to the United States, 
but have been prevented from doing so.
    I was not retained by the Embassy to advise them on the 
handling of cases under investigation and have no direct 
knowledge about any of those cases.
    Immediately after receiving the subpoena, I gathered all 
documents requested by the committee. All of the documents were 
prepared or maintained in my capacity as a registered agent of 
the Embassy. Upon learning of this committee's demand for 
documents belonging to the Embassy, the Saudi Ambassador wrote 
me on October 21, 2002, to request that I refrain from 
producing the documents to this committee, because they are 
protected by the Vienna Convention.
    After reviewing analyses prepared by counsel for the 
Embassy, a letter prepared by the staff of this committee, and 
consultation with my own counsel, I concluded I must honor the 
Saudi Ambassador's request. I am not a lawyer and I know very 
little about the complexities of the Vienna Convention.
    U.S. Department of State, the Department of Justice and the 
Royal Embassy of Saudi Arabia are far more competent than I to 
express a view on the scope of the Vienna Convention. As I 
understand it, both the Departments of State and Justice 
believe the Embassy has raised this issue in good faith, and 
both agencies are in the process of carefully studying the 
Convention and analogous legal precedents.
    I hold the institution of the House of Representatives in 
highest possible esteem. Indeed, I spent many years working as 
a staff and the Members in this body. I believe firmly, 
however, that I am not qualified to address the legal questions 
addressed by this committee's effort to obtain access to 
documents belonging to and reflecting confidential advice 
provided to the Saudi Embassy. In addition, I have not been 
involved in handling the cases that are at the core of this 
committee's investigation.
    In conclusion, I am appearing here today to be interrogated 
on a highly technical legal matter with which I am nearly 
entirely unfamiliar. I ask the committee to respect the 
position that I am in and recognize the limited value to be 
afforded by my testimony.
    [The prepared statement of Mr. Deschauer follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Burton. Mr. Gallagher, before we go to Mr. Rosenberg, I 
would just like to ask you, you do know that when an agency or 
an individual gets a subpoena from the U.S. Congress and they 
refuse to honor that subpoena, they run the risk of being held 
in contempt by the Congress. You do understand that?
    Mr. Gallagher. Yes, Mr. Chairman.
    Mr. Burton. I just wanted to make sure that you understood 
that, because the Saudi Government, even though the they are a 
client of yours, they are asking you not to do that, they have 
no authority to put you in legal jeopardy. But the subpoena 
that we have sent does, and we intend to pursue those 
documents, because we think they are very important as far as 
these women and kids are concerned.
    Mr. Rosenberg.
    Mr. Rosenberg. Thank you, Mr. Chairman, Dr. Weldon. My name 
is Morton Rosenberg. I am a specialist in American public law 
at the Congressional Research Service at the Library of 
Congress.
    You have asked me here today to address two legal questions 
that have been raised in your proceedings. One is the lack of 
the authority to hold this hearing and to issue subpoenas 
during an adjournment of the Congress and to enforce those 
subpoenas.
    And, second, you have asked me to say something about the 
efficacy of the attorney/client privilege claims before 
congressional committees. I have submitted a written statement 
which at length deals with these issues. I will shorten, 
briefly give you my conclusions.
    The Patton Boggs assertion to your committee that your 
committee has no authority to engage in investigative oversight 
activity after the adjournment sine die of the House appears to 
lack a substantive basis. It is founded essentially on two 
Office of Legal Counsel opinions, the Justice Department's 
Office of Legal Counsel opinions which rely essentially on the 
fact that when Congress adjourns it can't pass any laws. And 
from that they deduce that not being able to pass laws, they 
can't do oversight, they can't investigate, they can't prepare 
for when Congress comes back in session.
    This is, of course, reputed by the fact that we are here 
today. That is some evidence of your authority. But the House 
and the Senate, by rules of their respective Houses, have 
authorized all of their standing committees to meet, hold 
investigative hearings, and to issue subpoenas during 
adjournments and recesses.
    Those rules are authorized by the Congress, which 
authorizes each House to promulgate rules for their activities. 
The allowance of committees to operate during recesses and 
adjournments have been recognized as far as back as 1790 by 
Thomas Jefferson in his writings. Indeed, if a proper contempt 
resolution is issued by a standing committee during this 
adjournment period, it may be reported by the Speaker of the 
House, who after due consideration of the committee's report, 
may forward it to the U.S. Attorney for the District of 
Columbia for prosecution.
    The only pertinent court opinion on the Senator Bayh issue 
supports your legislative authority. In that opinion, the 
Seventh Circuit Court of Appeals vacated an order of a direct 
court which challenged the right of a committee to act during a 
recess in the efficacy of a subpoena and said that court rather 
surprisingly denies the right of Congress to conduct business 
through its committees after it adjourns, even though all 
adjournment means is that the Congress is in recess. The 
Congress does not end until the congressional term expires. In 
this year it's January 3rd.
    With respect to the congressional practice with respect to 
the common law testimonial privileges, that also has been 
recognized as being a matter that is in the discretion of the 
Chair and ultimately in the committee that is issuing 
subpoenas. Your committee and other committees, especially over 
the last--this discretion has been recognized since the 19th 
century, and over the last 25 years has been developed 
extensively, to the extent that committees like yours test each 
assertion of attorney-client privilege, which is welcomed 
individually, with particular regard whether a court would 
accept such a claim.
    On the basis of the record before you, it would appear 
quite unlikely that the three firms retained by the Saudi 
embassy would meet the high burden necessary to establish such 
a claim. Of significant import, I believe, is the 
correspondence with the--the correspondence with the committee 
does not indicate that the firms are doing predominantly legal 
work for the Embassy but rather lobbying work or consulting 
work which courts have consistently found insufficient to 
invoke the privilege.
    You have invited, however, in your subpoenas and in your 
letters, these firms to present privilege logs, which hopefully 
would establish that they are doing actual legal work for the 
Embassy, and those, you know, could be considered by you then. 
As of now, though, it's my understanding that there has been no 
attempt to support their claims.
    I would be pleased to answer questions about both of these 
legal issues if you wish.
    Mr. Burton. Thank you, Mr. Rosenberg; and we appreciate 
always your legal expertise and the information you give this 
committee.
    [The prepared statement of Mr. Rosenberg follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Burton. Ms. Mahoney.
    Ms. Mahoney. Thank you, Mr. Chairman.
    My name is Maureen Mahoney, and I'm an attorney at the law 
firm of Latham & Watkins. I have represented the Embassy on 
issues pertaining to sovereign immunity and diplomatic unity 
for over 20 years now. I am predominantly a constitutional and 
appellate lawyer, but I consider myself an expert on these 
issues.
    I want to acknowledge at the outset that we understand that 
these are very important issues for the committee, and they are 
very important for the U.S. State Department and for all 
foreign embassies in the United States and abroad. We don't 
take lightly the invocation of these lives, but I've studied 
these matters in great depth, and I want the chairman to 
understand that it is personally my opinion that the Embassy 
has properly interpreted the treaty and that it would be a 
breach of this treaty for the committee to try to hold these 
consultants and lawyers in contempt for failure to produce the 
documents that have been requested. I truly believe that. I 
think it's the right answer, and I think if we litigated this 
issue ultimately a court would decide in our favor.
    I have attached to my testimony two letters that I've 
written to the committee which explain the legal issues in some 
great depth, and I would ask that they be entered into the 
record of this hearing.
    I'd like to address three basic issues.
    The first is why I think that our interpretation of the 
committee--of the convention, of the treaty, is the correct 
one, why it's reasonable, most consistent with the language and 
purposes. Second, I'd like to talk a little bit about Professor 
Denza's opinion, which I understand you are relying upon quite 
heavily, and explain why I don't think it's persuasive. And, 
third, I'd like to talk a little bit about the issue of what 
implications our assertion of privilege has here for espionage 
and terrorist investigations, that sort of thing.
    First, I just want to put in the most plain and practical 
terms what the issue here is, and it's really whether the 
Vienna Convention, which is a very broad convention that's 
designed to promote diplomatic relations in the United States, 
protects an embassy's right to consult with local advisers in 
this country and in other countries on a confidential basis, 
whether that's something that the convention is designed to 
promote. This answer affects not only the interests of the 
Saudi Embassy but every embassy here in the United States in 
the conduct of foreign affairs here and throughout the world.
    I'd like to make the first point, which is the language of 
the convention strongly supports the Embassy's interpretation 
in this case in two respects. First, Article 24 makes it 
explicit that the archives and documents of the mission, the 
documents of the mission are inviolable at any time and 
wherever they may be. It is not simply documents that are in 
the possession of the Embassy but also documents that belong to 
the Embassy that are located someplace else.
    Article 27 says that the U.S. Government, the receiving 
state, must promote and protect free communication on the part 
of the mission for all official purposes. That makes it clear 
that one of the responsibilities of the United States as a 
nation is to make sure that diplomatic missions can do their 
job by having free communication; and courts have repeatedly 
said that means--can mean confidential communication if there's 
a need for it in order to perform their functions.
    In addition, the express purposes of the convention are 
very important, because our courts repeatedly say that treaties 
have to be interpreted in a manner that promotes the purposes 
of the convention, and here the express purpose is to ensure 
the efficient performance of the functions of diplomatic 
missions. Those functions are broadly defined to include 
ascertaining by all lawful means, conditions and developments 
in the host country, negotiating with the government of the 
host country and promoting friendly relations between both 
countries. These purposes are directly implicated here.
    Looking at the purposes, I think we have to recognize that, 
especially for countries that have cultures that are more 
different than our own, there is a great need to have local 
expertise, to have American advisers. Now, the Embassy could 
hire these advisers on a part-time basis and have them be at 
the Embassy, but there's no reason in the law why they should 
be required to do that in order to get their services. Instead, 
it is commonplace for embassies, and I think for the U.S. 
Government as well, to hire consultants, local experts, on a 
contractual basis to serve as agents; and that's what they have 
done here.
    Chairman Henry Hyde of the House International Relations 
Committee recently held hearings about the importance of 
improved public relations to U.S. foreign policy and explained 
the need to hire these very kinds of experts to help advise the 
United States how to promote its foreign policy interests 
throughout the world. So I don't care that the Saudi Government 
is the only government that has a need for outside expertise. 
The question, then, really is, is there a need for these 
communications to be confidential?
    I think, Mr. Chairman, you've recognized before that things 
work best if there can be candid advice from advisers about how 
to proceed, to make recommendations about what is the best 
course of proceeding in these child custody matters and 
elsewhere. They can't get that candid advice if they're not 
going to be able to have confidential communications.
    There is right now--in fact, the U.S. Supreme Court has 
said that it is too plain to question whether there is a need 
for governments to have confidential communications when trying 
to decide how to proceed. Right now, we are in the middle of a 
circumstance where this committee is investigating these issues 
and where the Saudi government is attempting to negotiate a 
resolution with the State Department, and yet the committee 
says it wants to see the confidential communications that 
relate to this ongoing diplomatic negotiation. That would 
seriously undermine the ability of the Embassy to get candid 
and confidential communications.
    I have to acknowledge that there has not been a U.S. court 
that has directly addressed this issue, but that doesn't say 
that there isn't strong support for our interpretation in a 
variety of contexts. And the reason it hasn't been addressed I 
think is because it hasn't been done before. I don't believe 
this committee, or at least not that I know of, has ever tested 
the Vienna Convention in this way before by seeking these kinds 
of confidential documents from an embassy's consultants.
    But I think the important thing here is to understand that 
in a variety of contexts the executive branch and U.S. courts 
have recognized the need for confidential communications when 
deliberating about issues of diplomatic negotiations. This goes 
all the way back to 1796 when George Washington refused to 
provide information to Congress relating to ongoing diplomatic 
negotiations and said that these kinds of negotiations often 
depend on secrecy and a full disclosure of all the measures, 
demands or eventual concessions which may have been proposed or 
contemplated might have a pernicious influence----
    Mr. Burton. Would the gentlelady yield just a moment? 
Wasn't George Washington, in effect, using executive privilege 
as the President in that case?
    Ms. Mahoney. Yes, he was.
    Mr. Burton. Well, we're not talking about executive--the 
President using executive authority in this particular case.
    Ms. Mahoney. Mr. Chairman, what we're talking about is a 
convention that says that the U.S. Government has an obligation 
to protect and promote free communications for official 
purposes by a government, by a sovereign. This is a foreign 
sovereign, and the point here is that as part far back as 1796 
George Washington told this Congress that it would undermine 
the operations of the U.S. Government to share that 
information, very similar information, with congressional 
committees, even though they were on the same team, and yet----
    Mr. Burton. Ms. Mahoney, we've gone beyond the 5 minutes, 
but you and I can have a little dialog here, because I think 
it's very important that we go into this in some detail. It 
sounds like to me that the Saudi Embassy is prepared, using you 
as their legal adviser, to go to court to try to protect these 
documents, and I can understand that. And whether or not I 
agree with you or whether or not Ms. Denza agrees with you, 
who's the foremost expert on the Vienna Convention, the fact of 
the matter is this could be tied up in court for a long time 
and this could end up being a moot point.
    So let me just ask you this. Let's just say, for example, 
that the Saudi Embassy and the Saudi Government knew something 
about the 15 terrorists from Saudi Arabia that blew up the 
World Trade Center and attacked the Pentagon here in the United 
States and let's say there was some correspondence that was 
transmitted between their lobbying firm and the Saudi Embassy 
that may have shed some light on this. And let's just say that 
there might be some more possible terrorist attacks that might 
be in the offing that might be enumerated or, if not 
enumerated, maybe some information might be in those documents 
that would lead us to preventing the possible attack that might 
occur. Are you telling us that, because of this privilege, we 
couldn't get that information, the U.S. Congress?
    Ms. Mahoney. Mr. Chairman, if the Saudi Government has 
retained agents in the United States to assist in the--in acts 
of terrorism, that agency relationship would be void for 
illegality from the get-go. There would be no protection for 
documents in the possession of the third party under those 
circumstances. I do not believe that an American court would 
say that under those circumstances that was a proper agency 
relationship or that the documents would be the property of the 
Embassy.
    Mr. Burton. So now we're talking about kidnapped children, 
kidnapped from the United States. Now, can you tell me the 
difference?
    Ms. Mahoney. Yes, Mr. Chairman.
    Mr. Burton. Wait a second. We're talking about breaking a 
law with the complicit support of the Saudi Embassy. In the 
case of the Terre Hautean young woman, her daughters were 
taken, three of them. The court of jurisdiction had contacted 
the Saudi Embassy, told them that they were not to take those 
children out of the country. They knew of the divorce decree 
and who had custody. The father said he wouldn't take them out 
of the country. He went directly to the Saudi Embassy, got 
three passports for the children, and the mother hasn't seen 
them since. They're in Saudi Arabia. Now, that's a kidnapping 
case. Now, we're talking the difference here between a 
terrorist case and a kidnapping case, and I want you to define 
the difference.
    Ms. Mahoney. Mr. Chairman, these consultants and lawyers 
have not been hired to assist the Saudi Embassy in kidnapping.
    Mr. Burton. Well, we don't know what's in those 
transmissions. We don't know what's in that correspondence. 
Just like if there was a terrorist involvement and that 
correspondence took place, we wouldn't know that unless we saw 
the documents.
    Ms. Mahoney. Mr. Chairman, there are a variety of sources 
of information; and courts often draw lines based on the 
information that the U.S. Government has. The U.S. Government 
doesn't have any information that these firms, which have been 
assisting the Saudi Embassy and responding to your concerns and 
working with the State Department, have been hired as part of 
an illegal scheme to engage in criminal wrongdoing----
    Mr. Burton. Ms. Mahoney, let me just say this. We talked to 
Mr. Petruzzello when he was last here and he said he didn't 
know anything about a lot of these issues, but when we pushed 
him, he told us he was involved in the writing of letters, in 
the writing of all kinds of documents that showed very clearly 
that the Saudi Government was not involved in any way and was 
not guilty of involving themselves in these things. I mean, he 
was involved--and he said that under oath--he was involved in 
writing these documents.
    Now, why, if he was involved in these documents, would that 
not be a part of the problem?
    Ms. Mahoney. Well, because he wasn't hired to commit 
illegal acts, Mr. Chairman. That--I don't think there's been 
any suggestion that there is evidence to indicate that these 
consultants and lawyers have been hired to----
    Mr. Burton. But that's not the point. But he may, through 
the correspondence he may have, be aware, or his firm may have 
in their possession, evidence about illegal acts. Just like if 
there was a terrorist attack and there was some correspondence 
that might be relevant to that, they would have that in their 
files as well. So I don't see the difference.
    Ms. Mahoney. Mr. Chairman, the Embassy could certainly 
have--any embassy, not the Saudi Embassy, any embassy in the 
United States could have information that the U.S. Government 
might like to have, documents that are in their possession or 
that they own that are located elsewhere, but that doesn't mean 
what the U.S. Government is entitled to have them. It is a 
signed treaty that says it will respect the protections of the 
treaty, and those protections require the United States to 
promote and protect free communication, and they also require 
them to respect the inviolability of documents that belong to 
the Embassy how and where they're located.
    Mr. Burton. I won't belabor this. I will just say that I 
have heard of your credentials. I know that you're a very, very 
brilliant attorney and you've done an outstanding job over the 
last several years, many years, and you've represented the 
Saudi Embassy many times and I think you acquit yourself very, 
very well. But the fact of the matter is the foremost authority 
in the world on the Vienna Convention testified last year that 
she does not agree with your--but you are being paid by the 
Saudi Embassy, which you've admitted, and I understand you're 
going to take their position, and I understand that it's likely 
that if we press this that you'll go to court to keep the 
American people from knowing what was in those--that 
correspondence.
    Now, let me just go on, because I feel very strongly about 
this. We have here women who have had their children kidnapped 
while under a court order to stay in the United States. Their 
kids have not been seen since and may never be seen again. They 
can't even talk to these kids. Some of these women that I 
talked to in Saudi Arabia told me that their lives were 
threatened on a regular basis by their husbands if they didn't 
walk the talk and do exactly what they said.
    If you lived in Saudi Arabia, if you lived there and was 
married to a Saudi and he said, ``Don't leave the house,'' and 
you did, there's nothing the government could do if he beat the 
hell out of you and made your life a hell on earth. And you're 
an American citizen, and we've got American citizens over there 
that are suffering like that right now, and we're trying every 
way we can to get these kids and these women back.
    One woman told me she wanted to be put in a box with her 
kids and sent out of the country in the belly of a plane, if 
necessary. She said, anything to get us out of here because of 
the hell we're living in. And it was not an isolated case. And 
the bottom line is all of these machinations that are taking 
place right now by the Saudi government, their lobbyists and 
you--I'm sure they're legal, but the point is, wrong is being 
done, and they can't get their kids back, and all these 
roadblocks that are being thrown up, and you're--I'm sure you 
could throw up a legal roadblock that would tie this thing up, 
and you probably will, for months.
    And the thing that bothers me is nothing is going to be 
done about these kids or these women--nothing--and you keep 
saying the State Department is responsible for doing that. 
Well, I agree, they should be putting pressure on them, but 
they haven't done anything, and our Justice Department isn't 
doing anything. And, God forbid, the administration really 
hasn't done much, and I have high regard for it. But the fact 
of the matter is these kids aren't coming home. They're 
American citizens.
    We had one case where a woman went to get her kids, took 
them to the Embassy, said, this is American soil, we want our 
kids to go--we want to go to America; and the Embassy official 
had a Marine pick the kids up and take them to the front gate. 
The woman was arrested, and the kids were sent back. The girl 
was 12 years old, and because there was a reprisal that was 
going to take place, the father married her off at 12 years old 
to a man she didn't even know.
    Now, you know, that sort of thing goes on, and what you're 
saying now is that the Saudi Arabian Government has a legal 
right for us not to get documents that may or may not prove 
that they were complicit in this kidnapping, and kidnapping is 
a felony, and you're saying that there's a difference between 
that and terrorist activity. And I just don't see the 
difference.
    Ms. Mahoney. Mr. Chairman, if the Saudi Embassy was 
complicit, by, for instance, issuing a visa, that is not 
kidnapping under U.S. law. I mean, there is a case on this in 
the Ninth Circuit----
    Mr. Burton. It wasn't a visa. It was a passport.
    Ms. Mahoney. Well, whatever. I mean, I think the point is 
the same. These are serious issues. They're obviously serious 
issues. It's commendable for the committee to look into them, 
but, at the same time, it is the responsibility of the U.S. 
Government to honor its obligations under the treaty to go 
about its processes in a way where it acquires the information 
in a manner that's consistent with the treaty.
    The Saudi Government has offered to provide information in 
a variety of different ways; and I have to say, Mr. Chairman, I 
was very troubled by the letter that I received from counsel 
for your staff today and by the opening comments that 
essentially said that the fact that I have tried to reach some 
sort of compromise that would allow the committee to get access 
to underlying facts without having to disclose the confidential 
deliberations that are reflected in these documents was an 
indication that the Embassy didn't really care about 
inviolability after all, that this wasn't really important----
    Mr. Burton. Well, let me comment about that letter, because 
I approved it. I approved that letter, so don't blame the 
counsel. Blame me.
    Let me just tell you this. The Embassy said that they would 
give these documents to a third party, and the third party 
would give us information of those documents that was relevant 
to our investigation. The problem with that, counsel, is that 
we don't know that the third party is going to give us all of 
the information that's relevant to our investigation. We don't 
know that the third party is going to be honorable.
    The Saudi Government has paid $200,000 to Mr. Petruzzello's 
firm a month--I don't know how much he's paying to everybody 
else or you, but I don't know whoever the third party that 
would get these documents might not be getting a pretty good 
hunk of money from them as well.
    Now, let me just finish--and, as a result, this committee 
is trying to find out why these kids are stuck over in Saudi 
Arabia and these women are stuck over in Saudi Arabia. We might 
never get the facts.
    Now, I don't know whether you're aware of it, and this is a 
little different subject, but the Saudi Embassy and the Saudi 
Government has been faced with a lot of problems lately.
    One of the problems is, after a suicide bomber blows up 
themselves, killing a lot of people in the Middle East, they 
end up paying the family some money, because they've gone 
through some suffering.
    Also, the Saudi Ambassador, Mr. Bandar, to the United 
States, his wife gave money to some people that was a conduit, 
we believe, to the terrorists that attacked us on September 
11th at the World Trade Center and the Pentagon.
    Now, both of those things are in question right now. So, 
you know, we don't have the greatest feeling of honesty and 
integrity coming out of the Saudi Embassy.
    Then we have an expert from the Vienna Convention that says 
we're entitled to these documents that we have subpoenaed from 
these lobbyists who are getting $200,000 a month, and what do 
we get? We get nothing but a person coming up here whose 
expertise on the Vienna Convention may be very good, but you're 
certainly not known as the foremost authority. But you said 
very clearly that if this is tested in court, in court, that 
you feel like your position would be upheld.
    Now, there's a--I know you don't mean it this way, but 
there's an implied threat there that if we pursue this, this is 
going to end up in court and it will drag on for months and 
months and months and maybe years. You know what I'm talking 
about. You know how the courts are. And so these women and 
these kids aren't coming home, and the Saudi Government once 
again with their money and their stonewalling will be able to 
stop the American government through our very good, open, legal 
system from getting to the truth and getting to an honest 
resolution of this.
    The fact of the matter is, these are American citizens 
we're talking about who are there against their will, who want 
to come home, and they can't, and the Saudi Government is 
blocking it. And you're going to do a great job, I'm sure, as 
you have in the past, legally to make sure that happens.
    Ms. Mahoney. Mr. Chairman, could I respond for a moment to 
Professor Denza's opinion? I promise to be brief.
    But you have referred to her so many times as the leading 
authority, and I do think it's very important to point out that 
Professor Denza's opinion about this actually changed several 
times and that it was not actually firmly grounded in the 
language or purposes of the Convention. And, in particular, 
when you sent a letter sending her opinion in the first 
instance, you said, Professor Denza believes that the most 
relevant precedent supports the committee's position. It was a 
decision by a British court that she had relied upon in her 
opinion to say that any document an embassy voluntarily gives 
to a third property cannot be the property of the embassy under 
Article 24.
    But she actually misread the holding of that case, Mr. 
Chairman. In fact, the court actually held that the, ``property 
in the document,'' would pass to a third-party recipient, ``in 
the absence of any relationship of principal and agent.''
    That's exactly what we have here, is documents that are 
passing between the principal and the agent. So the case--the 
one case she said was relevant actually supports our 
interpretation, not hers. So------
    Mr. Burton. Ms. Mahoney, we're not here today to get into 
the legal arguments that you may be preparing for a court of 
law, and we don't have the time to go into all the legal fine 
points about this. So let me go on and get on with the other 
questions that we want to ask the panel, because we're going to 
be here a long time. We'll get back to you with some more 
questions.
    [The prepared statement of Ms. Mahoney follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Burton. Judge Duncan, did you have a question? And then 
I'll go to you, Mr. Cummings.
    Mr. Duncan. I don't really have any questions at this point 
except to say that I certainly appreciate your holding this 
hearing; and, in fact, as I have said several times before, I 
have been so impressed by the issues that you take up. In fact, 
my staff didn't tell me about the hearing in Boston or I would 
have tried to go up there for that hearing, and I was--as you 
know, I've been very interested in the subject that you had a 
hearing on yesterday, but I wasn't able to come. But this is 
very, very important, the issues that you're dealing with here 
today.
    You know, I spent 7\1/2\ years as a circuit court judge in 
Tennessee before coming to Congress and several years in law 
practice before that, and I think one of the things that is 
frustrating or surprising to a lot of people who aren't 
lawyers, they think that the law is all black and white, and 
it's really not. Most of American law is in really a gray area, 
and on most issues I can find about as many cases, even U.S. 
Supreme Court cases, supporting one side as supporting the 
other.
    But I will tell you this. And I have to admit I did not 
handle a lot of domestic cases. I did some, but that was not an 
area of the law that I particularly enjoyed, but I will tell 
you that I know from law school and from the cases that I 
handled that in the law of domestic relations it is said over 
and over and over and over and over again in almost every case 
that the interests of the child are paramount. That's the main 
thing that courts are supposed to take into consideration in 
custody cases or in the disputes over children, what is in the 
best interest of the child, or what's in the best interest of 
the children.
    I think in this area it is certain, and there's no question 
that it's in the best interest of these children to have 
relationships with both their mothers and their fathers. 
They're not getting that now. These--we've heard testimony of 
children that have been taken away in the middle of the night 
or surreptitiously and haven't seen their mothers for many, 
many years; and we've heard some pretty sad and very compelling 
testimony. And I can tell you this. It's my strong opinion, and 
I believe that of the chairman also, that our State Department 
can and should be--could and should be doing a whole lot more 
in this regard, and if Saudi Arabia is really the ally that 
they want us to think that they are, then the Saudi Arabian 
government should and could be doing much more in regard to 
these children.
    So I commend you, Mr. Chairman, for holding this hearing, 
and I hope that we will keep on this--keep on top of this until 
something more is done to help these children. Thank you very 
much.
    Mr. Burton. Thank you, Judge.
    Judge, could you--I'm going to need you to take the Chair. 
I have to step out for just a minute.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I, too, want to thank you, Mr. Chairman, for holding these 
hearings. I think they are extremely important.
    I was back here on October 3rd, and I've listened to the 
testimony of the children, and I agree with you, Congressman 
Duncan. I practiced law for about 20 years before coming to the 
Congress and a lot of domestic law; and the key phrase is, what 
is in the best interest of the child? This is a frustrating 
process for us, watching this go on, to hear the testimony of 
mothers who haven't seen their children for years.
    Mr. Chairman, I'm just going to read my statement and then 
I'll just listen in.
    The House Government Reform Committee has held several 
hearings to look into the recurring problem of abduction of 
American children to Saudi Arabia. These children, because of 
Saudi law, are not free to leave Saudi Arabia despite being 
U.S. citizens and having a custody order from an American court 
giving their non-Saudi parent custody.
    Most custody cases in Saudi Arabia are handled by Islamic 
law, where the father retains legal custody. According to the 
State Department, there are 47 cases in which more than 90 U.S. 
citizens are being held in Saudi Arabia.
    We meet today to examine the legal arguments the Saudi 
Government has put forth as grounds for directing its 
representatives not to comply with a congressional subpoena.
    After the October 3rd hearing, Chairman Burton issued 
document subpoenas to Qorvis Communications, Patton Boggs and 
The Gallagher Group, the three principal firms representing 
Saudi Arabia and the country's interest regarding the abduction 
issue. The subpoenas sought the firms' documents regarding 
their activities on the abduction cases. The three firms have 
refused to comply with the subpoenas. The primary basis for 
their refusal to turn over the documents is an instruction by 
the Saudi Ambassador to invoke his government's privileges 
under the Vienna Convention on Diplomatic Relations. They have 
claimed that their documents are, ``documents and archives,'' 
of the Saudi Embassy and that such documents in the hands of 
outside law and public relations firms are protected, 
``documents of the mission,'' under the treaty.
    Mr. Chairman, I was very frustrated after that October 
hearing when Mr. Michael Petruzzello, who is before us again 
today, could not or would not answer the questions put forth to 
him regarding the abduction cases. I hope it is not the case 
today and that all of the agents of the Saudi Government 
testifying today will be more forthcoming. Last week we heard 
from Pat Roush and Margaret McClain who recounted their 
hardships in trying to secure the return of their children out 
of Saudi Arabia. I am happy to see them here again today.
    Mr. Chairman, it is hard to say if parental child abduction 
is increasing or if the public simply has become more aware of 
the problem. I believe that by shining the spotlight on 
parental abductions of American children to Saudi Arabia by 
this committee will bring this issue to the forefront and 
persuade the State and Justice Departments to reevaluate their 
policies.
    Thank you, Mr. Chairman; and I yield back.
    Mr. Duncan [presiding]. I think what we're going to do at 
this point, we're going to take a very brief, about 5-minute 
break, until Chairman Burton can return. Thank you very much.
    [Recess.]
    Mr. Burton [presiding]. If we could, I'd like to get the 
panelists back to the table so we could ask some questions. 
Maybe some people have gone to the ladies' room or something or 
the men's room. If that's the case, we'll wait just a couple 
more minutes. Sorry I had to leave the chamber, but I had 
something else that came up. Since we're in--since a lot of 
Members aren't here, we have to handle it the best way we can.
    Is everybody back? We still have some people missing. OK.
    I'm going to ask some questions that may not seem relevant 
at the outset, but there's a reason for them, so I hope you'll 
bear with me as I ask these questions.
    Mr. Petruzzello, Prince Nayef of the Saudi Interior 
Ministry recently stated that, ``Jews have exploited the 
September 11th events to undermine the image of Arabs before 
the American people to institute the latter against the Arabs 
and Muslims.'' The question is, who perpetrated the September 
11th events and who were the beneficiaries? I think it was the 
Jews themselves. Mr. Petruzzello, do you agree with Prince 
Nayef's analysis of September 11th?
    Mr. Petruzzello. I believe bin Laden and Al Qaeda committed 
that act. I believe that he has admitted to it, and I believe--
I don't know what to add beyond that.
    Mr. Burton. How about you, Mr. Deschauer?
    Mr. Deschauer. Absolutely not.
    Mr. Burton. How about you, Mr. Gallagher?
    Mr. Gallagher. I don't believe his statement, Mr. Chairman.
    Mr. Burton. Do you believe that kind of a statement should 
be condemned?
    Mr. Petruzzello. Yes.
    Mr. Deschauer. Yes, sir.
    Mr. Gallagher. Yes, sir, Mr. Chairman.
    Mr. Burton. Prince Nayef is one of the main officials 
responsible for tracking down Al Qaeda terrorists inside of 
Saudi Arabia. Now, how can he do a good job if he believes that 
the Jews and the Jewish state are responsible for September 
11th?
    Mr. Deschauer. Sir, I have no personal knowledge of the 
operations of Saudi law enforcement.
    Mr. Burton. Well, my staff received a call Monday from 
someone named Issa Nakhleh who describes himself as the legal 
adviser to the Saudi mission to the United Nations. Do you know 
if a man named Nakhleh is the legal adviser to the Saudi 
mission at the U.N.?
    Mr. Petruzzello. Never heard of him.
    Mr. Deschauer. I've never heard of him, sir.
    Mr. Gallagher. Never heard of him, Mr. Chairman.
    Mr. Burton. Nakhleh told my staff that there are no 
kidnappings and that international law allows the Saudi father 
to take his children back to Saudi Arabia regardless of U.S. 
custody orders.
    Mr. Petruzzello, do you believe that there are no 
kidnappings?
    Mr. Petruzzello. I believe there have been kidnappings.
    Mr. Burton. Mr. Deschauer.
    Mr. Deschauer. Sir, based on the testimony of the 
witnesses, yes, there have been children.
    Mr. Burton. Mr. Gallagher.
    Mr. Gallagher. I agree with his statement, Mr. Chairman.
    Mr. Burton. Mr. Petruzzello, you testified at the last 
hearing that the Saudi Government understood how important this 
matter was and that they are working hard on it. How is it 
that--how is it possible if a Saudi legal adviser claims that 
there are no kidnappings? I mean, how is that possible? I mean, 
you have the head of the Saudi legal--the equivalent of our FBI 
and you represent that government. How is it that's possible if 
the Saudi legal adviser claims there are no kidnappings? 
Doesn't that show an inconsistency? I mean, you've heard the 
testimony. You agree there were kidnappings. The government 
you're representing says there are no kidnappings.
    Mr. Petruzzello. Who is this, the legal adviser that said 
this?
    Mr. Burton. He's a man--we have his letter here. Where is 
his letter? I'll put that in the record. Just 1 second. It's 
exhibit No. 25. You probably don't have those exhibits in front 
of you, do you?
    Let me have a copy of that. Here we are.
    His name is Issa Nakhleh. He's in New York. He's a 
barrister at law, and he says that--he says that he's legal 
adviser to the Saudi Arabian mission to the United Nations, and 
he says there are no kidnappings. And you say you don't agree 
with that.
    [Exhibit 25 follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Petruzzello. I've never heard of him. I have no idea 
what he wrote to you.
    Mr. Burton. Well, he represents their government, to a 
degree, at the U.N. bcause he's a legal adviser. But you've 
never heard of him.
    You testified at the last hearing that the Saudi Government 
understood how important this matter was and that they're 
working hard on it. How is it that if they're working hard on 
it nothing seems to be happening?
    Mr. Petruzzello. I'm sorry, Mr. Chairman. What is the 
question?
    Mr. Burton. You testified that the Saudi Government 
understood how important these kidnappings are and these 
custody matters are and that they were working hard on it. How 
is it that since you were last here--it's been, what, 2 months 
now--nothing has happened?
    Mr. Petruzzello. I believe I testified that the government 
takes this issue seriously. They have activities going on. 
There's people and resources dedicated to the issue.
    Mr. Burton. The problem is there has been no child, none, 
returned, not one. There has been no evidence whatsoever that 
the Saudi Government is trying to get these kids back to their 
mother who has custodial rights according to U.S. courts when 
they were kidnapped from here. So how is it that the Saudi 
government is working hard on this? You're representing them. 
You talk to them. I imagine you talk to Prince Bandar and the 
others over there. What are they doing that's working hard on 
it?
    Mr. Petruzzello. Mr. Chairman, we all hope that these cases 
get resolved, and, you know--I mean, I understood that they're 
complex cases. I don't know why they're not getting resolved.
    Mr. Burton. But you said they're working hard on it. What 
evidence do you have that they're working hard on it?
    Mr. Petruzzello. Well, that they have people in the Embassy 
working on this, that they have an ad hoc test group in Saudi 
Arabia that has dedicated the issue----
    Mr. Burton. So you have firsthand knowledge, then--
secondhand knowledge, then, from talking to them that they have 
people working on this?
    Mr. Petruzzello. They've said that publicly.
    Mr. Burton. Is there any manifestation that they're 
accomplishing anything? Or are they just buying time?
    Mr. Deschauer. The government has said that they're 
committed to solving this and----
    Mr. Burton. Pull the mic a little closer.
    Mr. Deschauer. Sir, the government has made public 
statements that they're committed to solving this. The Foreign 
Minister presented a letter to the Secretary of State 
suggesting the establishment of a working group. My 
understanding is that the Secretary of State replied. The 
Embassy has designated two officials in the Embassy to work 
with the State Department. My understanding, again, secondhand, 
is that they've been in contact--regular contact now with the 
State Department Office of Children Services.
    These issues have been around for years, as you've 
correctly pointed out, but we believe that the government of 
Saudi Arabia is----
    Mr. Burton. Would you pull your mic a little closer? They 
can't hear you.
    Well, the government's also said, according to their--the 
head of their FBI over there, that the Jews were responsible 
for the attack on the United States on September 11th, and 
that's--that kind of calls into question whether or not they're 
really, really going at this in an aggressive manner if they're 
not telling the truth about something as serious as what 
happened on September 11th.
    I mean, I have not--you would think that this committee 
would be the first organization to know if they were really 
pursuing this. And although they say they've talked to the 
State Department and they've got some kind of working group, we 
have heard nothing, we have seen nothing, and we've been 
constantly trying to get information on this from you folks as 
well as others, and there's been nothing that we've found that 
shows that there's any movement whatsoever.
    Mr. Deschauer. Well, sir, the State Department is on the 
second panel, so I'll defer. I'm not going to----
    Mr. Burton. Well, we'll ask them about that. We'll ask the 
State Department about that.
    Mr. Nakhleh also suggests that this investigation is a 
result of Congress being controlled by the Israeli lobby. Have 
you heard anything like that, or have they said anything to you 
like that?
    Mr. Deschauer. Sir, I've never heard of this gentleman. 
I've never had any contact with this gentleman. This name is 
never heard. I've never heard this name.
    Mr. Burton. Well, we're in the process of contacting the 
people at the U.N. to find out what capacity he is in as far as 
the Saudi Government is concerned.
    At the last hearing, Mr. Gallagher, we questioned Mr. 
Petruzzello about the statement made by Prince Bandar in the 
Wall Street Journal that some have charged that Saudi Arabia is 
holding Americans against their will. This is absolutely not 
true. Mr. Gallagher, do you believe that Prince Bandar's 
statement is accurate, that no Americans are being held against 
their will?
    Mr. Gallagher. Mr. Chairman, I believe--I have no firsthand 
knowledge of that statement, but I do believe, Mr. Chairman, as 
I stated previously, that--in response to your question, that 
there are cases of kidnapping of children.
    Mr. Burton. So then Prince Bandar, who is the Ambassador to 
the United States, when he made that comment to the Wall Street 
Journal was not telling the truth?
    Mr. Gallagher. Mr. Chairman, I have no--I've not spoken to 
Prince Bandar about this issue ever, and I have no firsthand 
knowledge as to what information he was given in order to make 
that statement.
    Mr. Burton. I know that you're all in a difficult position 
when we ask you these questions, because you're lobbyists for 
the Saudi Government and you're getting money from them, and 
that's how you make your living. I understand that, and they 
pay you pretty handsomely. But the fact of the matter is you're 
the people that represent them and try to make sure that they 
have a positive image here in the United States. Prince Bandar 
has been the Ambassador to the United States for a long, long 
time; and he said, quote, in the Wall Street Journal, some have 
charged that Saudi Arabia is holding Americans against their 
will. This is about absolutely not true. That's a categorical 
statement: No Americans are being held in Saudi Arabia against 
their will.
    Now, you guys represent them. You're to put a nice face on 
them. What do you think about that statement that Prince Bandar 
is making? You're supposed to make him look good and make the 
Saudis look good. He says that no Americans are being held 
against their will. Do you think he's telling the truth?
    Mr. Petruzzello. Mr. Chairman, you know, I presume what 
Prince Bandar was saying in that is that, you know, children 
born to Saudi parents are Saudi citizens, and, you know, I 
think that's what gets--that's part of what gets into the whole 
complexity of this issue.
    Mr. Burton. You were here the last time, Mr. Petruzzello, 
when you--there was a 16-year-old, lovely young lady who 
escaped, and it was on 60 Minutes. You saw that tape. And she 
testified that when she was in front of the Saudi--or the 
American Embassy people over there, she said that she didn't 
want to come to America, she didn't want to see her mother, she 
didn't want to come here and all that sort of thing, and then 
when she was here before the committee when she was in a free 
country and a free world she said she was afraid they would 
kill her. She said she was being held against her will. She 
wanted to come to America for a long, long time, that she was 
an American citizen. You heard all that.
    Mr. Petruzzello. Yes, I did.
    Mr. Burton. How can that be interpreted any other way than 
they're holding Americans against their will? There was a 
perfect example.
    Mr. Petruzzello. I don't know how to respond to that.
    Mr. Burton. How about you, Mr. Deschauer?
    Mr. Deschauer. Sir, I haven't spoken to Prince Bandar about 
that. I had nothing to do with the production of that document. 
So I don't know what Prince Bandar meant legally by the term--
when he used the term ``American woman.''
    Mr. Burton. Well, that was an American woman. She was 16 
years old. She's not--not 21, but she's an American, and we 
have other American women.
    I talked to an American woman over there who had two 
children. I'm not at liberty to give you too much information, 
because this woman gave me some graphic details about how her 
husband had threatened her. And she told me, put me in a box 
with my kids, stick me on anything you can, a plane, belly of a 
plane, and get me out of here. She says he indicated he would 
kill her.
    Now, how can you interpret that any other way than an 
American and her American children are being held against their 
will?
    Mr. Deschauer. Well, sir, because of the issues of dual 
citizenship. That's what makes these cases so complex, not only 
in Saudi Arabia but throughout the world. I mean----
    Mr. Burton. This is the only country in the world, the only 
country in the world where an American woman cannot leave the 
country if she wants to. She has to get the consent, and so do 
the younger women, they have to get the consent of the 
controlling man, usually the father or the husband. So if they 
want to come to America and they're an American citizen, they 
have no rights whatsoever, even though they're an adult 
American citizen. Now, would you consider that being held 
against their will?
    Mr. Deschauer. Sir, I have no personal knowledge of a 
particular people being held against their will.
    Mr. Burton. Did you see the testimony? You said you read 
all the testimony.
    Mr. Deschauer. I did.
    Mr. Burton. Did you read that testimony?
    Mr. Deschauer. Yes, sir, I did.
    Mr. Burton. So you heard the testimony that was in----
    Mr. Deschauer. Yes.
    Mr. Burton. Do you think those people were lying?
    Mr. Deschauer. No, sir.
    Mr. Burton. So you think they were telling the truth?
    Mr. Deschauer. I have no reason to doubt them, sir.
    Mr. Burton. You have no reason to doubt them. I think Mr. 
Petruzzello said the same thing last time. So you have no 
reason to doubt them, and yet Prince Bandar, the Ambassador to 
the United States who's a representative of the Saudi 
Government, said, ``No Americans are being held against their 
will. That's absolutely not true.''
    Now, I know what position you're in. You can't say that you 
think he told a lie, but come on, guys. You represent them. You 
know he lied. You know he lied, and his mouthpiece--what's that 
guy's name? Al-Jubir. You know he lied.
    In fact, on 60 Minutes you saw that piece earlier when he 
said he didn't know anything about this young lady trying to 
get a passport and get out. He says, I just heard of it a month 
ago, and there was a letter that Mike Wallace had that showed 
it was in 1988. In 1988 there was a letter signed by him saying 
we're not going to do anything about it.
    Those guys lie. You're representing people who lie about 
American people being held hostage.
    I know you're making a lot of money, and I know you don't 
like to be here, and I don't like having you here because I 
know you're pretty nice people. I know you're nice people, I 
really do. The reason we're doing this is not to beat the heck 
out of you guys but to beat the heck out of the Saudi 
Government by letting the American people know that they're 
paying people who have to make a living here--you guys have to 
make a living. They're paying American people to put a good 
face on everything they say, even their lies, even their lies.
    And the thing that's really troubling is when you know for 
a fact that terrorists--the majority of the terrorists who have 
done damage and killed American people came from Saudi Arabia, 
the vast majority, 15 of the 19, that Osama bin Laden is a 
Saudi, that the--what's it, the Wahhabis are teaching the kids 
in the school over there to hate Jews and hate Americans. Every 
single day that's what they're teaching, and they control the 
educational system. They are. Don't shake their head and tell 
me they're not teaching them. I know what they're teaching 
them.
    And they're supposed to be our ally, and they're lying 
about keeping American citizens there against their will. And 
they're paying people here to represent them legally, like Ms. 
Mahoney. I'm sure she's a very fine lady and a competent 
lawyer. And they're paying you guys. And because we have such a 
free enterprise system and an open system they've been getting 
away with it, and kids are suffering.
    You know, there's a poem that I read a long time ago 
called, God give us--it says, God give us men--a time like this 
demands strong men, tall men who live above the fog in the 
duty--in public duty and in private thinking, men whom the lust 
of office cannot buy, men who have determination and a will. 
You ever hear that poem? Men whom the lust of office cannot 
buy, and I don't think the poem was just talking about people 
in public service. I think he was talking about people who are 
paid to mislead, maybe not intentionally, but paid to mislead. 
And the final part of it is, wrong rules of the land and 
waiting justice sleeps. Wrong rules of the land and waiting 
justice sleeps. And so it bothers me so much.
    You know, I heard you say, Mr. Petruzzello, the last time 
you were here, you know, you would do anything, anything to 
keep your kids from being kidnapped and held against their will 
someplace, and I believe that, and I believe that's true of Mr. 
Deschauer or Mr. Gallagher. I'm sure you guys would do anything 
to protect your kids and your family. You'd probably take a gun 
and go out and fight people who were trying to take your kids, 
and I think that's the way it ought to be.
    These women had their kids kidnapped, never to see them 
again, never to talk to them again except maybe on a rare 
occasion when pressure is brought to bear. And they were given 
custody by an American court, and the Saudis don't recognize 
that.
    Mr. Petruzzello, last week I received a response from 
Prince Saud to a letter I sent to Crown Prince Abdullah on 
September 12th. That's exhibit No. 11. The letter makes some 
pretty surprising claims. First, Prince Saud states that the 
government of Saudi Arabia had nothing to do with the travel 
arrangements of the Gheshayan sisters.
    Is that true, that the Saudi Government had nothing to do 
with the travel arrangements of those folks?
    [Exhibit 11 follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Petruzzello. I have not seen that letter. So maybe I'll 
take a moment. But----
    Mr. Burton. Did anybody in your firm get a copy of that 
letter?
    Mr. Petruzzello. No.
    Mr. Burton. Do you have any knowledge that the Saudi 
Government was or was not involved in getting--making travel 
arrangements for them to go to London when we went over there? 
Do you have any knowledge about that?
    Mr. Petruzzello. You know, as I testified last time, I 
didn't know who made the arrangements for the trip. I presumed 
it was the government.
    Mr. Burton. The women did not travel alone. They did have a 
male contingent with them, though.
    Mr. Petruzzello. As I understand it, their husbands were 
with them.
    Mr. Burton. Were all their children with them?
    Mr. Petruzzello. I believe so. I'm not sure, but I think 
that's right.
    Mr. Burton. Do you know who paid for the trip to London?
    Mr. Petruzzello. No, I don't.
    Mr. Burton. Abdul Aziz--boy, it's hard to read all these 
names--Al-Suwaiyyegh, the director of the Foreign Ministry's 
office in the Western Province, wrote in the Arab News, exhibit 
18, that the Saudi Government paid for it. So the Saudi 
government paid for the trip, according to what he said in the 
Arab News.
    So those women pretty much were in a controlled 
environment, even though they went to London, in my view. They 
had men with them, not just their husbands but others. They 
were in their abayas. The minute they went into another room, 
they took their abayas off, but when the men came back in, they 
sat in a corner, put their abayas back on and were very 
subservient to the men and let them answer questions, not 
unlike the young woman who testified here that when she was 
with her dad she had to say certain things, but when she came 
to America and was sitting at that table, she told the truth.
    So we don't know, but we do know that the Saudi Government 
sent them to London, paid for them to go to London, made the 
travel arrangements for them to go to London at the very time 
that I took a congressional delegation to Riyadh and Jidda to 
try to get these women out of there. So when they said that 
they hated their mother, they wished she was dead, they never 
wanted to see her again, when her mother told us that the 
opposite was true the last time she talked to them, contradicts 
that.
    If the Saudi Government paid for the trip, how could Prince 
Saud's statement be accurate? He said they had nothing to do in 
that letter, and that letter I've just referred to, he said 
that the Saudi Government had nothing to do with making the 
travel arrangements to go to London. So if the Saudi Government 
did pay for the trip, as was said in the Saudi press, then how 
can his statement be accurate? This is Prince Saud, the Foreign 
Minister.
    [Exhibit 18 follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Petruzzello. I don't know how to respond to that. I 
didn't talk--I didn't see this letter from Prince Saud. I 
didn't even know he sent one or talked to him about it 
beforehand.
    Mr. Burton. Well, let me ask you this. If he said they 
didn't pay for the trip and plan for it and then it comes out 
in the paper from a Foreign Ministry office that it was paid 
for by the government, would you say that was untrue? I mean, 
you've got the Foreign Ministry's office in the Western 
Province wrote in the Arab News that the saw Saudi Government 
paid for it and the Foreign Minister said they didn't. There's 
an inconsistency there, wouldn't you say?
    Mr. Petruzzello. Yeah. I would say one would have to go 
back to Prince Saud and ask him to clarify it, because he's not 
the kind of guy that I think would make misstatements. But, you 
know, I don't----
    Mr. Burton. You don't think he'd lie?
    Mr. Petruzzello. From what dealings I've had with him, no, 
I don't think so.
    Mr. Burton. Do you think Prince Bandar would lie?
    Mr. Petruzzello. No, I don't think so.
    Mr. Burton. You don't think he lied when he said that no 
Americans are being held against their will?
    Mr. Petruzzello. I think that gets back into the question 
we talked about earlier about who's a citizen of what country, 
but I don't think he intentionally meant to lie to you or 
anybody else.
    Mr. Burton. They're American citizens. They're American 
citizens, and they've been kidnapped and taken over there, and 
they want to come home. So they're held against their will, 
wouldn't you say?
    Mr. Petruzzello. And I hope they do.
    Mr. Burton. And they're held against their will. So when 
Prince Bandar says they're not being held against their will, 
that's not accurate. And when Prince Saud says that the 
government had nothing to do with sending those women to London 
when we went to Saudi Arabia so we couldn't work on that issue, 
he's not telling the truth either.
    The letter from Prince Saud also states that the meeting 
was initiated by the husbands of the two girls themselves. Is 
that true?
    Mr. Petruzzello. I do not know.
    Mr. Burton. This has been such a highly visible issue, and 
you work with the Saudi Government trying to help them with 
their public relations, you don't know anything about that?
    Mr. Petruzzello. As I testified last time, I don't know how 
the trip was organized or who organized it.
    Mr. Burton. Mr. Deschauer, do you have any knowledge of 
that?
    Mr. Deschauer. No, sir. I don't know anything about it.
    Mr. Burton. Mr. Gallagher, do you have any knowledge of 
that?
    Mr. Gallagher. No, Mr. Chairman. I was not involved in 
planning, setting up, or any arrangements for the trip.
    Mr. Burton. At the committee's last hearing, Mr. 
Petruzzello, you testified that the London meeting was inspired 
by Adel al-Jubeir and his appearance a couple of weeks prior to 
where he appeared on the O'Reilly show, and made a commitment 
to have the Geshayan sisters interviewed and meet with the U.S. 
Government officials outside of Saudi Arabia.
    So which is it? Was the meeting initiated by the Geshayan 
sisters' husbands, or was it initiated by Adel al-Jubeir? I 
mean, he said he was going to do it on the O'Reilly show and it 
was done. Would you assume that he did it?
    Mr. Petruzzello. As I testified last time, is that, as I 
understood, it was my impression that there was activity--I 
don't know who specifically, but there was activity inside the 
government to try and get the sisters to come to America. They 
have been trying to do that for some time.
    Mr. Burton. Mr. Deschauer, Prince Saud's letter concludes 
that we totally reject anything that damages our Islamic 
Shari'a. We totally reject anything that damages our Islamic 
Shari'a on which the total system of the state is founded, end 
quote.
    It sounds like the Saudi Government has staked out a pretty 
extreme position that does not contemplate any resolution of 
these kidnappings outside of the Shari'a. Would you say that is 
accurate?
    Mr. Deschauer. Sir, I don't know. I am not an expert on 
Islamic law.
    Mr. Burton. Well, the Shari'a law says that the man has 
complete control, and that the government cedes to him the 
authority over the family and the women and everything else and 
that they can't do anything without their approval.
    And he says, ``We totally reject anything that damages our 
Islamic Shari'a on which the total system of the State is 
founded.'' And that is also that they don't recognize anything 
but Islamic law and the law of Saudi Arabia.
    So if there is an American child born, and it is an 
American citizen, and a court gives custody to the mother, they 
don't recognize that at all. So they don't recognize it as 
kidnapping because the father has complete control anywhere in 
the world, and he can take the child anytime he wants to. Is 
that pretty much your understanding, or do you have any idea 
about that?
    Mr. Deschauer. Sir, I am not an expert in Islamic law.
    Mr. Burton. Prince Saud states that the--the law regulates 
and guarantees all humanitarian rights without any prejudices.
    Do you think that law protects women's rights without any 
prejudice? It doesn't sound like it. I don't want to continue 
to put you on the spot with this. But the fact is they 
recognize men; they don't recognize women or kids.
    Ms. Rousch, Ms. McClain, what can you tell us about the 
Saudi law and how it treats women and children? And does it 
guarantee your rights if you go over there? And why would 
Prince Saud make statements that are so plainly false?
    Ms. Roush. Shari'a law does not protect the rights of 
American Christian women at all. I was advised to go to court 
by the State Department to try to seek custody of my children 
right after they were taken in 1986. I have absolutely no 
standing in the Shari'a law. And other American women who have 
gone to court in Saudi Arabia have lost their children, and 
then they have absolutely no standing at all. We have no 
standing with Shari'a law. Shari'a law only upholds the claims 
of the father and the male. The males rule.
    Mr. Burton. Now, I don't remember who it was, but before 
you answer, Ms. McClain, we had a woman here who was a 
Christian woman, and she had divorced her Saudi husband and 
wanted to go see her children. But she was afraid for her life, 
because he had remarried, and if she had gone over there, 
according to the Shari'a law, she could be----
    Ms. Roush. An enemy of Islam.
    Mr. Burton. She could be subject to the death penalty.
    Ms. Roush. Yes. Joanna Tonetti.
    Mr. Burton. She is the lady from Terre Haute, Indiana.
    Ms. McClain. I totally reject the statement that the Prince 
made that Shari'a law allows people to have all of their 
humanitarian rights. Under Shari'a law, very few people--even 
Saudi women who were born in Saudi Arabia can lose their 
children the same way that we have lost our children. If the 
man over there decides to take the children away from the wife, 
he can, and never let her see them again.
    So it is not just us American women; it is those Saudi 
women that live there that don't have any rights under these 
laws either.
    Mr. Burton. I understand that. But, we certainly can't get 
into the problems of the Saudi people themselves. That is 
something for the government and their religious leaders to 
deal with. I am concerned about American women and children.
    Mr. Petruzzello, earlier Prince Saud sent a letter to the 
Secretary of State in which he suggests that four American 
mothers had kidnapped their children from Saudi Arabia to the 
United States. Do you know if the list that he sent to the 
Secretary of State was accurate?
    Mr. Petruzzello. Mr. Chairman, you asked me about that last 
time I was here. And I don't know any more than I did last 
time, which is that I hadn't seen the list and I didn't know 
anything about those cases. Not quite sure whether it was--what 
it was referring to.
    Mr. Burton. Have you tried to find out anything about that?
    Mr. Petruzzello. On those cases, no.
    Mr. Burton. How about you, Mr. Deschauer, do you know 
anything about that?
    Mr. Deschauer. No, sir. I had nothing to do with that 
letter.
    Mr. Burton. Mr. Gallagher.
    Mr. Gallagher. No, Mr. Chairman. I have never seen the 
letter, never seen the list. I asked, at the hearing where Mr. 
Petruzzello testified, I asked your counsel in the hall for the 
list. And I have never seen it. But he did inform me that he 
had seen the list, but I have never seen the list.
    Mr. Burton. Have you seen the list? I think that you have 
the list in front of you, the December 27th letter. Excuse me, 
exhibit 27. Could you take a look at it now, Mr. Gallagher, and 
the others, see if you are familiar with that?
    [Exhibit 27 follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Gallagher. Mr. Chairman, I don't recall seeing that 
letter.
    Mr. Burton. You haven't seen it? Why don't you take a look 
at it now and see do you have any knowledge of whether or not 
it is accurate or inaccurate? It is from Prince Saud. As the 
Foreign Minister, it should be an accurate letter; would you 
not say so?
    Mr. Gallagher. Mr. Chairman, I have no firsthand knowledge 
of where this list came from, who prepared it, and I cannot 
give you an informed opinion about it.
    Mr. Burton. I know. But assuming that the Foreign Minister 
of Saudi Arabia sends a letter to Secretary of State Powell, 
saying that four children were kidnapped from Saudi Arabia, you 
would assume that he would be telling the Secretary of State 
the truth, wouldn't you? You wouldn't think that he'd lie to 
Secretary of State Powell?
    Mr. Gallagher. I would not think so, sir.
    Mr. Burton. But the fact is, it isn't true. It isn't 
accurate. We have checked that out. There have been no kids 
kidnapped from Saudi Arabia. We had one case where a child was 
kidnapped from the United States, and her grandmother sold her 
house and got $200,000 and paid to help her escape, which she 
wanted to do.
    But, that certainly can't be considered kidnapping. The--
and two of the cases he cited, the kids are still in Saudi 
Arabia. So that was--so that was either an inaccuracy on the 
part of Prince Saud or it was a lie, one of the two. And I 
personally think it was probably the latter.
    And it really is troubling that we know that Prince 
Bandahar has lied. We know that al-Jubeir has lied. And now we 
are pretty sure that Prince Saud has lied directly to the State 
Department. These are people that you are representing. I won't 
use the term--``son of a gun,'' I will use that instead of what 
was in the paper. But al-Jubeir was called a lying son of a 
something in this week's Weekly Standard.
    When we met with Prince Saud, he was repeatedly dishonest. 
Prince Nayef, who has jurisdiction over child abduction issues, 
thinks that the Jews are behind September 11th. A legal advisor 
to the Saudi mission to the U.N. thinks that Israel runs the 
U.S. Congress and tells us that there are no kidnappings. We 
get a list from the Saudi Government that lies about children, 
saying they were kidnapped from Saudi Arabia, and yet you say 
everything is going really well and we should trust them and 
you, and--why should we trust them? Why should we trust them? 
They are working very hard to set up commissions and stuff to 
look into this to bring these kids back home? Why should we 
trust them after we know the Foreign Minister lied, the Saudi 
Ambassador lied, their spokesman lied, Mr. al-Jubeir. Why 
should we trust them? I don't think you have to answer that.
    Now, the need for the documents. Ms. Roush, have you ever 
received assurances from the Saudi lobbyists that they are 
working on the return of your children and that the Saudi 
Government was working in good faith? Have you received 
anything like that?
    Ms. Roush. Have I ever seen anything from----
    Mr. Burton. That would indicate from the lobbyists or from 
the Saudi Government that your children--that they are working 
on trying to get your kids back?
    Ms. Roush. Absolutely not. They are not working on it. They 
never communicate with me. The only communication that they 
have with me is through my daughters, in coercing and 
manipulating Alia and Aisha to go on a trip to London--which 
they have never been out of the country before in 17 years--and 
in manipulating the media and the State Department in--and 
producing and directing a Stalinistic show trial involving my 
innocent daughters.
    And Mr. Petruzzello was involved in that. And I don't know 
about the others, but Petruzzello certainly was. He had a 
member of Qorvis Communications in the room, in the room with 
my daughters. They have never been allowed to leave in 17 
years. These are two little girls who are grown up and are big 
girls now, and have never been able to breathe the freedom of 
freedom. They were taken to a free country, to London finally. 
And Mr. Petruzzello sits here very innocently and says he 
doesn't know, he doesn't understand Shari'a or any of the Saudi 
laws; yet he understood enough to take my daughters to London.
    Mr. Burton. Let me ask Mr. Petruzzello a question. Did you 
have somebody from your firm there when they were there in 
London?
    Mr. Petruzzello. Yes.
    Mr. Burton. Oh, you did. But you don't know any more about 
it than you just had someone there?
    Mr. Petruzzello. There was a young woman from our firm, who 
was about the same age as the sisters, that was there for the--
for the interview that the girls had with Fox News.
    Mr. Burton. Did you help assist the interview with Fox 
news?
    Mr. Petruzzello. Yes.
    Mr. Burton. So you sent somebody over there. What kind of 
knowledge did you have of this meeting and this trip that they 
took? If you sent someone over there, you had to know that they 
were going. Who told you that they were going?
    Mr. Petruzzello. Adel al-Jubeir told me they were going.
    Mr. Burton. Al-Jubeir told you they were going. Did he tell 
you they were paying for the trip, the government was?
    Mr. Petruzzello. At the time, no, he didn't discuss it.
    Mr. Burton. Well, do you know that they paid for the trip?
    Mr. Petruzzello. Just what I have read in the paper.
    Mr. Burton. Did you ask al-Jubeir any questions about the 
trip and what was going on?
    Mr. Petruzzello. You know, as I testified last time, you 
know, the--the request was to notify Fox and to provide 
somebody to be there, a woman, young woman, just to be there 
for the interview. That is what we did.
    Mr. Burton. Did the young lady that went over there have 
any indication about these young women? Can--did she tell you 
that they were with men or by themselves, or what did she say? 
She didn't come back and just say it was a nice trip and that 
is it.
    Mr. Petruzzello. What she said was that they were with 
their husbands. Not during the interview, but their husbands 
were there, and they were there with--I think one child, I 
think.
    Mr. Burton. Were there any other men there?
    Mr. Petruzzello. No.
    Mr. Burton. Just the husbands?
    Mr. Petruzzello. Yes.
    Mr. Burton. There wasn't anybody there from the Saudi 
Government other than the husbands?
    Mr. Petruzzello. No.
    Mr. Burton. You are pretty sure about that?
    Mr. Petruzzello. Based on what I have heard, yes.
    Ms. Roush. Mr. Chairman, I was told by Mr. O'Reilly's 
producer Kristine Kotta, that their uncles were there and their 
father was there also in the hotel with my daughters.
    Mr. Burton. And if--if a woman in Saudi Arabia does 
something that is not agreed to by the husband or the male in 
the family, what happens to them?
    Ms. Roush. They are either killed or tortured.
    Mr. Burton. Or beaten.
    Ms. Roush. Beaten, tortured. Yes.
    Mr. Burton. So do you think your daughters, even though 
they were out of Saudi Arabia and in London, could freely say 
what they wanted to say?
    Ms. Roush. Absolutely not. My daughters were in a 
controlled environment; whether they were in Saudi Arabia or 
they were in that hotel in London, they were totally 
controlled.
    Mr. Burton. You don't think your daughters want to see you 
dead, do you?
    Ms. Roush. My daughters love me very much. They want to be 
with me in the United States. They told me that when I saw them 
in 1995. And Aisha told me that last year when I was able to 
talk to her, she said, ``I love you, Mom. Come here Mom. 
Help.'' And then her father took the phone away from her.
    Mr. Burton. Let me get this straight. In 1995 they both 
told you they loved you?
    Ms. Roush. Yes.
    Mr. Burton. Last year your one daughter said, We love you, 
and the father took the phone away?
    Ms. Roush. Yes.
    Mr. Burton. How does that square with what was said on Fox 
News that they hated their mother and they never wanted to come 
back and they wished that she was dead? Do you think they could 
change that fast, in a year, when they haven't seen her?
    The Saudi Government claims that it was just sending your 
daughters, Ms. Roush, to London so they could speak their mind. 
And you answered that obviously we shouldn't take the Saudis at 
their word. Do you think it is important that we obtain the 
lobbyist documents so we can see what was really going on and 
why they sent your daughters to London?
    Ms. Roush. Absolutely. I think these documents are 
extremely important. I think their e-mail, their communication 
between them and Jubeir is very important when they were 
organizing the whole thing.
    I think Petruzzello was in it from the ground floor. I 
think he organized it, he directed it, and Jubeir and him 
produced it together. It was a little scheme. Jubeir had been 
trying to make that happen since July after our last hearing 
when he went to Ambassador Bill Burns of the State Department. 
And they called me, and I said absolutely not.
    But Jubeir would not be silenced on this. He wanted it to 
happen when he met O'Reilly. He knew that he could make it 
happen. And this man here beside me, Petruzzello, helped him 
put the whole thing together.
    Those documents can be very incriminating to all three of 
these people. I believe that, sir.
    Mr. Burton. The Saudis claim that they are trying to 
resolve--Ms. McClain, they are trying to resolve the kidnapping 
of your daughter. Have you seen any evidence whatsoever that 
they are trying to help with that?
    Ms. McClain. No, I haven't seen any evidence of that. I 
have not seen any evidence of that. In fact, I think they are 
working actively to make sure that my daughter and I are kept 
apart.
    Mr. Burton. The Saudis and the U.S. State Department deny 
that the Saudi Embassy was complicit in your daughters' 
kidnapping. The Saudis and our State Department. Do you believe 
that?
    Ms. McClain. No. I know that they were complicit in the 
kidnapping of my daughter. My ex-husband was a part-time 
employee of the Saudi Embassy. As the assistant Imam of the 
Jonesboro Islamic Center, he was receiving pay from the Saudi 
Embassy for that position. I sent all of my legal documents to 
them in 1994 and in 1995. You should have copies of that from a 
previous hearing. They know that I had legal custody of her. 
I--I reminded them that she was not allowed to leave the 
country, and they let her leave anyway.
    Mr. Burton. You told the Saudis that?
    Ms. McClain. Yes, I did.
    Mr. Burton. And our State Department, were they aware of 
that at that time?
    Ms. McClain. I don't know if they were or not.
    Mr. Burton. Do you think the State Department takes the 
Saudis' assurances regarding kidnapping cases at face value?
    Ms. McClain. Well, I think they take them at face value. I 
think they just believe anything the Saudis tell them.
    Mr. Burton. Do either one of you think it would be 
important if the State Department was confronted with evidence 
that the Saudis had been misleading them about their actions in 
resolving these kidnapping cases?
    Ms. Roush. Let me answer that, sir. The State Department, 
during--the records that we found from the subpoenaed documents 
from the State Department concerning my case proved that the 
State Department has created documents to support their Saudi 
friends. They have created a number of documents in my case 
which are absolutely downright lies concerning things that 
never happened--that I said that never happened. And these 
documents have come forward.
    And the State Department--it is not a matter of not 
knowing. The State Department defends the Saudi Government. 
They do everything the Saudi Government said, as exemplified by 
this meeting in London when Jubeir gave the order. He wanted 
the State Department to be there, and they were there, ``Johnny 
on the spot.''
    Mr. Burton. Ms. McClain, do you think it is important--do 
you think it would be important if the State Department was 
confronted with evidence that the Saudis had been misleading 
them about their actions in resolving these kidnapping cases?
    Ms. McClain. Yes, I think it would be very important. 
Because right now it looks like the Secretary of State is, you 
know, very close to the Saudis because of his involvement on 
military affairs. And I think that is a conflict of interest 
with his involvement on children's issues.
    But I think if he were to see some actual evidence that the 
Saudis were involved, I would think that he would try to call 
them into account for it.
    Mr. Burton. I will ask this of Mr. Petruzzello and the 
other two men. You obviously believe that the committee should 
not get these records and that we should leave the Saudi 
government alone to resolve these cases.
    Do you know how many kidnapped American children have ever 
been voluntarily returned by the Saudi government? Do you know 
how many?
    Mr. Petruzzello. No.
    Mr. Burton. Do you, any of you?
    Mr. Deschauer. I don't have any personal knowledge of it. 
But, sir, you said none.
    Mr. Gallagher. Mr. Chairman, I don't have any personal 
knowledge.
    Mr. Burton. Well, Mr. Deschauer is correct. They have 
never, ever returned an American child that we know of.
    Mr. Petruzzello, given the track record of your client that 
they have never returned a kidnapped American child, why do you 
think that we should accept the Saudis' assurances that they 
are actually trying to solve this problem by setting up these 
committees to look into it?
    Mr. Petruzzello. Mr. Chairman, you know, constructive 
dialog between the two countries is really the only way we are 
ever going to get any resolution, any progress.
    Mr. Burton. Well, my question was: Given their track record 
that they have never, ever returned a kidnapped American child, 
why do you think that we should accept their assurances? Do you 
think a ray from heaven came down and all of a sudden they see 
the light?
    Mr. Petruzzello. I think, you know, in part, through the 
work of this committee, that this issue is at the forefront, 
absolutely.
    Mr. Burton. Well, I want you to tell your clients, and I 
admonished you to do this the last time. Tell them this ain't 
going to go away. It is just not. We have got--I am going to a 
press conference in a half an hour with Senator Stabenow, and I 
guarantee you she is a real tough lady, she is a fighter. And 
she is going to be doing over in the Senate what I am doing 
here. And of course I am not going to go away.
    So the Saudis need to know, and since you are representing 
them, and I think you represent them well, I think they need to 
know from you as their public relations people that they really 
need to get on the stick and get some of this stuff resolved, 
get it all resolved.
    Once they get that out of the way, man, they can go and do 
some of these other things and have us off their back.
    Let me just talk to you a little bit about your activities 
in your business. Mr. Petruzzello, you get $200,000 a month 
from the Saudis. How much does the Gallagher Group get?
    Mr. Gallagher. Mr. Chairman, for the first 6 months of this 
year, I received $5,000 per month. For the second 6 months I 
received $10,000 per month.
    Mr. Burton. OK. Sounds like you ought to be getting more if 
he is getting 200,000 a month. You ought to talk to them and 
say you guys need to up the ante, especially if you have to 
come up here and listen to me. That ought to be worth a bunch.
    How about you, Mr. Deschauer?
    Mr. Deschauer. Sir, my law firm, Patton Boggs, we are 
currently receiving $50,000 a month.
    Mr. Burton. Geez, how is he getting so much more than you?
    Mr. Deschauer. Sir, I don't know.
    Mr. Burton. The thing about it, Mr. Petruzzello, that is 
really funny is last time you were here I couldn't figure out 
how you get $200,000 a month and you couldn't remember 
anything. I thought, man, this is a business that I ought to go 
into.
    Mr. Petruzzello. Well, Mr. Chairman, let me explain. The 
$200,000 actually, part of that goes to the firms of these two 
gentlemen.
    Mr. Burton. Oh, really.
    Mr. Petruzzello. As well as to other people who provide us 
with support.
    Mr. Burton. I see. How much do you keep?
    Mr. Petruzzello. It varies from month to month.
    Mr. Burton. But it is a pretty good hunk?
    Mr. Petruzzello. Well, but not inconsistent with what other 
countries spend.
    Mr. Burton. You know, I ought to get out of this job. I 
mean, there is so much money to be made out there it is not 
funny.
    Other than the Patton Boggs, Qorvic and the Gallagher 
Group, what other consultants or outside advisers work for the 
Saudi Embassy? Do you know? Do you know of other firms that 
work for the Saudi Embassy? How many do they have? There must 
be some others.
    Mr. Petruzzello. There are other law firms, I think some 
that you pointed out last time. But I don't know who--the total 
of everybody that works there.
    Mr. Burton. I think that they have four or five others 
maybe?
    Mr. Petruzzello. I don't know.
    Mr. Burton. Does the Saudi Embassy or their government use 
any private investigators that you know of in the United 
States, or have they ever to your knowledge?
    Mr. Petruzzello. Not to my knowledge.
    Mr. Burton. You guys have never been involved with them 
using private investigators?
    Mr. Deschauer. Absolutely not, sir.
    Mr. Gallagher. Absolutely not, Mr. Chairman.
    Mr. Burton. They have not in the past, to your knowledge?
    Mr. Gallagher. No, Mr. Chairman.
    Mr. Burton. Does the Saudi Arabia Embassy or their 
government hire any person or entity to conduct research or 
investigations regarding its critics or opponents in the United 
States? To do background information, you know, newspapers and 
stuff like that?
    Mr. Petruzzello. I am not personally aware of any of that.
    Mr. Deschauer. I have absolutely no knowledge of anything 
of that sort.
    Mr. Burton. Have you ever heard of the Arlington Research 
Group?
    Mr. Petruzzello. No.
    Mr. Burton. Any of you?
    Mr. Deschauer. No, sir.
    Mr. Gallagher. No, sir.
    Mr. Burton. Well, that is something that we will check up 
on. OK.
    Mr. Petruzzello, we began meeting with you in August to 
discuss individual kidnapping cases and to provide you with 
information about them so that the Saudi government could begin 
working to resolve them. Five months later it doesn't look much 
like there has been any progress made. At a meeting with you 
and Nail al-Jubeir on August 19th, we pointed out the Rives 
case. We informed you that the Rives children were American 
citizens, not Saudi citizens, and asked why they are being held 
in Saudi Arabia.
    As I recall, the father is from--no, the mother was from 
where? She is from Syria. So she is not a Saudi citizen. So 
even if you followed the logic of the Saudi government, this is 
not a Saudi mother.
    And so the Rives children are American citizens, not Saudi 
citizens. And we were asked by--we asked you why they were 
being held in Saudi Arabia. Mr. al-Jubeir indicated that he was 
puzzled by the facts of the case and he would try to get 
answers. Do you know whether the Rives children are in fact 
United States or Saudi citizens? Do you know anything about 
that?
    Mr. Petruzzello. I don't know. I know that the Embassy was 
working on trying to find out an answer to that. I don't know 
if they have given you an answer or not.
    Mr. Burton. Gosh, how long does it take to get an answer? 
Al-Jubeir is the spokesman for the government of Saudi Arabia. 
Saud is the Foreign Minister, the Foreign Ambassador here is 
Bandar. You think they couldn't pick up the phone and in 5 
minutes find out if he is a Saudi citizen, and yet that father 
has not heard about his two kids that were kidnapped and taken 
over there. This guy--this woman is from Syria. The fact is she 
is the daughter of a very important Syrian who has close ties 
to the Saudis, and so the Saudis are covering up for them. Do 
you have any knowledge about that?
    Mr. Petruzzello. No.
    Mr. Burton. You have no knowledge about that?
    Mr. Petruzzello. No, I know they are working it out. I 
think the parent deserves an answer about what the citizenship 
of the child is.
    Mr. Burton. Why is it taking so long to get an answer? Do 
you have any idea? I mean, it has been how many months? We are 
talking 5 months. Five months, when if he picks up a phone he 
can find out like that.
    Mr. Petruzzello. I wish I had an answer to that. I don't 
know.
    Mr. Burton. Ms. Norton, I didn't see you down there. I 
don't want to monopolize it. Did you have a statement that you 
wanted to make?
    Ms. Norton. I can wait until you're done.
    Mr. Burton. Well, I have a lot more questions. So I will 
yield to you right now.
    Ms. Norton. Thank you, Mr. Chairman, and I want to thank 
you once again for demonstrating that when this committee takes 
hold of such a serious issue it doesn't do a 1-day stand on the 
issue. I note that the professionals before us who represent 
the Saudi government are lobbyists or public relations people.
    I believe that you are under an obligation to advise your 
client that your client has a massive public relations problem 
that is developing into a larger, far more serious problem 
affecting the relationship between Saudi Arabia and the U.S. 
Government.
    Saudi Arabia, oil rich, an important ally, has gotten used 
to cushy treatment from successive administrations. All of 
that, most of that predated September 11th. The Saudi 
government is being looked at in a way no one would have 
perhaps even begun to look at the country before September 
11th. And what has caught the attention of the American people 
in particular of course is the large number of Saudis, almost 
exclusively Saudis, who were the perpetrators of September 
11th, which has led us to then look beyond that issue into 
other matters affecting the relationship between Saudi Arabia 
and the United States of America.
    What the Saudis who run an authoritarian regime may not 
understand is that no President and no Congress can keep an 
issue that is bubbling up the way that this issue is to the 
American people from in fact becoming more serious. Foreign 
relations is normally the province of the Foreign Affairs 
Committees and of the President of the United States.
    But if an issue becomes controversial enough, there is 
nothing that the President or the Congress can do in a 
democracy to save them from themselves. This has gone--this 
matter, which involves individual families, looms larger for 
the average American than the 19 Saudis who boarded those 
planes, we are assured that the President and the appropriate 
committees are trying to deal with our safety, looms larger 
than the great gulf between the way the Saudis generally treat 
their own population, their women, their children, and the way 
we treat ours.
    This now strikes at the gut for the American people. When 
you are talking about separating mothers and fathers from their 
children, this is going to be out of the hands of the President 
of the United States very quickly. Nothing that the very smooth 
foreign affairs consultants who front for the government, no 
papers that they distribute are going to be able to help the 
government, which seeks good relations with our government, if 
you continue to let this matter get out of hand.
    The response on the subpoenas, the nonresponse from the 
government on these family matters are lighting a slow fire 
that can ignite at any point. That is how it happens in this 
country. I don't need to tell you who are seated here at the 
table, who are in the public relations business, that once this 
thing continues to bubble up the way it is now, it is going to 
be out of everybody's hands, and it can affect what nobody on 
this committee is trying to affect. We are not trying to--we 
are not trying to affect the normal good relations between the 
two countries. But in a democracy, when the people become 
demanding enough, there is nothing we can do because we have to 
be responsive to the people. I am reaching that point where the 
government may be forced to act against its own interests, its 
interests in keeping an ally for counterterrorism purposes, in 
keeping an ally because we need the oil. All of that can go by 
the board if the people get angry enough.
    So if you are in the lobbying business, and if you are in 
the public relations business, you need to have a sit-down of 
the most serious kind with your principals. By profession I am 
a lawyer. And in the counsel of a lawyer and a client, you can 
tell people the honest to God truth. And the honest to God 
truth is that the Saudi government is messing with our children 
and our families, and that is where we draw the line in the 
sand. You got to tell them, before this gets out of hand. It is 
part of your professional obligation as lobbyists for the 
government, as public relations specialists for the government, 
to tell them the truth that you may not be able to do anything 
for them, that their allies within the administration may not 
be able to do anything for them if we do not come to any far 
quicker resolution of this problem.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you very much. Appreciate you being here. 
Let me just ask a few more questions and then we will let you 
guys go have some lunch and relax a little bit.
    Do you know if al-Jubeir has made any effort to learn the 
answers to the questions we have been asking since our August 
19th meeting about Rives? You work with him fairly regularly I 
would think. Do you know--has al-Jubeir said anything or done 
anything to help with that problem, the Rives case?
    Mr. Deschauer. Yes, sir. And in fact, we at Patton Boggs 
who have had ongoing consultations with both Mr. Wilson and Mr. 
Cass, I believe we received a letter on or about November 18th 
with a list of questions, one of which addressed the Rives 
case.
    And we have gone to the Embassy and asked for that 
information to provide to Mr. Wilson and Mr. Cass.
    Mr. Burton. What happened? What has happened?
    Mr. Deschauer. Well, one of the things that intervened, the 
letter that we got in asking us to directly, and our client has 
said one of our jobs that--and again, we are acting as a law 
firm. But one of our jobs was to facilitate communications. And 
one of the intervening things which we had no control over was 
the month of Ramadan and then the government was closed for 
Ayid.
    But I believe that in an interim response that we might 
have provided to Mr. Wilson and Mr. Cass, the preliminary 
indication was that the children are not Saudi citizens.
    Mr. Burton. Well, the letter or information received 
doesn't satisfy the issue. Are you a little suspicious of al-
Jubeir not really in doing much? Or do you have any idea that 
he is really pursuing this, or is this just a superficial----
    Mr. Deschauer. Well, sir, as an attorney the conversations 
that I have with a client are protected by the attorney/client 
privilege. So all I can tell you is that we received the 
request and we are pursuing the information.
    Mr. Burton. You are saying what you said is protected by 
the attorney/client privilege?
    Mr. Deschauer. The conversations, sir, that I have with a 
client.
    Mr. Burton. Mr. Jubeir, al-Jubeir.
    Mr. Deschauer. Nail al-Jubeir.
    Mr. Burton. Yeah. Well, we don't want to violate the 
attorney/client privilege. It seems like there is so much that 
we can't get to. We can't get to the documents that you folks 
have that may be relevant to our investigation, and now we 
can't even hear what they may have said regarding the 
kidnapping of two kids that were not--that aren't even Saudi 
citizens.
    Mr. Petruzzello, has anyone contacted Mr. Rives' Saudi 
brother-in-law? He is a prominent Saudi official with UNESCO in 
Paris. He shouldn't be hard to track down. This shouldn't take 
more than a day? Has anybody contacted his brother-in-law and 
talked to him?
    Mr. Petruzzello. I don't know.
    Mr. Burton. I think you indicated you were going to try to 
help us with this, didn't you?
    Mr. Petruzzello. Yes, absolutely, Mr. Chairman. And we have 
tried to be as cooperative as we possibly can.
    Mr. Burton. What have you done to be cooperative?
    Mr. Petruzzello. I certainly relayed all of your requests 
from the last time I testified.
    Mr. Burton. To Mr. Jubeir and----
    Mr. Petruzzello. Yes.
    Mr. Burton. And Ambassador Bandar. So you gave them the 
message?
    Mr. Petruzzello. Yes, I did.
    Mr. Burton. I think they probably saw the message anyhow, 
don't you think?
    Mr. Petruzzello. Probably so.
    Mr. Burton. This is probably late night TV for them. At the 
last hearing you attended, you heard testimony from Maureen 
Dabbagh. Maureen's daughter has been missing for 10 years, and 
she doesn't even know where she is being held. Has the Saudi 
government located Nadia, her daughter?
    Mr. Petruzzello. I don't know.
    Mr. Burton. You relayed that to them, too?
    Mr. Petruzzello. Yes. Mr. Chairman, since last time I 
testified, I have had no involvement in any of these. I think, 
you know, that the activities that Mr. Deschauer just described 
is what has been carried forward. But I wish I could be more 
helpful.
    Mr. Burton. Well, I have to tell you that these hearings 
seem like an exercise in futility, because we just keep going 
round and round and round and nothing really changes. But I 
think what the Delegate from Washington said is very true.
    It isn't going to go away. I don't think the members of the 
committee, even those who aren't here today, are going to let 
it go away. I will keep bringing it to their attention.
    And I am not going to be chairman next year, I am sure that 
you guys all know that. But I think I can convince my 
successor, when necessary, to issue subpoenas. And I probably 
will be a subcommittee chairman, and I will make sure that this 
area is in my subcommittee's jurisdiction, either that or since 
I am also one of the senior members of the Foreign Affairs 
Committee, I will do it over there.
    But one way or the other we will stay after this. I want 
you to know that I know you guys do a good job up here for a 
lot of your clients. And I didn't bring you up here just to 
beat the heck out of you. But what I wanted to do is make the 
case that the Saudi government, you have got to be careful I 
know because they are paying you and if you say the wrong thing 
they are going to cut you off.
    But the fact is they have lied and lied and lied to this 
committee. They have lied and lied and lied to these mothers. 
They have been roadblocks to getting American citizens back in 
this country, and it is something that will not be tolerated. 
We are going to keep the heat on them until something happens.
    It may be that they never bring these kids back. But I 
think the end result will be, and I hope that Prince Bandar may 
be watching, I wish you the best. But I hope Prince Bandar will 
realize that ultimately either we will start getting some 
results or this will have a devastating impact long-term on the 
relationships between the Saudi government and the United 
States.
    There is other places we can get oil. We can expand the 
amount of oil that we are getting from Venezuela. We can do 
more research here. And the President wants to do that in the 
ANWR and elsewhere. We can buy oil from the Soviet Union. There 
is a lot of places that we can go. If we keep the pressure up 
here in Congress, and I intend to do that, there will be some 
changes made.
    So this is much further reaching than just these kids and 
these women who have been kidnapped and are being held against 
their will. So the Saudis need to know that there will be a 
price to pay for this, Prince Bandar and Prince Saud. There 
will be a price to pay for this long term if they don't get on 
the stick and get this job done.
    Since you guys represent them, and I am sure that they will 
know about this, but I hope that you will convey that you--I 
know Mr. Gallagher has known me since I was the vice chairman 
of the Republican Study Committee, you know that. I am the 
founder of the Conservative Action Team, which is now the new 
Republican Study Committee. So you know that I usually follow 
through on what I am saying. So tell them that we are going to 
keep pushing on this. OK?
    OK. I ask unanimous consent that a letter from Hill and 
Nolan dated December 10, 2002, regarding last week's hearing be 
included in the record. Without objection so ordered.
    [The information referred to follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Burton. I want to make one more thing clear. That is 
Senator Lincoln is the one that is working with me in the 
Senate on this issue, on the Saudi issue and not Representative 
Stabenow. I am working with her on something else. So I had 
that backward. But Senator Lincoln, make no mistake about it, 
she is determined on this issue as well.
    Ms. McClain, Ms. Roush, thanks again for coming up here. I 
know it is a tough thing for you to keep coming up, But we 
really appreciate it. We won't quit.
    Thank you very much. I have some questions I would like to 
submit for the record for you. If you take a look at those, we 
would appreciate it if you'd answer them.
    Ms. Mahoney, you are a great barrister, but I am 
disappointed that you are going to be one of the roadblocks if 
we move to a contempt citation if we don't get these documents, 
because I know it will tie this up for a long time, and I think 
those documents are very relevant to getting these kids back. 
It troubles me. But I know that you gave got to do your job.
    With that, we stand adjourned.
    [Whereupon, at 12:50 p.m., the committee was adjourned.]
    [The prepared statement of Hon. Elijah E. Cummings and 
additional information submitted for the hearing record 
follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                   - 

</pre></body></html>
